<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR 2009</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]






                   LEGISLATIVE BRANCH APPROPRIATIONS

                                FOR 2009

_______________________________________________________________________

                                HEARINGS

                                BEFORE THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION


                                ________

                   SUBCOMMITTEE ON LEGISLATIVE BRANCH

                DEBBIE WASSERMAN SCHULTZ, Florida, Chair

BARBARA LEE, California                   TOM LATHAM, Iowa
TOM UDALL, New Mexico                     RAY LaHOOD, Illinois
MICHAEL HONDA, California                 JO BONNER, Alabama
BETTY McCOLLUM, Minnesota
C.A. ``DUTCH'' RUPPERSBERGER, Maryland    

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

                       Tom Forhan, Staff Assistant

                                ________

                                 PART 2

                   FISCAL YEAR 2009 LEGISLATIVE BRANCH
                         APPROPRIATIONS REQUESTS

                                   S

                                ________

         Printed for the use of the Committee on Appropriations

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 41-290                     WASHINGTON : 2008












                                  COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman

JOHN P. MURTHA, Pennsylvania              JERRY LEWIS, California
NORMAN D. DICKS, Washington               C. W. BILL YOUNG, Florida
ALAN B. MOLLOHAN, West Virginia           RALPH REGULA, Ohio
MARCY KAPTUR, Ohio                        HAROLD ROGERS, Kentucky
PETER J. VISCLOSKY, Indiana               FRANK R. WOLF, Virginia
NITA M. LOWEY, New York                   JAMES T. WALSH, New York
JOSE E. SERRANO, New York                 DAVID L. HOBSON, Ohio 
ROSA L. DeLAURO, Connecticut              JOE KNOLLENBERG, Michigan 
JAMES P. MORAN, Virginia                  JACK KINGSTON, Georgia 
JOHN W. OLVER, Massachusetts              RODNEY P. FRELINGHUYSEN, New Jersey        
ED PASTOR, Arizona                        TODD TIAHRT, Kansas 
DAVID E. PRICE, North Carolina            ZACH WAMP, Tennessee 
CHET EDWARDS, Texas                       TOM LATHAM, Iowa
ROBERT E. ``BUD'' CRAMER, Jr., Alabama    ROBERT B. ADERHOLT, Alabama 
PATRICK J. KENNEDY, Rhode Island          JO ANN EMERSON, Missouri 
MAURICE D. HINCHEY, New York              KAY GRANGER, Texas 
LUCILLE ROYBAL-ALLARD, California         JOHN E. PETERSON, Pennsylvania
SAM FARR, California                      VIRGIL H. GOODE, Jr., Virginia
JESSE L. JACKSON, Jr., Illinois           RAY LaHOOD, Illinois 
CAROLYN C. KILPATRICK, Michigan           DAVE WELDON, Florida
ALLEN BOYD, Florida                       MICHAEL K. SIMPSON, Idaho
CHAKA FATTAH, Pennsylvania                JOHN ABNEY CULBERSON, Texas
STEVEN R. ROTHMAN, New Jersey             MARK STEVEN KIRK, Illinois 
SANFORD D. BISHOP, Jr., Georgia           ANDER CRENSHAW, Florida 
MARION BERRY, Arkansas                    DENNIS R. REHBERG, Montana 
BARBARA LEE, California                   JOHN R. CARTER, Texas 
TOM UDALL, New Mexico                     RODNEY ALEXANDER, Louisiana 
ADAM SCHIFF, California                   KEN CALVERT, California 
MICHAEL HONDA, California                 JO BONNER, Alabama 
BETTY McCOLLUM, Minnesota
STEVE ISRAEL, New York
TIM RYAN, Ohio
C.A. ``DUTCH'' RUPPERSBERGER, Maryland
BEN CHANDLER, Kentucky
DEBBIE WASSERMAN SCHULTZ, Florida
CIRO RODRIGUEZ, Texas              

                  Rob Nabors, Clerk and Staff Director

                                  (ii)








 
               LEGISLATIVE BRANCH APPROPRIATIONS FOR 2009

                              ----------                              

                        Thursday, February 7, 2008.

                         CAPITOL VISITOR CENTER

                               WITNESSES

STEPHEN T. AYERS, AIA, ACTING ARCHITECT OF THE CAPITOL
BERNARD UNGAR, CAPITOL VISITOR CENTER PROJECT EXECUTIVE, ARCHITECT OF 
    THE CAPITOL
TERRIE S. ROUSE, CEO FOR VISITOR SERVICES FOR THE CAPITOL VISITOR 
    CENTER, ARCHITECT OF THE CAPITOL
TERRELL DORN, DIRECTOR, PHYSICAL INFRASTRUCTURE ISSUES, GOVERNMENT 
    ACCOUNTABILITY OFFICE

                         Chair Opening Remarks

    Ms. Wasserman Schultz. I would like to call this hearing to 
order for the Subcommittee on the Legislative Branch of the 
Committee on Appropriations. It is a pleasure to be here with 
everybody this morning. This is our eighth oversight hearing on 
the Capitol Visitor Center. It has been just about a year since 
we started these monthly oversight hearings, and I have been 
really proud of the progress that we have made. We have been 
able to get this project back on track and headed towards a 
landing on time so to speak, at least the definition of ``on 
time'' that we established about a year ago, and we have been 
able to stick to the number of $621 million that was settled on 
by GAO and the CVC team and the Architect of the Capitol.
    But, of course, now is not the time for us to be 
complacent. We need to continue to be diligent and focus hard 
on making sure that we can open the CVC for the November target 
that we have been talking about for quite some time now.
    I am really pleased to welcome our new ranking member, Mr. 
Latham of Iowa. It will be a pleasure to work with you. I know 
that you have a lot of experience on the Appropriations 
Committee and look forward to having your input and advice and 
continue the wonderful working relationship I had with Mr. 
Wamp, who we will miss, who did an amazing job on this 
committee helping me keep an eye on the CVC and also be a good 
steward of the facilities that we are responsible for in the 
Capitol complex and the Legislative Branch agencies.
    So that having been said, Mr. Latham, your opening remarks.

                  Opening Remarks--Congressman Latham

    Mr. Latham. Thank you very much, Madam Chairman, and it is 
a pleasure and honor to be on this committee that I served on 
when I first came to the Appropriations Committee about 12 
years ago, I served on the legislative branch and I want to 
continue the bipartisan efforts that I felt at that time 
because it was a great experience to learn so much about the 
workings of our environment here, and I look forward to working 
with you. I appreciate your kindness yesterday with the 
chocolate cake and everything, I had a chance to sit down, 
visit and get better acquainted. I really look forward to it.
    I would like to introduce Doug Bobbitt back here who 
actually did this bill about 25 years ago. I look forward to 
working with you and the staff. I cannot be here and not thank 
Zach Wamp for his help and the information that he's given me, 
and I look forward to following in that tradition of working 
together, because this is extraordinarily important for the 
operations and obviously the safety of our campus here and 
everything that we do.
    Mr. Ayers, I appreciate the tour yesterday. It looks like 
we are making tremendous progress and you should be commended 
for what has happened in the last year. I think that the 
subcommittee has played a large role in that also, as far as 
keeping everyone's feet to the fire. I look forward it, the 
progress that is being made there and really appreciate the 
chance to be a part of this, thank you.
    Ms. Wasserman Schultz. You are welcome, we look forward to 
working with you.
    I also would be remiss if I didn't thank Congressman Virgil 
Goode for his service on the subcommittee. He has also moved 
and is now on the Subcommittee for Financial Services. It was a 
pleasure to work with him, however briefly, and I am glad to 
have Mr. LaHood here as well, who is our veteran member of the 
subcommittee.
    We have had a really wonderful tradition on this 
subcommittee of bipartisan cooperation and that has been the 
case with the CVC, and I know it will be the case as we move 
through the budget hearings that will be coming up over the 
next several weeks.
    With that, I would like to welcome the witnesses that are 
here today who at this point probably need no introduction: 
Stephen Ayers, the Acting Architect of the Capitol; Bernie 
Ungar, the CVC Project Executive; Terry Dorn, the Director of 
Physical Infrastructure issues at GAO; and Terrie Rouse, the 
CEO of Visitor Services at the CVC.
    The witnesses' statements will be in the record and we will 
proceed under the 5-minute rule. If you can summarize your 
statements we would appreciate it, and then I look forward to 
taking questions from the members. Mr. Ayers.

                    Opening Statement--Stephen Ayers

    Mr. Ayers. Good morning, and thank you, Madam Chair, 
Congressman Latham, and members of the subcommittee. It was one 
year ago that I began serving as Acting Architect and nearly a 
year ago that I first testified before this subcommittee. I am 
pleased to say that much has changed over the past year, and 
much progress has been made. I would like to thank the 
subcommittee for their support and guidance on this project 
over the course of that past year.
    I, too, would like to welcome Congressman Latham to the 
subcommittee, and look forward to working with you, sir. I 
would like also to offer my thanks to Congressman Wamp for his 
exceptional and unparalleled knowledge of the history of the 
Capitol building, his clear professionalism and bipartisan 
spirit. He's played a very important role on this committee as 
well as on this project. His work is very much appreciated.

                   ACCOMPLISHMENTS OVER THE PAST YEAR

    In the past year, we have worked with GAO and reached 
agreement on an estimated cost to complete figure of $621 
million and an opening date of November 2008, on which both 
agencies fully agree. We also established and met a November 
15th, 2007 substantial completion date, effectively stemming 
project delays and associated delay costs which assured that 
the complex fire and life-safety testing process could begin on 
schedule on November 16th.

                     FIRE ALARM ACCEPTANCE TESTING

    We are making good progress on this final Fire Alarm 
Acceptance Testing, and since our last hearing, we have 
completed or are well under way with the testing of a number of 
systems and devices, including emergency generators, fire 
pumps, fire dampers, sprinkler systems, FM 200 suppression 
systems, kitchen hoods, the pollution control system, elevators 
and escalators.
    These are very complex and sophisticated tests and the 
systems are performing well. We are pleased with the overall 
project and we remain on schedule. As expected, minor progress 
with the Fire Alarm and Control System have arisen but have 
been quickly corrected by the contractor.
    We are currently addressing a short-circuit test and 
analysis where a portion of the fire alarm system is not 
responding as we would have expected. We don't expect this to 
affect our completion date and are poised to address it and 
future issues as they arise.

                     MINOR CONSTRUCTION ACTIVITIES

    There are five remaining areas of the CVC where Minor 
Construction activities continue. These include the Library of 
Congress Tunnel, the House Hearing Room, the East Front, the 
exterior grounds, and the House and Senate atria stairs. All 
other construction activities are complete, have been 
inspected, and the contractor is working on punch list 
activity. As you know, none of these will affect our testing 
and acceptance program and none of them will affect our 
completion date.
    In the stairwell atriums, masons have completed stone work 
and are making minor adjustments to the precast terrazzo stair 
treads and handrails. In the East Front, crews completed the 
gallery level ceiling plaster work and masons have completed 
the stone insulation around the rotunda door and are making 
good progress on the floor stone installation on the gallery 
level.
    Outside construction trailers are being removed from the 
south egg so landscaping can begin there in the near future. 
Paver installation is ongoing on the east side of the site and 
repair work to the pavers closer to the Capitol Building, where 
they were damaged, will begin this spring.
    While fire alarm testing is ongoing, we have been 
completing construction activities in these five remaining 
areas. While some schedule slippages have occurred in these 
areas, we expect all of this basic interior work to be done by 
the end of May 2008 and it will not affect our ability to open 
the CVC in November 2008 nor will it affect our cost to 
complete figure of $621 million.

                            PUNCH LIST ITEMS

    Crews are working to complete punch list items such as mill 
work, wall stone, floor stone and ceiling panels. A further 
indication that we are successfully transitioning from a 
construction project to a visitor services operation is that 
audio visual technicians are now on site, adjusting the 
projection systems and projection screens in the Orientation 
Theaters. All of the exhibit cabinetry and components are in 
place in the exhibition hall, and restaurant furniture has been 
received and is in storage awaiting installation.
    We are pleased with the overall progress, and at this time, 
believe we are on schedule to receive a temporary certificate 
of occupancy on July 31st, as planned. Between November and 
January 30th, 70 Change Orders have been settled. Since our 
last hearing, the magnitude of Change Order proposals being 
received has continued to diminish, with most of the proposals 
coming in at below $10,000.

                             CVC OPERATIONS

    Madam Chair, we have also been working with our oversight 
committees and congressional leadership on plans for the CVC's 
visitor services operation. While I'll let Ms. Rouse discuss 
the details of the work she has done, I would like to note that 
I believe she has made tremendous progress and has built strong 
relationships and coalitions in her efforts to address the 
numerous open issues.
    I have enjoyed working with this subcommittee and look 
forward to our continued work together to prepare for the 
official opening of the CVC. This project will undoubtedly 
enhance the visitor experience and provide the necessary 
amenities to the millions of people that visit each year. It is 
designed to match the Capitol in quality and endurance, and 
generations of Americans will continue to benefit from all it 
has to offer. That concludes my statement, I will be happy to 
answer any questions.
    [The statement of Mr. Ayers follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Ms. Wasserman Schultz. Thank you. Mr. Ungar, do you have 
anything to add?
    Mr. Ungar. No, ma'am. I will respond to questions.
    Ms. Wasserman Schultz. Okay. Ms. Rouse.

                    Opening Statement--Terrie Rouse

    Ms. Rouse. Good morning, Madam Chair, Congressman Latham, 
members of the subcommittee, I am pleased to be here to update 
you on the progress we have made to stand up the organization 
that will become the AOC's Offices of Visitor Services for the 
CVC.
    I echo Mr. Ayers remarks concerning Congressman Wamp and 
his dedication to the success of the CVC, and welcome 
Congressman Latham. I look forward to our continued work on 
this amazing project as we prepare to open the CVC. Since 
testifying before the subcommittee in November and in the 5 
months since I arrived in Washington, I have been building upon 
the operations plan framework that was developed by the AOC, 
Congressional Leadeship, and Oversight Committees. Essentially, 
we have built a new organization from the ground up that will 
be responsible for improving visitor orientation and enhancing 
the educational experience of visitors to the U.S. Capitol.

                           CVC ADMINISTRATION

    My first priority was to create a hiring plan and recruit a 
team of experienced professionals. This month, the first six 
members of my staff reported for duty and have hit the ground 
running. In addition, as Mr. Ayers reported to the subcommittee 
in November, three contracts have been awarded over the past 
several months. The first was to provide food service in the 
CVC restaurant, another was awarded to a small business to 
develop an Advanced Reservation System, and a third was awarded 
to a woman-owned small business for designing the CVC Web site.
    We are now developing the necessary tools to assist the 
public in finding the information they need to plan their trip 
to the Capitol, as well as to learn more about Congress, the 
legislative process, the Capitol, and the CVC.

                      ADVANCED RESERVATION SYSTEM

    Specifically, Members offices can more easily facilitate 
constituent tours by making real-time reservations for guests 
in the Orientation Theaters in order to start the new visitor 
experience with the viewing of the orientation film. The 
Advanced Reservations System will also assist us in reducing 
crowds in the Capitol during peak tourist season by optimizing 
the number of opportunities that people will have to visit the 
Capitol, as well as further ensure the safety of those in the 
building by not exceeding the maximum capacity for the Capitol.

                              CVC WEBSITE

    The new Web site will not only be an introduction to the 
CVC, it will serve as the primary tool in our comprehensive 
public education campaign to let people know about the CVC, as 
well as how to arrange a visit to the Capitol and their 
Members' offices, and how Congress works.
    Most importantly, with millions of visitors anticipated in 
the CVC's first year of operation, the Web site will help 
manage expectations by helping the visiting public become well 
prepared and well informed by providing clear, accurate and up-
to-date information.

                           COMMUNICATION PLAN

    We are also developing a communication plan which 
complements the goals of the Advanced Reservation System and 
Web site by executing an effective public education campaign 
about the CVC and all it has to offer. Our communications 
efforts will be multi-faceted and will reach a variety of 
diverse audiences from Capitol Hill residents to international 
travelers, to Members' offices, visitors' bureaus, tour bus 
operators, to public school children.

                        CAPITOL TOUR ACTION PLAN

    To prepare for this influx of visitors once the CVC opens, 
we have been working with the Oversight Committees on a Capitol 
Tour Action Plan to ensure a positive visitor experience. 
Included in this plan is the introduction of a new program, the 
Congressional Historical Interpretive Training Program, or 
``CHIP''. CHIP training is being designed to facilitate the 
Congressional need to have all staff giving tours appropriately 
trained to conduct constituent tours of the historic Capitol 
Building and the CVC exhibits; provide for the safety needs of 
constituents; and ensure that information provided is correctly 
and accurately portrayed and interpreted.
    After receiving CHIP training, congressional staff will be 
properly equipped to lead constituent tours while providing the 
personal touch and including local flavor on tours that is 
preferred by Members of Congress.

                          PROGRAMS AND EVENTS

    Madam Chair, along with these exciting initiatives we have 
been developing a series of first year programs and events 
which we would launch on opening day of the CVC. These programs 
would reflect the important impact of the Constitution, 
Congress, and our legislative process on the growth and 
evolution of our Nation and the Federal Government. By 
orchestrating these special events and programs, we will be 
able to better pace the use of the building and fully test our 
processes and procedures prior to the arrival of busloads of 
cherry blossom tourists and eighth graders on class trips. This 
is the standard practice when opening a major museum or tourist 
attraction, so we intend to pattern our inaugural year events 
in accordance with the industry's best practices.

                             CVC TO-DO LIST

    Although we have made tremendous progress, we still have a 
To-Do list before the CVC's official opening date is set. Most 
notably, Congress must pass legislation to formally establish 
the Office of the Capitol Visitor Center within the AOC. I look 
forward to continuing to work with our Oversight Committees to 
ensure a seamless transition into the new visitor services 
organization. I want to, again, thank the Subcommittee, our 
Oversight Committees, Congressional Leaders and my new staff 
for their support and commitment to ensuring the succesful 
opening operation of the CVC. This concludes my statement, I 
would be pleased to answer any questions that you may have.
    Ms. Wasserman Schultz. Thank you, Ms. Rouse.
    [The statement of Ms. Rouse follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Wasserman Schultz. Mr. Dorn.

                    Opening Statement--Terrell Dorn

    Mr. Dorn. Thank you, Madam Chair, Mr. Latham, members of 
the subcommittee. I would like to start off this morning by 
noting our team is losing two of its starters this month, those 
that have been on the engagement since before construction 
began and survived over 20 CVC hearings.
    First I would like to recognize Mr. Bradley James, a GAO 
assistant director and civil engineer who is sitting here next 
to the Fire Marshal. Brad is leaving the government after over 
30 years of Federal service with the Corps of Engineers and 
GAO. His insight on project management and suggestions for the 
CVC over the past 4 years has been invaluable.
    This is also the last hearing for Mr. David Merrill, a 
senior analyst with our financial managment team who has been 
involved with the CVC since 2001 and has dealt with the almost 
monthly accounting and reconciliation of appropriations and 
obligation plans and estimates to make sure that there are no 
surprises in these areas. We will miss them both very much.

                            PUNCH LIST ITEMS

    Meanwhile work on punch list items, minor construction 
items and fire alarm testing continues. Gilbane reports that 
the project is now 99 percent complete. The punch list, 
however, continues to grow. As of yesterday, it listed over 
14,000 items to be corrected. In fact, the punch list has more 
than doubled since the last hearing, and if printed out would 
yield a book that is about 400 pages long.
    Not all items on the punch list are created equally, of 
course, but as the list continues to grow, the challenge the 
AOC faces to complete all by November 2008 increases. For 
example, if the list stopped growing yesterday, which is highly 
unlikely, the AOC and its contractors would need to complete 
and reinspect over 50 punch list items every day of the week 
between now and November.
    AOC and Gilbane deserve credit for thoroughly inspecting 
the contractor's work and creating the punch list. And if the 
list goes to 20,000 items so be it. My point is in this late 
stage of the project, 99 percent complete, much remains to be 
done before opening. Correcting the punch list items may slow 
or even undo some of the cleaning and preparations for the 
opening. Continued attention in this area is still needed.

                        NEAR-CRITICAL PATH FOCUS

    Since the last hearing, work on most of the near-critical 
paths such as the East Front, exhibit gallery, and House 
hearing room have slipped and bear watching. AOC and Gilbane 
still expect that the work in these areas will be complete 
before the fire alarm testing is completed.
    For example, work on the East Front has slipped by another 
4 weeks, but is still scheduled to be finished more than 3 
months before the Fire Marshal is scheduled to issue his 
temporary certificate of occupancy.

                           FIRE ALARM TESTING

    Fire alarm testing remains the most critical activity for 
achieving the project's certificate of occupancy making the CVC 
available to open some time in November of 2008. As AOC 
mentioned this morning, testing is ongoing. As expected, a few 
hiccups have occurred conducting the testing, and the CVC is 
working to addresss issues with programming and wiring. 
Additional cost to the project, if any, is still unknown. The 
effect on the project since the last hearing has been to push 
several activities beyond the scheduled date to receive a 
temporary certificate of occupancy from the Fire Marshal and 
has reduced the available scheduled contingency or float.
    Future impact to the schedule will depend on AOC's ability 
to concurrently make changes to the fire alarm system and 
continue acceptance testing. While the AOC does maintain a 
schedule of fire alarm testing, with the amount of retesting 
required in some areas and other schedule changes, it is 
unclear what percent complete that testing actually is. AOC may 
want to consider developing a metric to reflect the level of 
effort remaining to get the job done.
    Ongoing discussions between AOC and the Fire Marshal and 
the Office of Compliance may find ways to reduce the amount of 
acceptance testing required so preparations for operations may 
begin earlier, and mitigate the cost and schedule impact of 
system changes that may continue to arise.

                           OPEN CHANGE ORDERS

    Almost 3 months after the AOC declared the CVC project to 
be substantially complete, over 25 percent of the PCOs open for 
sequence 2 are still open, along with the associated budget 
risk. The number of PCOs that are still open remains in the 400 
range, but as Mr. Ayers said, the magnitude of each one of 
these changes has dropped. I agree. This is about the same 
number in total as it was in November of '07. In other words, 
new ones have continued to come in at about the same rate that 
the CVC has been able to resolve them.
    Since the last hearing, AOC issued two unilateral 
contracting modifications to address delay issues lingering 
because of sequence 1, that they were unable to resolve 
bilaterally with the contractors. It is unfortunate that the 
two sides were unable to come to an agreement, but AOC's action 
is consistent with the earlier GAO recommendations about 
unresolved disputes in general.

                         CVC CONSTRUCTION COST

    The CVC's estimated cost remains unchanged at $621 million, 
which includes contingency amounts for delays, change orders 
and remaining uncertainties related to the project's fire alarm 
testing. About $566 million has been approved for CVC 
construction. AOC has $16.2 million in FY 2008 appropriations 
that it plans to use for construction after it obtains 
congressional approval to obligate the funds.
    In the budget discussions with AOC next week you may want 
to consider that AOC has estimated it will need an additional 
$5.9 million in this fiscal year to fund construction. In 
addition, in the '09 budget AOC has requested $31.1 million for 
construction and this will leave them $2 million short of the 
$621 million estimate.
    That concludes my statement this morning, and I am prepared 
to answer any other questions.
    [The statement of Mr. Dorn follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
                            STAFFING CHANGES

    Ms. Wasserman Schultz. Thank you so much, Mr. Dorn. Before 
we move into questions, Mr. Latham, with your indulgence, I do 
want to mention that we have had a staff change on your side as 
well. Jeff Shockey, who was the Deputy Staff Director of the 
minority side of the staff and has been lead minority staff for 
this subcommittee since I have been the Chair, has now moved on 
to be the minority Staff Director for the full committee. Liz 
Dawson, after a number of years of service to the committee, is 
now the lead minority staff for the subcommittee. We welcome 
the opportunity to work with you once again and continue to 
work with you in your new capacity.
    Mr. Latham. As well.

                     STAFF-LED TOUR PROGRESS REPORT

    Ms. Wasserman Schultz. I thank you. Ms. Rouse, I want to 
start with you. We spent the bulk of the last hearing talking 
about the staff-led tour issue. As you know, the omnibus 
appropriations Act that was signed into law by the President 
included language that made sure that staff-led tours would not 
be eliminated, and that was the result of language that this 
committee inserted into the bill.
    I want to hear about the progress that you have made in 
planning for staff-led tours and tours in general, but I want 
to tailor my question a little more specifically. One of the 
main things that Members are concerned about and one of the 
main services we are able to provide to our constituents when 
they come to the Capitol is scheduling the Capitol tour and 
providing that tailored service. And I know that the feedback 
that I get and that many Members get from constituents, even 
people that I didn't see when they were in the Capitol while 
taking their tour, they stop and thank me on the ball fields 
and in the supermarkets for the wonderful experience that my 
staff gave them and that was the thing that was most memorable 
for them of their time in Washington, D.C. That is obviously 
something we don't want to lose or to die on the vine for lack 
of attention. So the devil is in the details in terms of how 
you are going to implement it.

                       ADVANCE RESERVATION SYSTEM

    I know that you issued a contract for an advance 
reservation system, and the design of that reservation system 
and how it directs people to sign up for tours is going to be 
incredibly important in terms of whether or not they actually 
get connected to their Member. I think it would be a travesty 
if we fail to preserve that connection. I know we had over 140 
Members sign a Dear Colleague, along with about half of the 
Senate, on the importance of staff-led tours.
    So how do you plan to make sure that when a constituent 
goes onto the advance reservation system that they can be 
connected with their Member? When we spoke the other day you 
indicated that there would be an option on the screen to either 
go through a guide-led tour or a tour scheduled by their 
Member's office, but I am concerned that it would be--I want to 
make sure that the screen is set up so that they most likely 
will go through their Member.
    Ms. Rouse. Thank you. After our conversation, I spent a 
couple of hours with my team so I could get a clear 
understanding. I will explain to you what I understand it to 
be.
    There will be multiple screens. In about 6 to 8 weeks we 
will have a prototype that we will be able to beta test. As 
described to me, when someone goes to our Web site a screen 
will come up. In that screen you will have the option to go and 
book your own tour. In addition, a screen will come up that 
says find your House Member, find your Senator. You would then 
be directed to your Representative's or Senator's Web site, and 
then if someone wanted to book a tour, they would link into 
your Web site, which allows either your staff person or the 
individual to go ahead and book the tour.
    Now if your staff person is booking a tour for an 
individual, they have the option of either sending them back an 
e-mail confirmation to say they have been booked on a tour, or 
they can attach whatever they want to that link, whether it is 
support information or whatever it is about the office that 
might be worthwhile.
    If someone has called that doesn't have Internet service, 
and they want a hard copy, then your office will have the 
option to package it any way they want. A screen will come up 
giving people options. The public can go right in if they want 
to, an international visitor, because this Web portal of course 
makes it so they're able to book, so that individuals will be 
able to do that or they can find their Senate or House offices.

                   MEMBER OF CONGRESS REPRESENTATION

    Ms. Wasserman Schultz. If I can just interrupt you for a 
second. On the Capitol guide button, so to speak, that someone 
would click on to go through a Capitol guide tour as opposed to 
going through their Member's office, one of the things that I 
think is very important and I know other Members do too is that 
every visitor to the Capitol that is an American citizen and 
has a Member of Congress representing them or a legal resident 
that has a Member of Congress representing them, needs to be 
able to find out and be told through that reservation system 
who their Member is. So if you can--I think you very much 
should be focused on making sure that even if the person goes 
through the Capitol Guide Service reservation system that they 
are told somewhere in that system who their Member is and where 
our office is, so that they can have an opportunity to connect 
with us, even if they choose not to have a tour from their 
Member.
    Ms. Rouse. That is a very good question. I probed on that 
yesterday. There may be a way to harvest zip code numbers.
    Ms. Wasserman Schultz. You just have to ask them to put it 
in.
    Ms. Rouse. Yes, we have to ask them to put it in. From 
that, they will be able to know who the Representatives are of 
their State. Depending upon how much more detail you get, you 
can then get them linked directly. Most importantly, they can 
always find their Representatives through the various links. We 
can provide this information back to the individual office 
about the people who are coming from their district. So I think 
that that will be helpful. It helps you plan, it helps us plan. 
Our goal is to have enough information to know exactly what we 
are doing, the Capitol police will know in advance; we are all 
tied together in knowing what our capacities or what our 
vacancies are at any given time.

                       VISITOR-MEMBER CONNECTIONS

    Ms. Wasserman Schultz. My time has expired and I don't want 
to go over too much, but I do want to express the importance, 
if it hasn't been clear already, that I think it is incredibly 
important that an individual, even if they choose not to go 
through the tour from their Member, that they are told and 
connected to their Member in some way through that other 
button. There is an easy way to do it. In terms of constituent 
correspondence, in order to communicate with a Member you have 
to put your address in, and our system is set up that way 
already. So I feel quite certain that the advance reservation 
system could be set up that way as well.
    You also talked about printing a keepsake certificate. That 
keepsake certificate will hopefully also tell the person who 
their Member is.
    Ms. Rouse. Exactly, each Member office can control that.
    Ms. Wasserman Schultz. But even through the Capitol Guide 
Service, it is every single person----
    Ms. Rouse. With the zip code.
    Ms. Wasserman Schultz. What I am saying is the system 
should automatically have the person put in, in order to keep 
going through the steps, put in their zip code or their address 
because zip codes don't always do it, so that they can be told 
through the process who their Member of Congress is.
    Ms. Rouse. We will, we will.
    Ms. Wasserman Schultz. Thank you. My time has expired.
    Ms. McCollum. A zip code, that is nine digits, right?
    Ms. Rouse. Correct.
    Ms. McCollum. We are up here thinking zip codes one way and 
it may be different; I don't know my 9-digit zip code.
    Ms. Wasserman Schultz. I don't know mine either. It will 
probably be the address, because I can tell you that in the zip 
codes that almost all of us represent there is overlap in our 
districts, so it really needs to be the address--but there is a 
system that pulls up your congressional districts very easily.
    Ms. McCollum. Thank you, Madam Chair.
    Ms. Wasserman Schultz. You're welcome.
    Mr. Honda. It should link through the Post Office.
    Ms. Wasserman Schultz. If we can go through the Chair, 
every Member will have an opportunity, and I want to give Mr. 
Latham his. Thank you.

                            BUDGET SHORTFALL

    Mr. Latham. Thank you, Madam Chairman. I share your concern 
about the tours and having the staff involved. Mr. Ayers, Mr. 
Dorn just mentioned that there is going to be a shortfall as 
far as your budget this year, $5.9 million. Can you just go 
through so the public knows about how you plan on addressing 
the shortfall this year and what needs to be done?
    Mr. Ayers. Yes, sir, I'd be happy to do that. I think, as 
we testified several hearings ago, to complete this project we 
require an additional $39 million. We thought that some of that 
$39 million may be required in fiscal year 2008. So as we 
prepared our quarterly spending plan and analysis in October we 
felt that about 8 million of that might be needed in fiscal 
year 2008 and the remaining 31 million would be needed in 2009. 
That 8 million that we potentially needed in 2008, over and 
above what we had requested, would be for delay claims that we 
would get from a contractor, but that was October.
    As we have progressed through the year those delay claims 
aren't coming, so our need for additional money in 2008, we are 
projecting, now has been reduced to about 6 million. The 39 
million stays the same so our '09 request would be from 31 to 
33 million. So as of today, our projections still say we'll 
need a little less than 6 million. This is what we will need in 
'08. We won't need any of that, we believe, until the fourth 
quarter of 2008.
    So what we have done to date is we have submitted a 
reprogramming request to the committee to fence about $3.2 
million of that 6 million, taking that out of completed 
projects and other funds in our budget that are available, and 
we will hold that until the fourth quarter. I know Mr. Ungar 
and I expect that this 6 million will continue to decrease in 
2008 and we may need a little less than that. We have 
reprogrammed and outlined a method by which we will fund a 
portion of that money and as we go through the course of the 
fiscal year, if we think we will need all of it, we will find 
those resources from within our budget from completed projects 
and other kinds of efforts to fund that in 2008. But the 
overall number doesn't change, $621 million doesn't change.

                        ANTICIPATED SHORTCOMINGS

    Mr. Latham. On another note, I would really like to thank 
you for finding the money elsewhere for the two nurses that are 
going to be required for the CVC. Apparently this fell through 
the cracks last year in conference, but do you anticipate any 
other shortcomings like this that are going beyond the 5.9 
million and any other items out there right now that will need 
reprogramming?
    Mr. Ayers. On the construction of the CVC I don't 
anticipate any. Ms. Rouse can talk about on the operations 
side. I am not aware of any.
    Ms. Rouse. On the operations side I don't anticipate any. 
We have been able to address our most crucial need, which is 
training, in our existing '08 budget.
    Mr. Latham. All right.

                         TRAINING AND STAFFING

    Ms. Rouse. We have been able to address our pressing need 
and concern, which is training, and been able to deal with 
that. Our concern is ramping up time; we will bring on 226 
additional staff. In general I think we are on track.
    Mr. Latham. I am not sure how this effects the CVC, but we 
have just become aware that there is going to be a 
reprogramming request that is imminent, apparently, for a new 
initiative--the metering in the Capitol, in the office 
buildings. From my understanding Mr. Boehner is not aware of it 
on the committee that is supposed to have oversight. I was just 
curious where that is going to come from or what you are 
proposing as far as this metering. Are there any other 
initiatives out there that we don't know about?
    Ms. Wasserman Schultz. Mr. Latham, that issue is unrelated 
to the CVC. We will deal with it when the AOC has their budget 
hearing next week.
    Mr. Latham. It won't?
    Ms. Wasserman Schultz. No.
    Mr. Latham. I will respond when I come back to another 
round.
    Ms. Wasserman Schultz. Ms. Lee.
    Ms. Lee. Thank you very much, Madam Chair. Let me also 
welcome Mr. Latham to this committee, and I say to you I look 
forward to working with you but also that we are neighbors 
right across the hall. And this is going to be, I think, a 
committee that is looking forward to working with you, but also 
it is a committee that we have worked together under our 
Chair's leadership in a bipartisan fashion, and we will miss 
Mr. Wamp and I know that your leadership will continue in these 
efforts.
    I was very pleased to hear from Mr. Ayers and Ms. Rouse, 
especially learning of this temporary certificate of occupancy 
by July 31st. I want to thank all of you and I have to commend 
our Chair, because when I heard this and you said that, I said 
if it hadn't been for your prodding and your diligence----
    Ms. Wasserman Schultz. Thank you.
    Ms. Lee [continuing]. And your focus, I didn't know if we 
would be there, but I thank you very much for that. It has 
really been remarkable to see how far we have come in such 
little time.

                          60 DAY POLICY LETTER

    Let me thank the entire committee and all of you for 
support in our efforts that we have a real renewed commitment 
to minority owned and small businesses.
    I wanted to ask Mr. Ayers, first of all, a couple of 
questions with regard to the letter or the policy that should 
be developed, I think it was within 60 days. I want to see how 
we are coming on that, and the implementation of this policy. 
And when do you think we will be able to see what the 60-day 
requirement entailed. I am not sure if we passed the 60 days 
yet or not, I think we still have some time. I want to get a 
progress report on that.
    And to Ms. Rouse, I will just ask you about the contracts 
that you mentioned, food service, advanced reservation and the 
CVC Web site. You mentioned, I am glad to hear, small business 
is one. I don't know if food service is a small business.
    And CVC Web site, women-owned business. Do we have any 
minority-owned businesses involved at this point?
    Let me start with Mr. Ayers first and then go to Ms. Rouse.

             MINORITY-OWNED AND SMALL BUSINESS INITIATIVES

    Mr. Ayers. Thank you, Congresswoman Lee. As you know and we 
have testified previously, we are working two initiatives on 
this program. First is to create a set-aside in our 
construction contracts, those construction contracts that are 
over a million dollars. We have set some goals for ourselves to 
ensure those contractors are subcontracting to small 
businesses, small disadvantaged businesses, small women-owned 
businesses and the like. Those goals have been set up in 
writing and they are in place and being followed by our 
procurement staff. We implemented that, I believe, in August of 
2007.
    Ms. Lee. Do we know how we are doing yet or is it too soon?
    Mr. Ayers. I don't have a statistical analysis. I can give 
you some good examples of projects I do have with me.
    Ms. Lee. Thank you very much.
    Mr. Ayers. I thought that question may be coming.
    A couple of good examples, small, disadvantaged, minority-
owned, black contractor, $3 million project, recently awarded 
for the Library of Congress lighting upgrades in the stacks 
there. Lawn mowing and snow removing services for the Botanic 
Garden awarded to a small, disadvantaged, minority-owned black 
company. Shuttle bus service awarded to a small, disadvantaged, 
minority-owned black company. Sidewalk repairs and janitorial 
services, over $2 million, to a small business, minority-owned 
Hispanic company, as well as several others, but I can give you 
a full accounting.
    Ms. Lee. I would like to see that, and the dollar amount.
    Mr. Ayers. I will be happy to do that.
    [The information follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    The second initiative is working to create a set-aside for 
small businesses, of all categories, for all of our contracts 
between $5,000 and $100,000. This will take some considerable 
effort, and we are working with the Small Business 
Administration to develop an MOU whereby they will help us 
develop that program. They will also help us adjudicate issues 
that come up under such a program.
    We have also reached out to the Department of 
Transportation and the USDA to meet with them. Those two 
organizations are ranked ``Green'' on the President's Quarterly 
PMA Scorecard under their small business goals so we thought 
they would be good organizations to meet with and learn from. 
So this particular set-aside will take us a little time to 
fully implement. I know our staff is diligently working on it.
    Ms. Lee. Thank you very much. I would like to talk to you 
further maybe about the 100,000 limit, because as you know, I 
think that is much too low.
    Mr. Ayers. That is in statute.
    Ms. Wasserman Schultz. Your time has expired.
    Ms. Lee. I am sorry, we will come back.
    Ms. Wasserman Schultz. We will come back.
    Mr. LaHood.

                         OPENING CEREMONY PLANS

    Mr. LaHood. Mr. Ayers, what is planned for the opening of 
the visitor center?
    Mr. Ayers. In terms of ceremonies?
    Mr. LaHood. Right.
    Mr. Ayers. Ms. Rouse is planning those activities. She may 
be the best one to answer that question.
    Ms. Rouse. We are still at the talking stage on planning, 
but what we are trying to do is use some best practices from 
the field that deals with museums and visitor services and plan 
a series of celebrations over 18 months in honor of the opening 
of this historic facility. We are still putting things on 
paper, and vetting it with leadership and oversight. We intend 
to have our first round of meetings towards the end of 
February, and hopefully some time in March we will have some 
ideas. But, I must add, we are still trying to gather our 
ideas, we have gotten a lot of feedback from the Sergeant at 
Arms on the House and the Senate sides and we are also looking 
to historians to note what has been done in the past.

                             CVC GOVERNANCE

    Mr. LaHood. Can you tell us, Mr. Ayers, about the 
governance of the CVC and what has been put in place or what is 
happening with that?
    Mr. Ayers. Yes, sir. In April of 2007, I received a letter 
from the four leaders of the Congress assigning the 
responsibility for the day-to-day operation of the visitor 
center to the Architect of the Capitol. So the Architect is 
responsible for the day-to-day operation. We then went out and 
recruited Terrie Rouse, our Chief Executive Officer for Visitor 
Services, to run that business element for us.

                             CVC OVERSIGHT

    Mr. LaHood. In terms of oversight, who will have 
responsibility for the CVC, legislatively, either on the House 
or Senate side?
    Mr. Ayers. I believe that will be the Committee on House 
Administration and the Senate Committee on Rules and 
Administration.
    Mr. LaHood. So there really is no overarching organization 
made up of leadership; it will be primarily the committees of 
the House and Senate under House Administration and whatever 
the counterpart is in the Senate?
    Mr. Ayers. For the day-to-day operation of the visitors 
center, yes, sir, that is correct.
    Mr. LaHood. And for oversight, just general oversight, I 
assume that the House Administration and the Senate counterpart 
will have that jurisdiction?
    Mr. Ayers. Yes.
    Ms. Wasserman Schultz. And this subcommittee as well, since 
we are going to appropriate the funds.
    Mr. LaHood. Since they didn't say it, I wondered if that is 
the case.
    Ms. Wasserman Schultz. They can't operate without the money 
we appropriate. So there will be oversight coming from us, too.
    Mr. LaHood. There will be?
    Ms. Wasserman Schultz. As long as I am the Chair of the 
subcommittee there will be.

                           CVC COST ESTIMATES

    Mr. LaHood. Mr. Dorn, do you think they will stay within 
the amount of money that Mr. Ayers gave today? We have gone 
from the beginning of this project estimated at 230 million to 
over 600 million. Do you think they are going to stay within 
that figure?
    Mr. Dorn. The 621?
    Mr. LaHood. Yes, sir.
    Mr. Dorn. Yes, sir, at this point we do. We have some 
delays that have occurred, internal delays that have not 
affected the completion date of the project. Some hiccups have 
happened, some other things have come in at less cost than what 
AOC had anticipated earlier. But considering that we have a 
contingency built into the 621 estimate, we are still 
comfortable that's a good number.
    Mr. LaHood. On the day that the CVC opens officially in the 
fall of this year, you believe that the final figure for the 
construction and opening will be the figure that is in Mr. 
Ayers' testimony today?
    Mr. Dorn. The 621 is the best estimate we have at this 
point.
    Mr. LaHood. Based on what you experienced and what you 
know, do you think that will hold?
    Mr. Dorn. At this late stage of the job and knowing the 
contingency amounts we put in, I feel comfortable with that, 
and I hope Bernie feels comfortable with that.
    Mr. LaHood. Do you, Mr. Ungar?
    Mr. Ungar. At this point I do. I am always nervous, but at 
this point we are on track for that 621.
    Mr. LaHood. Thank you.
    Ms. Wasserman Schultz. Thank you, Mr. LaHood. Mr. Honda.
    Mr. Honda. Thank you, Madam Chair, and also let me add my 
welcome to Mr. Latham. A couple of quick ones so I won't waste 
a lot of time. In our next meeting, Ms. Rouse, would you mind 
reporting back on the exact process by which a constituent can 
tell who their congressional representative is? There seems to 
be a little bit of confusion here.
    Ms. Rouse. I will.

                        CVC GOVERNANCE STRUCTURE

    Mr. Honda. In terms of governance, I would like to get back 
to the clarity of that since it was not mentioned. Is it in 
writing, the governance structure of the CVC, so that when 
people ask the question again, it is under the subcommittee, 
and not because the Chair took the responsibility. Is it in 
some form where people understand that it is under the 
subcommittee?
    Mr. Ayers. Mr. Honda, I am not aware that that is in 
writing anywhere.
    Ms. Wasserman Schultz. If I can just help to clarify the 
answer to that question. Mr. Brady and Mr. Ehlers, who chair 
and are the ranking member of the House Administration 
Committee, have introduced legislation on how the CVC would 
operate and the whole way that process would unfold. It is a 
very detailed piece of legislation. The governance per se is 
not laid out in that legislation, but House Administration and 
this subcommittee will be responsible for oversight just like 
we were responsible for the oversight of the construction 
process as well.
    Mr. Honda. For the future, it just seems like things will 
change, people will change, their potential will change, and I 
think that somehow that clarity has to be some place in written 
form so there is no mistake or assumptions made. If we will be 
ultimately responsible, it seems that area should be there, but 
we can continue to discuss that.

                        DESIGN PROGRAM CONCEPTS

    On the historian issue, you mentioned, Ms. Rouse, that 
historians will be involved in designing the programs for the 
next few months, and in the process are you as comprehensive as 
possible where you not only include the African American, 
Latinos, but the Asian American communities in this country, 
and how will you know that the list that you have is validated?
    Ms. Rouse. A very good question. In our programming 
thinking we are trying to look to partnerships with groups who 
are experts at putting together programming concepts. So we are 
still at the point of putting names down, putting concepts 
together for how we would do programming and then we'll begin 
to vet that. We would recommend and take any suggestions people 
have for possible programs. The way we'd like to address it at 
this point is seminars, talks, family days, and activities for 
young people, particularly inspiring young people to want to be 
their fullest range of citizen. Encouraging them to vote is a 
key cornerstone of what we are trying to engage in. So any 
suggestions that would be available, we are willing to do it. 
We want to make sure our partnerships with people are thorough 
and that there is a voice for everyone. That is a key piece of 
what we would like to do. We do have that voice in the 
exhibition in many ways, but there is always room for 
improvement.
    Mr. Honda. Okay.
    Ms. Wasserman Schultz. Mr. Honda, you still have some time.

                          MINORITY RECRUITING

    Mr. Honda. Oh, okay. I guess the other one would be the 
presence of people of color in the upper echelons of our 
organizations, not only represented in the workforce but in the 
leadership. Are there any plans that you have in looking at 
ways to fill slots in the future with minorities?
    Ms. Rouse. We have been aggressively working to make sure 
that our job postings--we have 246 more positions to search 
for. Many of them are in place, but we are also placing our ads 
in places, in medium which are non-traditional, so people 
aren't just going to USA JOBS. We are reaching out to various 
minority communities and professionals to gather in candidates, 
because that will be important for us.
    We have been talking aggressively about doing a job fair, 
actually, to fill the visitor assistant positions, what will 
become the gift shop positions. So we have presence of people. 
My gift shop staff has even expressed interest in making sure 
that we have people who speak different languages to be able to 
address the new audiences that will come into the CVC. Between 
the CVC and the Library of Congress, we will probably have 4 
million people introduced to the Hill here in the next year, so 
we need to be able to welcome everyone.
    Mr. Honda. Last question, Madam Chair.
    Ms. Wasserman Schultz. Sure.
    Mr. Honda. You mention language and I think that is going 
to be critical in getting the information out and having the 
community feel comfortable that they have a shot at a contract 
and have a way into being part of that process. And so I would 
be interested in how the language component would be utilized, 
because the possibility of many other communities being 
involved in what we have to offer is out there. I am not going 
to say I don't have any confidence in the Library of Congress, 
but I think there are issues that they have also.
    Ms. Rouse. Right, Library of Congress, in terms of 
communicating.
    I will respond for the record on that issue.
    [The information follows:]

    Question. Provide details on contract language to ensure minority 
competition.
    Response. The provisions and clauses that follow are currently 
incorporated into the AOC's solicitations and contracts.


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Ms. Wasserman Schultz. Thank you, Mr. Honda.
    Ms. McCollum.
    Ms. McCollum. Thank you, Madam Chair, and look forward to 
getting to know you better, Mr. Latham.
    I would be in big trouble with my grandmother who is 
watching from above, if we didn't mention the first Americans 
as well as all the communities that represent the vast 
diversity of the United States.

                        CHANGE ORDER--PUNCH LIST

    I would like to talk to Mr. Dorn and Mr. Ayers and Mr. 
Ungar, maybe then the three of you could just have a 
conversation. Change orders and the punch list: 55 per day from 
now to opening. Hmm, sounds like a problem. And the fact that 
as you are clearing change orders, more change orders come in. 
What is the plan here, guys, to get this--I don't want to say 
under control, because you have. If you are keeping your change 
orders even you have a semblance of control, but you are really 
not on top of it. You have managed to keep the problem from 
getting worse, but you haven't been able to clear up the 
problem.
    What do you need from us to help you be successful at this? 
Are you having problems with contractors fulfilling their 
obligation to meet things in a timely fashion or to do the job 
right in the first place? This concerns me. This seems to be a 
problem all over, including with our embassies. We are doing a 
little better than with the embassy work being done around 
here, but what is your plan?
    Mr. Ayers. If I could just offer one clarification on punch 
list and maybe, Bernie, you could talk about the plan to 
remediate those. In terms of a punch list, I think Mr. Dorn may 
have mentioned that the objective is to complete that punch 
list by November. That is not necessarily the way a 
construction contract is done. A punch list could be simply a 
touch of paint on 2 square inches of wall or----
    Ms. McCollum. Mr. Ayers, I understand all of that.
    Mr. Ayers. But there are many things on a punch list that 
won't be done in November 2008 is my point. So we are not 
driving to a November date to complete a punch list.
    Ms. McCollum. Mr. Ayers, I think you know I am not worried 
about touch-up paint. There are big things on that punch list. 
What are you doing to clear them up?
    Mr. Ayers. Bernie.
    Mr. Ungar. Let me clarify one thing. Terry is right, the 
list is 14,000, but not all of those are open, a number of 
those have been closed. I don't have the exact count, I will 
get that for you.
     [The information follows]:
                         punch list closed items
    Question. Provide a count of the number of punch list items that 
have been closed.
    Response. As of February 7, 2008, approximately 1,170 items have 
been closed. Further, work for many other items has been completed, but 
the work has not yet been inspected. The number of items on the punch 
list will go up and down over the next few months as work in the East 
Front and a few other areas is finished. Further, we are constantly 
reviewing the list and going through it with the construction manager 
to make sure that any items that could hold up opening are addressed in 
sufficient time.

    The process we have set up with our construction and 
management contractor, Gilbane, is to basically systematically 
ask the construction contractor to notify us when an area is 
ready to recheck and then go and recheck the areas. We have 
been doing that for some time now on our House and Senate 
expansion spaces. We just recently started with our main CVC to 
do that and that is in process. As you indicated, some of the 
items are bigger than others, some aren't major items, but we 
are in process and we probably will not be done by November. We 
certainly will have all the major items that are necessary for 
opening done well before then.

                         CONTRACTOR PERFORMANCE

    The contractor is performing well in this area. I need to 
clarify that we have instructed our contractor to give first 
and top priority to supporting the acceptance testing that is 
going on, because that is what is going to drive the opening 
day for the CVC, and they have been doing very well at that. We 
have not asked them to ignore the punch list to do that, but 
that is the second priority right now. But we are working on it 
and we are making progress.

                             CHANGE ORDERS

    Ms. McCollum. Change orders?
    Mr. Ungar. Yes, on change orders, as Mr. Dorn said, we use 
a slightly different number. We are looking at the numbers that 
have not been settled, and that has been about 340, give or 
take. These are open ones that have not been settled, but just 
not yet concluded for some time. I expect that number to remain 
about the same until some time in March when--maybe mid to late 
March-when the basic construction is going to be winding down. 
We will still get some, but right now both our construction 
management contractor and our Sequence 2 Contractor are 
focusing first on the high priority change orders by mutual 
agreement, and we are working on the others as we can. Once we 
start to have a smaller number come in, they will be able to 
work this off. It will take some time, but the change orders 
right now that we have that haven't been processed are not 
slowing up construction. We have a mechanism by which we can 
still authorize the work and get the work done.
    Mr. Ungar. I don't think that number is going to drop very 
significantly until probably summertime. We will be working 
toward a resolution of those.
    Ms. Wasserman Schultz. The gentlelady's time has expired. 
Mr. Latham.

                          CR IMPACT ON THE CVC

    Mr. Latham. Thank you, Madam Chairman. You know, if we have 
learned anything from history around here, and I share Mr. 
LaHood's concerns about costs and things like that, but one 
thing that certainly has plagued both parties in control of 
this place is we have not been able to get our work done on 
time. I am very, very concerned about the impact of a CR on the 
CVC, because I would hate to have us go through the estimated 
$621 million, have everything in place, go to all this work, 
and the day of opening we do not have any funds to operate the 
place. I just pledge to the chairwoman that I will do 
everything on my part to make sure we get this done on time and 
make sure we get a bill signed.
    Ms. Wasserman Schultz. Me, too.
    Mr. Latham. Please describe the operational impacts and 
tell us any contingency plans, and what the effects would be on 
the CVC if we did not have our bill done on time?
    Mr. Ayers. Yes, sir. It is best to categorize that analysis 
in three areas. First on the construction project, then our 
maintenance of the building, then on the operations side. From 
a construction contract standpoint, it is not going to have a 
significant effect on us. We may have to delay payment on a 
delay claim. If that is the case, our costs may increase a 
little because of that.
    On the facilities maintenance portion, the day-to-day 
operation, the nuts and bolts of the building, a CR is not 
going to have a significant impact because I think our base is 
at a level now where we can sustain that into 2009.

                      CR IMPACT ON CVC OPERATIONS

    It will have a pretty extensive impact on the operations 
side. Ms. Rouse can speak to this as well, but I know that 
under the CR guidance it is going to be based on the amount of 
money we have in 2008. The amount of money we have in 2008 is 
not sufficient to meet our monthly payroll requirements 
starting in October, the next fiscal year. So I know she is 
going to have serious issues if there is a continuing 
resolution.
    Ms. Rouse. That is an understatement. We have 252 people we 
know need to be deployed to deal with the maximum numbers of 
capacity. If things bear fruit, as you well know, when a new 
destination opens in Washington, D.C., the residents flood in 
before the tourists flood in. So in March, we can expect, 
eighth graders from all over the world, eighth graders from the 
United States, and in the fall it will be residents. So if we 
are not able to deal with that capacity, we will try to work 
towards a management structure to do what we can, but we will 
not be at our best. I think what I would like, and I am sure 
what the Members of Congress would like, would be for us to be 
at our best.
    Mr. Latham. How about the education programs? There is 
going to be, you know, public programs that you have in place. 
How about----
    Ms. Rouse. They would suffer. The historians and curators 
who are on staff, who are volunteering their time to help us do 
programs, because it is a good chance to show off what they can 
do and have been doing for decades, we can probably institute 
them. Anything that was a partnership activity we would have to 
delay doing because it would require some other activities. So 
it would have an impact. Hopefully, we would know far enough in 
advance that we could come up with some alternatives, and we 
would work toward those alternatives, but it would have an 
impact.

                         CVC CONTINGENCY PLANS

    Mr. Latham. Is there any contingency plan, any thought--
since this is obviously not out of the realm of possibilities. 
It has happened the last 2 years under both parties' control 
around here.
    Ms. Wasserman Schultz. We didn't have a year-long CR this 
time.
    Mr. Latham. I have heard the rumor that there is probably 
not going to be a lot of bills sent up to the White House this 
year until after the elections.
    Mr. Ayers. Congressman Latham, we have not addressed 
contingency plans yet, and I think it is also important to 
think broader than the Architect of the Capitol. Certainly in 
terms of the CVC it could affect Police operations, the Senate 
and House Sergeants at Arms, the Chief Administrative Officer 
of the House, all of whom have a stake in the successful 
opening of the CVC. So it would be good to consult with them as 
well. It is early in our fiscal year. Quite frankly, we have 
not addressed contingency plans for fiscal year 2009 yet.
    Mr. Latham. I would just hate to see us have this big 
opening and then have the place not operational. Thank you very 
much.

                         CVC--MEETING ITS NEEDS

    Ms. Wasserman Schultz. Let me just say that I am not 
concerned about whether we end up in a CR. We got through this 
last fiscal year. Moving from the minority to the majority, we 
had a continuing resolution in 2007, and in 2008 we had an 
omnibus act where we made sure that the needs were met. And I 
feel quite certain that we will make sure that needs are met in 
this fiscal year as well.
    Obviously, there always needs to be contingency plans. This 
is a very nimble subcommittee. The Appropriations Committee is 
nimble. We have the ability to move money around to make sure 
that the operations that we need to continue will do so. So I 
feel quite confident that we will be able to make sure that we 
manage regardless. But we should all be committed to working 
diligently to make sure we do not have a CR, and that we get 
our bills passed and sent to the President and do the work of 
the American people that we were sent here to do.

                     FIRE ALARM ACCEPTANCE TESTING

    I have a number of questions about the fire alarm 
acceptance testing. I noted in Mr. Dorn's statement that we 
have made good progress. I want to compliment the Architect and 
the Fire Marshal and all the team of people that are working 
together to try to make sure that this massive, massive project 
is going along at a good clip. And I can see that we have made 
economies and probably doubled up on testing and things that we 
could do simultaneously. That having been said, I know there 
have been consultants that have advised that perhaps the 
process that has been laid out does not have to be as lengthy 
as it is. And Mr. Dorn, you noted in your statement that the 
fire alarm testing is largely on schedule. But obviously that 
is the biggest pitfall that we are facing potentially if a 
wrench gets thrown into the works. So any economies that we can 
make that obviously do not jeopardize safety we should be 
making.
    The recommendations that came from consultants, so far 
those have not been accepted by the Fire Marshal. Can you talk 
about that, Mr. Dorn, and talk about perhaps what the 
differences are and the concerns and how we might resolve that?
    Mr. Dorn. I can talk about just some generalities, but they 
are certainly closer to the details than I am. My understanding 
is, again, there are a number of consultants, and also the 
internal fire protection engineers from AOC, who recommended 
that not quite as much testing of the smoke detectors, in 
particular, would be needed. We would not have to take every 
one of them down to test it. The Fire Marshal disagrees for his 
reasons. And there may be some other testing that also could 
possibly be shortened. AOC has been looking into this, and 
they--I believe they brought in the Office of Compliance to try 
to see what their opinions are.
    Ms. Wasserman Schultz. Their recommendations are 
forthcoming on the economies that might be able to be made?
    Mr. Ayers. I have them now. They were delivered yesterday.
    Ms. Wasserman Schultz. You have them now? Okay. Bernie?
    Mr. Ungar. I might be able to summarize for you.
    Ms. Wasserman Schultz. Okay.
    Mr. Ungar [continuing]. The suggestions we have gotten and 
where we stand with the acceptance testing plan. We had some 
advice from the General Services Administration and from some 
other fire protection engineers. There were three areas that 
they identified where we might be able to economize to some 
extent. One was the number of tests we did on each smoke 
detector. Another was the extent to which we test subsystems 
every time we do the smoke detector tests. Thirdly, how much we 
test what has been referred to as the CONOP, the different 
sequences. Basically, there are different professional opinions 
on whether or not we should do all the testing on each smoke 
detector, the three separate tests. The Office of Compliance, 
we just got their report yesterday, they believe that we should 
do the testing that the Fire Marshal has suggested, where the 
other consultants believed we do not need to do all three 
tests.
    Ms. Wasserman Schultz. I see.
    Mr. Ungar. I believe Mr. Ayers is going to go ahead and do 
what the current plan calls for. The other items would not be 
quite as much savings, but there is still some potential there. 
I do not know that any decision has been made on whether we 
might be able to do less subsystems testing and use some 
technology to help out there or not. There are two other 
suggestions that the Office of Compliance made. One was that we 
might be able to do, in effect, some probability sampling of 
this CONOP. I do not know that the Fire Marshal has actually 
made a decision on that yet. But another recommendation that 
was made could be very helpful to us in meeting the time frame. 
And that is a suggestion that we should consider allowing the 
operations staff to begin preparing for operations prior to the 
time that we have a temporary certificate of occupancy, 
assuming the testing is done in such a way as the building 
would be safe to do that. That could be a very helpful 
suggestion if it is adopted.
    Mr. Ayers. Madam Chair, if I may?
    Ms. Wasserman Schultz. Yes, Mr. Ayers. My time has expired.

                      OFFICE OF COMPLIANCE REPORT

    Mr. Ayers. I did read the report from the Office of 
Compliance this morning. I would just like to commend Mr. 
Eveleth and Charles Tetro who wrote the 16-page report. It is 
an absolutely outstanding analysis of the issues. It is very 
well written. And it takes a very sophisticated and complicated 
issue and boils it down to something that is very readable and 
easily understood. So I would encourage all of you to read it. 
And I will give you two sentences: The Architect of the 
Capitol's Life Safety Acceptance Plan for the CVC represents a 
reasonable and reliable means to confirm the function and 
performance of the CVC's complicated Life Safety System. 
Accordingly, we agree with the determination of the Architect 
of the Capitol to proceed with the acceptance testing as set 
forth in the plan. So I think we are doing the right thing.
    Ms. Wasserman Schultz. Okay. Great. Thank you very much. My 
time has expired.
    Ms. Lee.

                   CVC HIRING AND STAFFING DIVERSITY

    Mr. Lee. Well, just following up on my previous questions, 
I just want to ask Ms. Rouse, first of all, let me commend you 
for your efforts at ensuring that the hiring process and the 
staffing reflect the diversity of the millions of Americans who 
should be reflected in the staffing of the center. A couple of 
things with regard to some of the openings. As you do your job 
fairs, it would be helpful if you would send information to of 
course the Hispanic Caucus, Asian Pacific Caucus, and the 
Congressional Black Caucus in terms of postings, because we may 
be able to help you just in your outreach efforts. And 
secondly, I would like to get an understanding of the process 
of how you select suppliers, and the difference between that 
process and the contracting process, or is it all centralized, 
or how does this work?
    Ms. Rouse. And I will try to do my best, and I will provide 
any additional information for the record. What we will be 
using moving forward with the CVC is an initiative to reach out 
to minority-owned businesses and small businesses. A lot of the 
highly craft objects that will go into the gift shop, for 
example, will probably come from small vendors. So we have been 
gathering names. We have also put an initiative out in the 
community, and our new gift shop manager is very familiar with 
that assortment of artisans. So we want to make sure that they 
are represented, and also make sure that they understand our 
process, and are not overwhelmed by what looks like government. 
So there will be a little bit of hand holding.
    We did hire someone in the procurement department who can 
be helpful in answering questions that often come from someone 
who is not familiar with the system.

                          TRAINING INITIATIVES

    We have some other initiatives regarding training. We are 
also trying to gather names of various types of training 
organizations who could be responsive to our RFP about training 
for what is going to become our CHIP program and then our staff 
program. It is a particular passion of mine that we be able to 
have people be well prepared on the floors, not only just on 
simple questions, but if they are also doing guided service. 
Also as we train staff, that we are providing them with the 
best possible opportunity. So it is gathering people in. It is 
a combination of us having some initiatives and making sure 
people know about them and it is a procurement process, larger 
procurement or RFP.
    Mr. Lee. Is this national? Is it a national search that you 
engage in or is it primarily regional, local?
    Ms. Rouse. The gift shop, to my understanding, is national. 
It is knowing who is out there, if you will, and then the more 
people know, they seek us out. I guess with the general RFP, 
that would go as far as we possibly could.
    Mr. Lee. Okay. Mr. Ayers, in terms of the contracting 
process with regard to say the construction, the big contracts, 
is this centralized?
    Mr. Ayers. The way we run our procurement function is we 
actually have a decentralized procurement office. We have a 
central procurement office with our contracting officer and 
contract specialists, and then, as you know, we operate with 10 
separate appropriations and what we sometimes call 
jurisdictions, the House, the Senate, the Supreme Court, 
Library of Congress, Capitol Building. Each of those respective 
offices or business units have procurement professionals in 
them as well.
    Mr. Lee. I see, okay.
    Mr. Ayers. So in that regard we run a decentralized 
procurement operation. Typically, we compete construction 
contracts through the standard Federal procurement guidelines, 
and we advertise, and people nationally can bid on those 
things. They typically are won by more regional companies, 
because they can obviously do it cheaper.
    Mr. Lee. So all of the branches, the 10 branches understand 
what the new requirements are----
    Mr. Ayers. Absolutely.
    Mr. Lee [continuing]. As it relates to small businesses, 
minority, women-owned businesses?
    Mr. Ayers. Right.
    Mr. Lee. Thank you very much.

                          RECRUITMENT EFFORTS

    Mr. Ayers. If I could just further embellish and compliment 
Terrie on her recruitment efforts, I know that she has 
advertised all of those jobs to the Federal Asian Pacific 
Council, the Blacks in Government, the American Association of 
African American Museums, the Society of American Indian 
Government Employees, and the list goes on and on. She has 
really done a great job of casting a wide net to recruit the 
talent to run the CVC.
    Mr. Lee. Great. Thank you.
    Ms. Wasserman Schultz. Thank you, Ms. Lee.
    And Mr. LaHood, I apologize for skipping you. Mr. LaHood.

                       GOVERNANCE AND LEGISLATION

    Mr. LaHood. Not at all. I want to go back to this 
governance thing, because I think it is going to be a serious 
problem. Unless you are intimately involved in the legislation, 
or our subcommittee is, things change very quickly around here, 
vis-a-vis Mr. Latham assuming the ranking member position. And, 
you know, I know that while you are Chair of this subcommittee 
you will pay attention to this. But I assume that if an 
opportunity is provided for you to move to another subcommittee 
and chair it, you would take advantage of that. And I am just 
saying this, when this project was started it was started under 
Republican leadership. It was started by people who are no 
longer in the Congress. And we need to have some say in 
whatever legislation is developed. If we do not, we are going 
to be sitting on the sidelines, and when complaints come in 
about who is running things and who is responsible, we are not 
going to be at the table. So if the House Administration 
Committee is developing the legislation, I hope we are going to 
be in the room when it is developed.
    And I hope our subcommittee is going to have some role to 
play. And I would even ask, if Mr. Dorn can play a role here by 
looking at the legislation that is being developed, because 
eventually if this thing is not working right, your office is 
going to be called in to find out and figure out what the 
problems are. And I do not know if you can play that kind of a 
role, Mr. Dorn, but we need to make sure that all the people 
that are going to have some say over this are at the table and 
in the room when the legislation is developed so that on day 
one, when the facility is opened, people around here know who 
is running this place and who has ultimate responsibility. So I 
will make that point.

                              STAFF TOURS

    The other point I want to make is on these tours, I have a 
Web site like most Members, probably like all the 434 Members 
of the House, and I assume all 100 Senators do, I have a Web 
site where people can click in and order a flag, request a 
tour, but the vast majority of people call my office. You need 
to be sure that there is in place an opportunity for all 435 
offices and 100 Senators' offices, there has to be clear lines 
of understanding here or you are going to have a huge mess on 
your hands when individual Members want their staffs to give 
staff tours.
    That has become, I think, one of the services that our 
offices have provided that people have really appreciated. And 
I agree with what the chairwoman has said about this. People 
care more about a staff tour than they do about any bill that 
is ever passed around here. And if you do not get it right, you 
are going to be in for you know what around here by Members.
    This is as important as any piece of legislation that has 
ever passed. This is critical. And you know, the idea in your 
description of how people can click in and all that sort of 
stuff, a lot of people around this country do not have 
computers and do not have the ability to click onto a Web site, 
but they do have a telephone. Everybody in this country has a 
cell phone, and they know how to call their Congressperson in 
order to get a tour. And listen, we do not want to mess this 
up. I want you to get it right from the beginning, because if 
you do not, there is going to be you know what to pay around 
here.
    That is my admonition on that. Thank you.

          CVC OPERATIONS--APPROPRIATIONS COMMITTEE INVOLVEMENT

    Ms. Wasserman Schultz. No, thank you. I agree with you 100 
percent. And let me just add that the legislation, as I 
understand it, I have not read it yet, but the legislation that 
has been introduced by Mr. Brady and Mr. Ehlers related to the 
CVC operation includes the Appropriation Committee's 
involvement, our signoff on the various processes that they 
will go through. As I review it, I will make sure that we have 
the appropriate amount of involvement, if we do not already.
    Mr. Latham, I would ask your assistance in that, because 
obviously we are going to be expected to appropriate whatever 
funds are needed to operate the CVC. And let me just remind all 
the witnesses that you made reference to your oversight 
committees. Those are not limited to just the Senate Rules 
Committee and the House Administration Committee. This 
committee is an equivalent when it comes to oversight. And we 
would expect that you would include us and keep us apprised and 
involved, not just told, but involved in the process as you go 
forward with your plans to begin opening and operating the CVC. 
Thank you, Mr. LaHood.

                 FIRE ALARM ACCEPTANCE TESTING PROGRESS

    Obviously the fire alarm acceptance testing plan is really 
significant. It could potentially be the biggest factor in 
whether or not we get thrown off track. And through our 
oversight hearings, we will continue to keep close tabs on the 
progress of that. I have really been pleased with the progress 
we have been making. The margins are very close, we do not have 
a lot of wiggle room, so we have to make sure that we are 
vigilant, that you get what you need from us, and that you are 
paying very close attention to it. And the homework that I have 
is related to that as well.

                       ELECTRICAL VAULT CONCERNS

    I want to jump to the electrical vault issue, because that 
is also another problem that potentially could result in 
throwing the schedule off. I know that you have been working 
hard to resolve the three existing electrical vaults that were 
inhibiting the paving portion of the plaza. They were put in 
the wrong place, and that that is in the process of being 
worked through. I have been reading the weekly reports. Can you 
give us, Mr. Ungar, a status update on where we are with that?
    Mr. Ungar. Yes, Madam Chair. Actually, as we speak our 
architectural consultant is surveying the area. By the end of 
this month we would hope to have a design from them as to how 
to do the construction. Then our Sequence 2 Contractor is ready 
to roll. We also have to have a contractor that has been 
approved by Pepco to do a major portion of this work. We will 
need to get Pepco's signoff on our design. They have agreed to 
give us expedited service in reviewing that once we get the 
design done. So we hope to start the first part of March. Then 
it will take several months to do that. I do not suspect it 
will adversely affect the opening, because we hope to have that 
work done by the end of August or early September at the 
latest.
    Ms. Wasserman Schultz. What about the 621 number?
    Mr. Ungar. It is going to be more than we anticipated, but 
we do have contingency funds available. So I do not believe at 
this point in time that it is going to affect that.
    Ms. Wasserman Schultz. In the spirit of making sure that 
something like this does not happen again, how is it that this 
happened?
    Mr. Ungar. The best I can determine, and we will look more 
into this, Madam Chair, apparently a while ago, when the firm 
that was doing the initial survey work for us did it, it 
apparently did not do thorough enough research on the depth of 
these manholes and the Pepco requirements. It was not until 
recently that we learned that we were not going to have enough 
distance to meet Pepco's requirements. So that is what threw us 
off. Once we learned we had the problem, we obviously got right 
on it.
    Ms. Wasserman Schultz. Okay. Well, I know you are 
monitoring it very closely, and the reports that we get give us 
very specific detail on the progress. So I appreciate that. 
When were those installed? I know we realized it fairly 
recently, but at what point in the process were those 
installed?
    Mr. Ungar. I do not know that they are new. I believe there 
are two existing ones. The problem is that we do not have 
enough distance between those manholes and the electric vaults 
with the cable. We have to add a third one. Of course, we will 
have the distance requirements for that.

                        CHANGE ORDER MONITORING

    Ms. Wasserman Schultz. Okay. On the issue of change orders, 
I watch the change order section of the report every week. 
There are some weeks that you have come in where you have 
resolved more change orders than you have had come in. The last 
couple weeks we have had more change orders come in than you 
have resolved. And they are starting to drop in terms of the 
amount that they cost, but it is a little disturbing that we 
are not changing the number. Mr. Dorn referenced that that 
could eventually--I mean months ago he referenced that the 
change orders issue could eventually become a problem in terms 
of the critical path.
    Mr. Dorn, do you still have that concern or do you think 
that the progress that has been made has been made steadily 
enough that they will not affect the opening?
    Mr. Dorn. As far as schedule, the AOC has been able to work 
around these change orders by giving the contractor permission 
to start on some of them with a not-to-exceed number, so he has 
been able to mitigate most of the schedule impacts so far. What 
you have I think more than schedule impact is just an unknown 
cost. We have got estimates put together to give a range of 
where we think those costs are going to be, but it is still an 
uncertainty.
    Ms. Wasserman Schultz. When do we anticipate the number of 
change orders coming in will begin to slow? Because that would 
be nice.
    Mr. Ungar. We hope that will take place in March, Madam 
Chair. We have only a few areas of the CVC for which 
construction is not complete. The East Front, the House Hearing 
Room, the Tunnels and exterior landscaping. We are still, 
unfortunately, running into some structural issues and some 
conflicts in the East Front. I suspect we will have a few more 
of those. I hope not, but I suspect so. I think they are dying 
down in the Hearing Room. I suspect we will have a few more 
come in. We also are beginning to do what we have termed some 
auxiliary projects. We may get a few on those. For example, 
congressional leadership would like to have us install 
information desks in the CVC. We have intentionally held off on 
doing that until after substantial completion so we can get the 
acceptance testing done. There are a few projects like that 
that we have held off on. My suspicion is we may get a few 
changes. They will not be significant. But in terms of count, I 
mean the numbers, the dollar amount will not be high, but the 
count will be there. But I think in reality the only way to do 
this any quicker would be to ask our construction manager to 
bring on more staff to process these quicker. But if we were to 
do that, the Sequence 2 Contractor and subcontractor would also 
have to add staff. At this point, I think everybody has 
concluded that it is not a major problem. We would certainly 
like to get them reconciled, but it is not a major problem.

                            PUNCH LIST ITEMS

    Ms. Wasserman Schultz. As long as you are still 
anticipating it is not a major problem. On the punch list 
items, we recognize that you can open the CVC with punch list 
items left. I mean 50 a day is not a number that scares me that 
much. But of the significant punch list items that need to be 
dealt with before, do you have any concern about dealing with 
those and getting those put aside? And then obviously the 
little touch-up paint issues and smaller ones could continue 
after the opening. Do you have any concern about not getting 
those accomplished by the time we open?
    Mr. Ungar. At this point we do not, Madam Chair. We are 
going to sit down shortly and go through these. I just might 
add that the punch list right now is going to go up and down 
because we have not finished work in the East Front yet and a 
few other areas. We are going to be obviously reviewing those 
and adding to the list at the same time it is going to be going 
down. We are going to be going through that with our 
construction manager, and we are going to make sure and work 
with our contractor to make sure that anything that possibly 
could hold up opening is addressed in sufficient time. Our 
contractor has been very good about working with us in areas 
like that.
    Ms. Wasserman Schultz. In the change order section, or 
wherever you think it is appropriate on the weekly report, if 
you could add a progress report on how we are doing on----
    Mr. Ungar. Punch list?
    Ms. Wasserman Schultz. punch list items, that would be 
great.
    Mr. Ungar. Sure.

                          CVC TRAINING PROGRAM

    Ms. Wasserman Schultz. Let me just flip back to the staff-
led tour issue, and we can close it out on that. Ms. Rouse, we 
have all stressed how important it is that accurate information 
be relayed by Capitol guides and by our staff when they are 
giving a tour. And I know you are developing that CHIP training 
program. I am a little bit concerned about whether or not a 12-
hour training program, which is more than 2 days in terms of a 
workday, is necessary. Why is 12 hours a magic number? I mean 6 
hours out of 2 different days for any staff person that you 
want to get fully trained seems a little excessive. We do not 
want to love the training program to death so that it is 
difficult to get our staff members trained.
    Ms. Rouse. Well, we can always look at the hours. The 12 
hours, I think, works well. We worked with the training 
department. Because it is not only just the historical 
information, it is safety issues, it is trying to get them 
comfortable with this process, integrated into what has to be 
done, giving voice to the Senate and the House side in terms of 
the type of information that is there and their comfort level. 
Also it is a way for us to have staff who are short-term as 
well as long-term really become embodied with the services of 
the Capitol Visitor Center, to have them become part of us and 
part of Congress. So that is the reason for the 12 hours.
    I would also like to be able to, as we develop our 
volunteer policy, some of these staffers may want to become 
part of our volunteer corps as that is improved. So it is 
really a way to get people engaged. So that is the notion of 
the 12 hours. We were hoping, and we had talked to some of the 
Representatives' offices, that in those first series of 
classes, to use the congressional auditorium so we can do 400 
at a time, so within a couple of weeks we could have almost one 
thousand people trained.
    Ms. Wasserman Schultz. How often are you planning on 
running those? Because I saw that your proposal was monthly, 
once a month. That may not be enough.
    Ms. Rouse. That is true. When we first start we are going 
to try to backload and get as many done as we possibly can. 
Then we will be able to test the waters and see how it is all 
going. But initially, it will be to do as many as the demand 
supplies. Of course, we will be scheduling around other events 
in the Congressional Auditorium. We are also going to explore, 
if necessary, a space that is not directly on the Hill, or 
across the street or someplace in the event that, we get bumped 
out of the Congressional Auditorium.

                        TRAINING PROGRAM OUTLINE

    Ms. Wasserman Schultz. Do you have an outline of the 
proposed training program? If you could submit that for the 
record I would appreciate that.
    Ms. Rouse. Sure.
    [The information follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Wasserman Schultz. So we can see what process you are 
taking that through for training. And then my last question 
before we wrap up and I give you the monthly homework is I am a 
little bit concerned about your communication plan, because we 
do not really have a sense of just how many visitors are going 
to come through right at the beginning. Like you said, you have 
D.C. Residents that will come in initially, and we expect a big 
influx in the spring, and obviously with any opening you have 
kinks that you are going to have to iron out, which is why you 
are going through that first annual series of activities. I 
would strongly suggest you not implement a marketing and 
outreach and communication plan until after the kinks are 
ironed out. You are not planning on inviting the world at the 
point that we open, are you?
    Ms. Rouse. We are in the reverse problem. I think everybody 
will know that we are opening. Our goal is to make sure that 
everyone who comes to the Hill is properly prepared. That is 
our whole public awareness approach, that people know they 
should not bring bottles of water, they should not bring their 
backpacks. We often run into the fact that people do not know 
how to access the people's House. So there is a lot of 
confusion in the tourism publications. So we want to get the 
word out so it is correct, so people are prepared from that 
standpoint. That is how we see it is not marketing proactively, 
it is marketing to inform. So that is our public awareness 
approach.
    Ms. Wasserman Schultz. As far as the proactive marketing, 
though, because eventually I assume you will market and 
encourage people to come. That is down the road? Good.

                         Chair Closing Remarks

    Okay. Again I want to welcome Mr. Latham. I am truly 
looking forward to working with you, and appreciate all the 
input that we have had from Members over time. I also want to 
thank the whole CVC team and the Architect of the Capitol for 
the progress that we have made. We have a long way to go, but 
we have come really far in the last year. But what has become 
clear to me from this hearing and over the last number of 
months is the fire alarm acceptance testing is really going to 
be the key to whether the project stays on schedule. All these 
other things, they are sort of an annoyance, they are an 
irritant, but they are not what makes my heart pound at night. 
I never thought fire alarm acceptance testing would make my 
heart pound at night, but it does.

                     CHAIR'S ADDITIONAL ASSIGNMENT

    Mr. Dorn, you testified about the consultants having 
different advice and different opinions. And I know you have 
chosen at this point to go with the Fire Marshal's 
recommendations according to the existing plan. But we need a 
clear understanding. If you can give us each recommendation 
that has been made with regards to the testing plan, which 
consultant or agency made each recommendation, what the 
potential impact of each recommendation would be on the CVC's 
project cost and schedule, and what has been done to implement 
each recommendation or the reasons why a particular 
recommendation has not been pursued. And if you could prepare 
that in a summary paper no later than noon, next Friday, 
February 15th, I would appreciate it.
    Mr. Latham, you have anything else to add?
    Mr. Latham. No. I just appreciate the panel, say thank you 
very much for the great job you are doing, and quite honestly, 
I hope I do not get to the point where my heart pounds----
    Ms. Wasserman Schultz. I hope not either.
    Mr. Latham [continuing]. Over fire testing.
    Ms. Wasserman Schultz. With that, the subcommittee stands 
in recess, subject to the call of the Chair. 

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                      Wednesday, February 13, 2008.

                        ARCHITECT OF THE CAPITOL

                                WITNESS

STEPHEN T. AYERS, AIA, ACTING ARCHITECT OF THE CAPITOL

                         Chair Opening Remarks

    Ms. Wasserman Schultz. Good morning. I am pleased to call 
to order this hearing of the Legislative Branch Subcommittee of 
the House Committee on Appropriations.
    This is our first in a series of hearings on the 
Legislative Branch agencies. Collectively, the agencies have 
asked for an approximately 19 percent increase. Given that in 
the last two cycles we have had either a 2 or a 3 percent 
increase in the Legislative Branch overall, I think that we are 
going to need to pare down expectations and inject some realism 
into what is likely to happen versus what I think most of us 
would like to happen.
    I certainly am committed to making sure that we do as much 
as we can and, like we did in the 2008 cycle, deal with the 
``must haves,'' the ``got to haves'' and the essentials as 
opposed to the, ``gee, it would be nices.'' We are going to be 
considering a $3.7 billion request from the Legislative Branch, 
a $587 million increase over FY 2008. If you add the Senate 
items, we end up going over $4.7 billion.
    That having been said, I know the Acting Architect of the 
Capitol, Mr. Ayers, has put together a proposal. Based on the 
long-term hearings that we had last year, you got a pretty 
clear indication of what my priority is in terms of making sure 
that we look forward towards what the needs are as far as 
shoring up the Capitol complex and in making sure that we 
address the facilities' needs and the infrastructure's needs. I 
know, in your proposal, you have done that. You have definitely 
indicated all of the needs that you have and have laid them all 
out there. So I appreciate that. It helps in terms of 
understanding the magnitude of the problem that we are facing.
    So I do not want you to take my expression of realism to be 
a criticism of your request, because I completely understand 
why you have laid it all out there and have expressed to us 
just exactly what we are facing in terms of needs.
    Our job as the Legislative Branch Subcommittee is to be the 
stewards of these facilities, the financial stewards of these 
facilities. House Administration oversees the day-to-day 
operations, but we are the ones who fund the infrastructure. If 
something is crumbling, it is our responsibility to make sure 
it gets taken care of.
    I know that your budget proposal this year looks toward 
making sure that we are fiscally responsible by trying to focus 
on paying for today what we can get done so that it is not more 
expensive tomorrow. And I think that is a really responsible 
way to approach it. But we are still going to have some very 
tough choices, just like we always do.
    I am looking forward to hearing your remarks.
    Mr. Latham, welcome to your first budget hearing on the 
Legislative Branch Subcommittee.

                  Congressman Latham's Opening Remarks

    Mr. Latham. Thank you very much.
    I look forward to the testimony today and to hearing your 
request.
    I have a particular concern about all of the deferred 
construction and all of the pending problems that we have out 
there. Hopefully, we can target our funding to things that are 
really needed. I look forward to hearing your testimony but 
also to asking you a few questions. So thank you.
    Ms. Wasserman Schultz. Thank you, Mr. Latham.
    Mr. Ayers, your statement has been received and will be 
entered into the record at this time. If you could proceed with 
a short summary of your statement.

                    Opening Statement--Stephen Ayers

    Mr. Ayers. Thank you, Madam Chair and Congressman Latham. 
Thank you for the opportunity to testify today regarding our 
fiscal year 2009 budget request.
    It was a little over a year ago that I began serving as 
Acting Architect and nearly a year ago that I first testified 
before this subcommittee on our budget operations and 
accomplishments.
    This budget represents change for the AOC. It represents a 
change in leadership and a change in direction. It represents 
change from a reactive organization, one that has often been 
caught flatfooted and faced with significant problems, to one 
that looks forward, plans and takes action to anticipate 
problems and to prevent a crisis.
    This has also been a year of growth for the AOC. 
Specifically, we have seen our scope of responsibility grow 
from 15 million square feet to nearly 16.5 million square feet 
and from 370 acres of land to more than 450 acres today. With 
that additional responsibility comes added cost for 
maintenance, staff, utilities and physical security.
    At the same time, the historic buildings and other physical 
infrastructure in our care continue to age. In addition, as 
fire and life-safety standards have become more stringent since 
these buildings were constructed, we face significant 
requirements to abate Office of Compliance citations and 
improve fire safety conditions throughout the Capitol complex. 
We are committed to ensuring that these deficiencies are 
corrected and that significant resources are put toward these 
issues.

                         UNFUNDED REQUIREMENTS

    We have a backlog of more than $600 million in deferred 
maintenance and $800 million in capital renewal projects. As 
the AOC continues to be unable to fund these projects, this 
``bow wave'' of unfunded requirements continues to grow. We 
have developed this budget through a deliberate planning 
process, and it reflects only the highest-priority initiatives 
for funding our core activities. We have already made some 
difficult choices and have not requested funding for a long 
list of projects, additional staffing, and several operational 
initiatives.
    We also recognize that this is a significant request in a 
time of fiscal restraint. We believe that, without this 
important investment in facilities, they will continue to 
deteriorate. We believe it is fiscally responsible to request 
the funding needed now instead of waiting until facilities are 
in a crisis and beyond repair, thereby costing millions more to 
restore, renovate and renew.
    If not addressed, facility requirements will only continue 
to grow more serious and more expensive. Therefore, we are 
requesting $642.7 million for fiscal year 2009.
    Our 2009 annual operating budget request of $384.4 million 
provides funding for operations and for maintaining the 
infrastructure that supports the Congress as well as AOC's 
internal infrastructure systems. This increase of $48.1 million 
is driven primarily by the upfront investment requirement to 
meet legislated energy usage decreases as well as to fund the 
initial full-year operations of the Capitol Visitor Center.
    The second component of our budget request is $258.2 
million for capital projects. Chief among our responsibilities 
is maintaining, preserving and upgrading the national treasures 
entrusted to our care. Determining which work is done first and 
where our limited resources are best used involves a deliberate 
approach and multi-year project planning. Our primary focus is 
on ensuring that fire and life safety deficiencies are 
corrected first.

                            AOC ACHIEVEMENTS

    Madam Chair, as I noted earlier, the past year has been one 
of significant achievement for the AOC. In addition to meeting 
the substantial completion date for the Capitol Visitor Center, 
some of our other accomplishments include adding the Library of 
Congress's new National Audio Visual Conservation Center to our 
inventory; signing into effect a collective bargaining 
agreement with AFSCME Local 626; completing office moves for 
the 110th Congress, including 181 House offices, 20 House 
committees, 21 Senate offices, and nearly 840 Senate staffers. 
Additionally, we have closed out 65 of 98 items or citations 
from the Office of Compliance. We also have closed out 54 of 72 
GAO recommendations aimed at improving the organization. And we 
have received our fifth consecutive clean financial audit 
opinion from our independent auditors.
    Internally, we continue to foster a results-oriented 
workplace and encourage communication and teamwork throughout 
the organization. I am pleased to report that a direct result 
of our efforts is a decrease in our injury and illness rate for 
the eighth year in a row.
    We greatly appreciate this subcommittee's support and the 
investment that Congress has made in our facilities and 
infrastructure in recent years. However, as these buildings 
continue to age, they will require significant repairs and 
renovation, and this will require significant investment. We 
are committed to working with the Congress to address this 
backlog of maintenance and repair projects.
    Over the past year, the AOC has accomplished much and has 
experienced several successes. These achievements can be 
directly attributed to the dedicated and professional 
individuals that make up our team. In my role as Acting 
Architect, it is a great privilege and an honor for me to work 
alongside them every day.
    Thank you once again for the opportunity to present our 
FY2009 budget, and I am happy to answer any questions you may 
have.
    [Mr. Ayers' statement follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
                          FDA BUILDING PROJECT

    Ms. Wasserman Schultz. Thank you very much, Mr. Ayers. I 
appreciate your testimony, and I also appreciate that you are 
focusing on life-safety and security issues. We did have a big 
security focus last fiscal year, and we continue to have one.
    I note that you have the list of recommended construction 
projects versus deferred construction projects. I am going to 
want to ask you about that at some point during the hearing.
    Because I know it will come up, I would like to ask you to 
touch on the FDA building for a couple of minutes. We made an 
investment in security enhancements for the FDA building last 
year of $16 million so that it could be used as swing space and 
so that we could work toward getting that ready for our plans 
to begin renovating and addressing the life-safety issues in 
the Cannon building. That is around 2012, from what I 
understand. So, in order to be able to use that space, we have 
to get it ready. That decision was the result of bipartisan 
approval in the 108th Congress, and it was signed off on by the 
House leadership at the time.
    This fiscal year you have requested $15 million, which, to 
my understanding, begins the reconfiguration of the interior of 
the FDA building. Can you briefly describe what the whole 
project entails, why it is important to the future of the 
Capitol complex, and just describe the current state of the 
100-year-old Cannon building and the 75-year-old Longworth 
building for us, please?
    Mr. Ayers. Yes, ma'am.
    The Cannon building is celebrating its 100th anniversary 
this year. It has never had a top-to-bottom major renovation, 
and we do have some significant infrastructure problems there. 
It is one of the buildings that is in the worst condition 
throughout the Capitol complex. So, as you noted, it is in 
deteriorating condition. We have several HVAC issues. We have 
numerous life-safety issues. We have egress problems, 
electrical problems and the like. That building does need a 
top-to-bottom renovation, and we do hope to be able to do that 
in accordance with our Capitol Complex Master Plan in 2012 or 
2013. That is a major investment.
    So, to enable that to happen, of course as building 
managers we would love for that building to be vacant. That is 
the most expeditious way to do it and, of course, the least 
expensive way to do it. That is simply not a reality here in 
the Capitol complex, so we have to go out and find space in a 
phased way to go about that Cannon renovation.
    FOB-8 is, we think, the best alternative to do that. As you 
noted, we were directed by the Congress to acquire that space 
in 2003. In that building, we plan to lease, approximately 
200,000 square feet of space so that we can renovate the Cannon 
building one floor at a time. So to do that, first, we have to 
acquire some leased space and renovate that leased space to 
accommodate staff. Our position is we cannot move Members to 
FOB-8, so we are going to have to reconfigure Longworth and 
reconfigure Rayburn suites to be able to move Members, floor by 
floor, out of Cannon and then move staff and other committees 
and the like to FOB-8.

                    BEST ALTERNATIVE FOR SWING SPACE

    Ms. Wasserman Schultz. Let me interrupt you for a quick 
second and ask, I know that there were different options 
considered for how to deal with the swing space. Why is leasing 
space in the FDA building the best alternative to get the swing 
space that we need? There were other options that were looked 
at. Why was this settled on as the best one?
    Mr. Ayers. It was the least expensive.
    Two of the other options that we looked at, one of them was 
to add an addition to the Rayburn building. If you look at the 
west front of the Rayburn building, that end of the building is 
open, and there is a plaza there that faces west. So we could 
fill that end of the Rayburn building in and do that 
construction and use that as swing space. That was 
significantly more expensive than leasing space.
    Similarly, we looked at new construction and what that 
would cost, and that was also more expensive than leasing 
space.
    Ms. Wasserman Schultz. I would like to, at this time, enter 
into the record a letter that was signed by former Speaker 
Hastert, former Majority Leader Tom DeLay, and former Minority 
Leader Nancy Pelosi, dated June 4th, 2003, which requests the 
approval to move forward with the renovation of the FDA 
building and obligates the House to move forward.
    [The information follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    My time has just about expired, so I will move on to Mr. 
Latham.

                            LONG-TERM COSTS

    Mr. Latham. Yes, I just want to maybe follow up on that.
    Long-term, what is going to be the cost to renovate Cannon, 
and the cost of the FDA building? What are we looking at and 
how long?
    Mr. Ayers. The FDA building, we have invested approximately 
$19 million in that to date. We think the total security 
upgrades and fit-out of that space to accommodate the swing 
space would be about $45 million to $50 million. On top of 
that, our annual lease costs are estimated by GSA at $10 
million to $15 million per year for that 200,000 square feet. 
So that is the FDA building, or FOB-8.

                           CANNON RENOVATION

    In terms of the Cannon renovation, our parametric estimates 
now are about $450 million for that top-to-bottom, phased 
renovation.
    In terms of schedule, we believe that the FOB-8 building 
will be finished around 2012. We could, through 2012, begin 
moving people into that building, leading to the potential to 
start on Cannon in late 2012 or 2013.
    Mr. Latham. Okay. And you are saying that you are not going 
to move Members over there? You are going to move committee 
staff, other staff in the Cannon building over there? So it 
will be disruptive, obviously. How are you going to do it? 
Floor by floor?
    Mr. Ayers. We still need to go through all of those 
planning assumptions, but, certainly, our going-in position 
and, I think, the Committee on House Administration's going-in 
position is that moving Members to FOB-8 just won't work. So we 
are going to have to do that through staff moves and committee 
moves and support function moves.
    At this time, we do think that the best way to do Cannon is 
floor by floor.
    Mr. Latham. Okay. How many suites on each floor are you 
talking about?
    Mr. Ayers. I think there are 40 or 41.
    Mr. Tiscione. The maximum is 41.

                         HOUSE METERING PROJECT

    Mr. Latham. Okay. On the metering issue, I brought it up in 
the last hearing on the CVC, I think it does relate to the CVC. 
The reprogramming request for the metering project--and it is a 
little frustrating to me that this, apparently, was--a request 
or a directive was given at a time when we were under a CR, and 
negotiating with the Senate. We underfunded the Members' 
representational accounts, yet we are still, at the same time, 
asking for about $4.2 million to be put in the metering.
    Can you tell me what all this entails? What actually are 
you trying to do? Is $4.2 million enough in the scope of this 
project?
    Mr. Ayers. The metering effort is focused on the House side 
of the Capitol complex, so we intend to meter all utilities. 
That would be water, steam, chilled water, and electricity at 
the power plant.
    So that would entail the installation of about 130 meters 
throughout the House side. Most of our buildings are configured 
where we have multiple feeds for electricity, steam and chilled 
water for redundancy issues and maintenance purposes. So each 
of those feeds to every building will need a meter so that we 
can get accurate metering.
    So, to do that, we will install all of those meters. They 
need to be tied back through wiring and infrastructure, back to 
a central computer station; then, from that computer, wired 
back out to each facility. Part of the scope of this effort is 
to provide a display in the lobby, in some cases multiple 
displays in each of the House buildings, which will show real-
time the energy usage for that particular building.
    We do think $4.3 million is the right amount of money. We 
have engaged a third-party cost-estimating consultant to 
prepare that cost estimate for us, and we have had a long-term 
relationship with that company. They do very good work.
    Mr. Latham. Okay. I think my time has expired.
    Ms. Wasserman Schultz. Yes.
    Mr. LaHood.

                       CVC GOVERNANCE LEGISLATION

    Mr. LaHood. Madam Chair, I just want to note for the record 
that the House Administration Committee has passed a bill 
designating the House Administration Committee and the 
appropriate Senate committee to have jurisdiction, or 
governance, over the CVC. There is no mention of any other 
committees. It would be my intention--and, I would hope you 
would support this--that either you or this subcommittee would 
go to the Chair of the House Administration Committee and see 
if there is a possibility of amending the bill to include other 
committees that are going to have responsibility for funding. 
Otherwise, I think we ought to consider amending the bill on 
the floor.
    So I will just state that for the record, because we had 
quite a discussion about who is going to have governance over 
the CVC. You made it pretty clear that you thought our 
committee or at least a committee of Appropriations should have 
some say in who is going to have governance, and that is not 
apparent at all in the bill that was passed out of the 
committee. So that is just for the record.
    Ms. Wasserman Schultz. If the gentleman would yield----
    Mr. LaHood. Yes.
    Ms. Wasserman Schultz. I completely agree with you. My 
understanding was that we were referenced in that legislation. 
If we are not referenced adequately, then I would support an 
amendment at any point in the process to ensure that we are. 
And I would go to the House leadership and ask Mr. Latham to go 
to his leadership to ensure that the appropriators are part of 
that process.
    Mr. LaHood. Thank you.
    Ms. Wasserman Schultz. Absolutely.

                         JACKSONVILLE BANDSTAND

    Mr. LaHood. Mr. Ayers, as you might recall, I gave you a 
note about a very parochial issue that I have been working on 
for a number of years as a member of this subcommittee having 
to do with the moving of the so-called ``Jacksonville 
bandstand'' to the Capitol complex. I do not want to take the 
time of the subcommittee, but if you could provide a written 
response to me as to what direction I should go to make that 
happen, I would appreciate that.

                  CONTINGENCY PLAN FOR CRITICAL NEEDS

    You know, this idea of renovating buildings and your budget 
submission here are probably--well, it is overwhelming to me, 
as one committee member, because I think it is very difficult 
for this subcommittee to get our arms around that and to really 
fully understand the importance of it, which leads me to ask 
you:
    What happens if the subcommittee and the full committee do 
not allocate the amount of money that you are requesting? Do 
you have contingency plans for staging some of these things and 
for alerting us to what are the most urgent? I mean, are all of 
these things urgent and of high importance, or are there ways 
that you can alert us to the ones that are most important?
    You know, a $48 million increase is quite extraordinary. 
You know as well as I do the kind of fiscal constraints that we 
are facing around here. I have no idea what we are going to do, 
but I wonder if you have given thought to the idea that you may 
not get all of the money that you are requesting.
    How do you come up with a plan to accommodate what you feel 
are critical needs around here for aging buildings?
    Mr. Ayers. Yes, sir. Of course, I did receive your note, 
and we have been in contact with your Chief of Staff on the 
Jacksonville bandstand, and I will provide a written response 
to you on that as well.
    Mr. LaHood. Thank you.
    Mr. Ayers. I am happy to do that.
    In terms of the contingency plans, this organization, I 
think, has really grown in recent years, and we now have the 
tools at our disposal so that we can look forward and make 
predictions as to what is our worst building and why. We have 
this computer program that can predict what investments need to 
be made and how they will affect the condition of a particular 
building. That is called the ``Facility Condition Index.'' It 
is a standard tool from the Federal Facilities Council that we 
have been using for about 2 years now.
    So I think we have the tools in place to help predict when 
we need to make certain investments. So that tool, combined 
with the Capitol Complex Master Plan, helps us phase over time 
everything that needs to be done in all 33 buildings in the 
Capitol complex. They are important tools that enable us to 
inform you effectively of what needs to be done and when it 
needs to be done.

                     PROJECT PRIORITIZATION PROCESS

    Secondly, our project prioritization process that we have 
described in past hearings and in our budget book, we do 
classify every project that is on this list as immediate, 
meaning it needs to be done now, and that is what we have 
included in our budget request; high urgency, which needs to be 
done in the next 2 to 4 years; and then medium and low urgency.
    So we have mapped out what we think needs to be done right 
now, what needs to be done in the next 2 to 4 years, and what 
can really be pushed out for several years. We have those tools 
at our disposal, and we will continue to work with the 
committee using those tools to evaluate various funding 
scenarios.

                            PROJECT BACKLOG

    Ms. Wasserman Schultz. The gentleman's time has expired.
    I want to follow up on the question that Mr. LaHood asked 
because, really, we have a resources-versus-demands concern 
with your agency.
    We held a hearing last year on your long-term needs. You 
noted a large backlog of projects that exist. We had some back-
and-forth last year on where your program put the projects, 
above the line or below the line, and we moved some projects in 
this committee from below the line to above the line, which I 
would not be surprised if we did again.
    As I get a better understanding of what is on the list 
above and below your line, we will ask you specific questions 
about how those things fell out. You know, we tried to fund 
what we could, and we tried to help you prioritize, and you did 
a good job prioritizing.
    Can you give us a sense of how high your annual 
appropriation would need to be sustained for the foreseeable 
future to really address your infrastructure needs and demands?
    Then the other issue is I know you are doing things 
internally to address the backlog because, obviously, you are 
not going to get everything that you have requested. So what 
tools and funds are you using that are available to you to 
address the needs that we cannot provide directly for you?
    Mr. Ayers. Yes, ma'am. In our budget binder, we worked to 
map out on that chart, graphically, ultimately, what is in 
front of us, and I am sure you have taken a look at that.
    Ms. Wasserman Schultz. Yes.

                       REINVESTMENT IN FACILITIES

    Mr. Ayers. One of the important parts of that chart is this 
gray bar, which represents the reinvestment in facilities. 
Typically, the Federal Facilities Council and other agencies 
recommend a 2 to 4 percent reinvestment in your facilities 
based upon your plant value. Our plant value is about $8.9 
billion, which would lead us to an approximate $180 million 
reinvestment in deferred maintenance and capital renewal 
projects. You will see that we have mapped that out on this 
chart at the 2 percent level, and are escalating that for 
inflation over the next 20 years. That kind of an investment 
over the long haul is what is necessary to prevent this kind of 
backlog from recurring. That's item A.
    Item B reflects that we need to make some investments now 
to abate the backlog so that we can get to sustaining those 
deferred maintenance and capital renewal projects at a flat 
rate versus sort of spiking up and down every fiscal year.
    Ms. Wasserman Schultz. Are you able to move money around? 
Have you been doing that to address the backlog? I know we 
approve your reprogramming requests from time to time. What 
kinds of things internally are you doing to address the need to 
maximize your efficiency?

                    APPROPRIATION BUDGET INITIATIVES

    Mr. Ayers. One of the important initiatives that I wanted 
to take as I became Acting Architect was to get one budget view 
of the AOC. We have often used our 10 separate appropriations 
in a parochial way, that only money from that particular 
appropriation can be used, for example that only House money 
can be used in the House. Well, I think the responsible thing 
to do is to take a much broader look at all 10 appropriations 
and move money around to address the most important needs.
    So, over the course of the past year, we have done that and 
have taken money from one appropriation to place it on a more 
important need. So we have that ability now. We have been using 
that for the past year.
    I think our minor construction funds that the committee 
provides annually in the House and Senate and Library of 
Congress also help us to take care of a backlog of maintenance 
and deferred maintenance and capital renewal projects on an 
ongoing basis.

                    LONG-TERM APPROPRIATION CONCERNS

    Ms. Wasserman Schultz. Can you describe in the next 5 
years, if your appropriation does not rise significantly, what 
is likely to happen? I mean, what are some of your key 
concerns?
    Mr. Ayers. Certainly. We are going to have electrical 
problems and temperature and humidity control problems in many 
of our buildings. Of course, we will work to abate those by 
taking money from everything else that is in our budget so that 
we work to abate those problems, because that is the core 
mission.
    Ms. Wasserman Schultz. But you are robbing Peter to pay 
Paul.
    Mr. Ayers. We are robbing Peter to pay Paul, but our core 
mission is to ensure that Congress can do their business. You 
need electricity, you need water, you need heating and cooling 
and electricity to do that. So we will take away from every 
other project we have to focus on those mission-critical areas.

                    PRIORITY PROJECTS NOT IN REQUEST

    Ms. Wasserman Schultz. Before my time expires, do you have 
any immediate priority projects that were not included in your 
request?
    Mr. Ayers. Yes.
    Ms. Wasserman Schultz. You do. What were they and why?
    Mr. Ayers. The reason we did not include them in our 
request is because the first stab we took is to take all 
immediate priority projects. Then we looked at those and said, 
does each one of those make sense?
    Some of them did not make sense. For example, the Dirksen 
infrastructure renovation project, we just received the money 
to fund phase one of that, so phase one is going to take us 
this entire fiscal year, so it makes no sense to ask for phase 
two money now.
    There were probably five or six of those kinds of phasing 
decisions that we made because, if you appropriated the money, 
we really could not use it right now.
    Ms. Wasserman Schultz. So you had other projects that were 
more ready than--even though those were an immediate priority, 
you had other things that were more ready than an immediate 
priority?
    Mr. Ayers. We could not physically execute them, that is 
the key.
    Ms. Wasserman Schultz. I understand.
    My time has expired. Mr. Latham.
    Mr. Latham. Thank you.

               MINOR CONSTRUCTION REPROGRAMMING CONCERNS

    I think you are making the point of my concern in this 
reprogramming request. I think $2.4 million is proposed to be 
reprogrammed for minor construction. Can you give us some 
examples of what that is? Are there any life-safety-type 
projects that are being deferred because of this?
    Mr. Ayers. Yes, sir. Well, several of our appropriations 
have a minor construction account. In the House, it is, I 
believe, $5 million a year. In the Senate, it is probably 
comparable. It is $1 million or $2 million at the Library of 
Congress. I think it is $3 million or $4 million at the Capitol 
Power Plant. That money is used for emerging requirements in 
any given fiscal year.
    For example, this year in the House, we are using that 
money to take care of a new egress point for the Longworth 
building. We have some pretty significant egress concerns in 
the Longworth that were brought to our attention by the Police 
and the House Sergeant at Arms, so we are using much of that 
money this year to fund that project.
    On an ongoing basis, we will use that money for life-safety 
projects that come up. We use it for emerging congressional 
items. For example, I recall that the Committee on Homeland 
Security, if that is right, Frank, was developed--
    Mr. Latham. My point here is you are taking half of that 
money for this reprogramming request from these emergencies 
that you are talking about, which would tie your hands if you 
did have, you know, other emergencies. You know, looking at 
the----
    Mr. Ayers. That is true.

                     DEFERRED CONSTRUCTION PROJECTS

    Mr. Latham [continuing]. Request, you have two full pages 
of deferred construction projects here that are not being done. 
You know, where I come from, if you have a hole in the roof, 
you do not go out and buy a new electrical meter to find out 
how much energy is going up through the hole in the roof. You 
fix the roof.
    I am just very concerned. You have over $800,000 in 
reprogramming that is going to stop the backup connections as 
far as the data center from Ford. I mean, there are a lot of 
very important things that are not going to happen because we 
are doing this thing that unfortunately no one knew about. I 
mean, even the House Building Committee, there was no 
consultation, no talk about it.
    My concern, really, is that we are spending money on things 
that maybe sound good, but we have real needs here that are not 
going to be met because we are diverting resources to things 
like this. I don't know if you have any comment.
    Mr. Ayers. Your point of minor construction money being 
there for emergencies and emerging requirements, that is 
exactly what it is for. If those come up, our ability to use 
that account for those emergencies would be diminished.
    Mr. Latham. Okay.

                  HOUSE METERING AND ENERGY REDUCTION

    Ms. Wasserman Schultz. Just to follow up on Mr. Latham's 
question and comment, it is important to note that the AOC is 
required by statute to reduce its energy use by 30 percent by 
2014, and the estimated cost of that is $300 million.
    So, Mr. Latham, with all due respect, the House metering 
project did not come out of the clear blue sky. It is part of 
the ongoing effort, including the Greening of the Capitol 
Initiative, but the statutory requirements on the part of the 
AOC to reduce its energy use by 30 percent. And the specific 
funding that is being used for the House metering project is 
something that will--the analogy that I know that has been used 
by some of the staff in the Architect of the Capitol's Office 
is that, if you are dieting, you do not know how much you need 
to lose unless you have a scale that you can stand on. Knowing 
that, the energy use of the House office buildings is going to 
be important for us to know how far we have to reach our goals.
    So, with all due respect, this is not funding that came out 
of the clear blue sky, and it is not a requirement that was 
just made up. It is a statutory requirement that we have to 
work toward.
    Mr. Latham. Will the gentlelady yield?
    Ms. Wasserman Schultz. I would be happy to yield.
    Mr. Latham. Was there any discussion between the Speaker, 
the Majority Leader and the Minority Leader who sit on the 
House Building Committee about this?
    Ms. Wasserman Schultz. I cannot specifically answer that 
question, but there is a statutory requirement that the AOC 
reduce its energy use by 30 percent, and there are a variety of 
ways of doing that. And this is one in which we can move the 
ball down the field significantly in order to accomplish that 
goal.
    I am hoping, Mr. Latham, that we are not going to quibble 
about this House metering project. It is an incredibly 
important project. We need to make sure--I mean, it is $4.5 
million that was able to be moved around internally by the 
Architect of the Capitol. We absolutely need to know the energy 
usage that we have in order to make sure that we can reduce our 
energy usage, which is important. I was someone who pushed, 
since the beginning of the time that I took over this 
committee, to ensure that the most important fire and life-
safety and security projects are funded and have held the 
Architect's feet to the fire to ensure that.
    So we have a combination of priorities. We are certainly 
not going to be jeopardizing the security or the safety of the 
people who work here and who visit here. We are going to make 
sure that we get the things that we need to done.

                          CR PLANS FOR THE CVC

    I want to ask you about the issue that came up last week 
related to the potential for a continuing resolution, because I 
do not want there to be the perception left that we would 
somehow not be able to operate the CVC in the event of a CR.
    So what are your plans, Mr. Ayers, for mitigating any 
impacts on the CVC if there is a continuing resolution for part 
of fiscal year 2009? What help would you need from this 
committee?
    Mr. Ayers. Well, I think the most important thing that we 
talked about at the CVC hearing was the operations of the 
Visitor Center. We think we are going to be okay on the 
construction side. On the facility maintenance side, we think 
we will be okay. But there will be significant issues on the 
operations side, as we will have to fund our full-year 
contingent of employees, and we will not be able to make our 
monthly payroll.
    I think, in order to do that, first we would need some 
flexibilities in the CR language from this committee, allowing 
us to adjust the percentages there. I think that would really 
be helpful for us.
    Secondly, we would simply need to----
    Ms. Wasserman Schultz. Is that how you have managed under 
past CRs?
    Mr. Ayers. We did receive flexibilities specifically for 
the Visitor Center in 2007 that enabled us to continue the 
construction and operations portion. So similar language, I 
think, would be helpful and would help us to avert a crisis in 
early 2009.
    Ms. Wasserman Schultz. Good.
    Mr. Ayers. Similarly, we would work to reprogram funds from 
other sources if we needed to.
    Ms. Wasserman Schultz. My time has expired.
    Mr. Latham.
    Mr. Latham. To that point, what does that do to other 
projects? I mean, just in Roll Call this morning--the House, I 
know, has the best intentions of getting its work done. The 
Senate, apparently, from the story----
    Ms. Wasserman Schultz. Apparently.
    Mr. Latham [continuing]. Has thrown it off already, so we 
could be looking toward at least--you know, last year, it was 3 
months under CR. This next year, it could be easily from 
October 1st to March, 6 months.
    What does that do to your operations--I mean, you are 
moving funds around, but we have a lot of maintenance projects 
and a lot of other things that are going to be real problems. 
And I do not want to see the CVC open up and then have to close 
the next day because we cannot pay staff or because we cannot, 
you know, operate the facility. I mean, that would not be a 
good start for us.

                   CVC REPROGRAMMING--FUNDING SOURCES

    Where do you see the money coming from? What effect is that 
going to have on the maintenance?
    Mr. Ayers. Certainly, with any continuing resolution, we 
lose buying power. We cannot start any new construction 
projects that we would typically start in October or November. 
If we are not going to start those until January, February or 
March, we lose some buying power through that process, of 
course, with inflation of construction materials. So there is 
clearly that concern.
    There is no doubt that with the money in our budget that we 
would reprogram that something else would not get done because 
of that. We have not specifically identified which projects 
they would be at this point, but we would develop that list and 
work with the committee on those priorities to determine what 
projects we would put on hold or would delay or cancel to move 
funds around.

                   GREENING OF THE CAPITOL INITIATIVE

    Mr. Latham. One of the parts of the Greening of the Capitol 
Initiative is that it requires you to purchase 100 percent 
renewable electricity and only natural gas for the House 
portion of the Capitol plant. Are there additional costs to 
that, or how much more is this costing us to fill that 
requirement?
    Mr. Ayers. There are several requirements. One is the 
purchase of natural gas, and we did receive money this year to 
do that. It is $2.7 million to purchase natural gas for the 
House's portion of our gas usage.
    Mr. Latham. Is that additional from what the normal costs 
would be?
    Mr. Ayers. Additional, correct. That is exactly right.
    In addition, to purchase renewable electricity, we have 
estimated that to be about $512,000, and that is in addition to 
our normal electricity costs, and that money was provided this 
year. We are working to implement both of those right now.

                ONGOING INITIATIVES--CAPITOL POWER PLANT

    Mr. Latham. Are there any other ways that we could look at 
redoing the power plant, or any other suggestions out there to 
maybe modernize the generation plant here with fuel cells or 
energy cells, anything like that? Have you looked at what that 
would cost to actually do something to make the facility 
efficient?
    Mr. Ayers. We have several ongoing initiatives to increase 
the efficiency of the power plant as well as to reduce its 
carbon output. One of them is a cogeneration facility. We have 
completed a feasibility study for installing a cogeneration 
plant. That will increase efficiency significantly, but it 
requires a very significant upfront investment of $150 million 
to $200 million, so we have not put that forth at this point.
    We have not looked at fuel cells to date, but we are 
looking at some options currently, mapping out a feasibility 
study for a carbon sequestration project. We have completed a 
study to convert from our general fuel oil to an 
environmentally friendly fuel, and that looks like it is going 
to be feasible for us. We are working through the permitting 
process now to see if it has any effect on our environmental 
permit.
    Mr. Latham. Being from Iowa, I think you ought to use 
ethanol or soybeans.
    I will be right back.
    Ms. Wasserman Schultz. Mr. Udall, are you ready?
    Mr. Udall. Yes, I am ready.
    Ms. Wasserman Schultz. Okay. You are up.
    Mr. Udall. Thank you, Madam Chair.

                     CAPITOL POWER PLANT OPERATIONS

    I am very interested in what the power plant is running on 
right now. I think one of the facts that has not been pointed 
out to everybody is that the folks living right in the shadow 
of the power plant are the House pages. If it is running on 
coal, then we are putting out all of the pollutants that you 
get from that.
    So what is the power plant running on now, Mr. Ayers? Is it 
running on gas rather than coal?
    Mr. Ayers. We use three fuels at the power plant: coal, 
natural gas and fuel oil.
    Mr. Udall. What is the mix right now? What percentages are 
coal and natural gas?
    Mr. Ayers. I do not know those off the top of my head. I 
will respond for the record, unless my staff knows.
    Mr. Williams. Approximately fifty percent coal, 45 percent 
gas and 5 percent fuel. But that is from an annual perspective.
    Mr. Ayers. Approximately at 50 percent coal, 45 percent 
gas, and the remainder is fuel oil today.
    Mr. Udall. Has anybody ever looked at the impact on the 
area in terms of the emissions that are put out?
    Mr. Ayers. Certainly, as to the emissions that come out of 
the power plant, we are in compliance with our permit from EPA 
and the District of Columbia. As part of that permitting 
process, certainly they look at those critical local areas as 
well as the broader community in issuing those permits.
    Mr. Udall. Has the power plant always met all of the EPA 
standards and laws and regulations? Has it ever been in 
violation in terms of its permit?
    Mr. Ayers. There are occasions where their emissions will 
spike, and it requires us to report those to the District of 
Columbia, and we do that. So we had one of those. In my 
recollection of many years at the AOC, I recall one. That, 
quite frankly, happened about 4 or 5 months ago, and this was a 
duration----
    Mr. Udall. What was the spike, or what was the violation 
there?
    Mr. Ayers. We were burning fuel oil and had a fuel oil 
valve failure, so that caused the fuel mixture to be incorrect. 
So the opacity of the product coming out of the stacks went 
over our opacity limits for 3 or 4 minutes.
    So anything like that we are required to report, and we do 
that.
    Mr. Udall. Talking about CO2 now, if you are burning coal 
50 percent of the time, if you are emitting coal 50 percent of 
the time in that power plant and there are the CO2 emissions 
from that, all of the other work that we are doing on Capitol 
Hill to reduce our carbon footprint would be dwarfed by what 
you do in that coal plant. So I would just encourage you to try 
as much as possible to shift over to natural gas and to look 
like you are doing a cogeneration in other kinds of areas where 
you can make a real difference in terms of CO2 and the 
pollution.
    Yes, go ahead.
    Ms. Wasserman Schultz. You voted, didn't you?
    Mr. Udall. Yes. Yes. Thank you.
    Ms. Wasserman Schultz. Okay.

                          ETHANOL 85 FUEL PUMP

    Mr. Udall. My understanding is that the AOC has installed 
an ethanol 85 fuel pump. Is that right?
    Mr. Ayers. No, sir, it is not installed yet.
    Mr. Udall. But you are planning to do that?
    Mr. Ayers. We did receive direction and funding to do that, 
so we will move out to do that.
    Mr. Udall. When do you think that will be complete?
    Mr. Ayers. That is probably 6 months, approximately 6 
months from now.
    Mr. Udall. How many vehicles do you have that would be able 
to utilize that in your fleet right now?
    Mr. Ayers. Our vehicle fleet is about 120 vehicles, and 
today we have, I would estimate, 10, maybe less than 10, 
vehicles that are capable of that.
    So once we have that product, we will begin to renew our 
fleet and to renew our leases with E85-compatible vehicles. Not 
only do we fuel AOC vehicles, but we fuel many other vehicles 
on the Capitol complex as well.
    Mr. Udall. So as soon as you get that pump up and running, 
your push is going to be to move your fleet so that many more 
of your vehicles can do that, I hope, can utilize the pump.
    Mr. Ayers. Correct. Yes.
    Mr. Udall. Thank you.
    Thank you, Madam Chair.
    Ms. Wasserman Schultz. You are welcome.

                   UTILITY TUNNELS REMEDIATION UPDATE

    I want to shift the focus to the utility tunnels 
remediation. We had an entirely separate hearing on this issue 
last year, and I want to get a sense of where we are in terms 
of the progress on this project. We have allocated $50 million 
in supplemental funds to begin making those tunnels a safe 
working environment for your employees. Now, this year, you 
have requested another $127 million for fiscal year 2009. There 
is a 5-year timeline.
    So if you can give me a status update, including what has 
been accomplished to date. Are we still on schedule and on 
budget? Specifically and most importantly, are we doing 
everything we can to guard the health and safety of the tunnel 
workers? I know that we have been, and I want to make sure that 
we are continuing to do so.
    Mr. Ayers. Yes, ma'am, we are continuing to do that. We 
don't have any concerns with health and safety issues at the 
moment. We don't believe the Office of Compliance does either. 
We are on schedule; we are on budget to finish the utility 
tunnel reconstruction at the end of 5 years, which I think is 
June 2012. It does require significant investment, obviously.
    To date, we are working extensively in the Y tunnel, doing 
some asbestos abatement and debris and dust cleanup in that 
tunnel. We have under construction two new egress points in the 
Y tunnel at this point. We have done some major electrical 
upgrades, some significant fan upgrades.
    So we are comfortable with where we are. I believe the 
Office of Compliance is comfortable with where we are. They 
have reviewed our 2009 budget request as well and are in 
agreement with where we are going.

                         PROJECT BUDGET REQUEST

    Ms. Wasserman Schultz. The total cost of this project is 
approximately $300 million, and you have requested almost half 
of that amount in this fiscal year. Why so significant a chunk 
of the project in 1 year?
    Mr. Ayers. Well, most importantly, our tunnel work needs to 
get started this summer, it needs to continue. If we do not 
continue that on an ongoing basis, we are going to face, I 
think, increased costs by not doing that.
    Our team has mapped out how we are going to fix that 
project by the end of that year. You can see, in any typical 
construction project, you ramp up and then you ramp down. So we 
are in this year now, which is really the most significant 
budget request. I think, next year, we will be in the $80 
million range, and you will continue to see that go down until 
we finish that job in 2012. So this year is the most expensive 
year on that project.

                     OFFICE OF COMPLIANCE CITATIONS

    Ms. Wasserman Schultz. On the Office of Compliance 
citations, can you talk about where those citations--how you 
prioritize those and where those are? How many of the requested 
funded projects are Office of Compliance citations? What is the 
total dollar value of all of your existing citations, and how 
do you prioritize those generally?
    Mr. Ayers. Well, our prioritization process generally will 
move all of those citation projects to the top of the list. So 
as to the first 10 projects that are on that priority list, all 
10 of them have citations against them. So the prioritization 
system worked, and that totals $148 million, so it is the first 
10 that take care of that.
    In terms of citations, since 1998 when the Office of 
Compliance really became effective at reviewing facilities, 
they have issued 39 citations comprising 98 items. Of those 98 
items, we have closed out 65. Much of the work you see here 
will continue to help us abate those. You will notice, if you 
look at----
    Ms. Wasserman Schultz. How are you doing in avoiding having 
more citations? Is your number of citations going down?
    Mr. Ayers. Absolutely. We have not received any new 
citations since the utility tunnels, and prior to that, it was 
sometime well before that. So there is nothing new out there. 
We have a pretty aggressive safety and health program that we 
use to prevent those things from happening.
    You will note in the project list that our prioritization 
process does not focus on House or Senate or Capitol or 
anywhere else. You will see that the Library of Congress has 
nine open citations and that our budget is filled mostly with 
Library of Congress money. So that prioritization seems to 
work.
    Ms. Wasserman Schultz. You will note that the Senate does 
not even have any items on the list, so you are right; 
apparently, you do not favor one or the other.
    My time has expired. Mr. Latham.

                 MEETING ENERGY REDUCTION REQUIREMENTS

    Mr. Latham. Thank you.
    You are under the energy-efficient mandate as far as the 30 
percent reduction. Additionally, the Greening of the Capitol, 
the 50 percent reduction.
    Can you just, for my benefit, being new on the committee, 
give us an idea of the specific projects you are doing to meet 
the mandates and what it is going to cost and how long--by 
2015, as to the reductions, the 30 percent mandate reduction? 
What exactly are we going to do, and what is it going to cost 
to get there?
    Mr. Ayers. Your numbers are correct, that the Energy Policy 
Act of 2008 does require a 30 percent energy reduction per year 
over 10 years. This is over a 2003 baseline.
    So, to do that, the most important thing we think we need 
to do to achieve those reductions is to conduct formal energy 
audits of our buildings. You will see some budget requests in 
our project list to conduct those energy audits. That is the 
most important thing, that we get those professional energy 
surveyors in to look at those projects and to scope those and 
to do the life-cycle cost analysis that tells us, ``Don't waste 
your money here, but invest it here, here, here, and here. This 
is where you are going to get the most savings.'' So we need to 
do that first and foremost.
    Secondly, our estimate of the 30 percent reduction is 
nearly a $300 million investment to get that over 10 years. We 
recognize that that is going to be very, very difficult to do. 
We are working now and have been for several months on using 
the flexibilities of energy savings performance contracts, 
which are pretty extensively used in the executive branch, 
sponsored by the Department of Energy, where companies will 
come in, review your facility and say, ``I will replace all of 
your lighting systems, and I will replace these 17 motors, and 
I will make the investment of $50 million,'' and it does not 
cost you any money up front. You repay that company over the 
course of many years through the savings generated in your 
electricity bill.
    So we think that, really, to achieve the 30 percent and the 
50 percent, we are going to have to make extensive use of these 
energy savings performance contracts. We are close to being 
able to kick that off in the Capitol Power Plant, the House 
office buildings and the Senate office buildings now.

                       ENERGY REDUCTION PROJECTS

    Mr. Latham. The audits that you are asking funding for, 
have they specifically noted the types of projects? Or is it 
just changing light bulbs? Are we talking insulation? Are we 
talking refurbishing.
    Mr. Ayers. In terms of what is in our energy savings 
performance contracts, the contractor that reviewed the House 
has recommended extensive lighting upgrades throughout all 
buildings, and has recommended fairly extensive HVAC upgrades.
    I think those are the big ones, lighting upgrades and HVAC 
upgrades and control of all of that mechanical equipment.
    Mr. Latham. Okay.
    Ms. Wasserman Schultz. Thank you.

                     LIFE-SAFETY SECURITY PROJECTS

    You know, we focus in this committee on life-safety and 
security projects with your agency, and this year is going to 
be no exception. You have requested about $24 million worth of 
life-safety and security projects for fiscal year 2009, and 
that is excluding the utility tunnels.
    What are some of the most significant life-safety and 
security projects? How critical is it that we fund those in 
2009? And like I said, if you can more specifically tell the 
projects that were not included that were high priority.
    Mr. Ayers. Certainly, the most important life-safety ones 
are those first 10 that are on the list. So I think we really 
need to fund those first.
    If we look at 11 and 12, you will see two really important 
security projects that I know are important to the Sergeant at 
Arms and to the Capitol Police. So focusing on those first I 
think is very, very important.
    In terms of what we did not put on the list, there are a 
couple of important concerns, immediate requirements that we 
didn't put on the list, but I think those are genuinely not 
executable for us, so I wouldn't recommend we do anything about 
those: Adams Building exterior doors, egress studies----
    Ms. Wasserman Schultz. So they weren't ripe yet? The ones 
that we need to do as a high priority aren't ripe to do yet?
    Mr. Ayers. Yes.
    Ms. Wasserman Schultz. That is basically why they didn't 
make it to the fund-this-year list.
    Mr. Ayers. They are ready to be executed. If you funded 
them, we could execute them. The designs are complete and ready 
to go. But we don't think it makes sense. Like the Dirksen 
project, we can't do phase two before we do phase one.
    Ms. Wasserman Schultz. Right.
    Mr. Ayers. We just started phase one because of funding 
issues. So it doesn't make sense. Even though it needs to be 
done now, we simply can't do it.

                        POWER PLANT OUTSOURCING

    Ms. Wasserman Schultz. Right, okay.
    Shifting to power plant outsourcing, there are a lot of 
Members in the past that have talked about outsourcing the 
operations of the Capitol Power Plant. And GAO recently 
reported that the AOC doesn't have the information that you 
need to make a decision on that, and they recommended that you 
collect information so that you can do that.
    What are you doing to act on GAO's recommendation? Because 
the power plant has been a significant issue and will continue 
to be a significant issue for this committee and for other 
Members and for this community.
    Mr. Ayers. Madam Chair, GAO got it right this time. Their 
recommendations were right on the money. You can't make 
staffing projections of going from 85 to 46 or 57 or all of 
those without the real data in front of you. So to get that 
data, we have to go through every piece of equipment that is in 
the plant, develop a preventive maintenance and operating plan 
for each of those pieces of equipment, map those out into the 
number of work hours required to care for each piece of 
equipment and to operate it. You map all of those hours out, 
then you add them up and determine what your real staffing 
needs are.
    We are engaged in that process now and have been for 4 to 5 
months. I think it is going to be towards the end of this 
fiscal year before we have that data in our hands. So I think 
we are really not going to be in a position to make decisions 
until then.
    Ms. Wasserman Schultz. Okay. And it is this fiscal year?
    Mr. Ayers. Yes.
    Ms. Wasserman Schultz. Okay. That concludes the questions 
that I have.
    Mr. Latham, do you have anything else?
    Mr. Latham. I do not.

                         Chairs Closing Remarks

    Ms. Wasserman Schultz. I wouldn't be me if I didn't issue 
some homework. You have really laid out well this year what the 
Architect of the Capitol office is facing in terms of our 
infrastructure needs, and I am happy about that. Chairman Obey 
has asked each subcommittee to look toward the future and think 
beyond fiscal year to fiscal year. Although we are a little bit 
of a weird duck when compared to other subcommittees, we need 
to try to do that as well.
    It is obvious that without significantly higher 
appropriations over time you will struggle to properly maintain 
our facilities and the grounds, and that is going to begin to 
exponentially increase the costs the later and later we put 
them off.
    So what I would like you to do is submit a report to us by 
next Friday, February 22nd, with information on the total value 
of the Capitol complex, the amounts now available to maintain 
and renew it, industry best practices on what percentage of the 
facility's value should be spent on maintenance and renewal, 
and given these factors, the level of appropriations you need 
in fiscal year 2009 and beyond to address infrastructure 
demands.
    I want to start to lay out the next several years and to 
begin to plan how we are going to do this and be able to help 
you and work in partnership. It will also help me figure 
allocations.
    We sometimes are the stepchild of the appropriations 
process, but we have to make sure that these facilities remain 
intact, not just structurally but also historically for future 
generations. So if you would submit that information to us.
    With that, the subcommittee stands in recess, subject to 
the call of the Chair.

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                          Wednesday, March 5, 2008.

                       LIBRARY OF CONGRESS BUDGET

                               WITNESSES

JAMES H. BILLINGTON, THE LIBRARIAN OF CONGRESS
JO ANN C. JENKINS, CHIEF OPERATING OFFICER
DEANNA MARCUM, ASSOCIATE LIBRARIAN FOR LIBRARY SERVICES
JAMES GALLAGHER, ACTING ASSOCIATE LIBRARIAN FOR STRATEGIC INITIATIVES
RUBENS MEDINA, LAW LIBRARIAN
MARYBETH PETERS, REGISTER OF COPYRIGHTS
DANIEL P. MULHOLLAN, DIRECTOR, CONGRESSIONAL RESEARCH SERVICE
JEFFREY PAGE, CHIEF FINANCIAL OFFICER

                Opening Remarks--Chair Wasserman Schultz

    Ms. Wasserman Schultz. Good morning. I would like to call 
this hearing of the Legislative Branch Subcommittee of the 
House Committee on Appropriations to order. Welcome, Dr. 
Billington, Ms. Jenkins.
    Today we are going to proceed with the budget hearing on 
the Library of Congress' appropriations request.
    We have a number of items that we need to go through. I 
appreciate the opportunity to talk about the Library's request 
today, and I appreciate very much, Dr. Billington, that you 
have put together a very reasonable and sound budget proposal 
that recognizes the really extreme and unfortunate budget 
difficulties that we find ourselves in, some of which are 
reflective of the economy, but a lot of which are reflective of 
the fact that we are and have been hemmed in by an 
administration that has limited the number, the top line 
number, that we are able to work with. So it is not through 
lack of trying that we have been unable to provide you with the 
resources that I know you very much need.
    I can assure you that we will continue to fight to get you 
the resources that you need. And I think it is pretty 
unpredictable what the outcome will be in terms of the 
appropriation process in this fiscal year, but I know that I am 
committed as the Chair of the subcommittee to make sure that we 
not cut beneath the bone and start to really damage and harm 
your agency. I am absolutely committed to making sure we don't 
do that.
    Before I proceed, I would like to welcome Mr. Bonner to the 
subcommittee. Mr. Bonner is the newest member of the 
Appropriations Committee and the newest member of our 
subcommittee, and when he gets here, today will be his first 
hearing.
    The Library has made a $606 million request for fiscal year 
2009. That is a 7.7 percent increase. As I said, it has no new 
initiatives in it. There are only $12 million worth of program 
increases. There are only two legislative branch agencies of 
all the agencies that we will be hearing from that have asked 
for less than a double-digit increase. So I appreciate the 
effort that you have made, because I know it is a very 
difficult circumstance and situation.
    I appreciate that you have asked for only $12.5 million for 
the Digital Talking Book program. We obviously want to make 
sure that we proceed in a timely way to accomplish that, 
recognizing the letter that you sent to our committee last year 
that you would be able to manage with the $12.5 million over a 
6-year time period and, importantly, only have about a 10-
percent drop in the amount of players available. I am glad that 
we are able to operate within those parameters.
    That having been said, we are still going to be in a very 
tight budget environment, and we are going to do our best to 
provide you with the resources that you need, but it is still 
going to be hard.
    And with that, I would like to turn to Mr. Latham for any 
opening remarks he has.

                      Opening Remarks--Mr. Latham

    Mr. Latham. Thank you, Madam Chairman, and welcome to the 
folks in the Library of Congress, which I consider to be a 
national treasure, and Dr. Billington a national treasure also; 
and share your affection, I think, for the people of Russia; my 
interest goes back many years ago. I just welcome you and look 
forward to hearing your testimony.
    Ms. Wasserman Schultz. Thank you, Mr. Latham.
    Mr. LaHood, do you have any remarks you want to make at 
this time?
    Mr. LaHood. No, ma'am.

                           Welcome Witnesses

    Ms. Wasserman Schultz. Great.
    Well, I would like to welcome our witnesses this morning. 
We have received your statements. Each of the statements will 
be entered into the record. We have Dr. James Billington, the 
Librarian of Congress, and Ms. Jo Ann Jenkins, the Library's 
Chief Operating Officer. There are also a cadre of Library 
staff that I recognize in the audience.
    And I do have to say, Dr. Billington, it has been an 
absolute pleasure to work with you and your staff over the last 
year. We have been able to spend quite a bit of time on a 
variety of issues and a variety of programs, and I am 
privileged to have been included in some of the rollouts of 
your programs and really want to commend you on the tremendous 
leadership that you show as the steward of the Library.
    I know you often talk about the Congress being the largest 
and most important patron of the Library, but your stewardship 
of the Library is second to none. And the Library is the beacon 
that it is in the world because of your leadership.
    So if you would proceed with a summary of your statement, 
we welcome you to the committee.

                   Opening Statement of the Librarian

    Dr. Billington. Thank you very much, Madam Chair, Mr. 
Latham, Mr. LaHood and members of the subcommittee. It is an 
honor to be here to present the Library of Congress' fiscal 
year 2009 budget along with our Chief Operating Officer, Ms. Jo 
Ann Jenkins, to my right, and behind me other members of the 
Executive Committee.
    I want to thank you, first of all, Madam Chair, for your 
continued interest in the vision and goals of the Library 
demonstrated by your participation in our Veterans History 
Project, in your eloquent opening of our Kislak exhibit, and 
for your support on many other fronts.
    And, Mr. Latham, I also want to welcome you back to the 
subcommittee. I enjoyed being on your ``Congressional Report'' 
to Iowa show several years ago and look forward to working with 
you and with all the members of the subcommittee. And Mr. 
LaHood, we are working with him on the Lincoln project and he 
is a great friend of the Library's as well.
    We have submitted a very modest budget request for fiscal 
2009 based on fiscal 2008 operating levels, levels that were 
achieved with some painful cuts in the Library's budget. We 
limited ourselves to requesting funding only to meet mandatory 
pay raises and unavoidable price level increases--that is a 
great majority of the increase--and also just to sustain basic 
current services, and to rescue from the brink of collapse the 
unique program that the Congress mandated and funded in 2001 
for preserving the growing volume of important information and 
knowledge that is needed to serve Congress, but is produced 
only in impermanent digital form.

                           NDIIPP RESCISSION

    The fiscal 2007 rescission of $47 million from the National 
Digital Information Infrastructure and Preservation Program, 
NDIIPP, resulted in a total loss to the program of $84 million. 
We have requested $6 million in fiscal 2009 and have provided a 
5-year plan for keeping this program alive. Collecting and 
preserving ephemeral digital content is increasingly important 
for serving information needs of the Congress and for 
validating our new network way of doing business by sharing 
ongoing costs and expertise with a trusted network of vetted 
partners in states like Florida, Iowa, California, Minnesota 
and many others.

                      DIGITAL TALKING BOOK PROGRAM

    We have had to accept that our long-planned rollout of the 
transition to a digital format for talking books and playback 
machines will be prolonged from 4 to 6 years with difficulties 
for the blind community that I explained in my longer 
statement. We understand that in order to provide even this 
reduced level of annual funding for this critical program, 
Congress reduced funding levels in several of the Library's 
other accounts, including a $10 million reduction to the 
Copyright Office's no-year funding balance, a $4 million 
general pay reduction, and over $5 million in reductions to our 
Library Services program. In addition tothese direct cuts, the 
Library has also had to absorb roughly $16 million in mandated cost-of-
living increases in fiscal 2007 and 2008.

                     LIBRARY MISSION AND RESOURCES

    Madam Chair, as you have already said, and as I repeat and 
always will with a certain awe and appreciation, deep 
appreciation, the Congress of the United States has been the 
greatest single patron of a Library in the history of the 
world. I think Congress can be proud of the record of acquiring 
and preserving, even in difficult financial periods, the 
largest and most varied collection anywhere in human history of 
the world's knowledge and of this nation's creativity. We 
respect the Congress' understandable desire for austerity in 
this year's budget request, and its authority to limit and 
redirect funds within the Library's appropriations, but I feel 
obligated to say that if we are stretched much further, we may 
soon reach a breaking point.
    We now have more than 1,000 fewer staff to do far more work 
than was done 20 years ago when I became Librarian, and that 
was before we began the Herculean task of superimposing a 
digital library and services on top of a traditional analog 
library. We have already cut back on vital core missions and 
are stretching out the useful life of the technological 
infrastructure of the Library, but we cannot and should not put 
in jeopardy the important role that the Library plays in the 
information infrastructure of America, particularly in this 
information age.
    Despite the many challenges, this is a time of great 
promise for the Library, as we continue using digital 
technology to transform the way we do our work and deliver our 
services to Congress and the Nation in all divisions of the 
Library. Relying largely on private philanthropy and in-kind 
donations, our outstanding, dedicated staff will in the year 
ahead transform the public spaces of the Jefferson Building 
into an interactive learning center for the increased number of 
visitors who will be coming to the Library when the Capitol 
Visitors Center opens. We will also bring into full operation 
the magnificent new National Audio-Visual Conservation Center 
in Culpeper with the support and funding of the Congress and of 
the unprecedented gift of more than $150 million plus expert 
guidance from the Packard Humanities Institute. And we will 
begin putting on line, with the support of UNESCO and a number 
of other national libraries, a World Digital Library of primary 
cultural documents in seven languages.
    Madam Chair, we recognize that difficult choices will 
continue to have to be made during this time of extraordinary 
budget constraints, but the Library is an essential part of our 
knowledge-based democracy. The Library collects, preserves and 
makes accessible free of charge, both here on Capitol Hill and 
everywhere else on the Internet, important materials in 
languages and formats that no one else does. We are in many 
ways the Nation's strategic information reserve. This Library 
has never been more important for the economic security and 
civic health of America than now in the midst of the 
transforming digital revolution. So I ask for your support for 
our modest funding request for fiscal 2009, and we look forward 
to working with this committee to craft a budget for fiscal 
2010 that will be able to ensure for the future the Library's 
historic mission of serving the Congress and the Nation in very 
challenging and changing times.
    Thank you. I would be glad to answer any questions.
    [Dr. Billington and the Library's other prepared statements 
follow:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                       DIFFICULT FUNDING CHOICES

    Ms. Wasserman Schultz. Thank you so much, Dr. Billington. I 
do have to tell you that I look forward to presiding over the 
subcommittee in times when we are more flush so that I can 
craft a bill that is not as disappointing as I know our bill in 
the last cycle was. We have been in a ``do the best we can'' 
situation. The Speaker always talks about how the budget is a 
reflection of our values, and certainly we are in a little bit 
of a battle right now over which expression of values we should 
be making. And so that struggle will continue, I think, for a 
number of months until it is finally resolved one way or the 
other.
    I do have a number of questions. I am sure Mr. Latham and 
Mr. LaHood do as well. I want to just focus on some of the more 
difficult things that we have facing us.
    The choices that this subcommittee has to make are between 
the wonderful programs that exist in the Library of Congress 
and the crumbling infrastructure that we have in terms of our 
facilities here; the life safety and security issues that we 
have to address, both short-term and long-term needs. And all 
of that is in the same bill, and it is a very small pie. And it 
is juxtaposed with the other appropriations subcommittees whose 
programs affect individual people's lives. So we are not just 
competing against ourselves, but we are competing against the 
other subcommittees who have significant needs. And so our 
allocation is always the most difficult thing, because once we 
get the allocation, where we go from there is what we have to 
work with.

                      DIGITAL TALKING BOOK PROGRAM

    So I want to get right into the Digital Talking Book issue 
because we provided about $67 million for Books for the Blind 
and the Physically Handicapped in the 2008 omnibus, and that 
was almost a 25 percent increase over fiscal year 2007. And you 
noted in your statement that part of that increase was the 
$12.5 million that we gave the Library so it could move forward 
with the Digital Talking Book program. We also gave you 
transfer authority so that you could move additional resources 
into that effort if available, and we felt that was important 
because we wanted to make sure that if you had the ability to 
move some money around and provide additional resources, that 
that would be possible.
    The Digital Talking Book program is extremely important, 
and we want to be able to provide you with enough funding in 
2009 to keep it on track. You sent us a letter last year 
affirming that you could get through a 6-year rollout of this 
program with $12.5 million, and begin the additional work that 
GAO outlined, and address some of the concerns that they rolled 
out. So I would like to know what progress you have made to 
date. When do you plan to start distributing the first Digital 
Talking Book players?
    Dr. Billington. Well, maybe I should ask the Associate 
Librarian for Library Services, Dr. Deanna Marcum, to address 
it.
    Ms. Wasserman Schultz. If you want to step to the table.
    Dr. Marcum. We have done a lot of work with the existing 
funds. The contract has been let for the production of the 
playback units. Work is under way to convert books to the new 
format. We realize that with the smaller amount, the difficulty 
we are going to have this year is that we won't be able to 
convert to digital form as many of the retrospective titles as 
we had planned. But the work is moving forward. I think Mr. 
Cylke and his staff have done a very good job of making the 
best use of the money available.
    Ms. Wasserman Schultz. That is good to hear. And I want you 
to know that it is a priority for me to make sure that we go 
this far and no farther with this program, because your 
original request last year of $19 million was just too large a 
nut for the proportion of the bill that we were crafting from 
last year. And I really appreciate the effort that you made in 
working with us to try to find the sort of bottom-line number, 
which I know we are at now, that could make sure the program 
moved forward and we didn't lose the opportunity.
    The worst thing that would happen is if we had the 
technology that is in use now become completely obsolete, the 
players go out of existence or lose their useful life, and not 
have players to replace them. We can debate about whether or 
not you should be going into the private sector for commercial 
players or should we be developing one on your own, and I know 
we had that discussion last year. But for the most part, I 
think we are on track now, and I hope Mr. Latham is willing to 
work with me to make sure that we proceed over the next 5 
remaining fiscal years to make sure we don't go below the $12.5 
million.
    And my time has expired.
    Mr. Latham.
    Mr. Latham. Thank you very much, Madam Chairman.
    Mr. Bonner apparently has a Budget Committee----
    Ms. Wasserman Schultz. I just wanted to make sure people 
knew he was welcome.

                      NDIIPP FUNDING REQUIREMENTS

    Mr. Latham. And we welcome him to the subcommittee.
    Dr. Billington, to what extent have the Library's long-term 
digital transformation plans been disrupted by the rescission? 
You talked $47 million in the rescission. If you could just 
speak to that, what effect that has had.
    Dr. Billington. Well, with the NDIIPP program, we lost not 
only the$47 million that had been appropriated long before, but 
we also lost $37 million in matching money that had been pledged.
    Mr. Latham. Who pledged that; private donors outside?
    Dr. Billington. No, no. Collaborative partners. We have a 
whole bunch of collaborative partners. We have an enormous 
number of people who are involved. And it took a long time to 
negotiate these arrangements. Of the original appropriation of 
$100 million, $75 million of that was for matching funds to 
enlist partners, because the mandate from the Congress was to 
plan and begin implementing a national program to archive what 
is important to retain from the Internet. So we have already 
done a fair amount of matching, but for a lot of these 
arrangements you have to get the approval of State legislatures 
and all kinds of trustees of private repositories, and do all 
kinds of legal work.
    So there was still a fair amount of unspent money for which 
we already had pledges. It was already committed, but not 
spent, and in the rescission, all of this was picked up. So we 
have now reconfigured in view of the rescission, and therefore 
we come in with a request for $6 million to keep this program 
alive and to keep the network principle alive so that 
everything doesn't fall to Federal appropriations.

                         NDIIPP ACCOMPLISHMENTS

    I think a lot of that good work will go on because people 
realize how important it is. And there have been a lot of 
meetings, a lot of work in setting metadata standards, the 
electronic equivalent of cataloguing, and establishing a whole 
lot of procedures, looking into the whole question of how we 
maximize access as well as preservation.
    This information found on the Internet is very impermanent. 
It changes a lot. A lot of it has been lost already. We already 
have data in the system, in addition to developing the 
standards and the architecture that can be ramped up even with 
the certain fact that the technologies are going to change--you 
don't want to have to redo the system each time. That has taken 
a long time; a lot of progress has been made. We already have 
66 terabytes of stored information in the system in various 
repositories. We have developed a 5-year plan based on this 
very much-reduced level of $6 million a year that will increase 
stored information 10 times over to 650 terabytes. A terabyte 
equals about the content of 1 million books. So you are talking 
about the equivalent content of 650 million books. It is an 
awful lot of information.
    We estimate roughly that we lost 75 percent of the content 
in that rescission, but that we can recapture a great deal of 
it with this program. And so we have here a very detailed 5-
year plan with rollouts and figures and statistics which we 
will give the committee to indicate what can be saved.
    A good deal has been lost. A good deal was lost before we 
began this program, but NDIIPP is still the major program for 
enlisting and involving partners. It is a good thing because a 
lot of institutions have been thinking only of their own, what 
they want to save for their own faculties or for their own 
research purposes. Now they have to think in terms of the 
national need, and they are going to make--even though it may 
be stored in another institution--it available to the Congress 
at all times so that we can get instant access as if we 
physically had the materials ourselves.
    Mr. Latham. How are we doing on time?
    Ms. Wasserman Schultz. A couple more seconds. We will give 
you a little leeway.
    Mr. Latham. Okay. So, in essence, what the rescission costs 
in outside money, $84 million, can we recover some of that 
outside with the $6 million a year that you are talking about? 
Are we going to be able to get these people to come back into 
the fold with the $37 million that was lost?
    Dr. Billington. We would hope so. I mean, we have a lot of 
them already in the fold. In fact, the major point of this is 
to maximize partnerships. We may not have as much money to give 
them, but we want to keep as many of those partners as we can. 
In the 5-year plan, we have--I forget the exact number, but we 
can give you the rollout--something like 130 partners we 
project to get back into the system. Many of them are already 
here. They never left us.
    This program has already had a great impact because it has 
alerted a wide variety of institutions. There was a beautiful 
article, an op-ed piece, in the Washington Post by Francine 
Berman, who heads the San Diego Supercomputer Center; and James 
Barksdale, the founder of Netscape, who is one of our principal 
guides on the technology side. They wrote that, if we were to 
stop and not be able to continue to archive the Internet, it 
would be like destroying the Library in Alexandria because more 
and more things are available only in digital form. This 
country invented this technology, and we still have the world's 
greatest intellectual industry doing all kinds of interesting 
studies, and more and more of which is only in digital form.
    This is the business of superimposing acquisitions, digital 
knowledge and information. This is of enormous value to the 
United States, which invented the technology, and so many 
ideas, but if we don't archive these acquisitions and keep 
them, we aren't going to be able to answer questions that will 
only be answerable from digital content, increasingly from 
Congress, and also for the support of the government and our 
economy in general.
    Mr. Latham. Thank you.
    Ms. Wasserman Schultz. Thank you, Mr. Latham.
    Mr. LaHood.

                        THANKS TO THE LIBRARIAN

    Mr. LaHood. Dr. Billington, thank you for being here.
    I agree with what has been said earlier. I think the 
Library is the jewel in Washington, D.C. I think that the 
actual building is one of the most beautiful buildings in 
Washington. I tell people to be sure and come into the building 
and see the beauty of it. I also think that under your 
leadership and your team, the Library has really moved into the 
21st century in ways that probably most Members of Congress 
have no way of knowing.
    I also want to thank you on two counts: One, for accepting 
our suggestions to find ways to get more Members of Congress to 
come to the library. I know you are working on that very hard 
and have come up with some creative ways to do that, to get 
Members to use the Members room, and to come to the Library and 
see the great exhibits that you have. And I also want to thank 
you and your staff for all of the work that you have done to 
make the Abraham Lincoln Bicentennial Commission successful by 
allowing the staff of the Commission to work in your facilities 
and to use many of the resources that are available in the 
Library.

               DIGITAL TALKING BOOKS FUNDING REQUIREMENTS

    I know that this budget request for the Books for the Blind 
and the Physically Handicapped is very troubling to you.
    And I will just tell you this, Madam Chair, I am going to 
be one member of this subcommittee that is going to try to find 
a way to find the money. Look, budgets are about priorities. 
Our priority ought to be a way to not extend our ability to 
move books into the digital world by extending it 2 years, but 
to try to find the money to do it in 4 years. Budgets are about 
priorities, and one of our priorities on this subcommittee 
should be to find the money to do this. And so we haven't been 
given our allocation. The Congress hasn't even adopted a budget 
yet.
    And so I want you to know, and I want the Librarian to 
know, and I want the blind community to know this is one Member 
that is going to try and find the money so that we can do these 
digital books in 4 years, which is the commitment which we made 
to these people, the commitment that Congress made to them. To 
extend it out 2 years means that a lot of these people are not 
going to have the ability to have access to these books because 
they are going to be sitting on shelves. And I think it is 
incumbent upon the Congress to say to the handicapped 
community, we care enough and think enough about your ability 
to read important literature and books to give you the ability 
to do that. That ought to be one of the priorities of Congress, 
and it ought to be one of the priorities of the subcommittee.
    So I am going to do everything I can to find the money, to 
offer amendments if we can't find the money as a subcommittee 
to offset our ability to fund this. I think it is one of the 
most critical things we can do for the blind community and to 
send a message that reading is important, that having access to 
these books is important, and that because you are handicapped, 
it shouldn't delay your ability to read books. And----
    Ms. Wasserman Schultz. Will the gentleman yield?
    Mr. LaHood. Of course.
    Ms. Wasserman Schultz. Because I would also ask that you 
speak to the President of the United States when you have an 
opportunity and encourage him to be willing to compromise on 
what the overall top-line number is that we have to work with, 
because it is programs like this one that end up suffering when 
we have an austere and incredibly difficult number to work 
with.
    We have talked about the nice-to-haves and the got-to-haves 
in this bill. This Committee is one of the committees that 
suffers the most as a result of the allocation decisions that 
have to be made, because when they are choosing--when either 
your leadership or our leadership is forced to choose between 
Labor-HHS programs, and infrastructure needs, and 
transportation and energy and water projects, there is no way 
that we will be made a priority, and you have programs like 
this one that end up suffering because they are housed within 
the allocation that is given to this committee.
    Mr. LaHood. Look, Madam Chair, I am not going to lay the 
blame on the President, I am going to blame the Congress. We 
are the one that passed the rescission, we are the one that cut 
these programs, we are the one that made the decision. We are 
on this subcommittee as freely elected Members of Congress to 
make priorities. We are going to set our own budget.
    Do you know what I told some folks back home? The President 
proposes his budget, which he has done on February 5th, and we 
dispose. We are going to have our own budget. It is going to be 
on the House floor here one of these days. And as members of 
this subcommittee, we have an obligation to fund programs that 
we think are a high priority. And I happen to think this one is 
a very high priority, and I am going to fight like hell to make 
sure we can find the money somewhere within our allocation to 
speed up the digitizing of these books from 6 years to 4 years. 
We owe it to these folks to do that. That ought to be our 
priority.
    You know, the President can propose his own budget. We have 
our obligation and our responsibility. That is why we are 
elected. That is why we are on this subcommittee. That is why 
we have these hearings, to set our priorities. This ought to be 
our top priority this year.
    Ms. Wasserman Schultz. Thank you. I hope that yours and 
your colleagues on your side of the aisle's votes reflect both 
priorities as well when it comes to the needs that we have in 
this subcommittee as well as others, because there are many 
competing needs in this subcommittee.
    Mr. LaHood. Well, look, Madam Chair, I will work very hard 
on my side of the aisle. When our Legislative Branch 
Subcommittee comes to the full committee and comes to the House 
floor, this Member will be out front working very hard to make 
sure that this program is a priority for the Congress. I think 
it sends a good message across the country.
    Ms. Wasserman Schultz. It is my responsibility, and I will 
mention that your time has now expired, but it is my 
responsibility to make sure that all of the competing 
priorities in this committee, of which there are many, and the 
Talking Books for the Blind and the blind program is only one 
of them, and not one that I can say is the most important--
there are many competing priorities in this subcommittee. This 
a program that received $67 million in the last fiscal year, 
$67 million and a 25 percent increase, one of the largest 
increases in our entire bill. So there should not be an 
impression left that this is a community that has been 
forgotten or left out in the cold or ignored.
    This particular program most likely will have to be 
stretched out over a longer period of time, and there is only 
going to be a 10 percent reduction in the amount of players 
available. So let us make sure that we provide the resources 
and not politicize an issue unnecessarily.
    Mr. LaHood. Well, look, I want to respond to that.
    Ms. Wasserman Schultz. Yes, Mr. LaHood.
    Mr. LaHood. It is also my responsibility as a member of the 
committee, too. I know you are the Chair, but I am an equal 
member of this committee.
    Ms. Wasserman Schultz. You certainly are.
    Mr. LaHood. If you don't see this as a priority, I am 
putting you on notice, Madam Chair----
    Ms. Wasserman Schultz. I am reclaiming my time, Mr. LaHood.
    Mr. LaHood. I ask unanimous consent to speak for 1 minute.
    Ms. Wasserman Schultz. Mr. LaHood.
    Mr. LaHood. If you want to do it that way, I will do it 
that way. I yielded to you when you asked to be yielded to on 
my time.
    Ms. Wasserman Schultz. And I have let you speak for 8 
minutes. So if we are going to have a give and take, then we 
can have a give and take.
    Mr. LaHood. Well, you don't want to give me a give and 
take, so I will come back a second round.
    Ms. Wasserman Schultz. Okay. Thank you.
    Mr. LaHood. If you can't have it your way, then you don't 
want it anybody's way.
    Ms. Wasserman Schultz. Mr. LaHood, with all due respect, I 
gave you an opportunity, a lengthy opportunity, to speak. And 
if we are going to have a give and take, I am happy to have 
one. I didn't interrupt you.
    Mr. LaHood. Then let us have a give and take.
    Ms. Wasserman Schultz. Well, let us just proceed under 
regular order, and that way we can make sure that we are not 
arguing.
    Ms. Lee, welcome to the committee.
    Ms. Lee. I am welcome to be here. At the right time, I 
think. I apologize for being late. I had three things going on 
at one time. But thank you, Madam Chair, for this hearing, and 
good to see you both.

          CONTRACTING WITH MINORITY AND WOMEN-OWNED BUSINESSES

    Let me just ask you a couple of things with regard to the 
minority and women-owned business contracting initiative that 
we began last year. We are, I guess, waiting to see some draft 
language as it relates to the involvement and utilization of 
minority and women-owned business. Can you kind of tell us 
where you are on that and what the status is; and the type of 
contracting that you actually do in terms of procurements; and 
if you know whether or not what the numbers are at this point?
    Ms. Jenkins. I can't give you the exact numbers right now, 
but we have submitted to the committee the appropriate language 
that you asked for in the past bill to capture data and design 
a program for minority contracting.
    I will tell you that roughly 50 percent of our contracts 
already go to small businesses with the exception of some few 
technology contracts. Almost all of our contracts are small-
dollar contracts. I started my career being a competition 
advocate in the Small Business Administration, so I know a lot 
about this area, and it is something that we are putting in 
place to try to capture that data.
    I don't have the exact percentage of the number of minority 
businesses, but we have just gotten the authority to also do 
8(a) contracting, and so we are moving forward with putting 
that program in place as well.

                   LITTLE SCHOLARS CHILD CARE CENTER

    Ms. Lee. I look forward to reviewing that.
    Let me ask you also about the child care center, the status 
of the child care center, and also this issue about the low-
income assistance for the child care center, and also an 
update. Do you have any renovation plans at this point, and 
where? Again, based on our initial conversations, do we know 
yet where children will be housed during the interim?
    Ms. Jenkins. I will answer the question first about the 
subsidy. Right now we do not have a direct subsidy from 
theCongress to subsidize the child care center tuition cost. We have a 
very active fundraising committee with the Little Scholars program and 
we do a number of employee fundraising events. I myself contribute to 
the Little Scholars Child Care Center.
    But I know that the House employees have an authorization 
from Congress to subsidize tuition. We don't have that at the 
Library, so we do not currently subsidize the tuition. We have 
about 27 employees at the Library of Congress and about 21 
Members of the House have kids who are at the Little Scholars 
Child Care Center.
    Ms. Lee. Madam Chair, sooner or later I would like to 
really look at that, because I think the employees should have 
that available at the Library of Congress.
    Ms. Jenkins. And then you were also asking about St. 
Cecelia's and the renovation?

                        ST. CECELIA'S RENOVATION

    Dr. Billington. When this was originally purchased for the 
Library through the Architect of the Capitol by Congress at a 
reasonable price, the first priority was to establish a daycare 
center, which was much needed, and so we did that right away. 
The understanding was that the Congress, having purchased this 
property, would turn to the Library to convert it into low-cost 
housing for people who come to the District to use the immense 
scholarly and cultural resources in Washington. These are 
mostly young and international people who really can't afford 
Washington-area prices. That need has become all the more 
urgent since the cost of hotels and living space in Washington 
has skyrocketed. Most people are on expense accounts; 
journalists, lobbyists and others.
    I had consulted with the French and German Governments on 
setting up something similar to this. Frankly, Paris and Berlin 
have plenty of low-cost housing; they don't really need it. 
Washington is probably the world's greatest repository of 
underused scholarly material for a host of reasons. The Library 
of Congress first and foremost, but also the National Archives 
and many government libraries, are huge resources in this city 
that are underused because it is too expensive for younger 
scholars to do research work here. We are trying privately to 
raise the necessary funds.
    We have been encouraged by local foundations to come up 
with a plan, and we have privately raised about half the amount 
of money that would be needed to renovate the building. We have 
to pay something to sustain the whole complex. The basic 
building is very solid. We have worked out plans, which we have 
discussed over the years with the community. I think it would 
be a real addition to Washington and a tremendous help to 
people who really want to use the research facilities, but just 
can't afford to come here. It would accommodate between 35 and 
40 people at a time for a couple of weeks of intensive work.
    We hope to complete the private fundraising and have it run 
professionally.
    Ms. Lee. So the children who will be displaced as a result 
of the renovation?
    Dr. Billington. The private fundraising involves funds for 
the temporary displacement of the child care center, but that 
will continue to run. We won't go ahead with the renovation 
project unless we are sure that the child care center is 
provided for.
    Ms. Lee. The Board hasn't decided where the children will 
go?
    Ms. Jenkins. The Board has a couple of options that we are 
looking at, but it would be within a 3-month period of time 
once we secure all the funding.
    [The information follows:]

                      Center for Visiting Scholars

    Question. What is the current plan for renovating the St. Cecelia's 
facility, including accommodating the childcare operation while the 
facility is closed for renovation?
    Answer.
    <bullet> Under the current plan, the facility at 601 East Capitol 
Street, SE., would be renovated to house the Library of Congress Center 
for Visiting Scholars along with the childcare facility. Funds needed 
for renovation would come from donations (no appropriated funding for 
construction would be requested by the Library).
    <bullet> The AOC has conducted condition assessments and the LOC, 
using a contract architecture and engineering firm, has determined the 
extend and cost of renovation required. The AOC is working with the LOC 
and its contract architecture and engineering to explore design options 
that will accommodate the programmatic and technical requirements in 
the most economical fashion.
    <bullet> Accommodation of the existing Little Scholars Child 
Development Center is a major consideration. Under the current plan, 
the Center would be relocated during renovation to modular buildings in 
Page School Park. The earliest that relocation would occur is Summer 
2009, but the project plan is still evolving and may be impacted by AOC 
utility tunnel work on Second Street between North Carolina Avenue and 
the Senate buildings.
    <bullet> The Library is working closely with the AOC and the Child 
Development Center's Board of Directors and Center Director to 
coordinate utility tunnel work with all aspects of the temporary 
childcare operation; including planning, schedule, accessibility, 
environmental impact, security and safety compliance.
    <bullet> Because of utility tunnel work and to reduce costs, other 
temporary childcare options are also being explored. Other options may 
include relocation to modular facilities on Library grounds, 
accommodation on the existing site, and temporary use of local school 
and daycare facilities during summer months.

    Ms. Lee. Thank you.
    Ms. Wasserman Schultz. Thank you. And I absolutely agree 
and look forward to working with you on the child care center.

                         5-YEAR PLAN FOR NDIIPP

    I want to follow up on some of the things that Mr. Latham 
talked about in the NDIIPP program. I do want to commend you 
for developing the 5-year plan, and I realize we have, again, a 
difficult budget situation. You are choosing between your 
children when you put together this budget proposal. But with 
the 5-year plan and the $6 million that you have requested, it 
appears, and correct me if I am wrong, that you have made some 
good progress in terms of making adjustments to ensure that you 
could continue to progress down the path that has been laid out 
to accomplish your goals. Is that a fair assessment?
    Dr. Billington. Yes.
    Ms. Jenkins. Yes.
    [The information follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Wasserman Schultz. So I just want to make sure, 
obviously, again with this program as well that we can't get 
any worse. I mean, the $47 million rescission that occurred, 
which occurred in the fiscal 2007 cycle as a result of that 
year's budget not being accomplished, and with us having to 
first do a CR and then focus on the 2008 fiscal year, really 
caused us a significant problem. I know that NDIIPP is a high 
priority for the Library. And I think it is important to point 
out that these are materials that if we don't make sure that we 
continue down the path of preserving them, that they could be--
well, many will be lost; is that right?
    Dr. Billington. Absolutely. It is impermanent in two 
senses. It is impermanent because it is very short-lived 
material that is very perishable. The systems for decoding have 
changed. A lot of early digitized material can't be read 
anywhere, so it is impermanent in that sense.
    It is also impermanent in the sense that a great deal of 
value-added material is lost; for instance, venture capitalists 
all over the place are coming up with new services. A lot of 
scientific work is on line, but if nobody subscribes to the 
service that somebody is providing, it just vanishes. It is not 
as if it is printed and there are only a few copies; it just 
simply vanishes. Nobody maintains the source, and a lot of 
things have vanished that way.

                     PRESERVING LIBRARY COLLECTIONS

    This is an attempt to preserve and add to the Library's 
artifactual collections and have digital materials and to 
integrate it so you can have one-stop shopping. It is really a 
program that, for every year it is deferred, you lose. You 
don't even know exactly what you have been losing.
    Perhaps the least understood and underappreciated thing 
that the Library of Congress does is simply preservation. 
Everything on which creativity, intellectual advances, 
scientific studies are recorded since 1850 has been on 
perishable paper or perishable magnetic tape. This is the 
price, and it is a price worth paying, of a democratic society. 
Everybody gets access to things. But information is on high-
acidpaper, on acetate or nitrate film, on any of a variety of 
impermanent media.
    We have all the audio-visual heritage consolidated at last 
in one place in Culpeper, Virginia. We have a better chance of 
preserving that. The Library of Congress produces three-
quarters of all the film preservation of archival quality ever 
done in this country. Our role in preservation of the Nation's 
cultural creativity and intellectual production is absolutely 
central in our throw-away society. The Congress itself 
recognizes the importance of this preservation by creating 
boards for film preservation and for sound preservation.
    Ms. Wasserman Schultz. My time is going to expire. I want 
to be respectful of the other Members.

                     CAPITAL SECURITY COST-SHARING

    The payments to the State Department to provide security to 
your field offices, that is, I know, a frustration for you, and 
it is becoming an increasing frustration for me. I really think 
it is significant to note, again in the category of competing 
priorities, it is clearly critical that you have overseas field 
offices. I know that that is related to your ability to collect 
international collections, and there is a lot of important work 
that is being done by those offices. But 32, almost 33 percent 
of your entire request goes to funding the security that is 
provided to you by the Department of State. Is this the last 
increase that you have coming down the pike, or is there more 
in the future?
    Ms. Jenkins. For costs of security?
    Ms. Wasserman Schultz. For the assessment.
    Ms. Jenkins. No. In fact, they have told us that next 
year's request will be $5.4 million as part of our shared 
costs.
    Dr. Billington. This is very high overhead, about 49 
percent overhead on direct program cost.
    Ms. Wasserman Schultz. My understanding, and I sort of 
asked a question that I already know the answer to, but at some 
point doesn't the security cost actually eclipse the cost of 
the program?
    Dr. Billington. Not quite, but it is----
    Ms. Wasserman Schultz. It is close, isn't it?
    Dr. Billington [continuing]. Getting there.
    Ms. Jenkins. We are not sure whether or not the State 
Department is going to continue this indefinitely. Part of this 
was a result of 9/11, and they had to enhance security in all 
of the embassies, and they fair-shared it. We are hoping that 
it is not indefinite.
    [Staff Note: The Library is required to make payments for 
this program through 2018.]
    Ms. Wasserman Schultz. I think it is something that we 
really need to address, and I will ask the subcommittee members 
for their help when that time comes.
    Mr. Latham.

                    DIGITAL TALKING BOOKS AMENDMENT

    Mr. Latham. First of all, I want to associate myself with 
Mr. LaHood as far as the digital book program. The subcommittee 
last year, going to full committee, only had $7.5 million in 
the appropriations bill. Mr. Kingston and I had an amendment in 
full committee to raise that; we compromised $12.5 million, 
which was successful, but it kind of robbed Peter to pay Paul 
in the entire budget. But this is an absolutely critical need 
as far as I am concerned. I very much agree with Mr. LaHood 
that we have got to do something about it.

               IMPACT OF A CR AND UNFUNDED CRITICAL NEEDS

    There are a couple of concerns I have. One, as far as the 
Senate, I know we are going to do our work in the House. The 
Senate has said they are probably not going to do any 
appropriations bills this year, so we are going to be in the 
CR. What effect is that going to have?
    Also, in your statement you talked about $52 million you 
did not request for critical needs. If you could kind of give 
us an idea of maybe the most significant part of the critical 
needs that are not in your request, that would be very, very 
helpful to me.
    Dr. Billington. I am glad to do that. First of all, almost 
half of our critical needs are technological infrastructure. We 
are world leaders in providing high-quality, dependable, 
educational things K through 12 for a very, very large 
audience. We get over 5 billion electronic transactions every 
year.
    We have about 100 million repeat users.
    I can get you the exact figures, but it is straining our 
technological capacity.
    Library Services has been eroded a great deal. They have 
taken about 70 percent of the substantial erosion of staff 
since 1992. I have statistics on that I can give you as well.
    There is a whole list I can give you of all those 
divisions. It is nearly $52 million that we identified as 
important needs.
    We didn't go forward. We also didn't go forward with a very 
much needed logistics center, which we have been proposing for 
several years. We didn't even put that in this budget. Added 
together, you are getting close to $100 million in 
infrastructure needs.
    [The information follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Latham. Did you request, if I may interrupt----
    Dr. Billington. We did not.
    Mr. Latham. You didn't request OMB?
    Dr. Billington. I beg your pardon?
    Mr. Latham. Did you make in your request submission--did 
OMB cut this, or did you----
    Ms. Jenkins. We don't go through OMB. We decide----
    Dr. Billington. This is our decision.
    Mr. Latham. We have a mutual disadmiration for OMB.
    Ms. Jenkins. This is actually our internal process.
    Dr. Billington. This is our internal process for 
establishing critical resource requirements. This isn't just a 
vague wish list; these are things in our process. We have 
identified infrastructure needs that are pretty crucial, 
particularly the information technology infrastructure.
    Mr. Latham. Okay. Well, that is--I appreciate it.
    Dr. Billington. Also some requests from CRS.

                           RETIREMENTS IN CRS

    Mr. Latham. That is where I was going next. I just wanted 
to ask Dan one question.
    Going back to when I was first on the subcommittee, about 
12 years ago, CRS had a real problem with retirements.
    The institutional knowledge that we are going to be losing 
is significant. I just wondered if, for the record, you would 
talk about that and where you are today with the problem.
    Mr. Mulhollan. Thank you very much.
    Over a decade ago, back in 1996, we identified the problem 
that 50 percent of the CRS staff were eligible to retire by 
2006. We went to the Congress and said we need to have 
knowledge transfer. For example, as new agricultural economists 
come in, they need to be working with the agricultural 
economist who has been here for six farm bills. So we asked the 
committee, and the committee was able to give us additional 
funding for 2 years in a row to be able to assist us in this 
succession plan.
    And so every year we have asked CRS staff, when do you 
anticipate retiring, knowing plans change. So if six experts in 
natural resources are here and three of the six may retire, 
then that would be our top priority.
    Over the years what we have done with our staff's 
cooperation is to determine when they plan to retire; and then 
we are able to place the highest priorities on competencies 
facing a total loss of expertise, like we have one geneticist, 
we have one gerontologist. You need those competencies to be 
able to maintain the complete faculty of experts available to 
you. We have been successful with the CRS staff working 
together on this.
    And if you recall, the reason for these concerns is that we 
expanded our staff by over 2\1/2\ times as a result of the 
Legislative Reorganization Act of 1970, and these people are 
now retiring. We are now undertaking this same effort for our 
senior levels as well, with succession planning utilizing new 
management positions because our leadership is also able to 
retire.
    And in the last 5 years we now have 41.8 percent new staff 
on CRS. And our planning is working, and I think it is a good 
model. It is my understanding some elsewhere in the House may 
be looking at what we did. It shows that all the staff in CRS 
were committed to making this work.
    Mr. Latham. It is a real success story. I know the 
Government Printing Office has a similar problem. Maybe they 
could talk to you about how to do this.

                        AGING LIBRARY WORKFORCE

    Dr. Billington. I might add that about a quarter of the 
entire staff of the Library of Congress could retire right now, 
including expert curators. We have collected items that nobody 
else would have. Who would have thought 10 years ago that 
places like Kosovo, Chechnya, Burundi, Darfur--for that matter, 
even Afghanistan--10 or 15 years ago would be in the headlines. 
Not to mention Iran; we have tripled our exchanges with Iran.
    We are collecting all these great works from overseas. We 
don't just collect where the overseas offices are, in Islamabad 
for example, but also all through Central Asia and Afghanistan. 
They acquired on their regular collection routes a mimeographed 
copy of the autobiography of Osama bin Laden.
    There is a tremendous amount of expertise that we are in 
danger of losing, and we didn't even put that on the critical, 
critical list.
    Ms. Wasserman Schultz. Right.
    Dr. Billington. So this is the----
    Ms. Wasserman Schultz. I know. That is my concern, that 
there are items here that aren't even on the critical list, and 
we still have to keep priorities.
    Ms. McCollum, my apologies for skipping you. I didn't see 
you when you came in.

                  PRESERVING MUSIC IN DIGITAL LIBRARY

    Ms. McCollum. I want to talk about some of the future 
projects and resources, especially the issue for preserving 
things in the digital library. My question is: I am working 
with public television in Minnesota, and they are trying to 
preserve things like Newton's Apple and some of the other kinds 
of science programs and educational programs that they have 
before they disappear.
    And I think the way that you described it is absolutely 
fantastic. It does just literally disappear if it isn't 
recorded into a readable format.
    Where are you on having the music collection being 
available digitally? Because I know we have focused on books, 
but there is also the issue of music which is enjoyed by 
everyone. And even some in the deaf community, depending upon 
what they can do to speakers and amplifiers in the privacy of 
their own home, can have a sensory delight that they might not 
have been able to enjoy several years ago.
    And I am sure, you know, people who listen to Talking Books 
also listen to great music. So where are we in preserving and 
moving forward with the music collection?
    Dr. Billington. The music collection is one of the glories 
of the Library. In our American Memory program, we have 
digitized numerous items of American history and culture, and 
have put online the papers of Washington, Lincoln, Madison, 
Jefferson and so forth. We are also now putting on more and 
more of the cultural materials, particularly in musical 
notation. We, in fact, had--and you were kind enough to welcome 
him--Tom Hampson, the great American baritone, singing songs of 
the Library's music collection in ten cities across America. We 
have a lot of his recordings, the songs that were popular 
throughout American history, online.
    We have two recording labs in the new Packard Center, the 
new Packard Campus, for preserving music. We have a lot of new 
equipment. We are both preserving it and putting it online to 
make it accessible. All of this stuff is free online.
    We are adding the cultural materials, particularly musical 
materials. We already have quite a few. The next stage of our 
American Memory digitization is to develop an online 
encyclopedia of American music.
    There is even a certain amount in the process that includes 
producers, and distributors. It is probably the best, most 
comprehensive music collection in the world.

        ACCESSIBILITY OF MUSIC COLLECTIONS TO THE BLIND AND DEAF

    Ms. McCollum. I understand that. But my question is, how 
are you coming along with it?
    You are underfunded in that particular category and you are 
underfunded in other categories--as was discussed earlier--and 
while the Chair is working to move the Talking Books forward, 
access to the music collection also has an impact on many in 
our diverse communities.
    Let me give you a concrete example. I am a former history 
teacher. One of the best ways to engage and really understand 
the Civil War is the music of the era. Much of this music 
reflects the experience of the immigrant communities that were 
torn apart after coming here and finding themselves in war, 
which many of them came here to escape. Recordings also 
demonstrate how one of the most famous songs, Amazing Grace, 
went back and forth between the North and the South.
    So if I am a studious reader of Civil War history, and 
historians refer to Civil War songs quite a bit; and I want to 
round out that educational experience, and I have been, let's 
say, using Talking Books, what kind of funding do we need to 
get the music that would go with that? If I read the history--
if I listen to or read the history books, I should also have 
the opportunity to truly understand what that historian was 
telling me about by experiencing the music myself.
    Ms. Jenkins. Great. And we can provide that for the record.
    [The information follows:]

                      Digitizing Sound Recordings

    Question. What music has been digitized and made available online? 
What are your plans for future digitizing and making accessible 
recorded sound material from the Library's collections?
    Response. Sound recordings are tied up by copyright term 
restrictions for a period of time, longer than for any other creative 
works. Because audio recordings did not come under federal copyright 
protection until 1972, all recordings released before that date, even 
those dating back to the 1890s, are still protected by state and common 
law. Without rights holder permissions, the Library would not be able 
to place the first 80-plus years of our music recording heritage online 
until the year 2067. The only exception to this are recordings made by 
the Edison Company, many of which the Library has made available on the 
American Memory website.
    Licensing recordings for internet usage is a complex and 
specialized function that the Library has been unable to undertake on a 
large scale. Last year we obtained permission from several record 
labels to stream about thirty commercial recordings in their entirety 
on the Library's ``Amazing Grace'' website. While modest in scope, this 
agreement was precedent setting. On a much larger scale, the Library is 
actively pursuing an agreement with Sony/BMG Music that will allow us 
to stream audio on the web from the pre-1926 acoustic-era recordings in 
their catalog, which includes all Columbia and Victor recordings. This 
website, which we are calling the National Jukebox, will make thousands 
of long out-of-print recordings available for instantaneous listening.
    In 2003 the Library began the transition from analog to digital 
audio preservation. Since that time, approximately eight terabytes of 
digital audio have been created from a number of significant 
collections, including thousands of live concerts recorded by the Voice 
of America, jazz pianist Billy Taylor's collection, the Ann Sneed 
collection of live jazz performances, and the Charles Mingus 
Collection.

    Dr. Billington. There is a fair amount online, and there is 
much more, including lesson plans, that the teachers we have 
trained have developed. In fact, seven congressional districts 
have established programs for training teachers in how to use 
these online lesson plans.
    The idea of getting music back into the curriculum was an 
important part of the Song of America tour that we did with Tom 
Hampson; he conducted Master classes. We hope to repeat the 
tour.
    Invading the audiovisual world with things of quality takes 
you to where kids are living and gets them back into reading, 
gets them to ask questions, gets them inspired as well as 
excited.
    The correlation between music and math is very, very 
strong.
    Ms. Jenkins. Deanna.
    Dr. Marcum. I do want to note, we have a plan in the Music 
Division for putting pre-1923 music, the public domain music, 
online in the Performing Arts Encyclopedia; and we will be 
happy to send you the list of the collections that have already 
been digitized, along with those that are scheduled to be 
digitized.
    Ms. McCollum. Madam Chair, just a little follow-up, because 
I am thinking ahead.
    If we have got the music online, what kind of bridging are 
we putting in for those with visual impairments who are using 
online to access the music? Are we planning our technology far 
enough ahead so we can adapt?
    Are we working with the deaf community and the blind 
community to find out how they access the Internet, so that we 
make sure that we don't start setting up these parallel 
systems, which are expensive to run, but at some point we are 
running one efficient system that serves all Americans?
    You can get back to me on that.
    Ms. Jenkins. Okay. Because everything we put up online is 
Section 508 compliant, and we are very much including access 
for the blind community in our thinking.
    Ms. Wasserman Schultz. The gentlelady's time has expired so 
I would appreciate it if you would get back to her.
    [The information follows:]

  Providing Digital Sound Recordings to the Blind and Deaf Communities

    Question. How are you addressing the needs of the blind and deaf 
communities with the digital collections?
    Response. Audio digitization at the Packard Campus includes the 
production of a preservation quality sound file and a browse quality 
access file. We have just initiated a digital audio playback service 
from Culpeper to researchers in the Recorded Sound Reference Center on 
Capitol Hill via a secure closed network. We will soon bring online a 
streaming server that will hold access copies of all our digitized 
audio. The content in this server will grow at an increasingly high 
rate as the preservation capabilities of the Packard Campus develop. 
This growing digital content will be available to the public for 
instantaneous listening and playback-on-demand in the reference center.
    There are more than 10,000 patrons on the music rolls of the 
National Library Service for the Blind and Physically Handicapped 
(NLS). Each year NLS serves approximately 1,400 patrons with braille 
and large print sheet music, and also recorded materials that include 
general music appreciation as well as self-instruction on various 
instruments and/or songs on certain instruments. The special format 
music collection grows each year with the addition of hundreds of new 
music titles, recorded and sheet music.

    Ms. Wasserman Schultz. Mr. LaHood.

                     DIGITAL TALKING BOOKS FUNDING

    Mr. LaHood. Dr. Billington and Ms. Jenkins, could you 
provide for the record the amount of money it will take to 
speed up digitizing the books from 6 years to 5 years and from 
6 years to 4 years? I think the distinction here for digitizing 
books is that the Library is the sole source of these 
materials. People can't go in their own communities, they can't 
go to other places in the country to get these books. You are 
the source of--you are the sole source of it.
    And, again, to slow down this process, I think is a real 
unfairness. And so if we have these figures, then we will know 
precisely what we need to do to find the dollars to make this 
one of the priorities of this subcommittee, of the 
Appropriations Committee and of the Congress.
    Ms. Jenkins. Yes, sir.
    [The information follows:]

 Digital Talking Book Program Cost of Four and Five Year Implementation

    Total program implementation cost is $76.4 million. $12.5 million 
was appropriated in fiscal 2008. Annual costs of a four year 
implementation would be: $12.5 million in fiscal 2008 and $21.3 million 
(or additional funding of $8.8 million) in fiscal 2009, 2010, and 2011. 
Annual costs of a five year implementation would be: $12.5 million in 
fiscal 2008 and $15.975 (or additional funding of $3.475) in fiscal 
2009, 2010, 2011, and 2012.

                        THANKS TO LIBRARY STAFF

    Mr. LaHood. Thank you again for being here. Thank you for 
the services that you and your team provide not only to the 
Members of Congress--Dan and his team do a great job.
    Dan, I know that over the years you and your folks have 
done a great job in making all of us look very good in the way 
that we write bills and the way that we submit bills and the 
way that we gather information and make sure the bills we do 
introduce make sense, based on good research.
    So again, we are grateful to all of you for what you do.
    Dr. Billington. Could I just say one more brief word? 
Because I have talked about a lot of things and services; we 
haven't talked about the staff and the people. We have many 
people who are doing incredible work.
    The country can be proud of the Library staff. You are 
talking to me and Jo Ann and others; but the fact of the matter 
is that everything the Library accomplishes depends on the 
quality of the staff, and we haven't even discussed our needs 
in that area.
    We have one regular training budget. We aren't able yet to 
have the kind of succession planning that was present in CRS 
with such positive results. We have a lot of training to do. We 
are going to have to replace a lot of people who are retiring.
    There is a dedication and there is a quality in the staff. 
That is why actually most of our requests this year are really 
just to make sure we get the mandated pay raises and don't have 
to squeeze other programs further.
    I just did want to make it clear. I have been here a fairly 
long time, and I really do feel that there is a tremendous 
amount of work that is hardly noticed. It is really a tribute 
to the public service and dedication and the idealism of the 
Library's staff. When we are talking about these other things 
that we are going to do, we are only able to do them because of 
the staff. For instance, in cataloguing, it is a basic service 
the Library provides to the country. With many, many less 
people, Dr. Marcum's people are cataloguing more. They have 
steadily increased the amount of output.
    Ms. Wasserman Schultz. A big number?
    Dr. Billington. I mean, to a very significant degree. 
363,000 print items in fiscal 2007 versus 270,000 in fiscal 
2003.
    We talked about infrastructure. The real infrastructure is 
the people that bring all of this static material to life and 
make it interactive, abroad or nationally.
    Ms. Wasserman Schultz. You are absolutely right. That is 
the factor that always is underrepresented and 
``underrecognized,'' if that is a word or an appropriate word.

                       FUND-RAISING COORDINATION

    I want to focus on some of the other parts of your request. 
We have the Audiovisual Center that has now been completed. 
There has been a grand opening, and you have a $2 million 
request to fill 22 positions at the Audio Visual Conservation 
Center. We talked about this before.
    The center is a wonderful addition to the facilities that 
we have, and it will obviously go a long way towards advancing 
the goal, preserving these collections. But when we--when you 
are in the process of seeking private funds, it does result in 
a difficulty if you have not sought and received all of the 
private funds necessary to both build and operate a facility 
like this. Your successful collection of the donation results 
in an additional obligation on the Congress to fund the needs 
of the center that you have raised money for.
    So I cautioned you in our conversation in my office, and I 
will do so publicly, that--I really want to encourage, when you 
are doing that fund-raising, which I encourage you to do--we 
all do it, because obviously we clearly need some relief on the 
public resources that we can provide--that you raise all of 
your needs, at least get yourself as much of the way there as 
possible, and coordinate with us a little bit more closely on 
how we can make sure we know what is coming down the pike for 
our planning purposes.

           STAFFING REQUEST-AUDIO VISUAL CONSERVATION CENTER

    But what are some of the examples of the work that the 
Library will be able to do if you fill those positions that you 
can't do now? And what will happen if we can't fund those 
positions?
    Dr. Billington. Well, the center is simply not fully 
operational. This isn't a new request, but restoring money that 
was taken out in last year's budget, the last year of 5 years 
on the program. Frankly, the success of the enormous private 
donations by the Packard Humanities Institute was dependent on 
Congressional assurances of support.
    Funding for the staff was reduced by $2.374 million. 
Because of building delays, staff were not hired, creating a 
surplus in no-year funds for the program. Congress reduced the 
funding for staff, taking annual funding rather than no-year 
funding, which resulted in a shortfall for fiscal year 2009.
    So what we are requesting now is $1.781 million to be 
restored for 23 positions. The Packard Campus now is only about 
half operational in terms of what it will be able to do.
    Ms. Wasserman Schultz. What will we be able to do if they 
are funded, and what will we not be able to do if they are not 
funded?
    Dr. Billington. If they are not funded--I can give you the 
exact amount of what we won't be able to preserve.
    This moving image and recorded sound material has now been, 
for the first time, pulled together in one place. A lot of it 
has been in caves, in storage, and in various warehouses. 
Wereally need to move full steam ahead.
    The fundamental business of preservation is cut in half on 
this. This is not a new request. We have funding to continue 
for 1 year, but we are not able to attract people to Culpeper, 
Virginia, if they only are being offered a 1-year assignment.
    This is essential if we are going to develop that, if we 
are going to honor what was the understanding under which we 
were able to get this enormous donation. In reality, it is much 
more than $150 million because there was a lot of in-kind 
support--I mean, David Packard is one of the world's great 
experts on the technical side of film preservation. We have the 
benefit of his expertise as well as his money and his 
architectural skills, hopefully, with the landscape.
    It is a great credit to the Congress, but we will only be 
able to do about half as much as we could with full funding. I 
can't tell you how many films, but I can tell you that our 
audiovisual heritage, which has not been well preserved by 
those who generated it, is in a very perilous state. The 
Culpeper facility is by far, technologically, the best and 
largest in the country--I think in the world, really.
    I can give you, if you want estimates of what this means 
more precisely than that----
    Ms. Jenkins. We will provide it for the record.
    [The information follows:]

           Impact of No Additional Funding for Culpeper Staff

    Currently, Library Services' staffing and production levels in the 
areas of acquisition, processing, and preservation are lower than they 
were prior to the transition to Culpeper. Without the requested Packard 
Campus staffing, the Library:
    <bullet> Will not be able to take advantage of the dramatic 
increase in the capacities and capabilities of the Packard Campus for 
preserving and providing access to the collections.
    <bullet> Will not be able to bring online new preservation programs 
built into the campus, including color film preservation. Digital video 
reformatting will be limited to the simpler formats.
    <bullet> Will not be able to administer and maintain the facility's 
complex systems, equipment, and software.
    <bullet> Will not be able to acquire as many new collections and 
make them available for researchers.

    Dr. Billington. This is to close out the agreed basis on 
which we proceeded to raise the private money.
    Ms. Wasserman Schultz. It is in the spirit of making fully 
informed decisions about the tradeoffs that we will have to 
make.
    Dr. Billington. I want to assure you that next year we will 
deliver to you all that will be needed if we privately 
fundraise for something; and we will also let you know what we 
may be able to reduce with your help and the help of the staff.
    Ms. Wasserman Schultz. Thank you.
    Mr. Latham.

        LAW ENFORCEMENT FUNCTIONS OF OFFICE OF INSPECTOR GENERAL

    Mr. Latham. Dr. Billington, is your inspector general here 
today? I have a couple questions.
    Mr. Schornagel, the question relates to the law enforcement 
authority that apparently you have or believe. I just ask what 
statutory authority do you have to perform law enforcement 
functions like carrying a firearm, making arrests and executing 
warrants?
    Mr. Schornagel. Like most inspectors general in the Federal 
Government--and there are over 60, and they all have criminal 
investigators and some have statutory law enforcement, the 
larger ones. The rest of us get our law enforcement authority 
through deputation from the U.S. Marshals Service, and we need 
that to obtain and execute search warrants and make arrests.
    Mr. Latham. The legislation basically granting independent 
IG authority to Library of Congress, Capitol Police, Architect 
of the Capitol inspectors general specifically excludes law 
enforcement authority. Is this something you think Congress 
intended to have for the inspector general?
    Mr. Schornagel. Well, none of the statutory language for 
the non-Presidentially appointed IGs specifically address law 
enforcement authority. So our language is similar to everybody 
else's, including the Government Printing Office. That office 
exercises law enforcement authority.
    So we are really no different than other agencies such as 
the National Archives or the Smithsonian.
    Mr. Latham. Are there other people deputized also under the 
Marshals Service?
    Mr. Schornagel. Yes. As a matter of fact, probably about 
30-some inspector general offices are.
    Mr. Latham. No, under your Library.
    Mr. Schornagel. Just our criminal investigators.
    Mr. Latham. How many?
    Mr. Schornagel. There is one full-time and two part-time.
    Mr. Latham. The request to be deputized from the Marshal's 
office has to come from the entity, and in this case, the 
Library of Congress. Who submitted the request for you?
    Mr. Schornagel. I did.
    Mr. Latham. You did?
    Mr. Schornagel. Yes.
    Mr. Latham. Okay. The agency is actually supposed to do 
that.
    I am curious. It says basically you are deputized in the 
Department of Justice.
    Mr. Schornagel. Correct.
    Mr. Latham. What kind of authority do you have? And 
specifically, have you had any ability to do intercepts or 
wiretaps?
    Mr. Schornagel. No.
    Mr. Latham. You do not. Okay.
    Do you have a memo of understanding from the Department of 
Justice?
    Mr. Schornagel. Yes, we do. Correct.
    Mr. Latham. Okay. Where does the liability lie?
    Mr. Schornagel. The liability for what specifically--
    Mr. Latham. If, in fact, something happened, is it the 
Justice Department, is it the Library?
    Mr. Schornagel. It is the Justice Department.
    Mr. Latham. Okay. I have a real concern here that we 
basically have--a separation of powers issue where we are 
funding the position that is supposed to work for the 
legislative branch. It is deputized under DOJ.
    Who is your authority as far as any kind of enforcement 
authority? Is it the Attorney General?
    Mr. Schornagel. Well, he is the one who we are required to 
refer criminal cases to. It is the same organization, whether 
it is a leg branch IG or the executive branch.
    For example, the Government Printing Office has been 
exercising the exact same law enforcement authority that I do 
ever since they have been statutory, for like 15 years.
    Mr. Latham. Can you cite the statutory permission?
    Mr. Schornagel. Well, the Inspector General Act of 1978 is 
a law that is referred to in my act; it has the same language 
in the IG Act for the Government Printing Office.
    Mr. Latham. Okay. From my understanding, it is excluding--
--
    Mr. Schornagel. It is implied rather than explicit, the law 
enforcement authority, and it is common operation that all 
statutory, non-Presidentially appointed IGs get their law 
enforcement authority through deputization from the U.S. 
Marshals Service.
    We are considered by the Federal Government a law 
enforcement organization. And we cannot rely on police 
organizations to help us fulfill our mission. We found police 
organizations unreliable, and I have also experienced delays 
when we have had to rely on these organizations.
    Mr. Latham. Well, my concern is you are basically under the 
control of the administration--the executive branch, Madam 
Chair----
    Ms. Wasserman Schultz. Yes.
    Mr. Latham [continuing]. You know, I don't care what 
administration it is--but being paid through the legislative 
branch; and there is a real concern I have here with the 
separation of powers.
    The Government Printing Office has specific authority, and 
from my understanding, you are specifically excluded from 
having law enforcement authority.
    Mr. Schornagel. No, I don't believe that that is true. As a 
matter of fact, this whole thing came up on the Senate side 
last year, and we went through the same types of issues. It was 
referred by Senate Appropriations to the GAO for a legal 
opinion, and it confirmed my position. There are no legal 
barriers from our exercising law enforcement authority just 
like all the other IG offices do.
    Mr. Latham. Would you provide a copy of the GAO opinion?
    Mr. Schornagel. Sure.
    Ms. Wasserman Schultz. If you could do that for the record, 
we would appreciate that.
    [The information follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Wasserman Schultz. Mr. Latham, if you could begin to 
wrap up.
    Mr. Latham. Just on the issue of the firearms, who issued 
the guns to you and your staff? And who certified the 
qualification for the firearms?
    Mr. Schornagel. We buy the guns ourselves and we certify 
the same facilities----
    Mr. Latham. You personally buy them?
    Mr. Schornagel. Yes. We borrowed them for quite some time 
from the Library's police force. We certify under the same 
procedures and the same facilities as the Library of Congress 
and Capitol Police and the other inspectors general.
    Mr. Latham. So you personally bought the guns, but you did 
borrow them for a while?
    Mr. Schornagel. Correct. And that is common practice in the 
inspector general community.
    Mr. Latham. I have nothing further for now. I just have 
real concerns about separation.
    Ms. Wasserman Schultz. I am going to follow up right now.
    Mr. Schornagel. Well, I would like to clarify one thing.
    Ms. Wasserman Schultz. Mr. Latham's time has expired, and I 
want to continue this conversation, because my understanding 
is, your general counsel suggested that you didnot have the 
authority to carry firearms.
    Mr. Schornagel. That is what brought this issue up a little 
over a year ago.
    Ms. Wasserman Schultz. Excuse me. If your general counsel 
suggested that you do not have the authority to carry firearms, 
why did you hire a different attorney to write you a different 
opinion that you liked better?
    Mr. Schornagel. Because inspectors general--in fact, 
specifically in legislation that is in both the House and 
Senate now, changes to the Inspector General Act of 1978 
recognize that an agency's general counsel does not have the 
best interest of the inspector general in rendering opinions. 
And that is why one of the requirements in this legislation is 
that IGs have their own counsel and not rely on the opinions of 
the agency's General Counsel.
    Ms. Wasserman Schultz. My understanding is that statutory 
authority was very limited and that you were not included in 
that.
    Mr. Schornagel. I don't believe that is correct.
    Ms. Wasserman Schultz. Well, according to the general 
counsel who was the one that you hired to give you advice----
    Mr. Schornagel. I disagree with our general counsel.
    Ms. Wasserman Schultz. Okay. But we don't go around hiring 
attorneys until we get the opinion we want.
    I appreciate your bringing this issue up, Mr. Latham. And 
we'd appreciate the information that we requested for the 
record.
    Mr. Latham. GAO statement, if I may.
    Ms. Wasserman Schultz. No. Go ahead.
    Mr. Latham. I want to see the opinion from the GAO noting 
the authority to do this.
    Ms. Wasserman Schultz. Sure.
    Dr. Billington, if you could provide that information for 
the record, we would appreciate that.
    And I can assure you, Mr. Latham, that we will spend some 
time on this, because it is a matter of concern. I appreciate 
your raising it.
    I am sorry. Mr. LaHood.
    Mr. LaHood. I am fine.
    Ms. Wasserman Schultz. You are all done.

               FOOD SERVICE PROVIDER AND CAFETERIA STAFF

    All right, there has been some concern about the Library's 
cafeteria union and your interim food service provider IL 
Creations, which I know has taken over for a 3-month period. 
Their interim contract is expiring, and I guess there is an 
opportunity to extend that contract for a period of months, but 
I am concerned about the benefits issue that exists right now.
    On the one hand, IL Creations appears to have said that it 
doesn't make sense for them to negotiate with the union because 
they are only a temporary replacement for the former 
contractor; but at the same time they feel confident enough 
that they rewrote benefits packages for at least some, if not 
all, of the employees. It sounds like, to me, the company is 
trying to not negotiate with the employees because they are 
only a 3-month contractor, but change their benefits without 
negotiations.
    So it seems to me there is a problem going on here. Can you 
address that, please?
    Ms. Jenkins. Absolutely.
    Let me first state that we have a procurement out to find a 
new vendor for the cafeteria services. We did that because of 
the large number of complaints that we had received.
    We have gone through the bid process twice, trying to get 
other vendors to come in and bid on this. But there are some 
limitations because of the small time window in which they can 
sell food to the general public--unlike here in the Capitol, 
where there are thousands of people. So we actually went out 
under my direction to find a vendor.
    We found IL Creations, which has a number of other 
government contracts providing similar services. They have now 
a short-term contract, but the intent is for them to operate 
under a bridge contract for a 20-month period, which is the 
processing time that it takes for us to put the bid back out.
    Ms. Wasserman Schultz. My understanding is that they are 
now considering, if they haven't already, applying for the 
actual full contract.
    Ms. Jenkins. We haven't put it back on the street. Our 
intent would be that they would be open to bid on it, just like 
anybody else would.
    Ms. Wasserman Schultz. They will continue past the 3-month 
period?
    Ms. Jenkins. The intent is they would have a 20-month 
bridge contract.
    Ms. Wasserman Schultz. Why wouldn't they be subject to 
negotiating a collective bargaining agreement with the union if 
they are going to be here for 20 months? That is almost 2 
years. That is ridiculous.
    Ms. Jenkins. They are, in fact, negotiating with the unions 
right now, with IL Creations.
    Ms. Wasserman Schultz. According to the information I have, 
they have been refusing to negotiate with the union and, at the 
same time, changing benefits indiscriminately without 
negotiating.
    Can you specifically address the benefits issue?
    Ms. Jenkins. Sure. It is absolutely untrue that they are 
not negotiating. They have had several negotiating sessions. 
The contractor has discussed the possibility of providing full 
costs for all the employees for health benefits.
    There is one employee who would not have full coverage for 
her children, and that was the issue. So it is not--85, 90 
percent of the employees----
    Ms. Wasserman Schultz. Twenty-eight workers, total.
    Ms. Jenkins. Twenty-eight workers, but for 27, the 
contractor would be paying the full cost.
    Ms. Wasserman Schultz. But that is just because 27 of the 
28 of them don't need family coverage; they are single-coverage 
employees.
    So we are talking about--that is the purpose of negotiation 
in collective bargaining, that you make sure that you can 
bargain for all of the workers and not just say, Well, it is 
only one, no big deal; we will take care of the 27 out of 28.
    Ms. Jenkins. Absolutely, I agree. They are in the middle of 
bargaining; and I think that what we have here is the 
communication between the employees and the union and the 
contractor.
    We spoke to them as late as yesterday to make sure they had 
set up additional bargaining sessions to try to resolve this 
before we even entered into the 20-month contract. I had been 
assured by the existing contractor that he has reached out not 
only to the union, but also to the employees.
    Ms. Wasserman Schultz. Is he specifically negotiating the 
benefits--the health care benefits?
    Ms. Jenkins. Yes.
    Ms. Wasserman Schultz. He is? What I have been told--
    Ms. Jenkins. Those are preliminary discussions.
    Ms. Wasserman Schultz. That is not a final decision?
    Ms. Jenkins. No.
    Ms. Wasserman Schultz. If you could, keep us apprised on 
the negotiations.
    Ms. Jenkins. Yes.
    [The information follows:]

                 I.L. Creations and Cafeteria Employees

    <bullet> The Library's contract with Sodexho Inc. for the provision 
of food services at Library facilities expired on December 21, 2007. 
The Library awarded a 90-day contract on December 31, 2007 and signed 
an 18-month ``bridge'' contract with the I.L. Creations on Friday, 
March 7, 2008. During this period, the Library will issue a request for 
proposals and vendors, including I.L. Creations, will have an 
opportunity to bid for the Library's food service business.
    <bullet> In accordance with District of Columbia law, I.L. 
Creations retained the former Sodexho employees during the initial 90-
day period and provided training on their system and procedures. The 
Library, as far as the law allows, has encouraged I.L. Creations to 
communicate and negotiate in good faith with its employees.
    <bullet> John Boardman, executive secretary-treasurer of the Hotel 
and Restaurant Employees Unitehere, Local 25, which represents the 
cafeteria workers at the Library, and I.L. Creations are scheduled to 
meet on Friday, March 14, at 2 p.m. to begin negotiating a new 
bargaining agreement. A new contract will include terms for benefits. 
These issues are central to the current dispute between I.L. Creations 
and its new employees.

    Ms. Wasserman Schultz. I realize those workers are not 
direct Library employees; but I have experience in my own 
congressional district with a similar issue, and it is not 
something that I would like to see happen again the way it 
happened in my own district.
    We are going to have a vote coming up, and I don't want to 
bring the members back.
    Mr. Latham, do you have anything?
    Mr. Latham. I may have one or two for the record, but we 
will have votes soon.
    Ms. Wasserman Schultz. I have a couple others, so I am just 
going to continue.

                     OFFICE OF WORKPLACE DIVERSITY

    The Office of Workplace Diversity. It has been brought to 
my attention that the Library has plans to just completely shut 
it down and eliminate the employees. And you are shaking your 
head, so apparently that might not be the case.
    But the information that I have is that the Office of 
Workplace Diversity staff is being subject to a reduction in 
force. They have 16 people. The overall staffing of that office 
is about 8 percent minority and 56 percent female.
    What is going on with the Office of Workplace Diversity? If 
you are subjecting all the employees to a reduction in force, 
then what are your plans to make sure that there continues to 
be an Office of Workplace Diversity.
    Ms. Jenkins. There will absolutely be an Office of 
Workplace Diversity.
    It is no secret that we have had a number of performance 
issues in the office. I asked earlier this year for the IG to 
come in and do a management review. He completed that 
assessment, I believe about 3 or 4 months ago, and made a 
number of recommendations, many of which address the issues of 
the performance in the office as well as the high number of 
people working in that office compared to other leg branch 
agencies.
    I have to say that I came to the Library 14 years ago to 
deal with workforce diversity issues, so it is something that 
is very near and dear to me. Of those 16 people in there, about 
85 percent are eligible to retire.
    What we are doing now is trying to address the inspector 
general's recommendations to us about how to create the Office 
of Workplace Diversity that the Library is going to need in the 
future so that it is able to focus on recruiting 
underrepresented populations, like Hispanics and the disabled.
    We have briefed the staff.
    Ms. Wasserman Schultz. Are you reducing the entire force, 
all 16? Because the EEOCO has not been subjected to the same 
comparative criticism as the rest of the office. So there were 
concerns.
    Ms. Jenkins. No. What we are doing is, we are going through 
a process in which we have met with each individual staff 
member. They have been allowed to submit recommendations or 
changes concerning areas in that office that need improvement.
    We will probably come back to the Congress to ask for 
authority to offer early-out retirement.
    We will be putting in place a structure of what the office 
needs to look like, and those people will be placed 
appropriately according to their skills within that office. But 
it is not our intent to put anyone on the street,and I don't 
think anyone mentioned the words ``reduction in force.''
    Ms. Wasserman Schultz. Does that mean you do not have plans 
for there to be a gap between whatever plans you have to change 
the Office of Workplace Diversity and your reinvention of it, 
to where there won't be a period of time----
    Ms. Jenkins. There won't be gaps in service. Absolutely 
not.
    Ms. Wasserman Schultz. I am concerned about it in light of 
the issues you have had recently in terms of hiring and 
diversity specifically and want to make sure you don't leave a 
gap that would result in more problems than what you already 
have.

               Closing Remarks and Additional Assignment

    That concludes the questions that I have.
    I do want to reiterate and stress my appreciation for the 
Library's really significant and successful effort in giving us 
a budget that is realistic and that we can use to try and make 
sure that we limit the pain that we have had in the last couple 
of years.
    I want to ask you for your assistance with some of these 
issues, specifically as it relates to the Office of Workplace 
Diversity. If you can by next Friday, March 14, give us a 
report that has an explanation of what exactly you are 
proposing to do with the Office of Workplace Diversity and when 
your plans are to do that; an explanation of why you have 
decided to pursue such a broad course of action and why you 
think it is the best option available, and how you will 
continuously maintain the functions of the office regardless of 
how you decide to proceed from here.
    I would also like you to give us some information about the 
Department of State security payments and any suggestions as to 
how we might address it differently.
    It is untenable to have a program that is eclipsed by its 
security needs; given that we have a number of competing 
priorities, we have got to try to stem the tide on that 
situation.
    With that, the subcommittee stands in recess until tomorrow 
morning at 10 a.m. when we will hear from the Public Printer on 
GPO's FY 2009 request.

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                           Thursday, March 6, 2008.

                   GOVERNMENT PRINTING OFFICE BUDGET

                               WITNESSES

ROBERT C. TAPELLA, PUBLIC PRINTER OF THE UNITED STATES
NADINE ELZY, DIRECTOR OF EEO

                      Opening Remarks by the Chair

    Ms. Wasserman Schultz. Good morning. I would like to call 
the Subcommittee on the Legislative Branch of the Committee on 
Appropriations to order.
    Today, we are going to hear from Robert Tapella, the new 
official Public Printer of the United States, confirmed by the 
Senate and sworn in, I assume, by the President, correct? Is 
that who actually swears you in?
    Mr. Tapella. Well, in this particular case, it was the back 
office clerk of the Hotel Michelangelo in New York City, who 
happened to be the notary public right after the President 
signed the commission. The President did sign the commission.
    Ms. Wasserman Schultz. Good. We are looking forward to 
hearing from you.
    The focus of the hearing will be the fiscal year 2009 
request from GPO, which is $174 million, not quite the single-
digit increase that we had from yesterday but a 40 percent 
increase over fiscal year 2008. That is a large request, but it 
is important to note that GPO has sustained very minimal 
increases over the last 2 fiscal years. There are shortfalls in 
the congressional printing account that we have to cover. We 
have to address building maintenance. Really, if there is an 
example of an agency that has crumbling infrastructure and 
needs help, it is GPO. And then a lot of the rest of the 
increase is for the FDsys system, which is the new digital 
repository for all Federal documents.
    The key things that are part of the request, which I know 
the Printer will outline, are $8 million to cover accumulated 
congressional printing shortfalls, which we might have a way to 
address; $21 million to continue developing the FDsys system; 
and $17.5 million to maintain and repair GPO's aging buildings, 
which we'd like to hear more about what your ideas are for not 
having to continue to prop up your buildings.
    I know there are a lot subcommittee members that have 
competing hearings within the Appropriations Committee this 
morning, so they will be coming in and out, and we will just 
proceed and recognize them as they get here.
    Again, we are operating in a very tight budget environment. 
Things are not getting any better for us in the legislative 
branch, and we are going to try to make sure we fight for at 
least adequate funding for the absolute things that we have to 
have for each of the legislative branch agencies, and you are 
no exception.
    So, with that, Mr. Latham.

                     Opening Remarks of Mr. Latham

    Mr. Latham. Thank you. I just want to say this is probably 
the nicest printing job I have seen as testimony, as I would 
expect.
    Ms. Wasserman Schultz. Really.
    Mr. Latham. I just want to welcome you.
    I know you have got several concerns. I look forward to 
hearing the testimony on those, particularly about retained 
earnings and investments and technology. Since the Federal 
Government is probably not going to get much smaller in the 
next few years, I would be really interested in hearing what 
you think we need to do to be of assistance for you.
    With that, thank you.
    Ms. Wasserman Schultz. You are welcome.
    Mr. Tapella, we welcome you to your first hearing in your 
official role as the Public Printer. Your full statement will 
be entered into the record, and you can proceed with a 5-minute 
summary.

               Opening Statement From the Public Printer

    Mr. Tapella. Terrific. Thank you.
    Madam Chair, Representative Latham, this is my first 
appropriations hearing as Public Printer, although I have been 
part of GPO's management team for over 5 years. During that 
time, GPO has been transformed into a modern, efficient and 
effective partner to all three branches of Government, 
providing a broad range of products beyond just printing.
    Our original objective in transforming GPO was to ensure it 
would survive. Through the hard work of our dedicated employees 
we achieved that goal and more, and now GPO is beginning to 
thrive.
    I am pleased to report that we recorded net income for the 
fourth consecutive year. We increased overall revenue to levels 
that have not been experienced at GPO for more than a decade, 
primarily as a result of the production of electronic 
passports, as well as other in-plant operations. Efforts to 
economize and increase efficiency also contributed measurably 
to our financial results.
    For fiscal year 2009, we are requesting a total of 
$174,354,000, which will enable GPO to meet projected 
requirements for GPO's congressional printing and binding and 
information dissemination operations during fiscal year 2009; 
recover the shortfall in congressional printing and binding 
appropriations accumulated in fiscal year 2007 and projected 
for fiscal year 2008; provide investment funds for necessary 
information dissemination projects in the Federal Depository 
Library Program; complete the initial release of FDsys; and 
perform essential maintenance and repairs to our aging 
buildings.
    In short, the increase requested by GPO asks Congress to 
pay its bill for past congressional printing and to make 
investments in GPO's future, which will help us continue to 
reduce the real dollar costs of congressional printing in the 
future.
    Playing a numbers game, we are asking for nearly 50 million 
additional dollars. As a percentage of our prior 
appropriations, it seems like a big percentage; and GPO loses 
in that comparison and so does the taxpayer. In real economic 
terms, the technology investments that Congress has made at GPO 
over the past few decades have significantly reduced the cost 
of congressional printing. Were it not for the foresight of 
your predecessors in making these technology investments at 
GPO, our basic costs for congressional printing would be about 
$300 million a year.
    GPO's approved funding for fiscal year 2008 is under $90 
million, a reduction of more than 70 percent in real economic 
terms. The savings have come from productivity improvements and 
staffing reductions made possible through the use of improved 
technology.
    Now, in my official remarks, I have how a bill becomes a 
law. There are basically 24 steps in the legislative process. 
GPO is involved in 12 of them. Over 500 GPO employees gave 
direct support to Congress last fiscal year.
    Technology is at the center of GPO's operations today. 
GPO's Federal Digital System is the backbone. Of the total 
funding investments requested by GPO, nearly half are directly 
related to the establishment and operation of GPO's Federal 
Digital System. This includes modernizing congressional 
publishing, replacing production workflow systems, and 
digitizing the FDLP legacy collection.
    For the salaries and expenses appropriation of the 
Superintendent of Documents, the increases for fiscal year 2009 
are required to cover mandatory pay and price level increases, 
as well as projects that are all directly linked to FDsys. The 
projects are geared to ensure the broadest access possible to 
Federal Government information and the highest level of service 
to the American public.
    GPO needs a modern and efficient facility. I would like it 
to have green building certification. I have begun working with 
our oversight committees on a plan, a plan that would require 
no direct appropriations, allow us to remain on our current 
site, maintain current employee head counts, provide additional 
space for legislative branch use, and not face an untenable CBO 
score.
    I believe we could have legislation passed this year to 
make the new building a reality. In the meantime, however, we 
have a number of deferred maintenance items that we must 
address, and so in our appropriations request we are asking for 
some help.
    I would like to address the success of our security and 
intelligent documents business. It is profitable. Some are 
suggesting too profitable. I am not certain yet. Because of the 
unprecedented demand for passports last year and the prudent 
increases in passport inventory so far this year, GPO is 
experiencing accelerated revenue recognition, not necessarily 
excess profits.
    GPO is unlike most other Federal agencies in that all GPO 
activities are financed through a business-like revolving fund. 
The revolving fund functions as GPO's checking account with the 
U.S. Treasury. The fund is used to pay all of GPO's costs, and 
the fund is reimbursed by our agency customers when they pay 
GPO invoices.
    The price we charge the State Department for blank 
passports is negotiated with the State Department. It is based 
on our estimated production costs, plus reserves for capital 
projects apportioned out over an estimated quantity of books 
produced.
    There are 66 different line items used to price 
thepassports, and we periodically review the pricing structure with the 
State Department. We bill the State Department for actual passports 
produced on at least a monthly basis. However, not all of the expenses 
included in the price we charge the State Department for passports are 
booked at the same time as the revenue. Because of our business type 
accrual accounting, the expenses are not recognized until the 
investment has been placed into service. There is a timing difference: 
revenue first, then expenses, and not necessarily in the same year.
    As you may have noticed, in last year's annual report in 
our financial results table we show net income from operations. 
We then show planned uses of net income. This clearly 
identifies the impact of the accounting rules on our 
recognition of revenue and expenses.
    We have established formal committees with the State 
Department to discuss and formalize long-term capital 
investments. These investments will be recognized this year in 
our financial results table as planned uses of net income.
    Finally, the real question that needs to be answered is 
what is the appropriate level of profit for GPO under Title 44? 
Is it 2 percent? 5 percent? 10 percent? 20 percent? Or should 
it be measured by unencumbered cash on hand? As Public Printer, 
I must confess too much profit is a much better problem to deal 
with than whether or not we can meet payroll.
    Madam Chairman, Representative Latham, we look forward to 
working with you. With your support, we can continue GPO's 
record of achievement.
    This concludes my remarks, and I would be happy to answer 
any questions.
    Ms. Wasserman Schultz. Thank you very much, Mr. Tapella.
    [Mr. Tapella's statement follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
                           Welcome Mr. Bonner

    Ms. Wasserman Schultz. Before we move into questions, I now 
want to officially recognize and welcome Mr. Bonner of Alabama 
to the Appropriations Committee and to the Legislative Branch 
Subcommittee and to your first meeting. And you are absolutely 
forgiven for your absence yesterday since the committee 
schedules us with way too many competing priorities.
    Mr. Bonner. Thank you, Madam Chair.

                           THE FUTURE OF GPO

    Ms. Wasserman Schultz. It is a pleasure to have you on the 
committee, and we will proceed under the 5-minute rule.
    Mr. Tapella, you talked a little bit about your vision for 
the future, but can you give us a sense of where you want to 
take the GPO over the next 5 years? GPO began as a normal 
printer; and now it appears there has been some significant 
evolution.
    Mr. Tapella. GPO was founded originally as Congress's 
printer in 1861, through legislation in 1860. In 1895, all 
Government printing was put under the Government Printing 
Office. In addition, the Superintendent of Documents operation 
was also put under the Public Printer. Everything worked fine 
until about 1993, and then the Internet happened, and it was 
explosive technology.
    As Public Printer I have a responsibility to make certain 
that the documents of our democracy are made widely available 
and kept in perpetuity. That responsibility falls to our 
Superintendent of Documents operation. Today, less than half of 
all Government documents are printed first and then 
distributed. They are born digital, and they are made available 
to the public through Web access and other sources. So the job 
of the Public Printer, I believe, and our primary mission, is 
keeping America informed.
    It just so happens that the method that was used prior to 
the invention of the Internet was the printing press. But in 
1993 Congress gave us authority to operate a Web site; and, in 
fact, we are one of the few Web sites that is actually 
congressionally mandated, which is our GPO Access site.
    So when we look at GPO we are really in the communications 
business. We always have been. And we are in the Government 
information business. It just so happens that today printing is 
not the only widespread communications medium. Now, looking at 
GPO, we have a couple of different things.
    Ms. Wasserman Schultz. Be mindful that I only have 5 
minutes.
    Mr. Tapella. Okay. Then I will stop.
    Ms. Wasserman Schultz. No, you can answer the question. 
Just be mindful that I only have 5 minutes.
    Mr. Tapella. In terms of printing, what we are doing in 
house, we are focusing on security and intelligent documents, 
and we are focusing on the official journals of Government.All 
other Government printing, for the most part, is being jobbed to the 
private sector. We procured 98,000 jobs last year from the private 
sector. We are going to continue that. We are looking at new and 
innovative ways of dealing with that, for example, our partnership with 
FedEx Kinko's, where any Federal Government agency can go to any FedEx 
Kinko's and get convenience printing done. We are doing term contracts. 
We are doing small purchase agreements.
    When we look at what we are doing in plant, we are focusing 
on the work of Congress, the Federal Register, and then the 
business of security and intelligent documents, which includes 
the passports. It also includes, because we have won the 
contract so far, the Department of Homeland Security's Trusted 
Traveler program card. And so our business is expanding. It is 
printing, but it is also the injection of technology and 
integrated circuits into something we print.

                       PASSPORT FACILITY SECURITY

    Ms. Wasserman Schultz. Thank you.
    I have a number of other questions, but last year we put 
language both in our bill as well as in the report related to 
passport facility security. GPO had previously been staffing 
the passport facility with just security guards--I know you 
have a different term for them--but nonsworn officers; and 
given the homeland security concerns that exist with a 
situation like that, the committee felt strongly that it should 
be sworn officers that protect that building. Can you talk to 
us about what you have done since that language was included in 
the bill?
    Mr. Tapella. Yes. In fact, now our passport facility only 
has sworn officers. Understanding, though, that the majority of 
the work that is done there in terms of the security need is in 
the area of access control.
    Ms. Wasserman Schultz. Right.
    Mr. Tapella. We have placed security officers at access 
control points, and they are now doing that. We are in the 
process of hiring additional officers, sworn officers that will 
be working in the rest of our facility for response to 
incidents; and we are still using contract officers for access 
control elsewhere at GPO.
    Ms. Wasserman Schultz. Can you talk about the GAO report? 
Mr. Brady and I just signed a letter asking----
    Mr. Tapella. Correct. We have not yet had our initial 
conference with GAO regarding it.
    Ms. Wasserman Schultz. Okay.
    Mr. Tapella. We look forward to it. Our Inspector General 
has conducted several reviews. The Capitol Police have 
conducted reviews. All of our security to date has been 
following the advice we received from both the Inspector 
General as well as the Capitol Police in previous reviews, and 
we are looking forward to the outcome of the GAO review to see 
how we could better protect our facilities.
    Ms. Wasserman Schultz. And that would be a more 
comprehensive look at security around GPO?
    Mr. Tapella. Correct. At the end of the day, though, the 
real way to get security is to get us into a proper facility 
that is designed with security in mind and not something that 
was built in 1940 for which there were no security concerns.
    Ms. Wasserman Schultz. You are a good advocate for your 
agency, and my time has expired. Mr. Latham.
    Mr. Latham. Thank you very much; I, too, want to welcome 
Mr. Bonner to the committee; I look forward to working with 
you.
    Mr. Bonner. Thank you.

                       PASSPORT PRODUCTION LEVELS

    Mr. Latham. You said in your opening statement that you are 
thriving and, financially, performing well; part of that is 
because of the dramatic increase in the number of passports, 
obviously, with people going to Mexico and Canada and having to 
have passports now. Where is the cliff on that? I mean, I think 
we are going to pretty well fill the need here shortly and your 
revenues maybe are going to go the other way.
    Mr. Tapella. I share your concern. What we are looking at 
is a situation where we had peak demand last year.
    Mr. Latham. Right.
    Mr. Tapella. We are building reserves right now. We are 
getting forecasts from the State Department for what the 
passport demand will be for this year. And, quite honestly, I 
have no idea. I wish I had that crystal ball that would tell 
us. What we are trying to do is be prudent about it.
    Now what you also have is a situation where it is not just 
the passport. There is now going to be the Western Hemisphere 
travel card, the WHTI card. We also have the Trusted Traveler 
Program, which is DHS's version. Now GPO is in the process of 
designing and producing the DHS travel card.
    So, in terms of our business, we have got the DHS side of 
it. In terms of the pass card, we are not involved in that. 
What impact those will have on passports I do not know. A lot 
will have to do with prices.
    Mr. Latham. Are those going to be fee-based?
    Mr. Tapella. I believe so, yes. The State Department 
charges approximately a hundred dollars for a passport. My 
understanding is the pass card is going to be about half that 
price. That may drive business that way. And I personally do 
not know what the DHS Trusted Traveler card is going to cost.

                         WORKFORCE REPLACEMENT

    Mr. Latham. Okay. I know in our conversation in my office--
you expressed real concern, as many agencies and the Library of 
Congress have, about the workforce and the kind of bubble that 
you are under. You have got an aging workforce. You are trying 
to transform technology. Talk about that.
    Mr. Tapella. GPO has been very fortunate over the years in 
that we have a highly skilled workforce. We also have a 
workforce that is aging. This past Tuesday was GPO's birthday, 
147 years; and we recognized employees who had 62 years of 
service, 50 years of service, 49 years of service. And when we 
were looking at those with 35-plus years of service it was a 
very large quantity of employees. And it certainly is a concern 
of mine, and that is why we are looking at technology moving 
forward. We need to have the technology in place so that, as 
our workforce retires, we do not necessarily have to replace 
them to do old technology work.
    For example, Microcomp replacement, which is our 
composition system that we use for Congress, we started using 
that in 1973. And we talked about this in your office. That was 
back when eight-track tapes were the way that you got music. 
Today, it is MP3s and video MP4s.
    Mr. Latham. I was a little offended you thought that was 
old technology.
    Ms. Wasserman Schultz. You really want to go there?
    Mr. Tapella. But the question is, as we are doing the work 
for Congress, we need to have a modern composition system. Now 
one of the problems we face, as people retire that know 
Microcomp--and we have really skilled employees that know that 
system--as they retire, we do not have replacement employees; 
and the learning curve on that system is incredible. What we 
would like to do is retire that system and make certain that we 
have the funding for it. For example, it is in this year's 
funding request, and we will need funding in the outyears so 
that we do not run into a crisis. We are not yet in a crisis. 
We are planning ahead.
    Mr. Latham. Okay. How are we doing?
    Ms. Wasserman Schultz. You have a minute.

                         TECHNOLOGY INVESTMENT

    Mr. Latham. Okay. Tell me about the investment that you are 
talking about in technology. Are you going to be able to 
completely transform? What kind of needs are you talking about? 
Can you kind of expand on what----
    Mr. Tapella. Included in the printed testimony is the 
information technology projects of GPO. Our backbone is the 
FDsys. We have the Microcomp replacement, which directly 
affects Congress. It also affects how we create some other 
documents. We have our manufacturing workflow system, which is 
primarily for Congress, because it is all the printing that we 
do for Congress as well as the Federal Register.
    We then have what is in Superintendent of Documents, which 
is the digitization of the legacy collection. Those are the 
documents that we want to make available to the public 
electronically that are currently only in paper form.
    And then we have Oracle, which is kind of our backbone 
system. We are at this point funding Oracle completely out of 
our retained earnings.
    We have not asked Congress for any investment capital. We 
are, however, asking Congress to invest in the composition 
system that does Congress's work. We are asking for investment 
in the manufacturing workflow system which does Congress's 
work. And we are asking for investment in digitizing the legacy 
collection, which is under the S&E appropriation.
    You know, technology is where we are going. The costs are 
going to be great. What we are asking for is the initial 
investment so we can continue to make the change.
    Every year, the costs go up; and so the question is you 
either pay now or you pay later. And if you pay later, you are 
paying a much greater expense.
    Plus we run into the issue----
    Ms. Wasserman Schultz. We are going to have votes in about 
15 minutes----
    Mr. Tapella. Okay.
    Ms. Wasserman Schultz [continuing]. So I truly appreciate 
your answer. I do not mean to cut you off.
    Mr. Tapella. That is okay.
    Ms. Wasserman Schultz. I really want you to be able to 
fully answer the question. Thanks. We are going to come back.
    Thanks. I appreciate it, Mr. Latham.
    Mr. Bonner.
    Mr. Bonner. Thank you, Madam Chair.
    Ms. Wasserman Schultz. You are welcome.
    Mr. Bonner. And, again, it is good to be with you all.
    I will note that my name plate is taped on. So I do not 
know who I am covering over, but I hope it is someone who is 
not in jail or deceased, either one.
    Ms. Wasserman Schultz. That is not a message about your 
permanence or lack thereof.
    Mr. Bonner. And just for the sake of full disclosure, this 
room has a lot of memories for me. I was the chief of staff to 
my predecessor, who was the chairman of the Foreign Operations 
Subcommittee, and we met in this room. And so to all of our 
staff, one day you may be sitting here too, because that is 
where I used to sit; and I was very proud to be there.
    Mr. Tapella, just a couple of questions.
    If you are 147 years old----
    Mr. Tapella. Correct.
    Mr. Bonner [continuing]. You do not look it.

                         PASSPORT AVAILABILITY

    The distinguished chairwoman and ranking member both raised 
questions about passports. You mentioned it in your testimony. 
Few issues cause more concern to our constituents than when 
they cannot get a passport. They wake up on Friday and realize 
they are leaving on Saturday, and they do not have one, and 
they look to their Member of Congress to make magic occur.
    So I know your process in it is somewhat limited, and I am 
certainly not laying the blame for those delays on you, but 
could you elaborate a little bit more in terms of what your 
agency is doing to ensure a timely production of passports with 
regard to your work with the State Department?
    Mr. Tapella. First of all, during last year's peak demand, 
our customer is the State Department. The State Department's 
customer is essentially the American public. At no time did GPO 
fail to meet the requirements of the State Department in 
getting them the blank passports, which they then process and 
personalize. So throughout the entire process GPO always met 
its commitment to the State Department, and they had other 
issues with adjudication and whatnot that were not under our 
control.
    Last year, we were running literally 24-7 in the 
manufacture of passports. We have also invested in a new, 
secure production facility that will have a second complete 
passport operation. It is geographically away from Washington, 
DC. We are on time and on budget on that facility; and we 
expect the first passport to come off the line in April, 
although we do not expect full production, obviously, until 
probably the summertime as we start doing the shakedown.
    We are building up reserves in passports, and we have a 
considerable amount of reserve to date. We have been producing 
for the State Department 550,000 passports a week; and we have 
been doing that almost nonstop since peak demand, since we had 
the capability of even producing that. So we are building up 
reserves so that State Department has that available.
    We will have the second passport facility on line beginning 
sometime after April for full production; and we always have 
the ability to run 24-7, if necessary, in the existing passport 
facility.
    Mr. Bonner. Madam Chair, if I could ask one more question.
    Ms. Wasserman Schultz. You have 2 minutes. The 5 minutes is 
yours.
    Mr. Bonner. I have a lot of other questions I would like to 
get to and maybe could put some in the record to be answered.

                      POTENTIAL FOR PASSPORT FRAUD

    Mr. Bonner. But sticking with the passports, there has been 
a lot of concern about fraudulent drivers' licenses, about 
fraudulent Social Security cards and other forms of 
identification. I am not up on what the issue of fraud is with 
passports. Is that an issue?
    Mr. Tapella. It is certainly of concern to us. And when we 
look at how we price a passport for the State Department, it 
includes a few pennies for technology refresh. Included in it 
is a relook at security features that can be added. And so when 
we look at the cash that we receive for today's passports, we 
are putting money aside so that we can continue to upgrade 
security as we move forward. That is of great concern, and we 
spend a lot of time investing in that.
    Mr. Bonner. I was told to be on time, which I was late 
yesterday--I didn't show up yesterday, and I was a few minutes 
late today because we were in Budget all night until 12:30. And 
I was also told when the Chairwoman says you have 5 minutes, 
you have 5 minutes and not 4 minutes 59 and not 5.01, so I 
yield back my remaining amount of time.

                  SHORTFALL IN CONGRESSIONAL PRINTING

    Ms. Wasserman Schultz. Thank you very much.
    Mr. Tapella, I want to focus a little bit on the 
congressional printing shortfall, because the deep vein of 
funding that members seem to like to use as a source for 
amendments is the printing and binding account. And you have 
requested an $8.2 million increase. Yet when we reduce that 
account we sort of say to ourselves, well, we will pay it back 
later. Your $8.2 million increase is your request to cover the 
shortfalls in that account from 2007 and 2008. But there is 
some confusion I think in exactly what that account is for, how 
it works, and what happens when you have a decrease.
    Let's say you do not have enough money to meet the printing 
costs and we have had an exponential increase in printing needs 
that we have generated. If we cut the funding for that account, 
the members I think need to understand what that means and what 
happens. So what happens if we do not cover Congress's portion 
of it?
    Mr. Tapella. If you do not cover Congress's portion, we 
still print what Congress requests; and it goes into 
essentially our accounts receivable. Now what happens, we have 
a revolving fund; and it has a very limited amount of 
unencumbered cash. And when Congress does not pay its bill, it 
means that we cannot invest back at GPO in the items that we 
need, for example, the Oracle system.
    Ms. Wasserman Schultz. And why is that? Why does that even 
matter?
    Mr. Tapella. Why does that even matter?
    Ms. Wasserman Schultz. Yeah. What is the answer to ``so 
what''?
    Mr. Tapella. The answer to ``so what'' is GPO would stop 
functioning. You know, if staff do not have computers that they 
can use, if we cannot pay our postage bill, if we cannot do the 
normal day-to-day functions that are covered by our retained 
earnings, GPO will cease to function.
    Now, essentially what we are doing is we are covering the 
shortfall temporarily--and I use the term ``temporarily''--out 
of existing funds. But it means if we cannot make investments, 
it affects us. Eventually, I guess someday it could affect 
paying employees as well. Back in February of 2003, GPO did not 
have enough available cash to meet payroll on the day that we 
were supposed to. We eventually found it.
    Ms. Wasserman Schultz. When was this?
    Mr. Tapella. That was in February of 2003, right back when 
we joined GPO; and I do not want to be in that situation again.
    Ms. Wasserman Schultz. Yeah. I ask the question that I know 
the answer to deliberately because members often use your 
accounts as a slush fund, because it is difficult to find 
places to move money in this bill. And members usually move 
money out of your accounts and think that there is no pain and 
no impact. And while it is not people, it is just printing, 
there is a significant impact, and it could be people at some 
point.

                           FACILITIES REPAIRS

    In that same vein, you have a $17.5 million request next 
year to maintain and repair your really aging facilities. And I 
do not know, Mr. Latham, if you have been by. I have not been 
through GPO----
    Mr. Latham. I need to.
    Ms. Wasserman Schultz. Yeah, I do, too.
    But I did drive by there; and it looks like a really 
exciting place to work environmentally. How would you 
characterize the condition of your main facilities? And, the 
money that you are asking for, what is it going to be used for 
in terms of addressing those needs?
    Mr. Tapella. In terms of our main facility, we have a 
seven-acre campus five blocks from the Capitol. We have four 
buildings currently on site: buildings one, two, three, and 
four. The newest was completed in 1940. The oldest was 
completed in 1901. We have old elevators. The infrastructure is 
weak. They were designed at a time when we had nearly 9,000 
employees. We are now down to about 2,000 in the metro area.
    I am sure there are some environmental issues there. We are 
doing the best we can to remediate as we identify environmental 
issues.
    Ms. Wasserman Schultz. What kind of environmental issues?
    Mr. Tapella. There has been asbestos, which we mitigated. 
In fact, the last suite to be mitigated was the Public Printer 
suite on the eighth floor.
    Ms. Wasserman Schultz. Thankfully.
    Mr. Tapella. Thankfully. At one point, we had a smelting 
factory on site. Our roof leaks.

                        PLANS FOR A NEW FACILITY

    Ms. Wasserman Schultz. So in the last 30 seconds that I 
have, you have a vision for what to do about your facilities 
that is not just the sort of spit and wax and tape that $17.5 
million would use.
    Mr. Tapella. Correct. I would like to build a new facility 
on the back lot of GPO. I would like do it in a public-
partnership so it does not require any direct appropriations. 
We would then make available the existing space to a developer 
to basically tear down to the concrete structure, remediate any 
of the environmental impacts, and make it available for lease.
    In the proposal that I mentioned in my opening statement, 
we believe that not only is there enough space for GPO, but 
there could be a considerable amount of space available for the 
legislative branch should there be a desire to use that space 
above what we are currently doing in terms of housing some of 
the Capitol Police and Architect of the Capitol functions.
    Ms. Wasserman Schultz. Thank you. My time has expired.
    Mr. Latham.

                              PRINTING INK

    Mr. Latham. Hopefully, we can wrap this up before the 
votes.
    But something--being from Iowa, what kind of ink do you 
use?
    Mr. Tapella. What kind of ink do we use? Predominantly soy-
based----
    Mr. Latham. I was hoping. A good answer.
    Mr. Tapella [continuing]. As mandated by the Federal 
Government in fact.
    Mr. Latham. Well, because there is an environmental 
concern, too, obviously, with waste coming from other types of 
ink. That was a very good answer.

                   IMPACT OF A CONTINUING RESOLUTION

    The Chair gets tired of my asking this question of every 
witness, and do not think I am picking on you, but if there is 
a CR this year, how would that affect you?
    Ms. Wasserman Schultz. Next time I will just ask the 
question for you.
    Mr. Latham. That is okay. I think I have asked everybody we 
have had.
    Ms. Wasserman Schultz. Just kidding.
    Mr. Latham. And, if nothing else, it will stimulate a lot 
of thought as to what happens in that scenario.
    Mr. Tapella. You know, that is a good question. And a lot 
has to do with how busy Congress is this year. Because the more 
work Congress requests, the more money we need inCP&B. If 
Congress is not particularly active, then we are not charging Congress 
as much.
    It also depends on how you structure the continuing 
resolution and what numbers you use in terms of constructing 
it. In the last continuing resolution, we were able to hold our 
own. But, obviously, you see there is a shortfall, or we are 
projecting a shortfall, for this fiscal year. We are going to 
project one for next year as well. And that means that we are 
going to have to hold off investing in a number of projects for 
GPO as we continue to fund that shortfall.
    And then the question becomes, what is our temporary 
funding and does multi-year count as temporary funding or not? 
And I do not have the answer to that question.
    Mr. Latham. Okay. Thank you.
    Ms. Wasserman Schultz. You are welcome.
    Mr. Bonner.

                             PRINTING PAPER

    Mr. Bonner. If Mr. Latham is going to ask what type of ink 
you use, I guess I should ask, since Alabama is one of the 
largest timber producers, tell us a little bit about the paper 
you use and how much is recycled.
    Mr. Tapella. Actually, in terms of actual recycling--for 
example, we print the Congressional Record on 40 percent post-
consumer waste recycled paper. Other products have at least a 
minimum recycled content.
    When we look at what is actually recycled, let's see, GPO 
has been recycling wastepaper since 1860.
    Mr. Bonner. You were a trendsetter.
    Mr. Tapella. We were a trendsetter.
    Last year, we recycled 1.5 million worth of corrugated 
materials, which includes, obviously, the boxes and whatnot. In 
2007, GPO recycled over 5 million pounds of paper.
    Mr. Bonner. And in terms of the nonrecycled paper, do you 
know is most of it produced in this country? I recently visited 
a printer in my district, and they were telling me how much 
cheaper it is to get paper from other countries. And I do not 
know if that is a part of your budget equation or not.
    Mr. Tapella. I believe, and I actually have to defer--do 
you know?
    Mr. Turri. I don't believe we have any.
    Mr. Tapella. To our knowledge--our Chief Operating Officer, 
Bill Turri--to our knowledge, we are not importing paper from 
outside the United States.
    Mr. Bonner. I am not saying that is a bad thing. I am just 
curious.
    Mr. Tapella. Right. To my knowledge, we are not.
    Mr. Bonner. Madam Chair, thank you.
    Ms. Wasserman Schultz. Thank you very much, Mr. Bonner.
    I have two questions I want to get on the record during the 
meeting, and then I will be finished as well.

                               EEO ISSUES

    I want to talk about the number of discrimination lawsuits 
and complaints that you have pending now at GPO. Because there 
have been some recent news articles. I know in the weekly 
report that you submit you catalogue or indicate the ones that 
have been added each week.
    Obviously discrimination is a very serious accusation and 
one that should be taken extremely seriously; and I am hopeful 
that you do. I want to make sure that you are doing everything 
that you can to not just minimize but prevent discrimination 
from occurring at your agency.
    So, based on the number of pending lawsuits that you are 
facing--and I think you are at 16 right now, is that correct?
    Mr. Tapella. Well, there are 16 for this year, yes.
    Ms. Wasserman Schultz. Just for this year. And what is the 
total?
    Mr. Tapella. Actually, when we talk about this, it is a 
couple of different things.
    Ms. Wasserman Schultz. Basically, I want to know how big of 
a problem do you think discriminatory behavior is at GPO and 
what are you doing to address it?
    Mr. Tapella. If I may, may I defer to our EEO officer I 
brought with me, Nadine Elzy?
    Ms. Wasserman Schultz. Yes.
    Mr. Tapella. Thank you. Nadine.
    Ms. Elzy. Good morning.
    Ms. Wasserman Schultz. Good morning.
    Ms. Elzy. First of all, I want to mention that we do take 
at GPO--I am personally committed to EEO and to equality--but 
we do take the complaints very seriously. In fact, I have an 
open door policy. So that way any employee----
    Ms. Wasserman Schultz. Can you first answer how many are 
pending?
    Ms. Elzy. We have 16; and then we have an additional 20 
that are pending, whether they are Equal Employment----
    Ms. Wasserman Schultz. Thirty-six.
    Ms. Elzy. Right. Equal Employment Opportunity Commission 
and some other venue.
    Ms. Wasserman Schultz. That is over what period of time?
    Ms. Elzy. Over a period of 5 years.
    Ms. Wasserman Schultz. Okay.
    Ms. Elzy. Because some of the complaints have been either 
in District Court or at EEOC for a substantial period of time.
    Ms. Wasserman Schultz. They are in various stages of the 
process right now?
    Ms. Elzy. Yes.
    Ms. Wasserman Schultz. So how big of a problem? Thirty-six 
lawsuits----
    Ms. Elzy. They are not necessarily lawsuits, they are 
formal complaints.
    Ms. Wasserman Schultz. Thirty-six accusations of 
discrimination that the person felt aggrieved enough to file an 
actual complaint seems like a lot to me for an agency your 
size.
    Ms. Elzy. I did some reviews last night to see how we look 
in comparison to other agencies that are similar in our 
particular size.
    The Broadcast Board of Governors has 1,600 employees, and 
they have 30 complaints for a comparable period of time.
    The Equal Employment Opportunity Commission itself for the 
same period of time had 21.
    The Small Business Administration, which is almost our 
size, had the exact number of complaints.
    So I just tried to look at other agencies in the Federal 
Government who use the same process who had comparable sizes 
and their complaints.
    But I do want to emphasize that a lot of our complaints are 
resolved even before they get into the formal process, because 
I do have an open door policy. Our Chief of Staff also allows 
employees to come to her so they do not even get into the 
formal process.
    Ms. Wasserman Schultz. So the policy, beside an open door 
policy--I mean, what do you do in terms of the environment for 
your employees to make sure that the variety of diverse 
employees that you have have a comfort level? And also 
supervisors in particular do not feel like any type of 
discriminatory behavior is acceptable and that they realize 
what discriminatory behavior is?
    Ms. Elzy. We have done--last year, every manager and 
supervisor had to take EEO training so that that way they would 
become familiar with the process.
    Ms. Wasserman Schultz. Was that new?
    Ms. Elzy. No. It was a core commitment. So everyone had to 
complete that.
    Ms. Wasserman Schultz. Okay.
    Ms. Elzy. That is one of the things we say as far as taking 
the issues seriously.
    One of the other things that we have done is that we have 
put out information to employees on our intranet about what the 
process is so they are familiar with that.
    So those are some of the things that we have done.

                      ENVIRONMENTAL SUSTAINABILITY

    Ms. Wasserman Schultz. Okay. Thank you.
    The other issue I wanted to cover was the environmental 
steps that you have taken in terms of greening the GPO. I noted 
the percentage of recycled content in your paper. We are trying 
to show that the Capitol and the legislative branch is a model 
for reducing the environmental impact that our operations have. 
And I know you have made some headway in those areas, but what 
are your plans going forward to significantly improve that 
effort? Because, obviously, going from long ago having a 
smelting operation inside the facility to now, hopefully we 
have moved a long way.
    Mr. Tapella. Well, number one, as the chief executive, I 
have made a stand on it, that sustainable environmental 
stewardship is important at GPO. Last week, I appointed an 
executive to be responsible for environmental stewardship.
    We are looking at many different things in terms of how we 
are doing our internal procurements. We are looking at our 
buildings. And, quite honestly, the most important way for us 
on the building front is to get into a new, environmentally 
friendly building. And I would like it to have LEED Platinum 
Certification. I would like to reduce the plant paper waste we 
have for printing the Congressional Record and Federal 
Register, and that involves switching the type of equipment 
that we use to produce that equipment.
    Ms. Wasserman Schultz. Now, are those things you need our 
assistance with down the road? Are you going to be asking for 
additional appropriations to move in that direction?
    Mr. Tapella. I do not anticipate that we would be asking 
for any additional appropriations for our environmental 
programs. I believe that it is good business, and I think 
everything that we are going to be going for will show a 
payback that will allow us to make those investments out of our 
retained earnings.
    Ms. Wasserman Schultz. You think it will improve your 
bottom line?
    Mr. Tapella. Absolutely.

                 ADDITIONAL ASSIGNMENTS FROM THE CHAIR

    Ms. Wasserman Schultz. Okay. With no other members having 
questions, just making sure that that is the case, I would like 
to ask you to do two things----
    Mr. Tapella. Yes.
    Ms. Wasserman Schultz [continuing]. Within the next week.
    Obviously, it is important that our legislative branch 
agencies do everything that they can to make sure that there is 
an environment in the workplace that is free of discrimination 
and intimidation and that it does not take place in their 
organizations regardless of whether it is comparable to other 
agencies of your size. So, with that in mind, I would like GPO 
to submit a report by next Friday, March 14th, detailing what 
policies and programs you have in place to make sure 
discrimination does not occur within your agency. You have 
outlined it somewhat here, but I think doing it in a public 
way----
    Mr. Tapella. Absolutely.
    Ms. Wasserman Schultz [continuing]. This way sends a 
message to employees and, in particular, supervisors that it is 
not asituation that we will tolerate. And that report should 
include how many active EEO cases there are at GPO, what those cases 
relate to, the status of those cases, how the number of cases compare 
to other agencies, and what programs and policies GPO has in place to 
make sure that discrimination does not occur within your agency.
    Mr. Tapella. Okay.
    Ms. Wasserman Schultz. In addition to that, in the area of 
greening and making a more environmentally friendly environment 
at GPO, particularly because that is a key way that we can 
reduce our impact and our carbon footprint in the legislative 
branch--and I am glad to hear you have taken steps. I again 
asked a lot of questions I knew the answer to today, but I 
wanted to get your efforts out in the public arena that you did 
not necessarily include in your statement.
    So I would like you to submit a report by next Friday, 
March 14th, on what actions you have already taken to reduce 
your environmental impact, what additional steps you plan to 
take in the near future, and how you funded or plan to fund 
those actions, and what you anticipate the long-term benefits 
of those actions to be.
    Mr. Tapella. Okay. Thank you, Madam Chair.
    Ms. Wasserman Schultz. With that, the subcommittee stands 
in recess until next Wednesday, March 12th, at 10 a.m., when we 
will hear from the Directors of CBO, the Office of Compliance, 
and the Open World Leadership Center on their fiscal year 2009 
budget requests. Thank you.

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                       Wednesday, March 12, 2008.  

   OFFICE OF COMPLIANCE, CONGRESSIONAL BUDGET OFFICE, AND OPEN WORLD 
                           LEADERSHIP CENTER

                               WITNESSES

TAMARA CHRISLER, EXECUTIVE DIRECTOR, OFFICE OF COMPLIANCE
PETER ORSZAG, DIRECTOR, CONGRESSIONAL BUDGET OFFICE
AMBASSADOR JOHN O'KEEFE, EXECUTIVE DIRECTOR, OPEN WORLD LEADERSHIP 
    CENTER

                Opening Remarks--Chair Wasserman Schultz

    Ms. Wasserman Schultz. Good morning, I'm pleased to call 
this hearing of the Legislative Branch Subcommittee, of the 
Committee on Appropriations to order. This morning we are going 
to hear from three legislative branch agencies, the Office of 
Compliance, the Congressional Budget Office, and the Open World 
Leadership Center. Each agency is looking for an increase. 
Unfortunately, all three are looking for double-digit 
increases. And I don't have to tell anyone in this room that 
that is going to be extremely difficult if not impossible to 
accommodate in varying degrees.
    The Office of Compliance has asked for a 29 percent 
increase over what was what was appropriated last year. There 
are a couple of programs that I know you are trying to 
implement. And we look forward to working with you on trying to 
fund those initiatives within the resources that we are 
allocating, and I can assure you we will all be pushing for the 
most significant allocation that we can get.
    CBO is asking for a 15 percent increase. CBO has struggled 
over the last several years with only minimal increases, hits 
to your IT program and significant demands on the personnel 
resources of the agency. I know that I get many complaints and 
concerns from Members, not because CBO is just too slow but 
because the increased workload has put more demands on your 
limited staff. A lot of Members would like to see scoring occur 
more quickly than you are physically able to do right now. And 
also, I know we have a health care component that you want to 
add and beef up because of that being such a significant 
priority.
    And Open World, Open World is a fan favorite. We want to 
continue to try to work with you to be able to appropriately 
fund the program. And I am looking forward to the report that 
is due on March 31 so that we can see what your suggestions are 
so we don't have to struggle with how we fund you every year. 
The program has a lot of Member advocates. And I am one of 
them. But we also have so many, as we found at the hearing last 
week, we have so many needs that need to be addressed, 
competing priorities in this committee that also have 
advocates. And I just worry that Open World will continue to be 
shrunk because of the competing priorities. And I think it 
would be far more productive for us to work together, and I 
know I worked with Mr. LaHood last year in trying to find a way 
to fund you to the degree that we could and not have this be a 
consistent problem over time.
    All of your statements are available and will be entered 
for the record. And with that, I want to turn to Mr. Latham. I 
want to apologize for beginning the meeting at 10:30. However, 
there was some procedural action on the floor that was 
unexpected.

                      Opening Remarks--Mr. Latham

    Mr. Latham. It is very unfortunate, without any kind of 
notice, it was delayed when we did not have votes on the floor 
at 10:00. We could have started.
    Ms. Wasserman Schultz. The Democratic Caucus was notified 
that we needed to be on the floor right at 10:00 as a result of 
the procedural actions initiated by the Republicans, and so I 
used my judgment and felt it was----
    Mr. Latham. It was very unfortunate with the witnesses 
here. I cancelled some things this morning to be here on time. 
And with these folks here, it is very, very unfortunate. It is 
a bad precedent.
    Ms. Wasserman Schultz. Well, speak to your leadership, and 
we won't have to do that in the future.
    Mr. Latham. Well, it is not a matter of my leadership. 
Unfortunately, this is what it has come to around here. It is 
without any notification or anything. We would appreciate 
knowing about it.
    Ms. Wasserman Schultz. Me, too.
    Mr. Latham. Mr. LaHood, I will yield to you.

                      Opening Remarks--Mr. LaHood

    Mr. LaHood. Madam Chair, given the fact that the Republican 
leader is going to offer a privileged resolution immediately 
following this vote and then, according to your precedent, 
because it is an important matter, I believe the committee 
should recess so that we can go upstairs and listen to the 
resolution, and there will be a vote on it.
    Ms. Wasserman Schultz. We are not going to recess to listen 
to a privileged resolution. We can recess for the vote.

                            Motion to Recess

    Mr. LaHood. I move the committee recess while the 
privileged resolution is being considered and come back after 
the vote, and I ask for a vote on that.
    Ms. Wasserman Schultz. We will take that up at the 
appropriate time.
    Mr. LaHood. Now is the time. I made the motion to recess, 
so we can go upstairs.
    Ms. Wasserman Schultz. The privileged resolution has not 
been offered.
    Mr. LaHood. It is going to be here, and as soon as it is 
offered, I believe we should have the opportunity, just as you 
decided that we were going to suspend for a half-hour, we 
showed up at 10:00, no notification that the----
    Ms. Wasserman Schultz. I didn't have any notification, Mr. 
LaHood, that there would be procedural motions. At 9:55, I was 
told.
    Mr. LaHood. There is a very important matter on the floor. 
I motion that we recess and go----
    Ms. Wasserman Schultz. I will accept that on unanimous 
consent. But this is not how we are going to conduct this 
committee in the future. This was a result of a procedural 
action. I certainly didn't mean to be discourteous. I didn't--
it wasn't like I was preoccupied or doing something else. I 
just thought we would be jumping back and forth, and I felt it 
was very important that we hear and have undivided attention 
for the three agency heads that we would not have if we had 
begun at 10:00. So as a result, that was my judgment call, as 
is the prerogative of the Chair.
    I don't think it is wise to adjourn and not be able to 
finish the hearing for these three agencies in the time we have 
allotted to listen to testimony that does not require us to be 
on the floor, Mr. LaHood. If you are upset that I delayed the 
proceedings because of a procedural vote, then I understand 
that you are upset about that. But if we can't complete the 
hearing because we are getting into a tussle for no reason, 
then I think that would be unfortunate.
    So I am happy to adjourn for----
    Mr. LaHood. I am not saying adjourn. I am saying recess.
    Ms. Wasserman Schultz. I am happy to recess for the vote. I 
would prefer to be able to complete three agencies----
    Mr. LaHood. Well, I will tell you this, Madam Chair, Mr. 
Latham is the ranking member. He shows up here before 10:00. I 
show up at 10:00. No courtesy was given to him to tell him----
    Ms. Wasserman Schultz. I didn't have any notice.
    Mr. LaHood. Do you want me to speak, or do you want to 
speak? No courtesy was given to him. He is told by your staff 
director at about 3 or 4 minutes after 10:00 that you have sent 
an e-mail over here saying that because there is a vote, which 
was not taken until--started until 10:16. You have the 
Librarian of Congress here. You have all these Librarian of 
Congress staff people sitting here. We have started these 
meetings in the past, gone upstairs and voted on the general 
vote and come back. And we have staggered it. We have done that 
many times. So at least you could have notified the ranking 
member. We showed up here on time.
    Now, look, if there is an important matter on the floor, 
you set the precedent. I didn't. And if the Republican leader 
is going to offer a privileged resolution on a very important 
legislative vote that was taken last night, some of us would 
like to go up there and listen to it.
    Ms. Wasserman Schultz. That is your prerogative, Mr. 
LaHood. The motion passed with unanimous consent.
    Proceed with your statement, Mr. Latham.
    Mr. Latham. I am done. I just welcome the panel.
    Ms. Wasserman Schultz. You can each proceed with a summary 
of your 5 minutes.
    Mr. LaHood. So you are not going to recess the meeting?
    Ms. Wasserman Schultz. I said, if the motion is adopted by 
unanimous consent.
    Mr. LaHood. So are we going to recess?
    Ms. Wasserman Schultz. We are going to recess when the 
privileged resolution is on the floor. Is it on the floor now?
    Mr. LaHood. Yeah. They are reading it.
    Ms. Wasserman Schultz. Well, the committee will stand in 
recess until the conclusion of the reading of the privileged 
resolution. We will reconvene at the end of the remarks.
    [Recess.]

                   Opening Statement--Tamara Chrisler

    Ms. Wasserman Schultz. Ms. Chrisler, you can proceed.
    Ms. Chrisler. Thank you, Madam Chair, Ranking Member 
Latham, distinguished members of the subcommittee. I am honored 
to appear before you as the executive director of the Office of 
Compliance. And I would like to, on behalf of the office, thank 
the subcommittee for its continued support of the office and 
our work.
    Because of the initiative taken by the subcommittee last 
year, our office has received access to House e-mail, which 
will be instrumental in reducing our costs for our 
publications, and our education and outreach programs. And we 
are grateful for the subcommittee's support. We are grateful 
for the indirect and direct recognition that the subcommittee 
has given our work. Because of that recognition, we have been 
able to build better relations with agencies, specifically the 
Architect of the Capitol, and we have been engaged in 
productive communication. We have been able to collaborate with 
agencies toward the abatement of hazards.
    And we are very, very excited about the possibility of 
engaging in a new initiative, which is our Prevention and 
Reduction Initiative, which is the theme of our fiscal year 
2009 budget request. As a point of clarification I would like 
to indicate that while my written testimony for the record 
emphasizes that there is a 4.9 percent increase over the 
requested fiscal year 2008 appropriations, it is a 28.9 
increase over the actual appropriated funds that the office 
received in fiscal year 2008.
    The new items that I would like to highlight very briefly 
with the subcommittee are the requests that we are making to 
support our Prevention and Reduction Initiative, which are two 
FTEs, and funding for those FTEs for conflict prevention and 
reduction of hazards, a trainer and an ombudsperson; $10,000 
for a Zero Accident Initiative that we would like to initiate 
for our Safety and Health Program; funding for COLAs, restoring 
salaries and fully funding FTEs that were allowed for our 
office in fiscal year 2008. We are also requesting a third FTE 
for a fire and safety engineer.
    Of the 2007/2008 items that I would like to highlight for 
the subcommittee, the office is requesting $50,000 for utility 
tunnels expertise; $25,000 for a self-certification program for 
District and State offices; $25,000 for a health and safety 
plan review as a collaborative effort with employing offices; 
as well as $19,000 for a campus-wide survey, so that we have a 
good understanding of what our constituents know about their 
rights and responsibilities under the CAA, so that we can focus 
our education and outreach efforts.
    I thank you for allowing my testimony today and I remain 
available for questions.
    [Ms. Chrisler's statement follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
                    Opening Statement--Peter Orszag

    Ms. Wasserman Schultz. Thank you.
    Mr. Orszag.
    Mr. Orszag. Thank you very much for having me here. I spent 
my first year as CBO director trying to survey what we do and 
what could possibly change, and the request that you have 
before you is a reflection of the time that I spent doing that. 
Just three points of context before I get to the specific 
requests. The first is that it has already been noted, we are 
very intense in people; 90 percent of our budget is for 
salaries and benefits. And over the past 4 years, the average 
increase in our appropriation has been under 3 percent. That 
has not allowed me to compete as effectively as I would like to 
with soaring salaries for economists and other skilled 
professionals in the markets that we compete for.
    Second, the Congress is asking more from us. Just as a few 
reflections of that, the PAYGO rules; the Senate's long point 
of order; the desire to have us score things not just after it 
moves through committee but at markup and during various stages 
of committee procedures is different than it was in the past. 
And a reflection of that increased activity, in calendar year 
2007, we testified 38 times relative to 18 times in calendar 
year 2006. In calendar year 2007, we issued 771 formal cost 
estimates relative to the 558 in 2006. Across a variety of 
metrics, there are increased demands that are being placed on 
us that we are trying to respond to.
    And then, third, as I have tried to emphasize in other 
settings, health care costs are the key to our fiscal future. 
They are rising rapidly more than any other factor, including 
aging and demographics. The rate at which health care costs 
grow will determine the path the Federal Government's spending 
will be on in the future. And I believe that you all are not 
getting enough options and analyses on what can help bend that 
curve. And CBO can play a role in providing that kind of 
analysis to you. So we are trying to bulk up our health staff 
to provide that for you.
    So, with those three things in context, the request that we 
have submitted to you totals $42.7 million. That is a $5.4 
million increase over this year's funding level. Roughly $2 
million out of that $5-plus million would go for a very large 
expansion in our staff, 15 FTEs, 15 full-time equivalents, or a 
6 percent increase in our staffing level, in order to 
accommodate increased work on health care and some of the other 
demands on our time coming through the scoring process. Even 
with that increase, I know it would still be about half the 
size of other agencies that do similar work, like the Office of 
Management and Budget.
    And just very briefly, in conclusion, I come to you 
reluctantly. And I understand that as the head of the Budget 
Office, asking for a significant increase is a bit of an 
awkwardness. But I believe that the demands that are being put 
on the agency are such that in order to serve you effectively 
and efficiently, the proposal that you have before you is 
necessary. Thank you.
    [Dr. Orszag's statement follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
                    Opening Statement--John O'Keefe

    Ms. Wasserman Schultz. Thank you, Dr. Orszag.
    Ambassador O'Keefe.
    Mr. O'Keefe. Thank you, Madam Chair.
    Madam Chair, Mr. Latham, distinguished members of the 
subcommittee, I would like to thank you for your engagement and 
support of Open World and also for taking time this morning to 
consider our budget request for fiscal year 2009 for the Open 
World program, which is having a significant impact on the 
emerging leadership generation in states of the former Soviet 
Union.
    I also would like to thank our chairman, Dr. James 
Billington, for being here with us today, and a special nod to 
the Open World staff for their dedication and hard work.
    Thirteen thousand leaders have come from all political 
regions of the former Soviet Union for short but intensive 
stays in communities scattered throughout all 50 States. From 
local as well as national leaders and from all branches of 
government, working with Congress, the U.S. judiciary and 
executive branch departments, this program has created networks 
and produced results not matched by any other exchange program 
in the region. Ten percent of the newly elected Russian Duma 
are Open World alumni. Our flagship Rule of Law Program has 
brought to the United States more than 1,000 Russian and 
Ukrainian judges and supported 19 sister court relationships. 
Alumni of Open World's program swept the top 3 literary prizes 
in Russia in 2006. And Chief Justice Roberts of the Supreme 
Court devoted the first 2 pages of his 14-page annual report to 
the Federal Judiciary to write about the visit of Open World 
alumnus Justice Yuri Sidorenko.
    Ukraine sees its future in ever closer ties to Europe and 
the United States but faces challenges of reforming itself and 
integrating with the larger democratic community. At a recent 
major international forum on Ukraine's Euro-Atlantic future, 
the organizers said that, ``Open World alumni were the most 
articulate and best organized group at our event.'' Visitors 
from the 5 other partner states and the Caucuses in Central 
Asia have forged close ties to Members of Congress and State 
legislators. We are adding Kazakhstan in April and Turkmenistan 
in the fall. Taken together, these countries standing athwart 
geopolitical tides share more than 2,000 miles of borders with 
Iran and Afghanistan.
    Madam Chair, members of the committee, this is a time of 
extraordinary possibilities for both this program and countries 
that are participating in it. Russia is entering a new phase 
with an uncertain power sharing agreement. The president-elect 
has said that a new program in perinatal public health set up 
by alumni of Open World should serve as a model for Russia.
    The Russian parliament is building a parallel program to 
Open World which will bring large numbers of Americans to 
Russia. Last month, we provided to the Russian foreign ministry 
and legislative branch a detailed blueprint of how we work 
under Congress, which created Open World. This new model for 
professional exchanges will serve to strengthen the legislative 
branch long overshadowed by the executive. It will help open up 
new avenues of cooperation between our legislatures and theirs 
in the next several years.
    The chairman of the Committee on International Judicial 
Relations, Judge Robert Henry, will join his Russian 
counterpart in St. Petersburg to lay out ways, through the Open 
World program, to work even further and closer with the Russian 
judiciary as it matures as an independent branch of government. 
Open World's placement in the legislative branch allows us to 
attract an unusually large and varied group of young leaders 
from throughout this region in a context one step removed from 
the immediate day-to-day preoccupations of foreign policy. In 
each country and region, we are building up a group of 
professionals moving into positions of influence. And they have 
experienced for themselves how institutions are made 
accountable to the people they serve. All the participants have 
returned home to their countries. All 13,000. More than 6,000 
Americans have hosted them and in the last year alone provided 
$1.8 million in in-kind accommodations and meals for our 
participants. Many Americans are both willing to be repeat 
hosts and to travel often at their own expense on return trips 
to cement these partnerships.
    And through the excellent efforts of the Open World team, 
we have slimmed down our already lean operating costs during 
the past year, saving close to a half million dollars.
    I have been heartened by the recent statement by our 
chairman, Dr. Billington, who has been involved in exchanges 
both as a participant and an administrator for almost 60 years. 
He considers this the most politically important program he has 
seen since the establishment of the immediate post-war programs 
of the late 1940s. Reviewing the reduced 2008 budget and 
considering placement of Open World at its January meeting, the 
Open World Board of Trustees determined that it should remain 
in the legislative branch and that Open World management and 
board should explore all funding sources.
    With a full understanding of pressures on your budget, I 
respectfully ask for your support--the support of the committee 
members in the effort to sustain the program at a time of great 
promise. Open World touches on so many areas that it may be 
that its appropriation could draw from more than one account. I 
would welcome an opportunity to work with you, with your staff, 
and with members of the subcommittee on finding the funding 
solution.
    Our many participants in America and states of the former 
Soviet Union can then harvest from the remarkable base of 
collaborative efforts that Congress has brought through this 
unique program to the vast and strategically important 
heartland of Eurasia. Thank you very much, Madam Chair.
    [Ambassador O'Keefe's statement follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
                    OPEN WORLD REPORT ON ITS FUTURE

    Ms. Wasserman Schultz. Thank you, Ambassador O'Keefe.
    We will proceed with the question period. The committee 
last year directed Open World to complete a report, which I 
believe is due March 31, that required Open World leadership to 
explore options for the agency's future both in terms of where 
you might be housed and how you might continue to be funded at 
a level that would allow the program to continue at the level 
of quality that you have always operated. I think we are going 
to struggle to fund you at $9 million, never mind the $14 
million that you have asked for, which would bring you back up 
to your pre-fiscal year 2008 level. What is the status of the 
report?
    Mr. O'Keefe. I do have a draft report that we want to get 
to the board members, of which you are one, before we submit it 
to Mr. Obey and to Senator Byrd. So we have a draft, and we 
have options that were required in the report laid out with, I 
think, some good background in there as well.
    Ms. Wasserman Schultz. Are you familiar enough with the 
draft report to feel that it is going to offer us some 
suggestions on how we might relieve the ongoing pressure that 
the committee will face in trying to fund you?
    Mr. O'Keefe. It is more on a question of status because 
that is what we were asked for. But it also has elements in 
here that I mentioned in my testimony of seeking more than one 
source of funding within the congressional appropriation 
process.

            OPEN WORLD POTENTIAL ALTERNATIVE FUNDING SOURCES

    Ms. Wasserman Schultz. Okay. What percentage of your 
participants are from the judicial branch in both America and 
in the former Soviet states?
    Mr. O'Keefe. Well, cumulatively we have about 1,100 out of 
13,000. That is about 8.75 percent. This past year we have 
brought over 1,400 people, and 144 were judges and prosecutors 
and people like that. So we are running about 10 percent, and 
that is for all the countries.
    Ms. Wasserman Schultz. And you don't have any funds come 
from the judicial branch or any affiliated judicial entities or 
legal entities?
    Mr. O'Keefe. No. We don't have funds coming from the 
judicial branch, though there is funding because our objective 
is to form partnerships, and we don't get the funding, but U.S. 
judges get funding to do the return visits. So when Judge 
Robert Henry goes to meet Sidorenko, the State Department 
International Speakers Program will pay his way over, and then 
we do the logistical support because we have the network and 
the contacts.
    Ms. Wasserman Schultz. Has Open World pursued private 
sources of funds?
    Mr. O'Keefe. Yes, we have. Last year we received, aside 
from our appropriations, about $750,000 in private funds.
    Ms. Wasserman Schultz. $750,000. Isn't there a way to 
improve upon that number? I mean, it would seem like this is a 
program that would attract some significant private financial 
support. And is there a plan in place or is that part of your--
is that going to be part of your report? I would hope--and I 
have encouraged you before to begin--that you would begin an 
aggressive fundraising program from the private sector.
    Mr. O'Keefe. Yes. One of the things that I was hoping to do 
with the 2008 budget was to get a development person because 
you really do have to have someone focus on this full time. And 
so, yes, we do--we will increase our efforts. We have sought 
from various organizations partnering arrangements. So with the 
Ukrainian ambassador we were looking at ways for the Ukrainian 
government to offset the transportation costs of some of the 
Ukrainian participants. We have worked with organizations to 
partially fund programming. The House Democracy Assistance 
Commission is going to bring 20 people over, 20 
parliamentarians over in autumn. So they will get them here and 
do their training, and then we put them on a supplemental Open 
World program.
    So we have, I would say, several strategies. Number one is, 
find people who are doing things that we are complementary to. 
And then find donors who are willing to give us money. And 
then, third, look toward other governments who have an interest 
in Open World to help us in offsetting some of the costs.
    Ms. Wasserman Schultz. Thank you.
    My time has expired.
    Mr. Latham.

                   IMPACTS OF A CONTINUING RESOLUTION

    Mr. Latham. Thank you. I have been asking every panel here 
the same question. We have a real possibility of a continuing 
resolution maybe until March next year. I just wonder how that 
would affect your operations and new initiatives if, in fact, 
you were in a CR flat-lined budget.
    Mr. Orszag. I will go first. Obviously, we will do what we 
have to do. But for my agency, it will be very difficult to get 
to where we want and I believe need to be for you, especially 
on the health front because the recruiting cycle is such that 
it would require, you know, if assuming post-March you did fund 
some expansion, a very rapid ramp-up. In addition, it obviously 
depends on exactly what level the CR is at. But I will just 
come back again, and say that I am doing the best I can to make 
CBO, as I like it put it, a cool place for policy wonks because 
that is the only thing I have got to compete on because the 
salaries at the Fed, let alone hedge funds and other places, 
are substantially higher than what we pay. And I am recruiting 
the same Ph.D. economists, and I can't do that forever.
    Mr. Latham. Okay.
    Ms. Chrisler. Our Prevention and Reduction Initiative is 
largely based upon requested FTEs.
    Mr. LaHood. Could you speak up a little bit, please?
    Ms. Chrisler. Certainly. Our Prevention and Reduction 
Initiative is largely based on our requested FTEs. I think a 
continuing resolution would make it very problematic for us to 
begin that initiative, though we would seek to work with what 
we are given, and we would certainly maintain what we have and 
do as much as we can with whatever we are funded. We in the 
past have been fortunate enough to not have to reduce employees 
to be able to maintain our programs and to continue with the 
work that we do. That is certainly what we would continue, and 
hopefully we would be able to perhaps begin development and 
research of some of the initiatives--but not engage as fully as 
we would hope.
    Mr. O'Keefe. It would pose some serious problems. First of 
all, as I mentioned in my testimony, as soon as I came in, I 
cut a couple contracts, looked at how we were doing travel, 
moved it from summer when it was expensive, to the winter to 
bring people over at a less costly time. So we have kind of 
grabbed a lot of the savings. And whenever you are running a 
program like this, when you have to operate at less money, you 
want to try to keep the heart of your program, which is the 
delegates coming over here, the Americans involved with them, 
you want to keep that up. And you want to cut into your 
overhead. Well, we have attacked that a lot. Probably what we 
would need to do, and we are already looking at some of the 
strategies, is that we could move some of the travel a bit 
later and still accomplish what we want to accomplish. But the 
fact is that we would be bringing fewer delegates.

        ADVANTAGES OF OPEN WORLD BEING IN THE LEGISLATIVE BRANCH

    Mr. Latham. You know, the big question with Open World has 
been where you should be funded. Can you explain to us what 
would happen, from the Russian point of view, from the people 
that you are working with over there, if there was a perception 
that the program was an extension of foreign policy of the 
executive branch? What is the advantage, disadvantage to 
staying with the leg branch?
    Mr. O'Keefe. Well, I think the main advantage is, because 
we are in the legislative branch, because our chairman, 
obviously, is a distinguished scholar and widely recognized in 
Russia, we can attract individuals who would be reluctant to go 
on executive branch programs. And if you are looking for 
emerging leaders, you are looking for people with some 
ambition. They are going to be very careful, especially in 
these times, about what kinds of programs they get involved in. 
And so because in a sense we are neutral, we are nonpartisan, 
we don't have to get into the necessary fights that you have 
every day involved with diplomacy. This helps us a lot.
    The second thing is, with 13,000 alumni, the program is 
known in the regions, and people who have moved into leadership 
positions are often Open World alumni. And that gives you a 
little bit of an immunity, as it were. So you move to the 
executive branch, the first thing that happens is the alumni 
network falls apart because executive branch programs don't 
fund the alumni networks. And your quality of participants 
drops, and I just think it would be a real diminishment of the 
effectiveness, long-term effectiveness of the program.
    Mr. Latham. Would there be an official position like from 
Russia?
    Ms. Wasserman Schultz. Your time has expired.
    Mr. O'Keefe. The Russian position is that there is an 
existing law that says individuals cannot take money from 
another government. And we are grandfathered, so that law does 
not apply. If we change status, the Russians could reinterpret 
the law.
    Ms. Wasserman Schultz. Mr. LaHood.

                     SUPPORT FOR OPEN WORLD PROGRAM

    Mr. LaHood. Ambassador O'Keefe, as you know, I have been a 
strong supporter of this program. I became acquainted with it 
as a result of a Federal judge in my hometown of Peoria who has 
participated in the program for well over 10 years and has 
traveled to Russia each year during the time that he has been 
involved in the program. And we have had Russian judges visit 
our community in central Illinois. The idea that emerging 
democracies can learn about our system of justice and our, you 
know, and other elected officials I think is an extraordinary 
opportunity. The truth is, if you were to put this program 
under the State Department or the Defense Department, it would 
be tainted with their policies.
    Under the Library of Congress, which has some of the best 
thinkers in the world, you know, there is no policy. There are 
lots of policies that can be and lots of things that can be 
studied under an agency of an administration. They come in to 
that, that program comes under the umbrella of the policies of 
that administration. And at that point, it doesn't have the 
kind of flexibility I think that would be allowed as an entity 
under the Library of Congress where you do have scholars and 
thinkers and people who can talk about all kinds of different 
opportunities.
    So this idea that it should go somewhere else I think would 
be a huge, huge mistake. And I hope your report does not 
recommend that. Because I don't agree with that. I have 
followed this program for many, many years.

              EXPANDING OPEN WORLD TO IRAQ AND AFGHANISTAN

    Let me ask you this, has there been any thought given to 
taking this program into Afghanistan and Iraq?
    Mr. O'Keefe. As I understand it, last year there were some 
inquiries. And I did get an inquiry actually just this past 
week for Albania. Our legislation allows us to operate anywhere 
provided we give a 90-day notice to the appropriating 
subcommittees after the approval of the board. The fact is, 
moving into Afghanistan, you need an infrastructure to make it 
work. Right now we have a good network in the former Soviet 
states. If that is the sense of the board and the sense of the 
Congress that we should do that, we could do it. I mean, we are 
capable of doing it.
    Mr. LaHood. Well, I think it is something that you ought to 
really take a look at. And I do believe this, I believe that 
one of the ways that you could fund this is through the 
enormous amount of money that is being expended in both of 
those countries. Some of it perhaps could be set aside and 
shifted to Open World so that you could begin the process of 
bringing those emerging leaders, whether they be mayors in 
cities in Iraq or Afghanistan or whether they--look, Iraq is 
setting up a whole judicial system. And what a wonderful 
opportunity for these judges to come to America and for our 
judges to go over there, and you know, we are right at the 
starting gate on this. And as we continue to spend enormous 
amounts of money in Afghanistan and Iraq, you know, I would 
encourage you to talk to the administration about some funds 
that might be made available even in the next budget to begin a 
program either with mayors, municipal leaders or judges. You 
have got such a great track record in these emerging 
democracies in the former Soviet Union that I think it makes a 
lot of sense.
    So this is one Member who is going to continue to support 
your efforts and support the idea that you ought to stay within 
the Library of Congress so you are not tainted by the policies 
of any administration.
    Mr. O'Keefe. Thank you, sir.
    Ms. Wasserman Schultz. Mr. Bonner.

                SIZE OF AGENCIES AND REQUESTED INCREASES

    Mr. Bonner. Thank you, Madam Chair.
    Since I am the newest member of this committee, could you 
give us a quick breakdown on how many employees you actually 
have in your offices and what your--again, what your budget 
request is in terms of a percent increase?
    Mr. Orszag. Sure. We are allocated 235 full-time equivalent 
staff members. I am requesting an increase to 250. Our 
increase--our budget, our proposal to you, our request to you 
is for a $45.4 million increase, which is slightly under 15 
percent.
    Mr. Bonner. Thank you.
    Ms. Chrisler. We currently have 21 FTE positions. We have 
20 funded at this--well, we are able to fund 20 at this point. 
We are deferring funding for one for cost savings. We are 
making a request for three additional FTEs in this upcoming 
fiscal year. Our current budget request is $4.3 million which 
is a 28.9 percent increase over the allocated funds we have 
received for fiscal year 2008.
    Mr. O'Keefe. We are authorized at this point 11 people. We 
have eight. So we can put them all on one elevator with a 
little room left over. We had a reduction in our budget of 35 
percent in 2008. And we are seeking to restore it, which comes 
out to a little over 50 percent increase because of the change 
in denominators.

               FURTHER DISCUSSION OF OPEN WORLD EXPANSION

    Mr. Bonner. And I know that is in the record. Forgive me 
for asking you for putting it back on, but I think it is useful 
because, as the Chairwoman indicated, we are facing some 
difficult decisions, and everyone's priorities are different. 
Yesterday on the House floor we voted to approve $12 million 
for a new greenhouse for the Botanical Gardens for orchids, 
which I don't think anyone would disagree is important, and 
perhaps it is cheaper to build a new greenhouse than to 
continue to rent the space that we currently have. But when our 
own budgets reflected a 2.7 percent growth in our MRAs, Member 
Representational Accounts, that allow us to hire our staff, and 
we serve around 635,000, 650,000 people that have put us in 
this position, I think we have to be able to ask questions so 
that we can go back when we are asked questions of all of our 
bosses, the American taxpayers, and say, well, this is why we 
should justify a 25 percent or 50 percent increase, even if it 
is warranted.
    Specifically, following up on Mr. LaHood's question--and 
Mr. Ambassador, can you give us any report back in terms of 
meaningful dialogue that would ensue that would possibly allow 
some of the good work that you have done in other countries to 
be considered in Iraq and in Afghanistan?
    Mr. O'Keefe. Sir, you would like a report----
    Mr. Bonner. If that meets with the approval of the Chair, I 
just think it would be--I mean, we have--our Nation has 
focused--here we are coming up on the anniversary of our 
involvement, and it seems that we have focused so much of our 
resources, so many of our men and women, and many of whom have 
not come back, in those two countries. And I think it would be 
useful to know, going forward, if this is something that you 
are--your group could consider as part of your long-range 
mission, especially as you are seeking an increase in funding.
    Ms. Wasserman Schultz. You can feel free to respond for the 
record. But I will note that because we are struggling to even 
fund them at the limited amount of funds that we were able to 
provide them with in the last fiscal year, expanding their 
mission beyond the nations that we are already covering would 
be next to impossible. So I think they would probably be faced 
with shifting resources that we are able to provide to them to 
Iraq and Afghanistan if that was something that they felt, that 
the board felt, was appropriate. I can tell you that the 
concern that I have is that this program perhaps has been too 
Russian-centric for too long and did not move beyond--and that 
they have now moved into the other Soviet Bloc countries. And I 
think it is an excellent suggestion to look at Iraq and 
Afghanistan and Mr. LaHood's suggestion that perhaps the 
billions of dollars that we are spending in those two countries 
could be--it would be a water droplet to take some of that 
funding and try to get it put into this program. So if you can 
respond for the record but just with that note of caution.
    Mr. O'Keefe. Yes, sir. I will be pleased to give you a 
report by April 4, 2008.
    [The information follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Wasserman Schultz. Thank you. I ate up about 30 seconds 
or more of your time in answering that.

                    UTILITY TUNNEL ABATEMENT EFFORTS

    Mr. Bonner. I have just got one more quick question for the 
Office of Compliance. Could you give us an update on the 
asbestos in the tunnels?
    Ms. Chrisler. I certainly can. As the subcommittee is well 
aware, the Office of Compliance and the Office of the Architect 
of the Capitol entered into a settlement agreement to abate the 
hazards in the tunnels. And pursuant to that settlement 
agreement, many things have been happening with the Office of 
Compliance and the Office of the Architect of the Capitol. Each 
has liaisons who are in direct communication with each other 
constantly about the progress that the Architect of the Capitol 
is making with respect to the tunnels. And specifically with 
respect to the asbestos concerns, my understanding is that 
everything is on track, that everything is moving forward, 
specifically the asbestos removal in the b, y and g tunnels is 
on track, as well as the replacement of the r tunnel. I have 
with me our general counsel, Peter Ames Eveleth, who can also 
provide additional information.
    Mr. Bonner. Thank you.
    Ms. Wasserman Schultz. Thank you very much, Mr. Bonner. I 
want to follow along that same line of questioning. The 
Architect has asked for $127 million to meet the terms of the 
settlement agreement. Is that the appropriate amount of money 
to bring it in for a landing?
    Ms. Chrisler. Yes. We have actually had a conversation 
about this, as I mentioned and once again would like to 
recognize the subcommittee for the work that you have done to 
open the door for engaged communication with, specifically, the 
Office of the Architect of the Capitol. And because of that 
increased communication, we have been able to sit down with the 
Architect and discuss many things, among which have been their 
request for appropriations, and we are certainly very 
supportive.
    Ms. Wasserman Schultz. And would you characterize the 
project as being on track?
    Ms. Chrisler. Yes.
    Ms. Wasserman Schultz. And they are making the appropriate 
amount of progress based on the settlement agreement?
    Ms. Chrisler. Yes.

          OFFICE OF COMPLIANCE REDUCE AND PREVENT INITIATIVES

    Ms. Wasserman Schultz. Good. On your request, I have sort 
of oversimplified the categories that requests go into when 
talking about how we are prioritizing things in the 
subcommittee. And there are the things that you must have, the 
things that you would like to have, and the things, sort of the 
nice-to-haves and got-to-haves. And utility tunnels are 
obviously a must in terms of funding. Your Reduce and Prevent 
Initiatives I would put more in the it-would-be-nice 
categories, that would, I think, take the OOC's mission beyond 
what you were originally created to do, which is to be a 
regulatory agency to ensure compliance and to do inspections 
and then work with offices to try to reach compliance. It would 
definitely be nice to be able to have you work with offices and 
have a trainer so that you could have offices know in advance 
how they can be compliant without running into a citation 
situation, but I just want to caution you that we are going to 
do the best we can, but I am not sure that the Reduce and 
Prevent Initiative is going to be a viable option given our 
limited resources.
    And the reason I am prefacing my question with that, 
because your answer to Mr. Latham on the continuing resolution 
was that you would not be able to really pursue the Reduce and 
Prevent Initiative. But that is not part of your mission. That 
is a thing you would like to expand to correct?
    Ms. Chrisler. Part of the mandate that we have under the 
statute is, as you mentioned, safety and health. It is to run 
the dispute resolution program, and we are mandated to provide 
an education and outreach program. Part of the education and 
outreach program, as we see it, is to train stakeholders, to 
provide training, to provide education in any form that is well 
received regarding their rights and their responsibilities 
under the Act. So we see the prevention and reduction--we see 
the trainer, we see the ombuds position--as part of our 
mandate, as part of that education and outreach mandate.
    Ms. Wasserman Schultz. Are you able to do education and 
outreach now?
    Ms. Chrisler. Absolutely.
    Ms. Wasserman Schultz. So you are meeting your mission?
    Ms. Chrisler. Not to the extent that we would like and 
certainly not to the extent that we believe the statute 
mandates us.
    Ms. Wasserman Schultz. So you would like to do more, but--
--
    Ms. Chrisler. We would like to do more. We are doing what 
we are able to do now, yes.
    Ms. Wasserman Schultz. That is what I wanted to get on the 
record.
    Ms. Chrisler. If I also may?
    Ms. Wasserman Schultz. Sure.
    Ms. Chrisler. We do believe that the Prevention and 
Reduction Initiative with the trainer, with the ombuds 
position, would be able to save money for the agencies. There 
are recent studies, as recent as 2006, in the private sector, 
in the government sector as well as in academia, that suggest 
that having trainers, having ombudsmen not only reduces 
litigation costs by 75 percent, but it also reduces the number 
of discrimination claims that are filed. So not only do we see 
this as part of our mandate, we see it as a cost-saving 
initiate for the Congress as well.

                             AOC CITATIONS

    Ms. Wasserman Schultz. Do you coordinate or has the 
Architect of the Capitol coordinated with you on which projects 
it would request in terms of the citations that it has from 
your office and what those were in priority order?
    Ms. Chrisler. They have shared with us their site 
management plan, and we have been engaged in discussions with 
them on that. We want to continue discussions and engage in 
more discussions about how to address the hazards that have 
been the subject of citations as well.
    Ms. Wasserman Schultz. Is that a long way of saying sort of 
but not enough?
    Ms. Chrisler. In a way.
    Ms. Wasserman Schultz. Okay. Just checking. Because when we 
get their list of priorities, I sort of always wonder whether, 
based on the citations that you have issued, whether your 
priorities for relieving the citation or eliminating the 
citation, addressing it would match with their priority order.
    Ms. Chrisler. As you know, our priority system is the RAC 
system, the Risk Assessment Codes. And RAC one is the most 
dangerous; followed by RAC two; RAC three; and RAC four. That 
is how we categorize the citations and the hazards. The 
Architect has a program. They prioritize differently.
    Ms. Wasserman Schultz. And I would encourage and I will 
encourage the Architect of the Capitol as well as you to more 
closely coordinate the prioritizing of the list that they 
request funding for from us because life safety and security, 
addressing those hazards is really critical. And my time has 
expired.

                       ACCURACY OF CBO ESTIMATES

    Mr. Latham. Thank you.
    Dr. Orszag, not necessarily directly budget related, but in 
a broader sense, I have been around here for a little while, 
and I have seen CBO estimates, OMB estimates. In 3 months into 
a fiscal year there can be a variation of projected surplus or 
budget deficit of $100 billion. Please tell me how you can 
instill confidence in us that any kind of projections are real. 
A broader question I guess as far as dynamics go, is how do we 
actually get real numbers that are--closer to accurate? It is 
not a reflection on you, because this has been going on a long 
time.
    Mr. Orszag. First is yes. The deficit numbers in particular 
will move around. I think we do as well as any other 
organization in those projections. So one metric is, is there 
anyone else doing better than we do? And I think the answer to 
that is no. And the reason that the numbers aren't, you know--
do move around is the deficit is the difference between two big 
numbers. And we are trying to protect both of them, and you are 
a little off on either one, and the deficit number is going to 
move a lot. We are continually reexamining the projection 
methodology.
    I will give you an example. On the revenue side, it turns 
out that when we are too high one year, we tend to be too high 
the next year. Technically, it is called serial correlation. 
There are projection efficiency gains in terms of projection 
methodology if we can reduce that, and we are exploring 
technically whether we can do even better than we currently 
are. So I guess all I can say is Paul Volcker once said, pick a 
number or a date but never both. And, unfortunately, I don't 
have that luxury right now. We do the best we can.
    We are trying to do even better, and we are continually 
reexamining methodology. I understand your frustration. The 
other thing that we try to do though, is the process puts a lot 
of emphasis on that point estimate; it will be $27.7 billion. 
We are trying to provide a lot more information about the 
spread of uncertainty around those numbers. And you will see in 
our documents, based on those previous projection errors, what 
the 95 percent confidence integral is and sort of what the 
spread of possible outcomes are. We have been going beyond that 
now in saying--you know, there is a lot of emphasis, for 
example, on the budget outcome now for 2012--rather than just 
saying our projection is X, we think that is our projection, 
and based on our previous errors, what is the probability that 
the budget will be in deficit? So we are trying to provide more 
information. The world is, unfortunately, not as predictable as 
one might like.
    Mr. Latham. And I guess that is my point about dynamic 
scoring. The real-world effects of tax increases or tax cuts, 
revenues rather than just saying, we don't take that into 
consideration.
    Mr. Orszag. Yeah. Let me comment on that. We do take into 
account lots of behavioral response. So if you change a 
spending program or you change something, there will be 
responses that individuals undertake. So if you, expand a 
public health insurance program, we have, you know, our 
estimates suggest some people will switch from private 
insurance to the public insurance program, for example. So we 
incorporate that kind of behavior outcome. We shut off, though, 
in the formal scores any macroeconomic impact. And that is 
where the heart of that dynamic scoring comes. We have and we 
will continue to provide--for example, on March 19, I believe 
we are putting out a full analysis of the President's Budget. 
In that document, we include not a dynamic score but a dynamic 
analysis of the President's Budget including those 
macroeconomic feedback effects. The distinction between dynamic 
analysis and dynamic scoring, it comes back to that single 
point estimate. Given the imprecision in macroeconomic 
analysis, we are reluctant to just say, here is what the 
macroeconomic impact is. We use a variety of models, and then 
we can show you the range of results in an analysis as opposed 
to a score in a way that we can't when we have to just pick a 
single number.
    Ms. Wasserman Schultz. Thirty seconds.

                         SCORING THE FARM BILL

    Mr. Latham. One question. And I honestly will get to the 
budget here in a minute. The Farm Bill that they are trying to 
write today is a 5-year Farm Bill. They are saying the direct 
payments will stay the same for 10 years, except for the 9th 
year, and then there won't be, any direct payments. So that 
they can raise 4 of the 5-year Farm Bill about $3.4 billion 
because in the 9th year, they say that we won't make the 
payments, which is crazy. We know it will happen. How do you do 
that?
    Mr. Orszag. How do we score it? Or how do we----
    Mr. Latham. Well, that is the way you score it.
    Mr. Orszag. We are required in a whole variety of settings 
to score to the letter of the statute. So if the statute says 
that will happen, generally that is what is incorporated into 
our score. In many situations, outside observers or other 
policymakers recognize that what the statute literally says has 
a very, very low probability of actually occurring.
    Mr. Latham. Do you put a notation at the bottom saying, 
this is crazy, it will never happen?
    Mr. Orszag. I have noticed that that tends to happen now in 
the outside discussion regardless of what we do or don't say.
    Mr. Latham. Thank you.
    Ms. Wasserman Schultz. Okay. The time has expired. 
    Mr. Bonner.
    Mr. Bonner. Thank you.
    Dr. Orszag, let's keep with you for just another minute.
    Ms. Wasserman Schultz. Can I just interrupt for a moment? 
Let me go to Ms. Lee because she hasn't asked any questions at 
all yet.
    Mr. Bonner. Sure.

       CONTRACTING POLICY FOR WOMEN AND MINORITY-OWNED BUSINESSES

    Ms. Lee. Thank you, Madam Chair.
    Good morning. Forgive me for being late, but we are, again, 
in three committees at the same time. But I wanted to just ask 
you the question I ask each agency with regard to what we 
learned last year as it relates to the inclusion of minority 
and women-owned businesses in your overall subcontractor or 
contracting efforts. And we actually put forth language last 
year in the bill that put out a requirement that each agency 
develop a formal written policy regarding the involvement of 
minority and women-owned businesses, and the disabled. And I 
wanted to make sure you are familiar with the requirement and 
that we have, I think, a March deadline determining what the 
plan is for your agency and also the workforce. What is the 
composition? Racial/ethnic composition, gender composition of 
the workforce getting paid? Do you have that broken down by 
division, pay grade, job classifications? Or how do you keep 
that information?
    Mr. Orszag. Sure. Do you want me to go first? First, with 
regard to the contracting, I believe we have submitted our 
report to you. For our agency, this is a very tiny part of the 
budget. So it is not as large a concern as our staff, which is 
a significant concern.
    And I will be frank, I have struggled and we have struggled 
to improve our diversity. One of my problems is that, given the 
nature of our workforce, we draw a lot from, for example, Ph.D. 
economists. And last year, U.S. graduate schools, the share of 
Ph.D.'s granted to minorities who are U.S. citizens was well 
under 5 percent. And those people tend to be very heavily 
recruited, and we are doing the best we can.
    I will point out, actually, I am very pleased; we just 
recruited a new minority female manager in the health unit who 
will be joining CBO in the next month or two. So we are trying 
hard, and we are doing the best we can. We are not where I 
would like to be. We do keep the data proposed by--split out by 
division and split out by management and professional staff, 
support staff and what have you.
    We have been doing much better on females than on 
minorities, and we are trying to rectify that. In fact, at some 
recent briefing for new employees, I believe there was one male 
out of a group of--a large group. So it is just a reflection of 
doing better on females. And we need to do better on 
minorities. But we can categorize the data in any way you would 
like.
    Ms. Lee. We will ask you for a copy formally.
    [The information follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Chrisler. The Office of Compliance is well aware of the 
requested policy, and we have developed a written policy. We 
have implemented our policy, and we actually have contractors 
that meet the criteria as set forth in the policy. We have 
contractors currently meeting the criteria. We do not keep 
demographics on the number of minorities or the number of other 
sectors.
    Mr. Bonner. Madam Chair, could she speak up for the record, 
please?
    Ms. Chrisler. I am sorry.
    Ms. Wasserman Schultz. It is for the record. Is the mike 
on? He cannot hear you.
    Ms. Chrisler. Yes. We have established a written policy. We 
actually have contractors that we work with who fit the 
criteria, and though we do not keep demographics of the racial 
or gender complement of our staff, our staff is small enough 
that we can provide that information for the record.
    Ms. Wasserman Schultz. Great. Thanks.
    [The information follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Ambassador O'Keefe.
    Mr. O'Keefe. Yes.
    Ms. Wasserman Schultz. Congress may have to go vote, but if 
you can answer the question.
    Mr. O'Keefe. I will be happy to answer the question. In 
terms of our of staff, one-third of the filled FTEs are women. 
One-eighth is minority. We do have a language requirement that 
individuals either have Russian or one of the languages of our 
target countries.
    I will have to take the question on contracting. We have 
not let any new contracts recently. And I will provide that 
answer for the record. I just would note that in our overall 
program of the 13,000 delegates we brought over, 51 percent are 
women.
    [The information follows:]

              Open World Leadership Center For the Record

      open world contractors--minority and women-owned businesses
    As of March 27, 2008 Open World has 6 contracts:

<bullet> 3 Non-Personal Technical or Professional Contracts
<bullet> 2 are with a non-profit organization
<bullet> 1 is with a small woman-owned minority business

<bullet> 3 Non-Personal Technical or Professional Contracts with 
    Individuals
<bullet> 1 contract is with a woman unincorporated sole proprietor
<bullet> 1 contract is with a woman who is not incorporated

    Ms. Wasserman Schultz. Wonderful. That is what we like to 
hear.
    Mr. Bonner, Mr. Ruppersberger does not have any questions.

                 CBO HEALTH CARE ANALYSIS CAPABILITIES

    Mr. Bonner. Okay. Just one more final question then.
    Dr. Orszag, obviously healthcare is a major issue for our 
country, and we are trying to wrap our arms around it. Some of 
the Presidential candidates are calling for radical change that 
would obviously cost more money, perhaps with greater 
opportunities for service. But in a National Journal article on 
January 5th, I saw where you expressed concern that your budget 
request, that there is an insufficient number of staff at CBO 
to handle the growing number of healthcare requests. I believe 
that was attributed to you. How many staffers of the 235 that 
you have at CBO currently are handling healthcare requests? And 
of the requests for additional funds for additional staffers, 
how many of that number would be dedicated to healthcare?
    Mr. Orszag. With regard to your first question, roughly, 
when I took office, or earlyish last year, there were roughly 
30 FTE's working on healthcare. Now there is a little bit of 
question about how you include like the person I just mentioned 
who is going to be coming on board. But we are now at about 45 
or so, which actually is a very significant increase for a 
public institution in roughly a year with 235 people.
    The problem is, that shift is coming at the expense of all 
other things we do, Defense and Agriculture and all the other 
things that we are being called upon to do. I nonetheless felt 
like it was critical, given that healthcare costs are where it 
is at over the long term and that previously I think we had 
terrific staff, but they were being deluged with so many 
requests that some of the concerns that had been expressed 
about response times and other things I think were particularly 
salient in that area, which is also why I shifted resources 
into that arena. Of the 15 FTE requests that we have, something 
like 12--I am sorry, 9 would go to health, and others will kind 
of backfill some of the shifting that I have been doing.

                   CBO HISTORY OF SHIFTING RESOURCES

    Ms. Wasserman Schultz. Thank you very much.
    On the healthcare analysis----
    Mr. Orszag. Yes.
    Ms. Wasserman Schultz. You have only been with the agency 
for a year, but maybe your staff can help you answer the 
question as far as the history of the agency. When Congress's 
priorities shift, has CBO traditionally tried to beef up its 
staffing in the areas of expertise that Congress is relying on 
over a period of time?
    Mr. Orszag. Yes. And one, actually one of them, I will just 
be forthright, one of the concerns about the shift in staff 
that we are doing is whether there is a lot of sort of 
drumbeats about healthcare, and then you all decide, oh, no, 
that is not that important. I have decided that is a calculated 
risk that I will take, at least for the foreseeable future, 
healthcare will be such a dominant part of the policy agenda 
that it is worth it to put more resources in there.
    Yes, there have been cycles in the past, and one of the 
concerns is that we sort of ramp everyone up in an area, and 
then you all say, no, we are not interested. And I am taking a 
calculated risk on that. I hope you will back me up on it.
    Ms. Wasserman Schultz. We are absolutely going to try to do 
as much as we can for you in that arena.
    Mr. Orszag. I just meant on the risk that Congress will 
remain interested.
    I am not lobbying.
    Ms. Wasserman Schultz. I do not think our constituents will 
give us much choice about the healthcare issues, given that we 
have upwards of 15 percent increases in healthcare costs, and 
that does not appear to be waning any time soon. And regardless 
of whether we have significant proposals coming down the pike, 
we all know there are so many different ideas on how to 
approach healthcare, so I think it is a wise portion of your 
request.

                       CBO INFORMATION TECHNOLOGY

    Can you tell me about your IT resources? I know that you 
have also asked for an increase in your information technology 
resources. What is important about that?
    Mr. Orszag. I think there are a couple things that are 
important about that. First, one of the ways we kind of skirted 
by over the past couple of years is by not doing as much in 
terms of replacing sort of the normal cycle of IT 
infrastructure.
    Secondly, we are very concerned about protecting our IT 
infrastructure and the security that surrounds both the Website 
and various entry points and what have you. We deal with 
proprietary tax information and other things that need to be 
very specially protected. So part of the request is to make 
sure that we are adequately funding security and part of it 
is--IT security, that is--and part of it is to make up for the 
lag, and that has been one of the areas that we have been 
skirting by on basically.

                            CVC INSPECTIONS

    Ms. Wasserman Schultz. The last thing I wanted to cover was 
that I neglected to congratulate Ms. Chrisler on her permanent 
appointment as the executive director of the Office of 
Compliance, because last year when you were here, you were only 
the acting. And through the change in the law, we were able to 
make sure that we could remove that portion of your title.
    I did want to ask you about the CVC inspections. I know you 
expressed some interest, I do not know if it goes to the level 
of frustration, but I know there was some difficulty last year. 
And this committee has been very focused on trying to exercise 
oversight over the Capitol Visitors Center. And you were 
interested and concerned that you get into the CVC and do pre-
inspections as soon as possible, and there was some resistance 
on the part of the AOC for you to do that. How is that going, 
and what have you found?
    Ms. Chrisler. It is going very well. We have begun pre-
inspections in February. We are slated to conduct pre-
inspections in February, June and October. When we went in for 
the pre-inspections in February, we were able to inspect some 
of the areas that had been completed. We have begun weekly and 
biweekly teleconference calls with the Office of the Architect 
of the Capitol so that we can finally conduct pre-inspections 
of those areas that were not completed in February. And we will 
continue along this path so that our inspections are as timely 
as they can be.
    Ms. Wasserman Schultz. So you can also confirm that, 
through your pre-inspections, it appears as though we are still 
on track to open towards the end of November and that we will 
not experience any significant problems or violations in your 
pre-inspection.
    Ms. Chrisler. That is correct. We have not found any yet.
    Ms. Wasserman Schultz. That is what I like to hear.
    Ms. Chrisler. This Friday we will be conducting radon 
testing, actually, so we are moving forward with the Office of 
the Architect of the Capitol.
    Ms. Wasserman Schultz. Great.
    Mr. Latham, do you have any other additional questions?

                 SELF-CERTIFICATION OF DISTRICT OFFICES

    Mr. Latham. Just one real quick. You are requesting $25,000 
for the pilot self-certification in House and Senate district 
offices.
    Ms. Chrisler. Yes.
    Mr. Latham. And how do you go about choosing--I am not sure 
everybody wants you to choose them--how do you go about that, 
and how many offices do you expect to participate?
    Ms. Chrisler. This is a new initiative----
    Mr. Latham. Right.
    Ms. Chrisler [continuing]. That we will be undertaking, so 
we have not gotten to the point where we have selected any 
offices. We are hoping this program will allow the offices to 
engage in self-certification so that we can ensure that we are 
meeting our mandate to offer the services to all of our 
congressional stakeholders, not only on Capitol Hill, but out 
in the districts and State offices. Certainly part of the 
funding that we are requesting would enable us to begin this 
program, and part of the beginning of that program would be to 
develop plans and to develop procedures by which we would 
initiate the checklists and the program.
    Mr. Latham. Okay. I will stop there.
    Ms. Wasserman Schultz. I have completed my questions as 
well.
    Mr. Ruppersberger.
    Mr. Ruppersberger. Yes.

                 ADDITIONAL ASSIGNMENTS FROM THE CHAIR

    Ms. Wasserman Schultz. We appreciate the opportunity to 
review your budget and talk to you about your priorities. I do 
have some homework for each of the agencies. You do not have to 
write it down, because I will give you a copy of what we are 
requesting from you.
    For the Office of Compliance, in last year's House passed 
bill, we included a provision requiring legislative branch 
agencies to reimburse the Treasury for any payments made on 
their behalf for awards or settlements under the Congressional 
Accountability Act. And so, by next Wednesday, March 19th, if 
you could submit a report of the Office of Compliance's 
position on this language.
    For CBO, you are asking to expand by 10 percent over the 
next 2 fiscal years due to the growing demand for your 
services. And I can tell you that--Mr. Latham, if you have not 
found already--the Members that I have spoken to on both sides 
of the aisle are just really concerned about making sure of 
that, because obviously the credibility of CBO's information is 
extremely helpful. I know Members that want to expand you by 
much more than what you have asked for. So if you could, by 
next Wednesday, March 19th, please submit a report on what 
CBO's current work load is; how you are addressing it now using 
existing FTE's; what specific requests are being turned down 
due to a lack of additional FTE's; and also, how you are having 
to prioritize your requests. Please include an explanation of 
how you prioritize your work as well.
    And then Open World, assuming that Open World continues to 
be housed within the legislative branch, which I think it is 
important to note I am not opposed to, I am interested in the 
program shifting more towards expansion countries. With that in 
mind, by next Wednesday, March 19th, please submit a report on 
how you would shift your operations if we included a 
restriction limiting the use of funds for Russian participants 
to no more than 50 percent of the total program, which is in 
line with some of the questions that were asked today. Please 
describe how you would change your current operations under 
such a provision; what, if any, additional countries you would 
target; and how long it would take for you to move towards this 
model. And additionally, because you seem to indicate that the 
draft report will not include suggested alternative funding 
sources--I mean, I am hopeful that it does--but if it does not 
have suggested alternative funding sources, I would like you to 
provide some suggested funding sources, particularly in the 
area of the judicial branch. Since approximately 10 percent of 
your participants are from the judicial branch, then this is 
really an area that I think you are going to need to seek, to 
pursue as a funding source, because we are simply going to need 
to relieve the pressure off this bill over the long term.
    And before I close out the hearing, Ms. McCollum, do you 
have any questions?
    Ms. McCollum. No, I do not, Madam Chair. Thank you.
    Ms. Wasserman Schultz. You are welcome. Thank you very 
much.
    With that, the subcommittee stands in recess until 1:30 
this afternoon, when we will hold our next oversight hearing on 
the Capitol Visitor Center.

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]







                           Afternoon Session

                              ----------                              

                                        Wednesday, March 12, 2008. 

                        CAPITOL VISITOR CENTER 

                               WITNESSES 

STEPHEN T. AYERS, AIA, ACTING ARCHITECT OF THE CAPITOL
BERNARD UNGAR, CAPITOL VISITOR CENTER PROJECT EXECUTIVE, ARCHITECT OF 
    THE CAPITOL
TERRIE S. ROUSE, CEO FOR VISITOR SERVICES FOR THE CAPITOL VISITOR 
    CENTER, ARCHITECT OF THE CAPITOL
TERRELL DORN, DIRECTOR, PHYSICAL INFRASTRUCTURE ISSUES, GOVERNMENT 
    ACCOUNTABILITY OFFICE

                         Chair Opening Remarks

    Ms. Wasserman Schultz. I would like to call the Legislative 
Branch Subcommittee of the Committee on Appropriations to 
order.
    This is, I believe, our ninth CVC oversight hearing. What 
we are going to be doing is continuing the vigorous oversight 
that we have been conducting over the course of a little more 
than a year, reviewing the issues and concerns that have come 
up since the last hearing, and just generally getting a project 
update.
    It appears as though everything is still on track on the 
overall number and the overall date. We have not lost either 
time nor expanded the projection on the overall cost of the 
project, which is really exciting; and I think we are 
approaching about 6 months straight now where we have not had 
either a slip in the date or an expansion of the amount of the 
cost. So I think we all should be extremely proud of that.
    This afternoon, we will hear from Stephen Ayers, the Acting 
Architect of the Capitol; Bernie Ungar, the CVC Project 
Executive; Terry Dorn, the GAO Director of Physical 
Infrastructure Issues; and Terrie Rouse, the CEO for Visitor 
Services at the CVC.
    I am looking forward to hearing particularly from Ms. Rouse 
on the progress on the staff-led tours system and the Advanced 
Reservation System as well. We want to continue to work with 
you and make sure in particular that the system not be designed 
so far down the road that if we have concerns that develop that 
it cannot be adjusted and that there be plenty of opportunity 
for Member input since this system is obviously going to serve 
our constituents.
    So we are looking forward to hearing from you. Your 
testimony has been received, and it will be placed into the 
record.
    Mr. Latham.

                 Opening Statement--Congressman Latham

    Mr. Latham. Thank you.
    I also commend you for keeping everything on time since the 
last hearing in February. And it looks like you are on track 
for the 31st to get the certificate and stay within the costs, 
and I commend you for doing that. So I look forward to the 
testimony.
    Ms. Wasserman Schultz. Thank you, Mr. Latham.
    Mr. Ayers, if you could proceed with a summary of your 
testimony for 5 minutes. Thank you.

                    Opening Statement--Stephen Ayers

    Mr. Ayers. Good afternoon, Madam Chair, members of the 
subcommittee. I am pleased to be here, once again, to report on 
the progress to complete the CVC and to prepare for its opening 
later this year.
    Joining me today, as you noted, are Bernie Ungar, our 
Project Executive, and Ms. Terrie Rouse, our Chief Executive 
Officer for Visitor Services.

                   FIRE ALARM AND LIFE-SAFETY TESTING

    The comprehensive fire alarm and life-safety testing 
continues to be performed as planned and remains on schedule. 
In fact, last week our crews began working planned double 
shifts, which will continue for the next 6 to 9 weeks, to 
ensure that our testing work is completed as quickly as 
possible.
    Minor issues have arisen and are quickly being addressed by 
the contractor. Recently, we began making required fire alarm 
changes and have determined that this change and associated re-
testing required can be done without adversely affecting the 
project's schedule or estimated $621 million project budget. In 
the interim, testing of the system as currently configured is 
continuing as scheduled.
    Overall, we remain pleased with the progress being made. 
Specifically, as the fire alarm testing is proceeding, we are 
completing minor construction in the following areas: the 
Library of Congress tunnel, the House Hearing Room, the East 
Front, the exterior grounds, and the House and Senate atria 
stairs.
    With regard to this remaining work, I am pleased to report 
that masons have completed floor stone work in the Crypt area, 
Rotunda, and Gallery levels inside the East Front. The 
installation of stone stair treads between the Rotunda and 
Gallery levels has been completed up to the first landing, and 
we expect this work to be fully complete later this month.

                          CONSTRUCTION UPDATE

    Stone restoration on the Crypt level is essentially 
complete, and restoration crews have begun work at the Rotunda 
level. In the Exhibition Gallery, all of the glass floor panels 
have been installed, and the video screens for the virtual 
theatres and other exhibits are being installed as we speak. 
Professional cleaning crews are now cleaning most of the CVC's 
public spaces, including Emancipation Hall, the Orientation 
Theaters, and the dining areas. Outside, the remaining two 
trailers on the South Egg have been relocated, which will 
enable the Sequence 2 contractor to continue with exterior 
landscaping work.
    Activity continues in the House Hearing Room as workers 
install bronze grilles, trim, and handrails and continue to 
work on the dais. In the House atria stairs, metal workers 
completed installation of the bronze hand and cap rails around 
the spiral staircase. In the Library of Congress pedestrian 
tunnel, ceiling panel installation and terrazzo floor work is 
ongoing.
    Crews are working to complete punchlist items such as 
millwork, wall stone, floor stone, ceiling panels, plaster 
work, carpeting, doors, and other finishes. At the end of 
February, there were approximately 14,000 items remaining on 
the punchlist. We have satisfactorily closed nearly 2,000 
items.
    To expedite the punchlist resolution, the Sequence 2 
contractor will be calling for inspections when most of the 
work is done in a particular area, rather than waiting until he 
believes all of the work has been fully complete.
    In February, 42 change orders were fully settled. The 
magnitude of change order proposals being received continues to 
diminish, with most new proposals coming in below $10,000. 
Gilbane and the CVC project team continue to focus their 
efforts on settling the largest outstanding change orders first 
and as quickly as possible.

                        CONSTRUCTION TRANSITION

    As part of the transition from a construction site to a 
visitor services operation, the Capitol Superintendent's Office 
is phasing in its cleaning crews into the Visitor Center. In 
addition, audio-visual technicians continue to make adjustments 
to the projection screens in the North and South Orientation 
Theaters, as well as the Congressional Auditorium. At this 
pace, Madam Chair, we continue to believe that we are on 
schedule to receive a temporary certificate of occupancy by 
July 31st, as currently scheduled.
    In anticipation of this milestone this summer, Ms. Rouse 
and our team continue to work with oversight committees and 
congressional leadership on plans for the CVC's visitor 
services operation.
    That concludes my statement, and I would be happy to answer 
any questions.
    Ms. Wasserman Schultz. Thank you very much.
    [Mr. Ayers' statement follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Wasserman Schultz. Ms. Rouse.

                    Opening Statement--Terrie Rouse

    Ms. Rouse. Good afternoon. Madam Chair, Congressman Latham, 
members of the subcommittee, I am pleased to be here today to 
update you on the progress we have made to stand up the AOC's 
Office of Visitor Services for the Capitol Visitor Center.

                        STAFFING AND RECRUITMENT

    As I discussed last month, one of my priorities has been to 
recruit staff to help me achieve our mission to inform, 
involve, and inspire generations of Americans who visit the 
CVC. I am pleased to announce that our Deputy Chief Executive 
Officer for Visitor Services, Mr. Maurice Parrish, joined our 
team last week.
    Working in concert with our oversight committees, we 
recently advertised to hire more than 50 visitor assistants. 
They will play a very important role as they will be our front-
line ambassadors with the visiting public. In addition, we are 
looking to bring on another 20 staff over the next few months, 
including a gift shop manager and other building staff.
    I am committed to hiring a diverse and professional staff. 
In that regard, we are planning a job fair for April and are 
actively reaching out to members of the congressional caucuses, 
including the Congressional Black Caucus, the Congressional 
Asian Pacific American Caucus, Congressional Hispanic Caucus, 
and the Congressional Native American Caucus, to help inform 
potential candidates of job opportunities with the CVC.
    My goal for the CVC mirrors those of the AOC: to 
aggressively work to hire personnel and award contracts to 
individuals and companies that reflect the diversity of our 
country. As we seek items for our gift shop, we are making a 
special effort to reach out to small businesses as suppliers. 
We have formed an expert committee comprised of our curators 
and historians to verify the authenticity of merchandise and to 
identify items that will further our educational and 
programmatic themes.

                      ADVANCED RESERVATION SYSTEM

    Madam Chair, I am pleased to report that we have made 
significant progress on the development of the Advanced 
Reservation System. We have been working with a number of key 
stakeholders, including congressional offices, the Capitol 
Guide Service, AOC and CVC staff, and many others to develop 
system requirements.
    The visitor experience and our mission to inform, involve, 
and inspire begins when the citizen contacts his Member's 
office or visits the CVC Website, not with the first step into 
the Capitol building. For that reason, the Advanced Reservation 
System and the CVC Website will provide people with a number of 
opportunities to contact their Representative or Senators.
    Based on the feedback from our stakeholders, our contractor 
has begun developing a prototype of the system. The Advanced 
Reservation System will include many advantages to Members' 
offices that are not currently available, including:
    24/7 system access through the CVC Website;
    Staff access to the Advanced Reservation System from any 
location through the Internet allowing requests and 
reservations to be handled immediately and personally;
    ``Find a Member'' links prominent throughout the CVC 
Website;
    Improved tour booking process providing longer advanced 
booking window, real-time reservations, and generating 
constituent reservation history reports;
    Members' offices may send, via e-mail or regular mail, 
personalized confirmations to constituents; and
    Inventory management tools designed to prioritize 
constituent tours.
    Use of the Advanced Reservation System will result in 
improved visitor experiences the day of the tours. For example, 
inventory management will help reduce lines and adjust visitor 
volume throughout the day.

                              CVC WEBSITE

    As requested, we have provided the subcommittee with some 
graphics that illustrate what visitors will encounter online on 
the CVC Website when they plan a trip to Washington that 
includes a tour of the Capitol. Since the system is still under 
development, those graphics are not representative of the 
actual layout or visual style. However, they provide an idea of 
how your constituents could be linked to your office to book a 
Capitol tour.
    On every page of the CVC Website there is the opportunity 
to navigate to the home page for the House or the Senate, both 
of which have several ways to look up Members of Congress, 
including by ZIP Code.
    There is a prominent link on the right side of each and 
every page. Once a constituent selects the option, ``visiting 
the Capitol'', he or she is given an additional opportunity to 
contact their Representative or Senators.
    Madam Chair, the CVC's programming is designed to reflect 
the important impact that the Constitution, Congress, and more 
than 200 years of law have had in shaping the fabric of daily 
life in the United States. As you can see, we are making great 
strides to make the CVC a welcoming and educational environment 
that will inform, involve, and inspire all who visit here.
    Thank you again for the opportunity to update the 
subcommittee on our activities, and thank you for your 
continued support.
    That concludes my statement. I would be pleased to answer 
any questions you might have.
    Ms. Wasserman Schultz. Thank you, Ms. Rouse.
    [Ms. Rouse's statement follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Wasserman Schultz. Mr. Dorn.

                    Opening Statement--Terrell Dorn

    Mr. Dorn. Thank you, Madam Chair, Mr. Latham.
    Since the last hearing, testing of the fire alarm systems 
has continued, along with installation of building finishes and 
some minor construction. Although several of the project's 
near-critical paths, such as the East Front stone work, 
continue their slip in schedule, timely completion of the fire 
alarm acceptance testing remains the biggest risk to the 
project's schedule and its budget.

                          CONSTRUCTION UPDATE

    The CVC team is working to resolve new issues they have 
uncovered, such as inadequate smoke exhaust in atria 
stairwells, and older issues, such as the exhibit galleries' FM 
200 system. AOC does not expect these issues will affect the 
project's ability to open in November of 2008. As long as the 
AOC and the fire marshal are able to cooperatively find 
workarounds to allow testing and preparation for operations to 
continue simultaneously and no new delays are encountered, we 
fully expect that the CVC should be available for opening in 
November.
    The AOC's cost estimate of $621 million continues to appear 
reasonable. However, the full impact on the project's 
contingency caused by recent necessary changes is still 
uncertain. Even with the project at 99 percent complete and 
final testing underway, it will be important for the CVC team 
to continue monitoring the project's contingency balance and 
the final project estimate.
    Madam Chair, that concludes my prepared statement, and I am 
available to answer any questions you and the Members may have.
    Ms. Wasserman Schultz. Thank you very much, Mr. Dorn.
    [Mr. Dorn's statement follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
                             TESTING ISSUES

    Ms. Wasserman Schultz. I want to start with the comment 
that you made, Mr. Ayers, that testing will be completed as 
quickly as possible. I hope you really meant completed on time, 
so that it does not affect the overall schedule. And so a 
little reassurance would be nice.
    Mr. Ayers. That is exactly what I meant.
    Ms. Wasserman Schultz. Okay. Good. Just checking.
    One of the things that I am concerned about in reading the 
weekly reports--and I really appreciate that information, 
because it helps us in knowing what your progress is, and those 
reports are very detail oriented--I think they are mutually 
beneficial. This smoke control system and the short-circuiting 
problem, I think that is the thing that is the most worrisome 
as far as being able to reach a resolution and it not impacting 
the schedule. So can you give us a sense of where we are in 
solving that particular problem?
    Mr. Ayers. Certainly. Madam Chair, you mentioned two 
problems. One is a smoke purge system from the north and south 
atria stair, and you also mentioned a short circuit.
    Ms. Wasserman Schultz. Okay. I might have combined 
problems.
    Mr. Ayers. I will give you an update on both of them.
    Ms. Wasserman Schultz. Thank you.

                          SMOKE CONTROL SYSTEM

    Mr. Ayers. Certainly on the short circuit analysis, we have 
resolved that issue. We have come up with a resolution, and we 
have now directed the contractor to implement that. So we have 
worked out a retesting regimen that will not affect our testing 
timeline, nor do we think this will affect our $621 million 
estimate. So we think that problem is solved, and we are in the 
implementation phase now.
    Ms. Wasserman Schultz. Okay.
    Mr. Ayers. On the north and south atria stair, we were not 
able to achieve the required air flow out of those atria 
stairs. We have worked some engineering solutions over the past 
several weeks, and we are in the process of implementing them 
now and will then schedule a retest. We are pretty confident 
that the re-work that we have done will correct those air flow 
issues in the atria stairs.
    Ms. Wasserman Schultz. Mr. Dorn, do you care to comment?
    Mr. Dorn. I think they are both technical problems that 
have technical solutions. I do not think it is going to touch 
the $621 upper end right now, but it certainly does have an 
effect on the available contingency in the budget. AOC can 
address the dollar amounts for you better than I can, and maybe 
a different forum would be better because they are still 
negotiating.
    Ms. Wasserman Schultz. Okay. Great.
    Mr. Ungar. Madam Chair, I just wanted to mention that from 
a budgetary perspective, we have got the cost estimated for the 
atrium fix, and we do not anticipate it being a problem with 
respect to the 621 number at this point.
    Ms. Wasserman Schultz. Good. And what about the timing?
    Mr. Ungar. It should not be a problem.

                  ADVANCED RESERVATION SYSTEM PROCESS

    Ms. Wasserman Schultz. Okay. Excellent.
    I wanted to focus on the Advanced Reservation System and 
the progress on staff-led tours. And I have said this before, 
so I want to underscore that when our constituents go to your 
Website they need to be made aware of staff-led tours and not 
automatically funneled into guide-led tours. And I know that 
the layout that you gave us is not necessarily how it is going 
to look graphically, but when you go to--is this the home page? 
Does Mr. Latham have these materials, too?
    Mr. Latham. Yes.
    Ms. Wasserman Schultz. If I go to the home page of the CVC, 
I think the link needs to be large enough so that you can very 
quickly find how to tour the Capitol. Because primarily that is 
why people are going to go to the CVC Website. And, right now, 
the way this looks is the only place that you know that you can 
get a tour is this little tiny word ``tour'' over here in the 
upper right-hand corner if you are on the home page of the CVC. 
I do not think that link is big enough or prominent enough, and 
I would strongly encourage you to make it much more prominent 
so that people could find it more easily.
    Ms. Rouse. OK. Note taken.
    Ms. Wasserman Schultz. Secondly, when you click on that 
link and go to the place where you could make a reservation, on 
the page that says home slash tour reservations, you have three 
buttons: contact your Senator, contact your Representative, and 
use the Advanced Reservation System. I am worried--I mean, of 
course, if you want a tour and you read those three buttons you 
are going to click on use the Advanced Reservation System, 
because that is what you are trying to do, is make a 
reservation to tour the Capitol.
    So I would suggest that you change the wording--instead of 
``contact your Senator and contact your Representative'', it 
should be ``book a Capitol tour with your Representative or 
your Senator'', or however you choose to word it so that people 
who want to do that will choose between going to the Advanced 
Reservation System and taking a guide-led tour and say, no, I 
really would like to do a tour through my Member's office and 
meet my Member and their staff. You would not be likely to do 
that if it just says ``contact''.
    Ms. Rouse. We can change the language to help people better 
understand how to navigate that, yes.
    Ms. Wasserman Schultz. Okay. That would be incredibly 
helpful. And my time has expired. I can continue later.
    Mr. Latham.
    Mr. Latham. Thank you.

                  CVC TOUR OPERATIONS--TRANSPORTATION

    Mr. Ayers, currently, as far as transportation and buses, 
the buses drop people off at the West Front of the Capitol and 
are prohibited from going around the east side. Is that going 
to change when you open up the Visitor Center? Are the buses 
going to be allowed to pull up to the entrance to the CVC?
    Mr. Ayers. Well, we do not expect tour buses to be able to 
use First Street. They are currently unable to use First 
Street, and those prohibitions will continue. On the east side, 
we do expect to encourage tour operators to drop off visitors 
at Union Station. From Union Station, we have worked closely 
with the District Department of Transportation to work out a 
bus route from Union Station up First Street, or down 
Louisiana, up Constitution and across First Street.
    So, ultimately, we will be able to drop people off on the 
east side of the Capitol along First Street using public 
transportation or using the other bus services that are 
currently able to use that street. The ones that do not carry 
luggage underneath will continue to be able to use First 
Street.

                          CAPITOL HILL ACCESS

    So in summary, there are two options. One, there is a bus 
drop off on the West Front and another bus drop off for tour 
buses at Union Station, and then people can either walk to the 
Visitor Center or they can use public transportation.
    Mr. Latham. I can just see a busload of 4-H'ers coming from 
Iowa having to get dropped off at Union Station and get on a 
Metro bus--I just am not sure it is totally satisfactory, in my 
mind, anyway. I think it is going to be very difficult. And if 
you drop them off on the west side, that is a real hike to get 
clear around to the front of the Visitor Center.
    Are there any other ideas or solutions to this? Have you 
talked--who says you cannot pull the buses up to the east side, 
to the entrance?
    Mr. Ayers. All of those types of vehicles are currently 
prohibited across Capitol Hill, and that is certainly from the 
Capitol Police and the Capitol Police Board.
    Mr. Latham. Okay.
    Mr. Ayers. If I could just offer one clarification, it is 
not--from Union Station up, it is not your standard Metro bus. 
D.C. District Department of Transportation has offered to 
establish a new Circulator bus route along that route.
    Mr. Latham. Will that be free?
    Mr. Ayers. It is my understanding that will cost $1 per 
person.

                            CVC OPENING PLAN

    Mr. Latham. Okay. I really wish we would maybe think about 
some other solutions, because I am just not sure how tenable 
that is for a lot of our people coming in.
    Ms. Rouse, can you explain what the planning is regarding 
the actual opening of the CVC? And will the the entire CVC open 
at one time or are you going to phase it in or have a soft 
opening? What do you foresee?
    Ms. Rouse. We are planning, and we have been having 
discussions just as early as last week with our oversight 
committees and leadership, on the actual opening of the Capitol 
Visitor Center. There will be, to your point, a series of soft 
openings, a test-and-adjust period where we will be bringing 
people in to kind of get a sense of how it will operate.
    For example, people in wheelchairs or people with 
disabilities, we might reach out to the veterans' community and 
just get a sense of how it is going to work with different 
types of constituents, school groups, for example. So there 
will be a series of those things.
    Of course, it will be up to Congress to determine what date 
we actually open, but we wish to be able to get people in and 
do a little dress run; get a sense of what works and what does 
not work, this will allow us to tweak our management.
    Mr. Latham. To my previous point, are those buses going to 
be handicap accessible from Union Station?
    Mr. Ayers. Yes, sir.

                CONTINUING RESOLUTION--POTENTIAL IMPACT

    Mr. Latham. Do you see any impact on Capitol Police 
activities--especially if we are under a CR with the phased or 
soft opening?
    Mr. Ayers. Well, certainly the police have some very 
significant needs in early 2009. We have an inauguration coming 
up that requires significant resources. In October of 2009, 
they will be merging with the Library police. Starting late 
this summer, they will be providing significant security detail 
for the utility tunnel construction on the R tunnel in addition 
to the State of the Union. So they have got significant 
requirements in early 2009.
    If there is a continuing resolution, I think there will be 
some significant funding issues that will need to be resolved. 
They are certainly committed to opening the Visitor Center, and 
I think they would have to work some significant overtime to 
make that happen without an initial influx of funding in fiscal 
year 2009.
    Mr. Latham. Okay. Thank you.
    Ms. Wasserman Schultz. Thank you, Mr. Latham. Your time has 
expired.
    Mr. Bonner.
    Mr. Bonner. Thank you, Madam Chair.

                         CVC SCREENING PROCESS

    I would like to pick up on where Mr. Latham left off. And 
forgive me for not knowing the exact terminology, but TSA has 
approved at our airports a prescreening process for frequent 
flyers where you can enroll and they do a background check and 
it is determined whether or not they can then go to the front 
of the line or to an expedited line when you are going through 
to get on an airline.
    It seems to me that if you all would be willing to work 
with the Sergeant at Arms and the Capitol Police to come up 
with a more workable solution where the tour bus companies, 
there would be a list of companies that have been authorized 
and screened like we do some of our Nation's ports--it just 
seems to me that there has got to be a more practical solution.
    You know, it was not that long ago--I was a staffer for 18 
years before I was elected to Congress; and when I first came 
to Congress, to Capitol Hill as a staffer, there were some who 
wanted to put a fence up around the Capitol. And we went 
through that back-and-forth period where we resisted that, 
because this building truly is a symbol of what we stand for in 
a free and open society.
    And while we do live in a post-9/11 era, it would just be 
good if we could see some active participation from your 
offices with the Sergeant at Arms and allow us, if this 
committee and others were of the same mind-set, to come up with 
a more workable solution.
    Yes, ma'am.

                       ADVANCE GROUP RESERVATIONS

    Ms. Rouse. Part of that we have been working on with Mr. 
Ayers' office, with the Advanced Reservation System is being 
able to register groups in advance. By registering them in 
advance, we can communicate with them. We will be able to track 
if someone has booked an extraordinary number of seats, because 
that is how we start our tours by registering people into a 
seat. Then we can indeed have somebody waiting for that bus as 
it is pulling up. So it will expedite the process completely. 
The waiting time for someone being dropped off will be very 
light.
    We also will have the opportunity with our little golf 
carts. They are to be able to bring people up from the West 
Front into the CVC if they need assistance because they are 
having difficulty walking.
    But we like to remind people that the Capitol experience is 
one of walking, and we are trying to encourage people as we are 
developing our Website and our public relations information 
that it is very much that experience.

                           SECURITY INTERESTS

    Mr. Bonner. No, and I appreciate that. But as a father--I 
know my hairline might deceive it, but I have a 10-year-old son 
and a 12-year-old daughter. And a part of walking is one thing, 
a part of standing is another thing. And that is one of the 
reasons that we have appropriated funds well over the budgeted 
amount or projected amount for the last several years, was to 
create a Visitor Center that would welcome Americans and 
friends from around the world to see their Capitol and the U.S. 
Capitol in a way that it had never been seen before, and the 
restrooms and all of the other great additions to the Visitor 
Center. I just worry that we do not set up another barrier to 
invite them.
    If Disney World can come up with a way to bring in far more 
people than come to the Capitol and take security in 
consideration, it seems that we would be able to find a way 
that would work with the security interests in mind.

                              CVC PREVIEW

    The other thing that I wanted to real quickly get on the 
record is are there any plans for a sneak preview, if you will? 
Because the Visitor Center has gotten so much negative press 
over the last few years, if you were about to open a restaurant 
sometimes you have people come in and see what is going on and 
you get the local media to talk about it and build up an 
excitement about it. And are there plans to use our national 
media, and perhaps hopefully nonpaid, but are there ways to 
explore getting the American mind interested in what we have 
spent all of their tax dollars on that are coming up?
    Ms. Rouse. Yes, sir. We have been planning--and we started 
talking more aggressively with oversight and leadership last 
week--for a media plan that includes the work of the AOC and 
Capitol Visitor Center, a test-and-adjust period which would 
include previews, various groups coming in and sort of begin to 
let people get a feel for what is going on.
    A sneak preview is a good way of looking at it. But we 
really want to immerse them in the experience. So that is very 
much a part of what we are trying to do, and I think over the 
next several months we will have a solid plan that we can begin 
to announce.
    Mr. Bonner. Okay. Thank you, Madam Chair.
    Ms. Wasserman Schultz. Thank you, Mr. Bonner.

                            STAFF-LED TOURS

    Ms. Rouse, I want to go back to the discussion of staff-led 
tours. And if you could explain to me, I am a constituent from 
the 20th District of Florida, and I want to get a tour from my 
Member's office, not through the Advanced Reservation System. 
How right now do you envision that happening?
    Ms. Rouse. Well, what we envision is that someone could do 
a couple of things. They could, as you know, use the Advanced 
Reservation System, or they could call their Member's office. 
Their Member's office could make a reservation for them. Then 
they have the option of either sending them the electronic 
response or creating and printing a document that they would 
send out to that person. So that would provide the person a 
hard copy or the electronic copy as a reservation confirmation.
    Ms. Wasserman Schultz. Will we be able to link from our 
Websites to the Advanced Reservation System?
    Ms. Rouse. Yes, all of the offices will be able to. We are 
intending to license all of the offices here in Congress and 
all the district offices out across the United States. It will 
be a total link. In addition, people will be linked to the 
Senate and the House's Websites so there is this constant 
interflow of information.
    Ms. Wasserman Schultz. Okay. And, again, I want to stress 
that we would like to make sure that we facilitate a 
constituent's ability as a priority to book their tour through 
their Member. And I know I sound like a broken record on this, 
but we did have over 140 House Members, and more than I think 
50 Senators sign a similar letter, lamenting the possibility of 
the elimination of staff-led tours and the importance of making 
sure that when constituents come here that they can connect 
with their Member's office. And the best way to do that is when 
we can provide them with a tour, because that is often the only 
thing that they are able to do when they are here in the way of 
a tour.

                   PUNCHLIST AND CHANGE ORDER UPDATE

    I want to talk about the punchlist and change orders. 
Because now that we have a section of the report every week 
that talks about change orders--I am following the number 
rather closely and seeing the same couple of thousand being 
addressed and the number not going down. So I am just wondering 
how it is that we are in the last few weeks clearing out about 
2,000 change orders--excuse me, not change orders, punchlist 
items and the number is still at 14,000.
    Mr. Ungar. Yes, ma'am. This is the situation. The 14,000 is 
the total number of items on the list, open or closed.
    Ms. Wasserman Schultz. Right.
    Mr. Ungar. In fact, as you probably saw last week, it went 
up a little bit from the previous week. It was about 14,900. 
That is because we are still inspecting areas and adding things 
to the punchlist, because not the entire facility is complete 
yet. So that number is going to be going up, in the next 
several weeks. Eventually it will slow down and stop, but for 
the next several weeks the total number will go up. I would not 
be surprised if it was 16 or 17,000 by the time it is finished.
    On the other hand, we have made significant progress in 
inspecting and closing out items on the punchlist. In fact, 
since we prepared Mr. Ayers' testimony----
    Ms. Wasserman Schultz. When do you think that we will see a 
significant drop in the number?
    Mr. Ungar. Well, the number of closed items is 4,000 now, 
so it has come down 2,000.
    Ms. Wasserman Schultz. It is 14,000.
    Mr. Ungar. No, I am sorry, the total number of items on the 
list is 14,900.
    Ms. Wasserman Schultz. Okay.

                       GILBANE'S REPORTING SYSTEM

    Mr. Ungar. We have closed out 4,000 of those, so it is now 
about 11,000.
    Ms. Wasserman Schultz. It is just that the number in the 
report still said 14-some odd thousand.
    Mr. Ungar. Right. That is because it is the total number of 
items cumulative on the list.
    So if you say how many items were ever on the list, it 
would be 14,900. It might be 15 or 16,000 in the future. From 
that, we subtract the number that have been closed; and that is 
4,000. Now you are down to the net number that are open which 
is about 11,000.
    Ms. Wasserman Schultz. Okay.
    Mr. Ungar. We expect that you will see a significant drop 
in that over the next 2 months. Again, though, you will see a 
slight increase in the total number of items on the list.
    Ms. Wasserman Schultz. Okay. Mr. Dorn?
    Mr. Dorn. We have had this discussion several times about 
the 14,000. I have seen several documents that talk about 
14,000. We are not used to counting closed ones. I mean, once 
it is closed, it seems to me it would just fall off the list.
    Ms. Wasserman Schultz. That is why I was confused.
    Mr. Dorn. That is where the confusion I think is coming 
from, but it is Gilbane's system.
    Ms. Wasserman Schultz. What I do not understand--and I am 
not great at math--but if you have 14,893 items and you close 
2,000 of them, then the number should then be 12,893 items.
    Mr. Ungar. Right. That be would the number. 12,000 would be 
the number that was open until the most recent update.
    Ms. Wasserman Schultz. Right. But that is the only number 
that we are interested in, is how many are open.
    Mr. Ungar. Well, we can report solely the number that are 
open.
    Ms. Wasserman Schultz. I mean, if you want to make it seem 
like you are not making any progress at all, then I would 
suggest you continue to report it this way. The better 
suggestion would be to report open and closed, and then we have 
a better sense of your progress.
    Mr. Ungar. Okay.
    Ms. Wasserman Schultz. Just a suggestion.
    My time has expired. Mr. Latham.
    Mr. Latham. Thank you.

                       LIBRARY OF CONGRESS TUNNEL

    With the tunnel between the Library of Congress and the 
CVC, is there any coordination going on with the Library of 
Congress for both experiences?
    Ms. Rouse. Yes. Actually, we are very enthusiastic about 
our relationship with the Library of Congress because it will 
allow people to again have that Hill experience. They can come 
to the CVC and cross over and be able to, by going through the 
tunnel or crossing the street, see what is going on at the 
Library of Congress. There is also the potential for us to do 
joint programming as time goes on, maybe share speakers back 
and forth and films. That might be on the weekend. So there is 
a tremendous amount of opportunity there.
    Mr. Latham. Maybe the tour bus could stop at the back of 
the Library of Congress and dump people.
    Ms. Rouse. We have already started hearing how people are 
going to work around issues, so, yes, that is a possibility.
    Mr. Latham. Always thinking, yes.

                       THE CAPITOL GUIDE SERVICE

    The Capitol Guide Service has been in existence since 1876, 
is that right? Whatever. And their employees provide a real 
excellent service to all of our offices and constituents. What 
do you expect to do with the Guide Service employees? Will they 
be integrated into the CVC or what is going to happen?
    Ms. Rouse. The plan is for the Guide Service to be 
incorporated into the CVC, and we have actually started a 
collaborative relationship already. The AOC's Office of Human 
Resources is helping to recruit new Visitor Assistants. There 
will be 105 of them, ultimately, but there are about 50 to 60 
positions already out on the street. We are working with H.R. 
so the Senate side can still hire them. This is because we are 
still waiting for the legislation to be finalized between the 
House and the Senate for the CVC. So they are coming over. 
Their numbers will grow because not only will we have Visitor 
Assistants, we will have guides.
    We are also putting a supervisory level engagement with 
that and also drastically extending the type of training that 
we will be doing and reinforcement.
    So it is coming over now. It is going to be a change from 
what has been done. So it is very important for us to be able 
to communicate with everyone. The biggest change is we are 
paying everybody more money. So there is a little adjustment 
that is going on. Basically, that is the plan.

                         GUIDE SERVICE FUNDING

    Mr. Latham. Is there any impact as far as where the money 
is appropriated? I am not totally sure where the funding for 
the Guide Service is now.
    Ms. Rouse. The Guide Service funds are managed by the 
Senate side at the moment. So that is why we are doing the H.R. 
Work on the AOC side to help their process. They are short of 
staff. And Mr. Ayers is a member of the Guide Board and has 
been guiding us through this process.
    Mr. Latham. Is that good training, to guide?
    Just one last question. Is there any concern or has there 
been any discussion about if you had a new restaurant down 
there, 500 seats, that you are going to be attracting people 
like off the street that do not really care about tours and 
just the experience down there eating lunch? Is there any 
impact expected there?
    Ms. Rouse. I do think the Capitol Visitor Center is going 
to be a destination, and we will have people coming just to 
enjoy the facility. In terms of the volume of impact, I do not 
think we totally know. We know the 3 million visitors that we 
are anticipating include not only people taking tours but 
official business and what is going to be destination traffic.
    Mr. Latham. Okay. Thank you very much.
    Ms. Wasserman Schultz. You are welcome.
    Mr. Bonner.

                         CVC STATUES--LOCATIONS

    Mr. Bonner. Madam Chair, I think I have got three or four 
more quick questions.
    When I was on a tour 6 weeks, 2 months ago--and it is 
beautiful, I want to go on record as saying--one of the points 
of prominence, they told me where one of the statues had 
already been reserved, and I do not remember which one it was. 
But there was something about it that no one could be above him 
for religious or traditional reasons. So my question is, 
Alabama is about to get the newest statue, Helen Keller, which 
our people are very proud of. Have all the spots been reserved? 
Or how will that decision be made in terms of where the statues 
will go in the new Visitor Center? I assume some will be coming 
from the Capitol.
    Mr. Ayers. You are correct, sir. I think the Joint 
Committee on the Library has jurisdiction over that matter. We 
have drafted a proposed relocation plan for all of the statues 
that we think should be moved and an approach to which of them 
should be moved; and, ultimately, we need to present that to 
the Joint Committee on the Library for their approval.
    Mr. Bonner. And would that recommendation come to this 
committee just for our eyes or for our thoughts, or is that 
appropriate?
    Mr. Ayers. I think, from my understanding, the Joint 
Committee on the Library has oversight over that matter.

                         CVC GIFT SHOP PROCEEDS

    Mr. Bonner. Okay. Another question is the proceeds from the 
gift shop currently go where? Profits?
    Mr. Ayers. The Architect of the Capitol currently does not 
operate a gift shop.
    Mr. Bonner. Okay. There is a gift shop in the basement of 
the Capitol.
    Mr. Ayers. That is run by the U.S. Capitol Historical 
Society.
    Mr. Bonner. Historical Society. And so all of those 
proceeds stay within the U.S. Capitol Historical Society?
    Mr. Ayers. That is my understanding. Is that your 
understanding?
    Ms. Rouse. That is my understanding.
    Mr. Bonner. But there is an enhanced--there is a larger 
gift shop in the new Visitor Center, is that right? Is that 
still going to be the Capitol Historical Society?
    Ms. Rouse. The new gift shops are going to be under the 
Capitol Visitor Center and will be managed out of a revolving 
account. So that is the goal.
    The Capitol Historical Society and the Senate and the House 
are some of the material that we are considering to be part of 
that shop. Our Gift Shop Manager wants to develop our own 
signature products. So that is the configuration of it. We are 
awaiting the legislation that gives us the official authority 
to do this, but that is the general goal at the moment.
    Mr. Bonner. I guess my question is based on, again, a 
follow-up to Mr. Latham in terms of the Guide Service. I assume 
there will be obviously a need for hiring new guides. Would 
there be any way to generate some income out of the gift shop 
that would help go to offset the costs for those additional 
guides, or would that be an appropriate place to look?

                           GIFT SHOP PROFITS

    Mr. Ayers. Certainly. The Visitor Center has two gift 
shops, and we would expect that those gift shops would turn a 
profit. The legislation that was recently introduced in the 
House creates a revolving fund. So those profits would revolve 
back into the CVC so that we would pay for salaries and 
expenses, of the people that run the gift shop, for example. 
Those profits would not generally go back to the Treasury. It 
would be deposited in a revolving fund so that we could reuse 
them.
    Mr. Bonner. And would that be the same for, like, the 
restaurant vendors? Obviously, the restaurant vendors are there 
to make a profit and also to provide a service, but will they 
be paying a----
    Mr. Ayers. They pay a commission.
    Mr. Bonner. A commission.
    Mr. Ayers. And that commission can also go into the 
revolving fund.

              TOUR BUS PROCEDURES--HIGH-SECURITY BUILDINGS

    Mr. Bonner. And then, finally, just one last point about 
the buses, since it has already been mentioned and probably 
beaten to death, but I think it would be helpful to know how 
the tour buses currently deposit visitors to the Smithsonian 
Institute and the White House and the Pentagon, since at least 
two of those buildings are also high-security buildings. But 
all three, the Smithsonian complex as well as the White House 
and the Pentagon, I think it would be helpful to see how they 
do that vis-a-vis the connection to the Capitol.
    Mr. Ayers. We would be happy to provide that for the 
record.
    Mr. Bonner. Thank you very much.
    [The information follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Bonner. Thank you, Madam Chair.

              COST ESTIMATE FOR TRANSPORTING CVC VISITORS

    Ms. Wasserman Schultz. Thank you, Mr. Bonner.
    I think it is worth beating the horse some more, because I 
share Mr. Latham and Mr. Bonner's concerns about the distance 
that our visitors would have to travel if they are being 
dropped off at off-site locations and then, to add insult to 
injury, to have to pay more money to get on a different bus.
    So, for the record, if you could provide us with a cost 
estimate for transporting tourists and the additional police 
costs from off-site drop-off points so that we can understand 
what the costs of that are and how we can make sure that we 
defray the need to have there be a cost for our constituents.
    [The information follows:]
     cost estimate to transport tourists from remote drop-off sites
    Question. What is the cost estimate to transport tourists from 
remote drop-off sites to the CVC (including additional costs for USCP)?
    Answer. The District of Columbia Department of Transportation 
(DDOT) estimates that 10 percent of the estimated three million CVC and 
Library of Congress visitors would ride the DC Circulator from Union 
Station to the CVC. Currently, the Circulator charges all passengers $1 
per trip.
    There are a number of options that could be considered to provide 
transportation from drop-off sites that would eliminate the need for 
riders to pay a fee. This would include federal subsidies to the D.C. 
Circulator bus program, or contracting for transportation services on 
Capitol Hill. These options could range from $5 million to $10 million 
per year. However, additional research to validate cost estimates based 
on factors such as CVC operating hours, locations of potential drop-off 
locations, frequency of trips, security, routes, etc., would need to be 
conducted. Once these factors were established, we would work with 
Oversight Committees and Congressional Leadership to determine the best 
course of action and the associated costs.

                 SECURITY AND THE PEOPLE'S INSTITUTION

    Ms. Wasserman Schultz. And then, also, I have to agree with 
Mr. Bonner, I was not here during the argument over the fences, 
but that argument always comes back, and I know the Capitol 
Police has expressed concern about it. And we do have to--this 
is not Disney World. This is the United States Capitol, and we 
have to really be very focused on security. But this is the 
people's institution. And I know the vast majority of Members 
that I have asked and spoken to--because I have sought out 
opinions--is that this needs to be as open and accessible a 
place as we can make it.
    So the idea of people--I mean, I have 8-year olds and they 
are approaching the years in which their school will come up 
here; and I see little kids and young children come up on 
school trips all the time. The idea of them walking from Union 
Station or from the White House or having to pay even more 
money to get on a shuttle when they have already gone to 
considerable expense to come to Washington in the first place 
on a field trip, I think that is just over the top.
    So if you could provide that information for the record for 
us, that would be great.
    I have just a few more questions. I can get through them 
before we need to go vote, and then we can recess.

                          CANNON TUNNEL ACCESS

    The status of Cannon tunnel and whether it will be open or 
closed and whether the only access point for the CVC would be 
the entrance to the CVC, where are we on that? Because I know 
we continue to have debate and discussion about our 
constituents standing in the elements, the heat, the cold, the 
rain, and there is still a concern that if the Cannon tunnel is 
closed we are either going to fry, freeze, or soak our 
constituents. And none of those things are desirable, because 
it is us that will have to hear from them, and it will be 
understandable.
    So, Ms. Rouse, can you discuss the status of the traffic 
flow into the CVC?
    Ms. Rouse. I have limited information on it. At the moment, 
through the tunnels on the Cannon side, it is still a 
discussion between the Committee on House Administration and 
the Capitol Police on how they will traffic in. I will try to 
get back to you on where they are on that.

                            CVC TRAFFIC FLOW

    Ms. Rouse. On the trafficking into the CVC, one of the 
advantages that we now have is that we have eight magnetometers 
and what we think is going to be an ability to constantly move 
people. So I do not anticipate long lines in front of the CVC 
at all. We need to get people in the building, and that will be 
the objective of the Capitol Police as well as the staff.
    Our ability to have Visitor Assistants greeting people at 
their buses allows us to move people in. So there should not 
ever be cases where long lines of people have passed out in the 
heat anymore. So I think that that should no longer be an 
issue.
    Ms. Wasserman Schultz. Okay. If you can respond for the 
record in detail on what the status is of Cannon tunnel and its 
utilization for our constituents to enter the CVC, since there 
is going to be an entrance to the CVC, which I know the Capitol 
Police would like only to be for staff and Members.
    [The information follows:]
                   use of cannon tunnel for tourists
    Question. What is the status of utilizing the Cannon Tunnel for 
tourist queuing and access?
    Answer. We have been in contact with U.S. Capitol Police (USCP) who 
have been working with the House Sergeant at Arms regarding this issue. 
U.S. Capitol Police Chief Phillip D. Morse, Sr., provided the following 
information.
    The U.S. Capitol Police are gearing up for the opening of the CVC 
and we plan to welcome the American public with courteous, efficient, 
and safe security. We are grateful for the authorization of an 
additional 21 sworn FTE in the FY 2008 Legislative Branch 
Appropriations Act, Pub. L. 110-161. These 21 sworn FTE support the 
USCP's CVC operational plan, which is based on current operational 
planning assumptions.
    Since 2005, the Department's planning has centered on the 
assumption that all tours would originate within the CVC. As a part of 
previous planning decisions, which did not support staff-led tours 
through the tunnels, 10 positions were moved from the tunnel posts to 
staff other posts within the CVC.
    The Department's FY 2009 budget request identifies the requirement 
for 10 additional sworn FTE in anticipation of a change in the CVC's 
overall operational plan that we understand will support staff-led 
tours through the Cannon/Russell Tunnels to the Capitol. These staffing 
requirements are based on the planning scenarios contained in the 
written testimony of Chief Morse, prepared for the CVC oversight 
hearing of November 14, 2007.

                              PAVER UPDATE

    Ms. Wasserman Schultz. The status of the pavers. We talked 
a couple times at these hearings about the damage to the pavers 
out on the plaza and who is going to be responsible for paying 
to fix them, and I have not asked about it for a while because 
I know that was a down-the-road issue that was going to be 
addressed. But we are getting down the road now, so I am going 
to ask.
    Mr. Ungar. Yes, ma'am, we are expecting a report this week 
from the firm that we have had analyzing that situation. So we 
will be in a position to discuss that next week for sure--
hopefully, next week.
    Ms. Wasserman Schultz. Has fault been assigned?
    Mr. Ungar. What we have asked the consultant to do is look 
at the causes of the problem, why it exists, and then how to 
fix it. So we should have its opinion on the reasons, and 
responsibility, for the problem.
    Ms. Wasserman Schultz. Mr. Latham, I am not sure how 
familiar you are with this problem, but there are hundreds of 
cracked--I mean, it is hundreds of cracked pavers out on the 
plaza that should have been designed to withstand the weight of 
a vehicle and apparently were not, so that when they used the 
area as a staging area in the last inauguration when the CVC 
was actually supposed to have been opened, the vehicles 
actually cracked the pavers. So now we are struggling to 
resolve that.

                       HOUSE HEARING ROOM DELAYS

    The House Hearing Room, I am getting a little worried that 
we have some continuing delays cropping up with completing the 
House Hearing Room. What is the source of those delays and how 
significant of a problem is it? Because I know that that has 
been the space that we were thinking was not going to impact 
the overall schedule, but I am worried that if things keep 
cropping up that it would.
    And, Mr. Dorn, if you can respond to both the paver 
question and this one when he is done.
    Mr. Ungar. Who you do want to go first?
    Ms. Wasserman Schultz. You go first.
    Mr. Ungar. On the House Hearing Room, we have had some 
structural issues with the dais that caused a bit of delay and 
some other problems there we had to resolve engineering-wise. 
But at this point in time, we are expecting the hearing room to 
be completed in May except for two items on the dais, and that 
is going to be the leather and the bronze grilles.
    There is a lead time to get those items. At this point, we 
expect those items to be done by the end of July at the latest, 
but we can keep you posted on that. They should not affect the 
opening of the CVC at this point.
    Ms. Wasserman Schultz. Okay. We have got 5 minutes left to 
vote, so I need to ask you to succinctly answer the questions. 
Thank you.
    Mr. Dorn. On the pavers, I am looking forward to seeing 
that report. Whether it is a design issue or a construction 
issue we do not know yet, and I suppose that is what the report 
is going to help us determine.
    On the House Hearing Room, the dates that Bernie are 
talking about do not delay opening. If they are done by the end 
of July, there is still another 3-month period between that 
July date and planned opening, so they should be fine.
    Ms. Wasserman Schultz. Okay. Thank you very much.
    Well, I appreciate the update. I think we both appreciate 
the update. I am really pleased to see that we are still on 
track and within budget. The management of the CVC seems to be 
going well now.

               OFFICE OF COMPLIANCE PRE-INSPECTION UPDATE

    Actually, one more thing. The OOC, I know they have come in 
to do their pre-inspections. What is your perception on how the 
pre-inspections are going?
    Mr. Ayers. From my perspective, they are going fine. I met 
just last week with Tamara Chrisler and Pete Eveleth and talked 
through some of that. So I think they are going fine.
    We got their first report. There were a variety of issues 
in their first report; and Bernie has been working very, very 
closely with them over the last few days since we received that 
report.
    Maybe you can give a quick summary.
    Mr. Ungar. Yes, Madam Chair, we basically have got the 
report. We are going to meet with them hopefully next week and 
work out a mutually agreed upon course of action to make sure 
that they do all the inspections they need to do and that the 
items are corrected that we need to correct.
    Ms. Wasserman Schultz. Okay. Great. They also felt it was 
going well. I just wanted to make sure that you agreed.

                         CHAIR CLOSING REMARKS

    What I would like you to do, because I think the 
communication has been incredibly helpful in terms of keeping 
the project on track and keeping us informed so that we can 
really understand what is going on and conduct the best 
oversight that we can, so since we are concerned about the 
issues that are cropping up in the final acceptance testing and 
there is a potential cost impact and schedule impact, even 
though I know that you are not expecting it to be--this is not 
a criticism of the project team, you know, it would be a 
surprise if nothing came up. I mean, this is a mammoth project 
and the testing--I am surprised, actually, that more problems 
have not come up, to be honest with you. But we want to just 
make sure that we are staying on track.
    So, Mr. Ayers, if you could provide a quick review of your 
cost to complete estimate and report back by Friday, March 
28th, if there are any changes to the estimate both in terms of 
the total $621 million number as well as how much contingency 
you believe is left after accounting for issues that have come 
up since you last revised the estimate.
    If you could coordinate the estimate with GAO so everybody 
is on the same page. Just so that we know we are really closely 
guarding the estimate and making sure that we are really still 
on track.
    So, with that, Mr. Latham, do you have anything else?
    Mr. Latham. No.
    Ms. Wasserman Schultz. Okay. The subcommittee stands in 
recess until 10:30 a.m. tomorrow morning, when we will have our 
hearing in H-144 on the House's budget.

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                        Thursday, March 13, 2008.  

                     U.S. HOUSE OF REPRESENTATIVES

                               WITNESSES

DANIEL P. BEARD, CHIEF ADMINISTRATIVE OFFICER, OFFICE OF THE CHIEF 
    ADMINISTRATIVE OFFICER
LORRAINE C. MILLER, CLERK, OFFICE OF THE CLERK
WILSON S. LIVINGOOD, SERGEANT AT ARMS, OFFICE OF THE SERGEANT AT ARMS
JAMES J. CORNELL, INSPECTOR GENERAL, OFFICE OF THE INSPECTOR GENERAL
IRVIN NATHAN, GENERAL COUNSEL, OFFICE OF THE GENERAL COUNSEL
PETER G. LEFEVRE, LAW REVISION COUNSEL, OFFICE OF THE LAW REVISION 
    COUNSEL
M. POPE BARROW, LEGISLATIVE COUNSEL, OFFICE OF THE LEGISLATIVE COUNSEL
JOHN EISOLD, ATTENDING PHYSICIAN, OFFICE OF THE ATTENDING PHYSICIAN

                Opening Remarks--Chair Wasserman Schultz

    Ms. Wasserman Schultz. I would like to call this hearing of 
the Legislative Branch Subcommittee on Appropriations to order.
    This morning we are going to hear from the officers of the 
House: Ms. Lorraine Miller, the Clerk of the House; Bill 
Livingood, the House Sergeant at Arms; and Dan Beard, the Chief 
Administrative Officer of the House.
    The House is asking for a $1.3 billion appropriation--a 
$151 million, or 13 percent, increase over the fiscal year 2008 
enacted level. That includes a variety of items: some new and 
expanded benefits that I know Mr. Beard is going to detail; a 
couple million dollars for the Greening of the Capitol 
Initiative; $17 million for transition services following the 
2008 elections when we have new Members come and have to move 
Members' offices; and $5 million for the Speaker's Wounded 
Warrior program, which I am really excited about.
    We are looking forward to hearing from the three of you.
    We have a full agenda, and I have a full day. I don't know 
about you, Mr. Latham. Do you have any remarks?

                      Opening Remarks--Mr. Latham

    Mr. Latham. Just to thank the witnesses for all of their 
hard work and that of their staffs to make us able to carry out 
our constitutional responsibilities here.
    And we have a lot of competing requests for funding, and it 
is going to be a difficult year. We welcome the entire panel 
this morning.
    Ms. Wasserman Schultz. We have received your statements, 
and they will be entered into the record.
    [The statements of Mr. Cornell, Mr. Nathan, Mr. LeFevre, 
and Mr. Barrow follow:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Ms. Wasserman Schultz. And, Mr. Lewis, welcome to the 
committee.
    Mr. Lewis. Thank you.
    Ms. Wasserman Schultz. Do you have any remarks?
    Mr. Lewis. I generally don't have opening remarks, but I am 
pleased to hear the panel.
    Ms. Wasserman Schultz. Thank you for joining us this 
morning.
    We will proceed under the 5-minute rule.
    Ms. Miller, welcome to the committee.

                     Opening Statement--Ms. Miller

    Ms. Miller. Good morning. Thank you.
    First of all, I would like to thank the subcommittee for 
its continuing assistance in support of the Office of the 
Clerk. I have served as your Clerk for the past year, and I 
truly believe that there is probably no higher calling. It is a 
high honor to do this.
    So I want to take my 5 minutes to highlight the things that 
we are doing in the Office of the Clerk. And the first one I 
want to raise with you is our lobbying disclosure and 
electronic filing.

                       ELECTRONIC LOBBYING FILING

    If you remember, with the Honest Leadership and Open 
Government legislation, that required us to retool what we do 
in order to accommodate the some-20,000 lobbyists that will 
file with the Office of the Clerk and the Secretary of the 
Senate. That meant that we had to purchase new servers. This 
has been a collaborative effort with the Secretary of the 
Senate in order to do that.
    So what we did--the House serves as the main port, and the 
lobbying community then need not file with the Clerk and the 
Secretary of the Senate separately. They send one filing, and 
we distribute it jointly. It is much easier on the filing 
community, and we thought that was a project that we had to 
spend a little extra, $323,000, to get the kind of server 
because the legislation required that the information that we 
make available is sortable, downloadable and manipulated in a 
way that people could get it in various functions. So that has 
been one of our main targets, trying to get that going, up and 
coming.
    As of our February 14, 2008 filing deadline, we had 19,300 
filers that filed successfully, with a 93 percent completion 
rate.
    We are now in preparation for the May 2008 financial 
disclosure filings that are coming up, where we will--we have 
been working with the Standards Committee to make sure there 
are some additional warnings in light of some companies that 
are putting our filings on PDF.

                         florence kahn portrait

    As you will remember, last year we completed the 
publication of ``Women in Congress.'' We have three other 
publications that are in the pipeline. Hopefully, in September, 
we will release the ``Black Americans in Congress.'' We have 
``Hispanic Americans in Congress''; ``Asian and Pacific 
Islander Americans in Congress.''
    I am so pleased to announce that we are commissioning a 
portrait of former Congresswoman Florence Kahn. Ms. Kahn 
represented San Francisco in the early 1920s, and she was the 
first woman to serve on the Appropriations Committee, the first 
woman to serve on the then-Military Affairs Committee, and was 
the first Jewish woman to serve in Congress. So we are 
commissioning her portrait.

                         CLERK LIBRARY FACILITY

    As the subcommittee knows, one of the duties of the Clerk 
is to maintain the legislative and reference facilities. We 
wanted to let the subcommittee know that our library facility 
needs attention. We are working with the Architect of the 
Capitol and will come back to the subcommittee at some later 
date about a plan that we feel will make sense for what we need 
to do with the library.

              HEARINGS AND VACANCIES IN THE 110TH CONGRESS

    On our day-to-day operations, real quick, during the first 
session of the 110th Congress, we had 1,186 recorded votes. 
This is 28 votes shy of the total number of votes we held 
during both sessions of the 109th.
    Since January 2007 to December 2007, the first session of 
the 110th, the House held 2,373 committee hearings. And in 2006 
there were only 1,513 hearings. This is a 57 percent increase 
in hearings this year. If you look at just this week, we had 
100-plus hearings. On Tuesday of this week, wehad 37 hearings 
in the House alone.
    Ms. Lee. We know. Thank you very much. [Laughter.]
    Ms. Miller. The House has had eight vacancies in the first 
session of the 110th, as compared to nine vacancies during the 
entire 109th. This year, we have had to fill three vacancies in 
2008: Louisiana 1, Louisiana 6 and California 12. We have two 
vacancies that will be filled this week, Illinois and Indiana.

                         CLERK'S BUDGET REQUEST

    On our budget request: Our request is $24,897,000, a small 
pittance for the amount of great work that the Clerk's Office 
does for the Congress.
    Ms. Wasserman Schultz. She says modestly.
    Ms. Miller. Modestly.
    This includes our COLA adjustments. Our budget basically is 
centered around our personnel, so our personnel budget increase 
is about $1,867,000.
    From that, we have some nonpersonnel expenses that are 
included: $747,000 to pay for our closed captioning. We are 
looking for $300,000 for our regularly scheduled computer 
replacement program.
    And we have already allocated approximately $900,000 for 
Official Reporters. What happens, with the amount of hearings 
that we are having, when our office is not able to accommodate 
the capacity of all this, we contract out. And so we have 
$900,000 but we went to $1 million, because, depending on the 
flow of the hearings, we need to be able to accommodate.
    With that, I await your questions.
    [Ms. Miller's statement follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Wasserman Schultz. Thank you, Ms. Miller. Thank you 
very much.
    Mr. Beard.

                      Opening Statement--Mr. Beard

    Mr. Beard. Thank you, Madam Chair, members of the 
subcommittee. I am pleased to appear here today on behalf of 
the budget request for the House as well as the Office of the 
Chief Administrative Officer.

                  BENEFITS PACKAGE FOR HOUSE EMPLOYEES

    There are five priorities I wanted to talk about that are 
in our budget. The first is achieving parity in benefits 
between House employees and other executive branch employees. 
The House of Representatives I think has some of the most 
dedicated and committed employees in Government; yet, their 
benefits are simply not on par with those of many of their 
contemporaries working for other Federal agencies.
    Those working for the executive branch, for example, enjoy 
an array of benefits that include: a $10,000 annual student 
loan repayment program--ours is capped at $6,000; a tuition 
reimbursement program; employer compensation for professional 
accreditation and dues; transit parking; child care assistance 
for low-wage workers; and paychecks every 2 weeks.
    Other legislative branch entities, such as the Capitol 
Police, the Architect of the Capitol and some others, enjoy 
some of these benefits, but House employees do not. Therefore, 
we are asking for $19 million to strengthen our benefits 
package and bring House employees up to par with the employees 
in the executive branch agencies.

                        WOUNDED WARRIOR PROGRAM

    The second priority we have is employing our wounded 
warriors. Many injured men and women returning from combat 
tours in Iraq and Afghanistan are challenged by their re-entry 
into the civilian workforce. Speaker Pelosi wants the House to 
be an employer that values the courageous sacrifices these 
veterans have made through their service to our country. The 
Wounded Warrior program, for which we are requesting $5 
million, will accomplish her goal.
    I am pleased today to introduce retired Marine Corps Master 
Gunnery Sergeant Patricia Orsini, who is down here. Patricia 
has joined our staff and will be the individual heading up the 
Wounded Warrior program. Her job is going to be placing wounded 
warriors in positions throughout the House and helping them 
develop the skills for long-term employment, either in the 
public or private sector.

                       HEARING ROOM MODERNIZATION

    The third item in the House budget that I think is worth 
noting is our hearing room modernization program. Members and 
constituents have come to expect a high level of broadcast 
quality and recording quality of congressional hearings. And, 
as Lorraine mentioned, the number of congressional hearings 
that we have had, in the last year anyway, has been a 
significant increase.
    So, in addition to wanting to record and broadcast those 
hearings, Members have a significant interest in archiving and 
distribution capabilities associated with those visual images.
    In our budget request, we are requesting $20 million to 
complete the upgrade and remodel of at least the main hearing 
room for all the committees in the Congress. The seven that we 
have left to do are Armed Services, Budget, Education and 
Labor, Energy and Commerce, Financial Services, Oversight, and 
Science.
    The funds we are requesting will also link all of the 
previously upgraded committee hearing rooms back to the House 
Recording Studio control room facilities, where hearings can be 
converted into Web streams or broadcasts and portions of the 
hearings can be clipped and archived and made available to 
Members for whatever reason they want.

                         NEW MEMBER INITIATIVE

    The fourth initiative that we have in the budget, which was 
briefly mentioned by the Chair, is our New Member Initiative. 
The successful onboarding of the new Members of the 111th 
Congress is going to require at least $4.7 million. But, in 
addition to that, we want to help new Members and their staff 
hit the ground running. So we are requesting $14 million to 
significantly increase our assistance to these new Members.
    This would include improving the cabling, computer cabling 
and server configuration in their district and D.C. Offices; 
the installation of phone, financial and computer systems for 
their offices; as well as the assistance through the CAO for 
financial services and technical services; and supplies for 
their offices, so that when they walk in the door they can get 
about the most important thing to do, which is to hire staff, 
to be able to begin to undertake and represent their districts.
    Too often it takes Members months and months to get 
adjusted, to purchase all the equipment, to look at the various 
alternatives that they have available to them. And we have 
found that, as we go forward in the first year, we have to have 
a lot of expenditures associated with going into those offices 
and helping them throughout the first part of the year to get 
adjusted and to get all the requirements in place. So we would 
just as soon be able to go in early, get it done, the Member 
can walk in the door. And they can make changes as they go 
forward, but at least they would be able to start out that way.

                           GREEN THE CAPITOL

    The final initiative is the Green the Capitol initiative. 
We are asking for continued support for that effort, with a 
total of $2 million.
    We have made real progress in the first 6 months. The goal 
of the initiative is to make the House carbon-neutral at the 
end of the 110th Congress. And, with the support of this 
subcommittee, we are purchasing renewable power, converting to 
natural gas at the power plant for our needs, and we have 
purchased carbon-offset credits and phased in an array of 
energy-saving improvements.
    We will continue to go forward with a number of different 
initiatives in fiscal year 2009, including a review of our food 
service operations and systems, our transportation activities, 
procurement, as well as many of our business practices. The aim 
in each case is to save energy, save taxpayer money, and to 
improve the overall health and quality of the workplace for our 
workforce.
    That concludes my testimony.
    [Mr. Beard's statement follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Wasserman Schultz. Thank you, Mr. Beard.
    Mr. Livingood.

                    Opening Statement--Mr. Livingood

    Mr. Livingood. Good morning, Madam Chair, Mr. Latham and 
Ms. Lee. It is a pleasure to be here this morning and to appear 
before you to discuss the Office of the Sergeant at Arms budget 
request for fiscal year 2009.
    Since I last spoke to you, we have made significant 
progress in the areas regarding emergency planning. First of 
all, we have been developing proposals to provide evacuation 
modeling of the Longworth, Cannon, Rayburn and Ford Buildings 
and the Capitol. The goal of this model is to model all three 
protective actions, such as evacuate, shelter in place, and 
relocation. We are progressing and have come up with an RFP, 
which we have not put out yet because there is no funding for 
this, but we have been moving along on that. And I think it 
will be a big help for us, with the Capitol Police.
    We are continuing to work with the CAO's office to review 
new and emerging alert technology for notifications. We will be 
conducting further evaluation of the CAO's existing Roam Secure 
Alert notification system.
    Additionally, we have joined efforts with the Architect of 
the Capitol, Fire Marshal, and the Capitol Police and reached 
out to every office on the House side and the Capitol regarding 
evacuation procedures. The offices and committees were issued 
updated evacuation route maps, which detailed their primary and 
alternate evacuation routes, as well as maps of the building 
assembly areas. Each office has an assembly area.
    After a recent fire drill, we saw a need to modify several 
evacuation routes in both the Cannon and the Longworth, and had 
the Capitol Police revisit some of those offices to change 
their routes so the stairways weren't as clogged as they had 
been.
    We have also provided updated information on evacuation for 
mobility-impaired persons. We are working to possibly develop a 
floor warden program to assist staff and visitors during an 
evacuation of the House Office Buildings. And we continue to 
improve our evacuation plans almost weekly.
    To accomplish this mission and the goals of my office, the 
total funding requested for fiscal year 2009 is $8,480,000. 
This consists of $7,345,000 for personnel expenses and 
$1,135,000 for nonpersonnel expenses, with an overall increase 
from fiscal year 2008 of $1,614,000.
    This increase is due in part to the request for 15 new FTEs 
needed to support the Sergeant at Arms operations in the CVC, 
Capitol Visitor Center, as well as the need to fund contracted 
service dealing with emergency planning and preparedness.
    In closing, I want to thank the committee again for the 
privilege of appearing here today. And I think each of you know 
how deeply I consider it an honor to serve this institution.
    I want to assure you of our constant vigilance and 
continued dedication for the safety and security of all 
Members, staff and visitors, with continued studies being done 
for improvements in all these areas.
    At this time, I would be happy to answer any questions 
about the budget.
    [Mr. Livingood's statement follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Wasserman Schultz. Thank you very much, Mr. Livingood.
    And I really just have to, before I ask you a couple 
questions, commend all three of you. Because, as the officers 
of the House, you have been charged with a tremendous 
responsibility to take care of the Members and to take care of 
the administration of the legislative process, which is an 
awesome responsibility. And the three of you are doing an 
absolutely fantastic job of that. So we appreciate it.

              STAFF FINANCIAL DISCLOSURES ON THE INTERNET

    Ms. Miller, my first question is for you, and it is a two-
phased question. There has been some concern--I remember a few 
weeks ago I read in one of the newspapers about a Web site that 
put up financial disclosure forms online of, not just the 
Members--which comes with the territory when you are an elected 
official--but also the officers, the reporting individuals, the 
senior staff who also have to do that. The concern was that 
they put, I think, personal information up on their Web site, 
including Social Security numbers and very personal financial 
information, even the backup material.
    I was really glad to read a couple weeks later that your 
office--that you have been negotiating with the Web site and 
brought a resolution to that. So can you talk about that?
    And also, because I know there have been concerns about the 
House page program since I got here, if you can talk about the 
improvements that have been made in the House page program and 
what we can look forward to with that.
    Ms. Miller. Great. Two of my favorite subjects.
    LegiStorm. We have discovered part of what anybody can do 
is go to our Legislative Resource Center and fill out a form, 
and they have access to Member filings. When you file your 
financial disclosures, it is a public record, and so we give 
it.
    But we discovered--and Lenny Shambon is our new legal 
counsel in the Office of the Clerk, and he just joined us about 
2 weeks ago, walked right into this. What Lenny initially did, 
when we discovered these filings were up on PDF, we immediately 
went to try to figure out what Members were affected. So we 
literally, over the weekend, just went through every filing we 
had in 2007, Member and the senior staffs. And we discovered 
about 21 Members were affected by it.
    And we discovered that some of the staff had been calling 
LegiStorm independently. They saw this, and they were very 
concerned.
    Lenny was able to negotiate with LegiStorm to say, ``Look, 
this is some personal information that you have of Members and 
senior staff. It needs to come down.''
    So we went to the meticulousness of finding the exact page 
of a Member's financial disclosure. And I will use Mr. 
Sensenbrenner. Mr. Sensenbrenner redacted a lot of the 
information in his financial disclosure, but at the bottom of 
the page, in very small lettering, was the account number and 
the name of the trust, with his name on it.
    So Lenny negotiated, and we came in over the weekend, went 
through all the financial disclosures, got them typed up. He 
faxed that over----
    Ms. Wasserman Schultz. How many were there?
    Ms. Miller. There were about 21 Members.
    Lenny, what was it?
    Mr. Shambon. There were 26. Out of the 440 Members and 
delegates, 26 had attachments that could have been exposed; 12 
had exposed numbers.
    Ms. Miller. And we went through all of the disclosures to 
find this information out, faxed it over to them on Friday 
night. By Sunday night, Monday morning, they had been taken out 
from the Web site.
    Moving forward--I mean, that was a fire drill in order to 
protect our privacy. Moving forward, there is still a lot of 
concern among some of the staff that names of their children, 
their personal addresses are still there. And we are working 
with LegiStorm to get that done.
    Moving forward, what we are trying to do as we prepare for 
the May filings, to put something on the filing report, or as 
you fill out the paperwork, that the individual filer knows 
that you have to be very careful about your personal 
information and redact it.
    The other part of this is that we are trying to come up 
with--in working with the Ethics Committee, we discovered also 
people's signature was on there. And so we discovered a 
little--well, it is not a trick, but a little facet in the 
printing where there is a certain block that we can put a 
little machinations over, and as you sign the form, once it is 
copied it goes dark, so that signature is not exposed.
    So we are trying to use things like that to help. But what 
we are really having to do is to do a much better public 
relations job to inform Members and the senior staff that file, 
``Be careful of the public information.'' This was innocently 
done, I think, on Members' part who just didn't know. And we 
had some Members that had thousand-page attachments that were 
exposed; they had security matters.

                              PAGE PROGRAM

    Now, to my favorite topic, the page program. The Republican 
Leader has given us two new Members to the Page Board, two 
excellent Members who have an educational background, Ms. Foxx 
and Mr. Bishop.
    After our little controversy, the Speaker and the 
Republican Leader had asked for the IG to do a study, kind of 
investigate what actually happened. And out of that came two 
major recommendations: That we tighten up on the regs for our 
residence hall staff, and that we actually hire a deputy clerk 
who would have sole responsibility of reviewing and oversight 
of the page program--the totality of the page program. The page 
program is divided into three segments: The work, the school, 
and the residence hall.
    So we are in the process--we have about 37 candidates, 
applicants for the deputy page slot. We have decided--and we 
have been pretty thrifty in trying to figure out how we pay for 
this. So we are rearranging priorities within our budget so we 
will pay for the remainder of the year of this deputy clerk 
slot, this new addition.
    And we are continuing our--since last summer, we have been, 
I guess since June, maybe April, with the cooperation of the 
Sergeant at Arms, doing a robust security evaluation of the 
residence hall. So we have gone through, we have created a 
whole new system where the residence hall staff can actually 
see the ingress/egress of the students leaving the dorm. It is 
phenomenal, the work we have been doing. But it has been over a 
lot of months.
    And that is basically where we are. We have got, I think, 
an excellent program. You have to see the kids. Once they come 
in, they are a little starry-eyed. But once they leave, you see 
that they really get this. They really do. And it is a great 
program. And we are going to work on improving it.
    Ms. Wasserman Schultz. Great. Thank you very much.
    Mr. Latham.
    Mr. Latham. I just hope the pages aren't totally skewed for 
their lives after they have been around here.
    You said you had 26 Members that had their information, 
personal information, disclosed. How many staff people?
    Ms. Miller. There were, let's see--do any of you know 
offhand?
    Mr. Shambon. The Members who had errors were 12--
nonredacted Members. And all 12 of them had gotten on the 
LegiStorm site. For the staff, out of the 3,219 filings, 68 had 
errors, and 30 of those 68 had numbers on the site.

                  MEMBERS' REPRESENTATIONAL ALLOWANCE

    Mr. Latham. Mr. Beard, in January, there was a 
reprogramming request for $14.4 million, as far as the MRAs, 
because of the shortfall in 2008.
    Can you assure us that there is not going to be any other 
shortfall for the MRAs for the remaining portion of this year?
    Mr. Beard. Well, I think, for the remainder of this year, 
no, I think we are in good shape.
    But, you know, the MRA is probably the most complicated 
account we have, because we have to guesstimate about 18 months 
in advance what rate the Members are going to spend at, include 
that in the request, and then it goes to this committee. But 
then the Committee on House Administration actually sets the 
level with the authorization.
    So, as we have gone through this series of continuing 
resolutions, the difference between the authorization and 
appropriations has been narrowing, and that was one of the 
reasons that there is a request this year for an increase from 
a lot of the Members.
    We are going to do our best to avoid it; let me just put it 
that way.
    Mr. Latham. Are there any other accounts, different select 
committees or anything like that, that are going to have a 
shortfall?
    Mr. Beard. No. The committee accounts are in good shape. 
And the Select Committee on the August 2nd Vote as well as the 
Select Committee on Global Warming are in good shape.
    Mr. Latham. Your request of $590.6 million, do you know 
what percentage of the authorization that is--how that compares 
historically to the percentage of the authorization?
    Mr. Beard. This is for the MRA?
    Mr. Latham. Right.
    Mr. Beard. It is 92 or 93 percent, somewhere around there. 
That is what we shoot for. It is usually 92 or 93 percent of 
the authorization.
    Mr. Latham. My understanding is that it is about 91 
percent. Historically, it has been 92 or 93, which would 
potentially lead us to another shortfall next year. But 
hopefully that doesn't happen.

                             CAO PRIORITIES

    You listed the priorities here. Is this list with new 
initiatives, the order of your budget priorities? I mean, we 
are going to be under real pressure, obviously, as far as our 
budget. How would you prioritize?
    Mr. Beard. Well, if asked to go back and prioritize, I 
guess I had better go back and rearrange the list. And I think 
there are a number of people----
    Ms. Wasserman Schultz. You will be asked to prioritize.
    Mr. Beard. Okay, well, that is fine. I am happy to do it. 
No, they weren't presented in any particular order of 
importance.
    I think that some are new, but some are, like the committee 
program, an attempt to continue and finish an activity that was 
started several years ago. And we wanted to put renewed 
emphasis on it.
    Mr. Latham. If you could, actually, prioritize.
    Mr. Beard. Sure.
    [The information follows:]
             questions from the hearing from mr. tom latham
    In response to a request for prioritization of new initiatives, 
please see the following chart:

                                          NEW INITIATIVES PRIORITY RANK
----------------------------------------------------------------------------------------------------------------
            Priority                 New Initiatives                 Account               FY09 Budget Request
----------------------------------------------------------------------------------------------------------------
1..............................  Speaker's Wounded        A&E..........................               $5,000,000
                                  Warrior Program:
                                  Operations.
2..............................  Benefits Enhancements:   A&E..........................                4,000,000
                                  Student Loan Program
                                  Increase to $10,000
                                  annual & $60,000
                                  career cap.
3..............................  Benefits Enhancements:   A&E..........................                7,500,000
                                  Tuition Reimbursement.
4..............................  Benefits Enhancements:   A&E..........................                5,040,000
                                  Centralized Transit
                                  Benefits.
5..............................  Benefits Enhancements:   A&E..........................                1,650,000
                                  Parking Benefits.
6..............................  Benefits Enhancements:   A&E..........................                  500,000
                                  Child Care Subsidy
                                  Program.
7..............................  Greening Operations &    SOE..........................                2,000,000
                                  Initiatives.
8..............................  New Member Office        A&E..........................               13,884,000
                                  Initiative.
9..............................  Hearing Room             Standing Committees..........               19,087,000
                                  Renovations: Implement
                                  Capabilities ($14.8M)
                                  & Initial 12 Months of
                                  Operations ($4.2M).
10.............................  Benefits Enhancements:   A&E..........................                  200,000
                                  LifeCare Resource and
                                  Referral Services.
----------------------------------------------------------------------------------------------------------------

                         house metering project
    Mr. Latham. In the greening of the Capitol, you include 
$100,000 to verify the proper operation and data from the new 
Architect of the Capitol metering system.
    Do you need to monitor what they are monitoring? I don't 
understand why they can't do it.
    Mr. Beard. Well, as you know, they submitted a metering 
request. It has been under advisement here with the committee, 
and I think the committee has finally approved the 
reprogramming by reducing the number.
    We have been involved with them in a number of different 
metering activities, particularly in some of our computer 
facilities. And we meter those as well, and we want to make 
sure that we are consistent with what the Architect of the 
Capitol has in place.
    The overall issue here is, in the 1992 energy bill, the 
2005 and the 2007 energy bills, we were directed to put meters 
in place to evaluate energy consumption and use in Federal 
buildings. And we have Federal buildings, and we need to verify 
and coordinate with the AOC as they undertake those activities, 
particularly in our facilities, our computer facilities help 
and other locations that we have.
    Ms. Wasserman Schultz. Thank you.
    Ms. Lee.

                           Remarks by Ms. Lee

    Ms. Lee. Thank you very much.
    And let me associate myself with the Chair's comments with 
regard to our gratitude for all of the work that you all do 
every day. You know, so often we take for granted, staff and 
Members, the type of work behind the scene that is involved 
just to make this place run efficiently, smoothly and without 
as many complications that an institution such as the Capitol 
could afford. So thank you all very much.
    And also to Ms. Miller, this is Women's History Month, and 
I just want to congratulate you and salute you for being such a 
role model for women throughout the country.
    Ms. Miller. Thank you.

                               STAFF COLA

    Ms. Lee. Let me ask you about the COLA for staff. How does 
that work between leg branch and House Administration, and how 
do we know what to really expect? Lots of staff have wanted to 
know that. Because I have no clue. And you know what happened 
this year: We thought it would be one thing, staff thought--and 
then it came out something else, and we had to go back and, 
sort of, hassle a little bit.
    And then let me ask Mr. Beard a couple questions, and you 
can answer them all together.
    I fully support the enhanced benefit package for staff, 
because all of us know that our staff could make a lot more 
money and receive a heck of a lot more benefits doing other 
things. And it is so important to retain staff. All of us know, 
staff, they want to stay but oftentimes they can't stay, 
strictly because of the economics of it. So, whatever it takes, 
I hope that we can move forward with this piece of the budget 
proposal.
    With regard to the alternative pay dates, I just wanted to 
get from you the status of what we had asked for last year in 
the omnibus bill, in terms of coming back, looking at what the 
kinks were in the existing payroll system, and what the 
proposal could or should be from you.
    And then how the minority women-owned business program 
works within your agency. You know, given the fact that we 
finally, last year, thanks to the Chair and all of us, got in 
language asking for the inclusion of minority- and women-owned 
businesses in procurement and vendors and in all of the 
operations of the Capitol.
    Mr. Beard. The COLA, really, we tee off the President's 
number. Whatever the President's number is is what we tee off 
at. But it is complicated here by the fact that we have a 
Speaker's pay order that sets a cap, and then everything, sort 
of, cascades down from there. We have to work also with the 
Committee on House Administration, too, as to the exact number. 
So it is, like most things around here, a very active--there 
are a lot of people stirring the soup pot, so to speak.

                    ENHANCED STAFF BENEFITS PACKAGE

    With respect to benefits, I think it is important for us to 
recognize, historically, we have almost been like a minor 
league here. We hire people, they come in, they learn the 
skills, they make the contacts, build the relationships, and 
then they spin out and go downtown, to then only come back up 
here and lobby us again, or whatever it is that they do. But 
they learn a skill, and they make a valuable career out of it.
    Every employee we lose is, you know--you have to look, in 
personnel and management consulting work, they generally 
consider that the cost of a lost employee is about a year, 1 
year's salary to 1\1/2\ years' salary. And that is what it 
costs to recruit, train, get the new employee back up to speed 
so that the institution can move forward.
    And I think that it hurts the institution overall every 
time we lose these people. So that is why we have put so much 
emphasis on this. We want to keep and retain employees to the 
maximum extent we can.
    We started just with the issue of parity with the executive 
branch. We are not asking for anything that some other Federal 
agency doesn't have. And we went through and canvassed all the 
Federal agencies to see what benefits they had and how that 
compared to ours, and the priority of what it is we would like 
to give our employees.

               MINORITY- AND WOMEN-OWNED BUSINESS POLICY

    And minority- and women-owned businesses--as a result of 
your work last year, we set a policy internally. We monitor 
that on a regular basis. And we have improved our performance, 
but it is nowhere near what it should be. And we are on target 
to deliver the report that was requested on time.
    Ms. Lee. Good. What is the deadline again? Was it March?
    Mr. Beard. The initial one has already been presented.
    Ms. Lee. Okay.
    Mr. Beard. But the other one, I think, is in March or 
April.
    Ms. Lee. Okay. Thank you.
    Thank you very much.
    Ms. Wasserman Schultz. Thank you.
    Mr. Lewis.

                          Remarks by Mr. Lewis

    Mr. Lewis. I do have a couple of questions.
    I wanted to mention, that, for at least a dozen years Vic 
Fazio and I worked together on this subcommittee, he being the 
Chairman and I had the privilege of being the ranking member. 
One instance that occurred is very much reflective of some of 
our current difficulties in the House. The legislative branch 
subcommitee does represent all the Members' interests here, as 
well as their staffs'. Vic and I were upstairs discussing the 
committee business as we were going to the markup, and a call 
came in from the then-Speaker Jim Wright. The issue of the 
moment, Members' pay raises, was swirling around the House. And 
Jim called Vic to let him know that he decided, under pressure, 
to take a poll of the Members and make it public. Well, when 
Vic hung up, we agreed with each other that that might be very 
close to the end of Wright's speakership. [Laughter.]
    So these things go on within this branch, from time to 
time.

                     CAO REPRESENTATIONAL ALLOWANCE

    Mr. Beard, I note that you have requested a 
representational allowance, an item that hasn't been in the 
budget for a while, or I think maybe since CAO has operated. 
The amount is not a lot of money, but it is $10,000, which is 
the equivalent of the Majority and the Minority Leaders' 
funding for this kind of activity. $5,000 is more than the 
Majority and the Minority Whips.
    So, explain to the committee why the request for a 
representation allowance. What will you do with it?
    Mr. Beard. We thought the other accounts were $10,000, and 
that is why mine was. The other officers have representational 
allowances of, I think it is, $3,000 each. And my request was 
to establish a representational account.
    There are occasions when there are----
    Mr. Lewis. The question, though, is why.
    Mr. Beard. As we have guests and visitors who come here, 
particularly foreign guests and visitors, meeting with the 
representatives from the Mexican Senate, the German Bundestag 
and a number of other organizations, there is usually an 
exchange of gifts, and we present them something from our 
supply store and so forth. But those can't be charged back to 
the account, so I pay for them out of my pocket.
    And the other officers have small amounts of money, $3,000 
I think it is, for that.
    Mr. Lewis. Okay.

         APPROPRIATONS COMMITTEE HEARING ROOM SPACE IN THE CVC

    Madam Chairman, yesterday, Ms. Lee and I spent time 
together over in the Rayburn Building. The Secretary of State 
was with us, which, to most of us, was important. There was 
craziness going on in the House. There were votes going on. And 
it crystallized in my mind that there is an item that you and, 
I think, really, the majority members should consider, and you 
can do something about it.
    I don't want to speak for him, but I believe the Chairman 
of the full committee really hasn't been in favor of a thing 
called the CVC. Nonetheless, we are going forward with it; it 
is here. It sure seems to me that the committee is crazy not to 
insist that the Appropriations Committee have space for hearing 
rooms in that CVC that are adequate.
    I mean, to have the Secretary of State and Barbara and I 
running back and forth was nuts. And the time is now; it is not 
going to be later.
    So I would urge the committee, with your staff and 
otherwise, first do some homework and then go from there. I 
think we could really serve the Appropriations Committee very 
well if we could.
    Ms. Wasserman Schultz. An intense lobbying campaign has 
commenced.
    Mr. Lewis. That is very good. If there is anything I can do 
to help, or get out of the way, please let me know.
    Ms. Wasserman Schultz. Thank you.
    Mr. Lewis. I can't believe I am going to be asking this 
other question, but my staff wanted me to because we have had 
all kinds of calls regarding it.

              COFFEE BRAND SERVED BY RESTAURANT ASSOCIATES

    Mr. Beard, I understand that we have, one way or another, 
made a decision about the kind of coffee we deliver in the 
House. Now, I deliver coffee that I buy for my staff in my 
office, so there is no issue in my office. But lots of Members 
apparently don't like the change in the coffee. And, 
apparently, this was done without a bidding process. And I am 
hearing that, at one time, we had very fancy coffee and now we 
have very common coffee.
    So, would you explain that to the committee, as well?
    Mr. Beard. Yes, I would be happy to.
    When we moved to the new food service vendor in December, a 
request was made to us to consider putting in what is called 
``free trade'' coffee.
    And we then had a number of different vendors, we had nine 
different vendors who offered coffee to a blind taste test of 
about 50 staff people who came.
    Mr. Lewis. I am sorry I am asking this question.
    Mr. Beard. Yeah. [Laughter.]
    And the one that was selected was Pura Vida coffee. But we 
also continue to serve Starbucks coffee in The Creamery.
    Ms. Lee. May I ask, was Peet's Coffee in that taste test?
    Mr. Beard. I honestly don't know which ones were, but I can 
find out.
    Ms. Lee. I would like to know. Thank you very much.
    [The information follows:]
            questions from the hearing from ms. barbara lee
    Question. Was Peet's coffee included in the coffee taste testing 
that was conducted?
    Response. Peet's coffee was not included in the taste testing. 
There is only one advertised Fair Trade blend in the entire line of 
Peet's coffee. While this one blend could have been included, it was 
not due to a lack of availability of decaffeinated Fair Trade blend. 
Although not a requirement, the availability of both regular and 
decaffeinated for each coffee blend was heavily weighted as a factor 
for inclusion in the taste testing.

    Mr. Lewis. I am afraid to ask the rest of my questions, 
ma'am.
    Ms. Wasserman Schultz. Okay. I think we should quit while 
we are behind. [Laughter.]
    Thank you.
    Mr. Bonner.
    Mr. Bonner. Thank you, Madam Chair.

                         NEW MEMBER INITIATIVE

    Mr. Beard, the CAO is proposing a new Member initiative at 
a cost of $13.9 million--slightly more than the $10,000 that 
the ranking member referenced to in his question. And, as I 
understand, you want to hire 10 full-time employees.
    Could you tell us a little more in detail, other than what 
is already in your statement, about the new Member initiative? 
What has not worked in the past?
    Many of us are recent Members to be elected, and we went 
through new Member orientation, and I don't think you want to 
deprive any future Members who come along. But since budgets 
are tight, our office has got a 2.7 percent COLA, could you 
help us understand why we need this money at this particular 
time?
    Mr. Beard. Sure. The FTEs that we are requesting are to 
provide financial counselors to the offices. Rather than have 
each of these offices hire a part-time, shared employee, as 
some Members do, we would offer the services of the CAO to 
individual offices if they want to use CAO employees to do 
their financial and budget work. And we would also offer to the 
new Members the opportunity to have CAO employees in the 
technical services area do their computer work. Many Members 
use part-time employees to do that.
    In many respects, this is in response to the current 
prosecution which arose over a shared employee in the financial 
services area, where the employee was accused of and, I think, 
has entered into a plea agreement on theft. And the question 
is, how do we ensure that the funds made available to the 
individual Members are being spent as carefully as we possibly 
can?
    So I am working right now with the Committee on House 
Administration and the Inspector General to come forward with a 
proposal to make sure that, in the financial services area 
particularly, there is absolutely no opportunity for 
reoccurrence of the theft that we had.
    And the other thing that we found with shared employees is 
some shared employees did not make enough money as House 
employees to qualify to submit ethics forms. Some have not, in 
the past. I think we have gotten that one straightened out. 
Some wanted to operate as businesses, but they are not allowed 
to because they are supposed to be employees of the House.
    And so what we are doing is we are really, I think, 
perpetuating kind of a fiction. We are saying this person is an 
employee; but they are actually a business, and we are paying 
their retirement and health care as if they were an employee, 
but in fact they may have eight or 10 offices that they work 
for. And, in many cases, those offices don't know what other 
offices that individual works for.
    So I don't think it is the best arrangement. And the 
easiest way to get out is to start with the next class of 
Members and say, ``We will offer those services to you.'' We 
have to do it anyway, because the bills are sent to us and we 
double-check everything. And we are the ones that actually cut 
the check. So the proposal was to offer our services in the 
financial and the computer services area to the new Members, if 
they want to take advantage of it.
    If they want to hire a shared employee, that is their 
business, or have somebody on staff do it, they can do it as 
well.
    Mr. Bonner. But it is only available to the new Members?
    Mr. Beard. I would be happy to make it available to other 
Members, but we don't have the funds to be able to do that. And 
the thought was, if we started with this class, we could slowly 
work our way forward as the natural turnover in the House takes 
place.

                        ELECTRONIC VOTING SYSTEM

    Mr. Bonner. Madam Clerk, this year we have had some mishaps 
with the electronic voting system. And I was wondering if you 
could tell me what your office has been doing to ensure that, 
when we cast a vote, that we can have confidence that it is 
accurately recorded.
    And how old is the current system? And are there any plans 
to purchase a new system?
    Ms. Miller. Well, we started electronic voting in 1974. So 
it has had about four upgrades in the last few years, the last 
being in 2004.
    Honestly, Mr. Bonner, I think our system is sound. It is a 
functionality--we have had more than 2,000 votes, and there has 
been one where the computer--maybe a glitch or so.
    This is a constant daily vigilance. There is a small group 
of staff, senior staff, both sides of the aisle and the 
parliamentarian, that receive an e-mail from us every day. We 
test it before we go into session. If we are in session subject 
to the call of the Chair, we test it again to make sure that, 
once a vote is called, that the displays go up on the machine. 
We are doing everything we possibly can.
    To the question of what are we--we are doing an internal 
investigation and constantly trying to evaluate the system. We 
are in the process of looking at hiring a contractor to come 
and--it is like typing, sometimes: You can type something you 
think it is okay; someone else looks at it and they see a 
mistake. So we are bringing in, hopefully, a contractor to 
relook at it.
    We really do feel that we have a sound system. Are we in 
the process of looking at others? Yes. So, when the House 
decides that we really do need to look at another system, we 
will have some proposals available. But we don't have something 
right now saying we can go to X system.
    But we are looking at them, not only--I was in Israel in 
January, and I was sitting there in the gallery, and they have 
this new electronic system with the little flat screens at 
every Member's table. A glitch happened. And I said, ``I feel 
your pain.'' [Laughter.]
    It was minor, but it was that kind of thing that, for a 
minute or two, they couldn't complete their voting process. So 
it happens.
    But we are doing everything--besides the page program, I 
probably spend more time over at our legislative computer shop 
trying to make sure everything is done.
    Ms. Wasserman Schultz. Thank you very much.

                        WOUNDED WARRIOR PROGRAM

    Mr. Beard, you spoke briefly about the Wounded Warrior 
program and introduced the Master Gunnery Sergeant who is going 
to be heading that up.
    Can you talk briefly about the details of the Wounded 
Warrior program and how it is going to work? Will Member 
offices be a part of it?
    I know it is a $5 million request. About how many 
participants will you be able to handle during this fiscal 
year?
    Mr. Beard. It is really two parts. The first part is that 
the Speaker has directed the three of us to undertake efforts 
to hire wounded warriors in the offices and organizations that 
report to us. She has also requested that Bill, through the 
Police Board, urge the Police Board to hire wounded veterans 
with the Capitol Police. So that is one part.
    The second part is we want to set up a fellowship program, 
and our goal is to hire up to 50 fellows by the end of fiscal 
year 2009. These would be evenly divided between the two 
parties. And our goal is to hire wounded warriors who achieve a 
30 percent disability, as a minimum qualification. We are 
working with the Veterans Administration and all of the 
services to reach out to them to find the employees.
    These fellowships would be 2 years. They would be centrally 
funded, so they won't count against the 18 staff-person 
requirement in your MRA. And they can be either in the 
Washington office or in the district office; it is up to the 
individual Member.
    Ms. Wasserman Schultz. It sounds like an amazing program.
    Mr. Beard. Well, certainly the services have been very 
excited. We got into this--Bill and I met with the 
congressional liaison from the Marine Corps, and that is 
actually how we got started in this. General Regner talked 
about the need to find employment for wounded veterans of 
Afghanistan and Iraq.
    And this was an opportunity, just like the AAAS fellows or 
the Sea Grant program--a number of others have it--this is an 
opportunity to bring people in, give them 2 years to build 
relationships, get to know the landscape, and work into full 
employment with either a Member, in their district office or 
here in Washington, or with a committee.
    Ms. Wasserman Schultz. Thank you very much.

                         RESTAURANT ASSOCIATES

    On the House restaurants, we have gone through a transition 
to the new vendor. And I wanted your assessment of how things 
are going. How satisfied are you and patrons of the new food 
service provider? Do you have a feedback-collection process? 
And what is the feedback from the employees of the food 
service?
    Mr. Beard. I almost hesitate to answer this question.
    Ms. Wasserman Schultz. It is one of those I already know 
part of the answer to.
    Mr. Beard. Well, I think, first of all, Restaurant 
Associates has been a wonderful company to work with. They are 
very responsive. They have been very aggressive. They did an 
excellent job of making the transition. They came in Friday 
night, Guest Services left and Restaurant Associates came in, 
and we worked all weekend, around the clock, and we opened up 
the Longworth cafeteria and were ready for business on Monday. 
So I was very satisfied with the transition.
    We have the usual bumps in the road that come from that 
kind of effort. I have been very pleased with their efforts to 
try to drive us to have a green cafeteria, to be able to 
compost our waste and reduce our costs that way as well.
    I think in the Members' Dining Room they have done a much 
better job than in the past, and they are constantly working at 
the training. We have had some problems of late, regarding 
supplies. And, as far as I am concerned, that is Food Service 
101, and my conversations with Restaurant Associates over the 
last couple of weeks has been that they need to correct those 
problems and correct them quickly.
    As far as the workforce goes, I have had a couple of 
complaints from workers who don't think they are getting enough 
hours. But, for the most part, I haven't had any general 
outbursts from the employees.
    Ms. Wasserman Schultz. Do you have a feedback-collection 
process for patrons and for employees?
    Mr. Beard. We do, yes. I am not sure about patrons. I know 
that, if you are talking about guests coming in----
    Ms. Wasserman Schultz. In other words, staff or----
    Mr. Beard. From staff.
    Ms. Wasserman Schultz. From staff or patrons. We are 
patrons.
    Mr. Beard. It is the Web site, the Restaurant Associates 
Web site for the House cafeterias. If you go to that, we get 
responses from that all the time.
    Ms. Lee. Would the gentlewoman yield for just a second?
    Ms. Wasserman Schultz. Sure.
    Ms. Lee. With regard to the price of the meals, the costs 
the new menus, are you finding they are very similar or more?
    Mr. Beard. In most areas, they are similar. In some areas, 
they are higher. They have offered a high-end alternative, 
which, frankly, hasn't been greeted warmly here. And, as a 
result, they have stopped offering it over in the Rayburn 
cafeteria, for example.
    In some areas, it is a little bit higher. But the Committee 
on House Administration controls the pricing, and they approved 
a small price increase, because we haven't had any increase in 
a while.
    Ms. Wasserman Schultz. Thank you.
    Just the only other part of my question I wanted to 
specifically ask you is related to the food service employees 
and the feedback. Because if you have only heard a couple of 
complaints, I just would want to make sure that the employees--
sometimes there can be an intimidating work environment. And I 
am not suggesting there is one here. But it can be difficult 
for an employee to complain if they are fearing for the loss of 
their job. So do you have some way of anonymously receiving 
feedback from employees of the restaurant?
    Mr. Beard. I do receive them. They send them to me. And I 
have my staff, my legal counsel investigate each one of the 
complaints that have come forward.
    Ms. Wasserman Schultz. Okay.
    Mr. Beard. I would point out, however, that, you know, when 
Restaurant Associates came in, particularly in the Members' 
Dining Room, there was--the plea to us was we really need to 
improve the service. And to improve the service you have to 
deal with the people who serve. You have got to improve 
training. And so one of the things that they have been spending 
a lot of time on is service and training for people in the 
Members' Dining Room.
    Ms. Wasserman Schultz. Thank you. I want to be respectful 
of the Members.
    Ms. Miller. May I add to that?
    Ms. Wasserman Schultz. Sure.
    Ms. Miller. One of things that Restaurant Associates has 
done is we are trying to feed our pages a much healthier meal. 
So they are giving us muffins and et cetera for free. They are 
not charging for us in the dorm. But, more importantly, they 
have the contract for the Smithsonian. Our kids on the weekend 
were going to Union Station to the food court. Greasy. And so 
we have made an arrangement with them so we have--come on.
    Mr. Latham. I like grease.
    Ms. Miller. I do, too. Look at me.
    Ms. Wasserman Schultz. Me, too.
    Ms. Miller. But we are trying to give them a healthier meal 
at the Smithsonian. So they have been very good at working with 
us to make sure the kids get a much more balanced meal.
    Ms. Wasserman Schultz. Thank you.
    Mr. Latham.
    Mr. Latham. Thank you.

        MEMBERS' REPRESENTATIONAL ALLOWANCE DISCUSSION CONTINUED

    I just wanted to return back to the MRA question from 
earlier. From my understanding, your request is about 91 
percent. To get to the historic level that we need, to 92 
percent, would be five million more; to 93 percent would be 11 
million more. I just do not want to get into the situation we 
had this year with our staff being very concerned and then 
start looking for jobs real quick because they are not going to 
get their COLAs or their increases.
    Ms. Wasserman Schultz. Would the gentleman yield for one 
second?
    Mr. Latham. Yeah.
    Ms. Wasserman Schultz. I do not want there to be a 
misimpression of how that problem occurred. Because we did--and 
you were not a member of the subcommittee last year, but we did 
appropriate in the bill that passed out last June a 4.7 percent 
increase. We only I think had a $2 million reduction, is that 
right? About a $2 million dollar reduction between June and the 
omnibus.
    So there was some miscommunication and misunderstanding I 
think on the part of House Administration as to whether it was 
us or them that adequately provided for the resources for a 
COLA. So we need some more coordination between House 
Administration and this subcommittee so that we can make sure 
that we do not have that problem occur again.
    Mr. Latham. However it occurred, it was a big issue in my 
office, and I am sure was the case for everybody else. I just 
wanted to--is that right?
    Mr. Beard. Well, to me this is the easiest issue in the 
book. I look to House Administration and this committee and 
say, what do you want me to put in? You know, we go through and 
do the analysis for you, but it is really left to the 
committees to work out the actual numbers.
    I am sure, going forward--we have added money in, as a 
result of the reprogramming that took place, $14 million. So we 
are going to have to sit down with both this subcommittee and 
the Committee on House Administration to go through the MRA to 
make sure that, effective January 1st next year, we have enough 
money in the MRA to make it all the way through.
    Whether that is 91 or 93 percent, it really does not 
matter. Because once House Administration sets the 
authorization ceiling next year, that is the rate at which 
Members spend; and it is off to the races at that point. And 
the rest of it is catching up.
    Mr. Latham. But my concern is your request does not reflect 
what is going to be needed. I mean, are those numbers correct?
    Mr. Beard. I am going to have to ask Dan Doody, my Deputy 
for Operations.
    Mr. Doody. We worked with CHA to come up with the number 
that was submitted, $590.6. And, again, after we did the 
initial submission was the reprogramming that was done on the 
$14 million. So we need to have continuing dialogue with the 
committee to get that straightened out.
    I think Dan is saying it correct. We work with you both to 
figure out what the right number is based on the desire of the 
committees. Last year, there was actually a difference between 
the 3.5 and 4.5 percent. That occurred because the President's 
number ended up changing after we had all submitted our 
requests. So that contributed to the problem that occurred last 
year.
    Mr. Latham. Okay. But we should go from what history has 
told us, and it is 92 or 93 percent, which is going to be $5 or 
$11 million more than what this request is. You agree with 
that?
    Mr. Beard. I am not sure--is that correct, LaTaunya?
    Ms. Howard. Yes, that is correct. It's true based on the 
2009 MRA authorization request known as of today. To the extent 
the authorization request changes, the appropriation gap will 
change.
    Mr. Beard. That is correct.

             OPERATIONS UNDER A 2009 CONTINUING RESOLUTION

    Mr. Latham. Okay. The chairwoman is going to be tired of 
this question, but I just want to ask each of you about, you 
know, the potential for a CR. It is not because of the House 
side. I think we will do our work over here, but the Senate has 
certainly said they are not going to probably do any more than 
one or two bills over there. What happens to you with a CR?
    Mr. Livingood, you have been ignored all morning.
    Mr. Livingood. I have in my budget a request for 15 new 
FTEs. Of the 15, 12 relate to the CVC. Four are to staff 
visitor desks. There are two visitor desks, and two people at 
each, to take visitors that come in and people that come into 
the rooms down below for meetings. They process all of these 
individuals through.
    And then I have an additional eight people connected with 
Gallery access, and they are called my chamber security people. 
And these eight people, some of them will man check stands 
downstairs for people that are going up to the Gallery, check 
in all their cell phones and all these items that they are not 
allowed to carry into the Gallery.
    Right now, they are currently checking them on the third 
floor. We wanted to get it back downstairs where we initially 
start so we do not end up with two different lines. Plus it is 
before you get into the Capitol. Without that, I will be having 
to do it upstairs, and I will not--it is not the most efficient 
manner. And, in my opinion, it affects security to a degree. It 
will not be quite as good as it would be downstairs.
    Mr. Latham. Okay. Mr. Beard?
    Mr. Livingood. And then I have one person who we have asked 
for to help man the Capitol Police Command Center on behalf of 
the House Sergeant at Arms to make sure that I am getting all 
the traffic messages that are happening, everything that is 
occurring instantly.
    Mr. Latham. Okay.
    Mr. Livingood. And, right now, I have one of my employees 
up there, my co-workers, but I cannot keep--that is an IT 
person, which I need back in my IT shop. I only have two 
people, and I just hope that there is some flexibility 
considered if we go into the CR.
    Mr. Latham. CR. Sure.
    Mr. Beard. From our perspective, we have operated under CRs 
for the last 3 years, so we can do it a fourth year.
    The most important item we have in here----
    Mr. Latham. That is a bad answer.
    Mr. Beard. Well, you know, you cannot do anything about it; 
and neither can I.
    But the most important item I have is for the $4.7 million 
to bring in new members. We just have to have that money. But I 
do not think that is a problem. I am working it through with 
the committee staff in the way that we have handled CRs in the 
past. So we could handle it.
    Ms. Miller. Mr. Latham, it would be tight, but we 
prioritize. For instance, our $300,000 that we used for our 
upgrade of our computers, we could delay that. My only concern 
is if the House is actively doing its business, its hearings 
and all that stenographic work, that will impact our overtime 
and our--what we do for--overtime in our stenographic work. 
Otherwise, we will reprioritize and rob Peter to pay Paul and 
get it done.
    Mr. Latham. Just one comment on the coffee. There is really 
good soybean-based coffee coming from Iowa.
    Ms. Wasserman Schultz. All politics is local.
    Mr. Beard. I can assure you, Congressman, that I have got 
440 people who advise me on that.
    Ms. Wasserman Schultz. 439. I do not like coffee.
    The gentleman's time has expired.
    I do want to note, to follow up on Mr. Latham's question 
and noting we have no other members here, that the Legislative 
Branch Subcommittee is always afforded flexibility when we are 
in a CR. And I know you ask the question every time and I say 
this every time, we are always afforded flexibility because of 
the primarily administrative functions that have to occur. And 
I would expect this year to be no different.
    I share the same concerns you have about a CR, and I know 
that we would go to bat for an allocation in a CR that would 
make sure----
    Mr. Latham. I just want to make sure everybody is thinking 
about it.
    Ms. Wasserman Schultz. Yeah. The essential functions must 
continue, and we have to be able to operate the legislative 
branch.
    Mr. Bonner.
    Mr. Bonner. Yes, ma'am.

                      STAFF ONLY RESTAURANT HOURS

    I have two quick questions for the Sergeant at Arms and one 
for the CAO, for our Chief Administrative Officer. Is there any 
way that we could look into what the Senate I believe does to 
allow at least one of the restaurant facilities to be closed--
we used to do this--for a certain time period for our staff? 
Because even though they go--there is a special line, many of 
them do not have time, especially when we have got--excuse me, 
I just ran--they do not have the time of leisure that some of 
our constituents, who are the taxpayers who provide this 
opportunity to us, have when they come up here. And I think if 
we could see what the Senate does and see if we could do that 
in at least one restaurant facility on the House side it would 
be beneficial to the staff.
    Mr. Beard. The answer is yes. I have made a proposal--I 
made a proposal last year to the Committee on House 
Administration, which they did not act upon, which was to 
essentially have a rolling blackout, if you will, for visitors. 
In other words, from 11:30 to 12:30, 12:30 to 1:30, 1:30 to 
2:30, we would move it from the Cannon, Longworth and Rayburn 
Building so that staff would know if they are in the Longworth 
Building that from 12:30 to 1:30 it is not open to visitors. 
Visitors would then be directed to other locations.
    I happen to be an advocate for it, especially as we go into 
this spring period when, you know, the place is sometimes like 
a zoo down in the Longworth cafeteria, and in Rayburn as well. 
It takes a little bit more on the security side to have an 
officer there to help direct traffic flow.
    But the answer to your question is, yes, we can do it, but 
the feeling has been that, you know, if my constituents--if I 
can go in and my constituents cannot, that looks bad.
    Mr. Bonner. But we are going to be opening a brand new 
large restaurant facility in the CVC----
    Mr. Beard. We will.
    Mr. Bonner [continuing]. Which I think many visitors will 
probably welcome the chance to dine there.
    All I would say is, if we could look into it.

                        CAPITOL VISITORS CENTER

    And then to our distinguished Sergeant at Arms, who we all 
have great respect for, as is true for the three of you, 
yesterday, this subcommittee held a hearing with the CVC folks 
and the Architect of the Capitol; and I think our Chair and our 
entire panel actually was concerned about he said/she said. We 
were asking specifically about what could be done to bring 
visitors to the Capitol, as close to the Capitol complex when 
the CVC opens and minimizing the disruption to them, at the 
same time respecting the security element. Sothat is question 
one.
    What, from your perspective, can be done to keep them from 
having to go to Union Station and then be brought over on a 
shuttle bus where they would have to pay to do so? That just 
seems to be an unwelcoming message to our Capitol.

            EXPEDITED ACCESS FOR STAFF AT SECURITY ENTRANCES

    And, secondly, and he and I--the Sergeant at Arms and I 
have talked about this previously, but since I am on this 
subcommittee now I am going to ask it officially----
    Mr. Beard. You might get a better answer.
    Mr. Bonner. I am a staffer at heart. I was on staff for 18 
years. And I find it incomprehensible that when it is raining, 
when it is snowing, when it is hot, that our staff has to stand 
sometimes 100 yards long to get in the building when they have 
gotten an I.D. Is the I.D. not worth anything that could allow 
them to not have to stand in such long lines as they did when I 
first started here?
    Mr. Livingood. The answer to that is I recognized that over 
4, 5 months ago, sometime after you talked to me about it; and 
we issued instructions to the Capitol Police on the House side 
to allow staff to the front of the line, bypass the visitors, 
et cetera, et cetera. The only people that would come in front 
of them would be a Member, if a Member is trying to get in. And 
if they are not doing that--some of the doors are doing it, 
because I have observed it personally. But we will reissue, 
make sure that they are. Because I agree with you 100 percent.
    Mr. Bonner. But when I first started we did not even have 
to go through the metal detectors. The background check had 
been done, and if you were allowed to get a badge you did not 
have to stand in a line to go through to prove you are not a 
security threat.
    Mr. Livingood. Right.
    Mr. Bonner. What about the issue with regard to the CVC and 
what we can do to----

              CAPITOL VISITORS CENTER DISCUSSION CONTINUED

    Mr. Livingood. Yes, the Capitol Police Board, in 
conjunction with the Capitol Police, are looking at that. We 
just talked about it yesterday separate from your CVC hearing. 
Because we do not go to the CVC. And our object is to get you 
as close--not you, visitors as close to this building as we 
possibly can.
    We had come up with the idea of the commuter bus for one, 
because that does not have an undercarriage that we--there are 
some things I will not mention here--but just makes it easier 
for us to search it. And we are still exploring are there any 
other ways?
    We have kept the West Front open, which is a big thing; and 
we are constantly looking at that, too, to see what we can do 
to make it as easy and as accessible as possible.
    Because if you do not get these people here, all this 
effort we put into the CVC will not be as fortuitous as we want 
it to be. We want everybody to come.
    Mr. Bonner. Okay. So the restaurants, you will look at 
something for the staff. You are going to continue your efforts 
on shorter lines with the staff. If there is a poll of who is 
the most popular Member for the staff, I hope that you will 
remember the name Jo Bonner.
    Ms. Wasserman Schultz. Mr. Bonner, I am a former staffer, 
not congressional but legislative, and you can take the girl 
and have her no longer be staff, but you can not take the staff 
out of the girl, and I agree with you.
    And on the Senate side, from what I understand, they have 
staff-only entrances. I always feel bad I am breezing by staff 
members, I mean, tourists, too, but breezing by staff members 
because, obviously, we can go to the front. It is sort of 
crazy.
    I do think in this environment we have to have our staff go 
through the metal detectors, but it is sort of crazy for them 
to have to stand in line, and especially in this season when 
Washington is teeming with tourists. They have got to do their 
work for us. We have to get them through the process.
    Mr. Livingood, last year, Ms. McCollum and Mr. Honda 
asked--and I actually do not remember whether it was this 
hearing or in the Police----
    Mr. Livingood. Capitol Police Board.
    Ms. Wasserman Schultz. Yeah, in the Capitol Police hearing.
    Mr. Livingood. Yes, ma'am.

                           EVACUATION PROCESS

    Ms. Wasserman Schultz. But I wanted to bring it up with you 
anyway today, since you are here and can report somewhat on 
your progress about the evacuation process, which you talked on 
in the beginning. But, specifically, they are concerned because 
they both are in Longworth, and the process and the difficulty 
with the number of floors and if you are caught on the seventh 
floor. And I know you have made some changes, and if you could 
detail those changes and improvements.
    Mr. Livingood. Yes. The first thing we have done, I 
mentioned just briefly here, we partnered with the AOC's Fire 
Marshal and the Capitol Police, my office did, and we went back 
to every single office in the three buildings and the Capitol 
and looked at what routes they were using. They had been 
assigned routes, what doors to go out or stairwells. And again 
from the fire drills we noticed that there was an extremely 
long line and a long period to exit from the southeast area of 
the Longworth and southeast area of the Cannon.
    So those particular areas on the fourth and third floors 
and second floor, the Capitol Police, with the Fire Marshal and 
our office, we made a decision how many people should go out 
that southeast exit and change other people to other exits, 
some towards this end, which would be the north end of the 
building, so that we are not all congested. And I stood down 
there at a couple fire drills watching.
    After we had done this, we had another fire drill, and I 
went back there, and I noticed it was probably about 45 
percent, somewhere in that vicinity, better. But still not as 
good as I would personally like to see.
    So we went back to those two buildings with the Capitol 
Police on those fourth, third, second and first floors and 
changed some--one or two on every floor, not the whole thing, 
but just one or two on every floor and gave them other exits.
    So that is where we stand on that today.
    Ms. Wasserman Schultz. Okay. Good.
    Mr. Livingood. We continue to observe that and are flexible 
in changing routes because that is our big concern. We thought 
of switching the Member assembly areas, some of them over to 
the Capitol. That was a suggestion. And we looked at that long 
and hard and with some other experts, and the problem is the 
staffer sort of is programmed to get away from the Capitol, not 
come back over here, and we found that very few would want to 
come back in the event of certain evacuations to this area. So 
we kept the assembly areas where they are, but we intend to 
tweak those as best we can.
    Ms. Wasserman Schultz. Good. I appreciate your 
responsiveness. I will make sure that Ms. McCollum and Mr. 
Honda are aware of it.
    Mr. Livingood. Then I had two other areas that they asked--
--
    Ms. Wasserman Schultz. No, go right ahead, absolutely.
    Mr. Livingood. If I could.
    Ms. Wasserman Schultz. Please.

                      MODELING OF HOUSE BUILDINGS

    Mr. Livingood. Because they did ask me. And one was to look 
at what electronic systems or computer systems you can use to 
assist you in evacuations under various conditions, simulation. 
And we have been doing that for the last year.
    And we basically completed our study, and we feel that a 
three-dimensional modeling computer agent-based simulation 
computer modeling system would help all our buildings and the 
Capitol. It would provide better evacuation planning for us and 
drills, with the ever-changing environment here on the Hill.
    Like when I found that it was backed up at a certain 
stairwell, we can put that into our computer and see where 
people--other stairwells, where they ought to go. This 
simulation tool would use a variety--not just fire, but it 
would use a variety of scenarios and options such as 
explosions, chemical release, attacks or other incidents; and 
it would help us with our stairway evacuations, our shelter in 
place, and our assembly areas.
    And I think it is really, after a long study--because we 
have been looking at it a couple years. Mr. Honda started us 
looking, and thank him, because that got our attention and got 
us thinking about it, and we brought in a bunch of people just 
to help us look at things.
    It would really help identify the flow of occupants. It 
would determine potential medical hazards such as smoke. We can 
put into the thing ``smoke''. And it is a great training aid 
for all of us.
    The problem is we are not funded. For the House to fund all 
our buildings and the Capitol would be about approximately 
$500,000. We have not done any. We have written up a proposal, 
a bid for proposal, but that is it. We have not sent it out or 
anything because we do not have the money.
    Ms. Wasserman Schultz. Okay. Thank you.
    Mr. Livingood. The other thing was the notification that 
they asked for.
    Ms. Wasserman Schultz. Sorry. I keep cutting you off.

                       HOUSE NOTIFICATION SYSTEM

    Mr. Livingood. This was the House emergency notification 
system. So we had looked at five or six vendors from outside 
that have a system where they have all your data for your 
staff, Members if we wanted that--we just did not want them to 
have our Member data. And they put it into a system, and then 
we have one unit up at the Capitol Police headquarters and type 
in and it goes out to, within a couple minutes, 10,000 people 
in text, goes out to your BlackBerry, whatever you choose: 
BlackBerry, telephone, e-mail, whatever.
    Ms. Wasserman Schultz. That is important.
    Mr. Livingood. Then we found out we already have a system 
here, thanks to Mr. Beard and his staff. We co-partnered with 
them. They are the technical people.
    And, right now, the House has two tiers for alerts. The 
first tier is one you all know: the fire alarms, strobes, the 
annunciators and the public building address systems. The 
second tier is a roam secure alert network and the Member voice 
paging system that we can combine if we took roam secure, which 
is as good as if not better than the other ones we looked at. 
We could keep all that data here so your data is secure, not 
with some other vendor, and send it out--we figured in one 
minute we could send out 10,000 text messages. That is awesome. 
That way, all staff can get any messages that we wanted to be 
sent out: evacuation, where to go, what to do.
    What this would entail is having someone in each office be 
responsible for getting to us or getting to whomever we decide 
will be the person that keeps all this information and gives it 
to the CAO so they put it in their system. One person in each 
office that would go to all the staff andMembers and find out 
what--through which system do you want to be notified? Telephone, 
BlackBerry, et cetera.
    This also can have a telephone capability for some. It can 
have----
    Ms. Wasserman Schultz. Cell phone, you mean?
    Mr. Livingood. Yes, ma'am. And we figured the cost--we do 
not have an idea, but taking what we have is a lot less 
expensive to consolidate all our tier, first and second tier, 
into one machine that we can type on.
    Right now, you have got to go to two or three, and that is 
a delay. You only have X number of officers up there. So one 
guy does the first one and goes to the second one and goes to 
the third. If we had this system, we could combine first and 
second tiers into one machine; and that would cost--we do not 
have a--approximately $400,000 to $500,000. Then we wanted--we 
can do a desk pop-up on your computer. It pops up; and it says, 
alert, emergency, or whatever your message is. But everything 
has a price.
    Ms. Wasserman Schultz. True.
    Mr. Livingood. And that is $450,000.
    Ms. Wasserman Schultz. But these are not things in your 
budget request.
    Mr. Livingood. No, these are not in our budget request.
    And a cable TV scroll, which is your cable TV. The Senate 
is working on that; and it comes across and says, alert, 
whatever the message is.
    Ms. Wasserman Schultz. Thank you very much.
    Mr. Livingood. But we favor those very strongly.
    Ms. Wasserman Schultz. Thank you very much for your very 
thorough answer.
    Security and how we get people out of the building is 
incredibly important.
    Mr. Livingood. Yes.
    Ms. Wasserman Schultz. And consistency. If people do not 
know where to go----
    Mr. Livingood. Exactly.
    Ms. Wasserman Schultz [continuing]. Then the system is 
worthless.
    Mr. Latham.
    Mr. Latham. You have not changed a bit in 14 years, Bill.

                             CARBON OFFSETS

    Mr. Beard, there was a Washington Post article earlier this 
year, generating a lot of concern that I have heard at home 
about the carbon trading issue. The CRS, in a report, had made 
two observations: one, that there are no commonly accepted 
standards for the market--and last year we spent what? $89,000?
    Mr. Beard. Yes.
    Mr. Latham. And, two, that consumers should adopt a buyer 
beware mentality.
    You know, back to negotiations on Kyoto, people like Enron 
were the biggest proponents of carbon trading and this type of 
speculative market, actually. And there was a Dartmouth 
professor of environmental science who has said there is really 
no long-term benefit to it.
    I just wonder, with the kind of red flags that are out 
there, you want to increase the amount available for us to 
spend. Why would we want to put taxpayer dollars into a scheme 
like that when we are not sure about the variables? There is no 
way to verify that it does any good. We are on a tight budget.
    And the GAO I think was going to have a report on this, and 
they have not reported yet. But could you just explain?
    Mr. Beard. Sure. I think the easiest way to think of carbon 
offset credits is it really is a license to pollute. Companies 
have undertaken activities where they have reduced the emission 
of carbon into the atmosphere; and, as a result, they go to a 
marketplace and they sell, if you will--if somebody does want 
to undertake an activity and build a plant and pollute, for 
example, put carbon into the atmosphere, they can purchase 
offset credits.
    What we did is purchase offset credits and then retire 
them. So, in essence, what we did is we made sure that a 
certain amount of carbon was not released into the atmosphere. 
We did this for--primarily because not only is it I think the 
right thing to do, but we want to try to achieve carbon 
neutrality with the operations of the House.
    By purchasing renewable power for all our electric needs, 
we reduced our carbon footprint a certain amount. By buying 
natural gas for the Capitol power plant, we reduced it more. 
But, frankly, we were at a point where we could not in this 
year do any more to reduce our carbon footprint.
    And the logical thing for large companies, state 
governments and other institutions is to go to the Chicago 
Climate Exchange. This committee had report language where they 
requested us to do that. The authorizing committee approved our 
approach. We went ahead and did it, purchased those credits; 
and they are with us for this year, anyway.
    Are we going to do it again? I do not know. Given the kind 
of controversy that it created, I am going to do everything I 
can to try to avoid doing it again. But I cannot say that we 
will not. I just do not know what our carbon footprint is going 
to look like next year.
    You know, there is no shortage of people looking over my 
shoulder on this particular issue: the Inspector General, GAO, 
the authorizing committees, the appropriations committees and 
individual Members who have views on the subject, both pro and 
con. So it is like a lot of things around here. I think it did 
generate some controversy. But to be perfectly frank with you, 
it is a new market. It may have problems associated with it, 
but it is the best marketwe have got. And if we are going to 
reach carbon neutrality in our operations, it is the one thing that we 
have to be able to do.
    Mr. Latham. Just one part of----
    Mr. Beard. Sure.
    Mr. Latham [continuing]. What that purchase was last year, 
supposedly, it was to give some farmers some money in North 
Dakota. And I do not know if you are aware, but these farmers 
were doing basic tillage practices, been common for 20 years.
    Maybe you are not also aware of the fact that any kind of 
conservation, if they are enrolled in the government program, 
they are paid through the Farm Bill to do exactly what they are 
already doing. So they are, in essence, getting a check under 
the Farm Bill for doing this and then also getting paid on top 
of it for doing nothing else.
    So as far as any kind of net benefit--some people called it 
indulgences, basically, that you are paying for the sin. I just 
have real concern. I do not know, are you aware that they 
probably got paid twice from the government on this to do 
exactly----
    Mr. Beard. No, I am not aware----
    Mr. Latham [continuing]. What were common practices?
    Mr. Beard. It is a no-till activity.
    Mr. Latham. I am a farmer. That is common practice for the 
last 20 years. They are not doing anything extraordinary at 
all. They are being paid already by the government for the same 
thing.
    Ms. Wasserman Schultz. The gentleman has gone beyond his 
time.
    Mr. Latham. In more ways than one.
    Mr. Beard. Okay.
    Mr. Latham. I have real concerns with it, especially when 
people like Enron were pushing it.
    Ms. Wasserman Schultz. Thank you, Mr. Latham.
    Mr. Bonner.
    Mr. Bonner. Madam Chair, I think I have just got one more 
suggestion since I have got this opportunity and then--
    Ms. Wasserman Schultz. You are brimming with suggestions 
today, Mr. Bonner.
    Mr. Bonner. Thank you.

                 HISTORICAL SIGNAGE IN MEMBERS' OFFICES

    Well, the suggestion is this. I tried this with your 
predecessor, Mr. Beard, so I am going to try it now with you. 
This place is so full of history; and it seems to me, as our 
friends over on the Senate do--not that the House ever really 
wants to be led by the Senate, but it seems to me it would be 
very easy for us to mark the offices in the office buildings of 
the former Members who went on to become Presidents.
    Five of the last nine Presidents have been former Members 
of Congress; and I think when you have people in these office 
buildings who may not come over to the Capitol or to the CVC, 
it would be a chance for them to see a part of history, even if 
they can not experience it personally.
    Just a suggestion.
    Mr. Beard. Can I respond to that?
    Mr. Bonner. Absolutely.
    Mr. Beard. The Architect of the Capitol does have a group 
which oversees, you know, the history of each room; and by 
consulting with them I think you can get a general idea. The 
problem is that from--prior to 1908, there was no office 
building. Everybody was in the Capitol. So in the Cannon 
Building, when they opened that up in 1908, from 1908 to 1933 
everybody had just one office. Now they have three. So you will 
have multiple people in there, and it is somewhat difficult.
    When they opened Longworth, everybody had two suites, not 
one; and so it is kind of difficult for them.
    But the Architect of the Capitol does have a group that has 
a history of each of the offices. And I know that former 
Congressman Pritchard of Seattle tried to undertake this 
activity once he left the House as sort of a duty, and I do not 
know how far he got with it. I think it is certainly 
informative to the Members, as you are in your office, that you 
could say, you know, a former President or whatever was here at 
one time. So I think it is useful to do.

                             HALLWAY POLICY

    Mr. Bonner. Okay. And then the question--and this has been 
a debate. I guess this process started when the Republicans 
were in the majority, and it has continued now that the 
Democrats are in the majority. But earlier this week I saw a 
gentleman walk into one of these poster boards that is out in 
the hallways. And I am not pretending to speak for the 
committee here, but just for my own personal opinion. There is 
a security issue here. There is certainly a health issue here.
    And not weighing in, since both sides--both parties have 
organizations that have poster boards talking about the debt 
and the tax increases and things like that, I would just ask 
you as CAO and also as Sergeant at Arms, are there health 
concerns and--I mean, not mentioning the clutter aspect of it, 
but are there health or security concerns that Members should 
consider when we think about whether we are going to put some 
poster board in front of our doors?
    Mr. Beard. I think absolutely, without a doubt. Just 2 
weeks ago, for example, a large delegation of blind people were 
here on campus; and to watch them try to work their way down 
the third floor of the Longworth Building would have been a 
pretty gruesome sight.
    The Speaker is getting ready to issue a hall policy. And it 
has been complicated. The original policy was put together by 
the previous Speaker, and there have been stops and starts to 
this. But I think we have now reached the point where we have 
to implement this from a safety standpoint. And especially if 
something--if we have a fire and there is a real emergency, 
those things will fall down, people will trip over them and, 
you know, it is usually--it is never the fire that gets you, it 
is the smoke or being trampled that is really the difficulty.
    So I jumped in.
    Mr. Livingood. And from the security standpoint, strictly 
an evacuation, to stop and think when you have got a mass of 
people in the buildings, like today, when there is so many 
visitors, you are going to be hitting those things, walking 
down the hall tripping on them. They should not be there.
    Mr. Bonner. I look forward to the Speaker's policy. As 
someone who was concerned when they moved the Coke machines out 
of the basement of Cannon because of possible obstruction, it 
just seems to me that was in a very narrowly defined area that 
only a few people knew where to go get a soft drink. These are 
in every hallway in the complex. And, again, if it is treated 
where both sides are treated equally on that, I do not know who 
can really complain about it.
    Ms. Miller. Mr. Bonner.
    Mr. Bonner. Yes, ma'am.
    Ms. Miller. Can I add to that?
    Having processed rooms for two previous Speakers, thatis 
one of the largest problems we had. My job was to make sure that there 
were no obstructions like that in the hallway. But you know what the 
biggest problem was? The Members.
    Mr. Bonner. The Members.
    Ms. Miller. The Members just insisted on doing it. And the 
more I would walk up and say, Congressman, you have an 
obstruction in the hall, they would say, I am a Member, you are 
a staffer. So----
    Mr. Bonner. Madam Clerk, are you suggesting there is 
arrogance among Members?
    Ms. Miller. I would never suggest that. Just making an 
observation.
    Mr. Bonner. Thank you, Madam Chair.
    Ms. Wasserman Schultz. Thank you, Mr. Bonner.

              GREENING OF THE CAPITOL DISCUSSION CONTINUED

    I do want to point out that on the Greening of the Capitol 
Initiative the amendment that requested the carbon offsets was 
sponsored by Congressman Kirk. This was a bipartisan 
initiative, actually, an initiative by Congressman Kirk 
himself. So it just needs to be clearly understood where that 
initiative came from.
    And my understanding--I know, Mr. Beard, you indicated that 
you were going to try to avoid carbon offsets. From the 
information I have, it does not appear that you are likely to 
need them this year from your proposal that is before us now.
    But the whole idea of the Greening of the Capitol 
Initiative, let's remind everyone, is so that we can set an 
example and begin to address the issue of global warming and 
climate change. And if not us, then who? And so to that end, 
with that goal in mind, how close are we to the goal of a 
carbon-neutral House?
    Mr. Beard. We will achieve it by the date of the end of the 
110th Congress.
    The difficulty I have run into is this committee added some 
money for purchase of renewable electric power through the 
Architect of the Capitol. They decided to run an RFP for that. 
That RFP has been challenged, and so that is held up at the 
present time. The natural gas purchases are going forward. So 
once we get over the protest to the bid of the Architect, we 
will achieve our goal. I fully expect that we will do it early.
    Ms. Wasserman Schultz. That is wonderful. How much energy 
do you estimate we will have saved by the end of this Congress 
due to the Greening Initiative?
    Mr. Beard. I would hesitate to guess at this point, but I 
can provide you something for the record.
    Ms. Wasserman Schultz. That would be great. Because I 
imagine it would be quite a bit.
    [The information follows:]
      questions from the hearing from ms. wasserman schultz, chair
    Question. How much energy do you estimate will have been saved by 
the end of this Congress due to the Greening Initiative?
    Response. We intend to have our consultants do an energy 
consumption audit once all major initiatives have been in place for six 
months, so as to accurately reflect the reduction in energy.
    At the current time, we have six of the energy savings activities 
either currently under way or planned for the House in calendar year 
2008; they are: (1) Lighting retrofits; (2) Steam pressure reduction in 
the distribution lines; (3) Vending machine replacement; (4) Activation 
of variable speed drive function on air handler motors; (5) Improved 
scheduling for operation for HVAC equipment; and, (6) Duct sealing.
    The only one for which we have estimates of energy savings is the 
lighting retrofits which we estimate will save 2.4 million kilowatt-
hours (kWh) per year.

                HISTORICAL SIGNAGE DISCUSSION CONTINUED

    Ms. Wasserman Schultz. In addition, although I know Mr. 
Bonner had to depart, we did have report language in our bill 
last year relating to historical signage in Members' offices so 
that when our constituents would come--and also for the 
Members' own edification that that process is under way. I 
think we had some study language in the bill so that we could 
make sure that, if Members wanted to, they could post a placard 
in their office so that you would know what the history was in 
the office that you were housed in.
    I have completed the questions that I have.

                  CARBON OFFSETS DISCUSSION CONTINUED

    Mr. Latham. As far as the carbon offset thing, the Kirk 
stuff was report language. It was not bill language but 
encouraging you to look at potential purchases like that.
    I know my folks at home would be much more comfortable if 
we actually spent money on things that we know will actually 
reduce the carbon footprint here, rather than a very 
speculative scheme that there is a lot of question on from 
environmentalists, from commodity people who look at this 
market as very questionable, and as far as being able to verify 
any benefits.
    So that is my concern. I appreciate it.
    Ms. Wasserman Schultz. I am sure that, Mr. Beard, you will 
use your best judgment. But the overall goal is to eventually 
reach a carbon-neutral House----
    Mr. Latham. Right.
    Ms. Wasserman Schultz [continuing]. And we need to make 
sure that we have all the tools that can help us accomplish 
that available to us.

                     CHAIR'S ADDITIONAL ASSIGNMENT

    As we have heard today, the House of Representatives' 
request includes $19 million in new or expanded benefits for 
House employees. I am interested in the proposals and would 
like some additional detail. As Ms. Lee said, taking care of 
our employees--and I know, Mr. Beard, that that has been a 
really important goal of yours. Since the first minute I met 
you, you have been talking to me about expanding the benefits 
for House employees.
    Mr. Beard. Especially all those smiling people behind you.
    Ms. Wasserman Schultz. It is a big recruitment and 
retention issue. We all suffer the worry of losing one of our 
staffers to a much more lucrative position, and anything we can 
do--and benefits really the only way that we have to entice 
people to work for us and to keep them here. In addition to 
the, you know, fabulous environment that they get to work in.
    But, also, the notion of public service, because we have so 
many--the vast majority of our employees are here because they 
have big hearts, and they want to give back to their country. 
But they also have to eat, and they have to take their kids to 
the doctor.
    Mr. Beard. Well, and the chairman of the full committee, 
Mr. Obey, has, you know, spoken out on this issue a number of 
times and has made it very clear that he did not feel it was 
appropriate for us to request benefits beyond that that were 
currently received by the executive branch. And I agree with 
that, and that is why we have tried to narrow our request down 
to make sure that we bring ourselves up--our employees up to 
parity with the executive branch.
    Ms. Wasserman Schultz. So, with that in mind, if you could 
submit a report--the CAO could submit a report by next 
Thursday, March 20th, that discusses each of the proposed 
benefit increases in terms of how widely available those 
benefits are to other Federal employees, how the benefit levels 
requested compare to the benefit levels offered by other 
agencies, and how each of these requested benefits will 
function and be managed--for example, will they be managed 
centrally by you or will they be handled out of the Member's 
office or a combination of those?
    But I think if we can send a message out of this 2009 
legislation coming from this committee it is that we care very 
much about recruitment and retention of our very high-quality 
employees.
    So, with that, the subcommittee stands in recess until 
April 9th at 1 p.m., when we will hear from the Capitol Police 
about their budget.

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                        Wednesday, April 9, 2008.  

                          U.S. CAPITOL POLICE

                               WITNESSES

PHILLIP D. MORSE, SR., CHIEF OF POLICE
DANIEL NICHOLS, ASSISTANT CHIEF OF POLICE
GLORIA JARMON, CHIEF ADMINISTRATIVE OFFICER
CARL W. HOECKER, CPA, CFE, INSPECTOR GENERAL

                Opening Remarks--Chair Wasserman Schultz

    Ms. Wasserman Schultz. I would like to call this hearing of 
the Legislative Branch Subcommittee of the Committee on 
Appropriations to order. This afternoon we will hear from Chief 
Morse, Assistant Chief Nichols, and Ms. Jarmon--what is your 
official title?
    Ms. Jarmon. Chief Administrative Officer.
    Ms. Wasserman Schultz [continuing]. The new Chief 
Administrative Officer of the Capitol Police on their fiscal 
year 2009 request. The Department is asking for $334 million 
next fiscal year, which is an 18 percent, or $52 million, 
increase over last year.
    The increase includes $7 million to implement the Library 
of Congress Police merger, $8 million to secure the Capitol 
Visitor Center, and $3 million for the Presidential 
Inauguration.
    We are so appreciative of the work of the Capitol Police. 
And Chief Morse and Chief Nichols, I have to tell you, I have 
really been impressed by your leadership of this department and 
your commitment to really focusing on drilling down into the 
problems that administratively the Department has faced, and 
tackling them head on and acknowledging them, and being 
proactive to get those addressed--as evidenced by your 
excellent hire in Ms. Jarmon.
    I know how much you have to take on, but an 18 percent 
increase is going to be pretty difficult. Mr. Latham and I at 
every agency hearing so far have talked about how we have a lot 
of needs that we are facing, but not a lot of money. And so we 
are going to want to hear from you, as I discussed with you 
yesterday, what your ``got-to-haves'' are, the highest 
priorities the Department is facing. And I am looking forward 
to your testimony.
    With that, Mr. Latham.

                      Opening Remarks--Mr. Latham

    Mr. Latham. Thank you, Madam Chairman.
    Chief, I also want to welcome you and Deputy Chief Nichols 
and tell you how much we appreciate your service and the job 
that you and your officers do for us here. We recognize your 
work is not easy, and we appreciate the resource needs that you 
have.
    Also I want to welcome Gloria Jarmon and congratulate her 
in her new job as Chief Administrative Officer with the Capitol 
Police. At the outset one of my main concerns with the 
operations is the importance of a sound, reliable 
communications system, which I know you don't have right now. 
And as your written statement put it, you are on the cutting 
edge of operational failure. I know there have been some recent 
instances in which communication glitches have manifested 
themselves.
    We cannot have a security system where that type of 
situation exists. On the other hand, you have a mandate to 
produce a report on the radio modernization that, as we all 
know, is overdue.
    I don't want a situation where we are kicking the 
modernization issue down the road while we nickel and dime such 
a critical need. But I do want to know if you see a clear path 
to getting the communications problem solved, because I agree 
with you the radio modernization is critical; and it is 
critical now.
    And, Madam Chairwoman, I think it would be worthwhile for 
us to possibly have a separate meeting with the Chief where we 
can discuss that issue, and maybe have some of the dimensions 
aired out, but not in a public forum.
    Ms. Wasserman Schultz. I would be happy to do that.
    Mr. Latham. Thank you.
    Ms. Wasserman Schultz. Mr. Lewis, do you have anything?
    Mr. Lewis. I am just awaiting your lead.
    Ms. Wasserman Schultz. Thank you very much. I appreciate 
it.
    With that, Chief Morse, your full statement will be entered 
into the record and you are welcome to summarize your remarks 
in 5 minutes.

                     Opening Statement--Chief Morse

    Chief Morse. Good afternoon, Madam Chair, and members of 
the subcommittee. Once again I would like to thank you for the 
opportunity to come here and discuss the Capitol Police's 
fiscal year 2009 budget request, as well as update you on the 
progress to improve the management and control of our programs.
    I am also pleased to be joined here today by Assistant 
Chief Dan Nichols to my left and Ms. Jarmon, our Chief 
Administrative Officer, here to my right. And Ms. Jarmon's 
addition to our Department and her background and expertise 
provide the Department with a well-rounded leadership team that 
is necessary to complete our efforts and become a premier 
organization, both administratively and operationally.
    I would also like to thank the committee for its continued 
support of the men and women of the Capitol Police. Your 
support, as well as the support of our oversight committees, is 
crucial to the successful execution of our mission.
    During my time as Chief, we have begun an important process 
of change, one which requires inspection, investigation, 
intelligence, enforcement, threat assessment, and personal 
protective capabilities that are able to meet our security 
requirements. To better address this dynamic environment in our 
fiscal year 2009 budget, our executive management team 
personally participated in determining the resources required 
to execute the evolving mission of the Capitol Police.
    I recognize that our requested increase is significant, but 
I believe that it is an important reflection of soundjudgment 
on the part of those responsible for executing the mission of the 
Department. We felt it was important to present the Congress the 
resource requirements that, in our best judgment, are needed to 
optimally execute our mission.
    We realize that our request must be put into a broader 
context within which final allocation decisions will be made. 
Whatever those decisions are, we remain committed to continuing 
the highest possible level of security and service provided to 
the Congress and the visitors to the Capitol Complex.
    I would also like to report that we have been very busy 
this year, and I wanted to give you some highlights of our 
actions. We have conducted a broad scope of law enforcement 
security operations throughout the Capitol Complex which--we 
have done over 1,100 arrests for various violations this past 
year. We have handled multiple major special events to include 
the State of the Union, Capitol Concert Series, large-scale 
demonstration and congressional events. We adopted a concept 
similar to community policing, which provides direct outreach 
by Capitol Police officers and officials to the committee 
members and offices within the congressional community.
    We also implemented new security screening guidelines 
throughout the Capitol Complex. We planned, coordinated and 
evaluated a number of exercises within the Capitol related to 
air evacuations, lockdowns, active shooter--which simulates a 
person with a weapon within the Capitol structure. We finalized 
our continuity of operations plan and we implemented a process 
to review an enhancement of the plan to meet evolving threats 
and requirements. And we conducted multiple training exercises 
across the Capitol campus to improve readiness for our sworn 
personnel in the field.
    In the administrative arena, we brought on board a new 
Chief Administrative Officer, and I am looking forward to her 
implementing significant improvements in our administrative and 
internal controls process. In last year's report the committee 
expressed some concerns related to the Department's efforts to 
address the GAO and recommendations, and today I am happy to 
report that since October 2007, we have closed 25 percent of 
the GAO and Inspector General recommendations and findings and 
we are actively working to address the rest of them.
    We developed a full set of financial statements for fiscal 
year 2007 and are actively working on our statement for 2008. 
We completed our full inventory of capital assets and assigned 
values to these assets.
    We redesigned our budget planning and execution process, 
formalizing the Department's Investment Review Board. And at 
the direction of the committees of jurisdiction, we completed 
the operational and administrative requirements related to the 
Library of Congress Police merger, and that resulted in the 
passage of legislation.
    We revised the uniform and equipment policy of the Capitol 
Police that will result in uniformity in appearance and overall 
cost savings.
    While we recognize that we have made progress over the last 
year, we also realize we have a long way to go to meet the 
challenges that lie ahead. And in closing I would like to say 
that I am looking forward to continuing my efforts as Chief of 
the Capitol Police to make it a best-practices organization.
    The progress we have made in the last year demonstrates the 
commitment and hard work of our employees in the Department. 
And I want to recognize the fact that in many ways we are 
addressing and correcting processes and programs and the 
culture that have been present for a long time.
    So, at this time, I would like to thank you once again for 
the opportunity to be here before you; and myself and my 
colleagues are open to any questions you may have.
    [Chief Morse's prepared statement follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
                          FINANCIAL MANAGEMENT

    Ms. Wasserman Schultz. Thank you so much, Chief Morse. And 
again, we just can't thank you enough for what a wonderful job 
the Department does in protecting not just the Members of 
Congress, but our visitors and tourists and guests that come to 
the complex every year.
    I want to open by talking about your financial management 
system and congratulate you--my understanding, correct me if I 
am wrong, is that this is the first time in the Capitol 
Police's history that you actually have conducted a full 
inventory and that you have a complete set of financial 
statements; is that right?
    Chief Morse. That is correct.

                              RADIO SYSTEM

    Ms. Wasserman Schultz. One of the concerns that we had on 
the radio system, when Mr. Wamp was still the ranking member, 
was that until you actually had the ability to know what you 
had and had the ability to conduct a full inventory, moving 
forward aggressively with the radio system was--we decided to 
slow that down because we needed to make sure we were being 
fiscally responsible, that you had to first know what you have 
before you purchase more.
    We did appropriate $10 million. We had had 15, but we 
pulled the other 5 million back because you weren't ready to 
expend that.
    Where are you in terms of developing the radio system? And 
how much of the 10 million that you have already been 
appropriated has been obligated or spent?
    Chief Morse. Where we are right now, we have completed the 
concept and design of the system itself and the costing of the 
system, and we are prepared to present that. We have an April 
16th date with the Capitol Police Board to present that.
    I do want to say, as Mr. Latham mentioned, we are behind 
schedule on that; and I will take responsibility for that. This 
is obviously a significant investment for the Police Department 
and Congress, and it has to be absolutely right. And my goal 
was to have this sooner, but as we looked at this system, we 
found that it was more complicated.
    We have a 25-year-old system, which we also found is 
supported by 25-year-old infrastructure and wiring and such. 
Facilities are a large part of this and were a part of the 
design and costing, so my expectation for December was not met.
    But I think it is important to note that because of its 
significant value to our operation and investment that it is--I 
wanted to make sure that everything was covered from A to Z, 
that all questions and possibilities are covered in this report 
so that we don't have to keep going back and continuing studies 
and such.
    Ms. Wasserman Schultz. You have not requested additional 
funds for the radio system this fiscal year, correct?
    Chief Morse. I have not.
    Your second question was, had we expended any of the 10 
million; and we have not. In order to do so, we had to bring 
forth a proposal, a design, and a costing. And we also had to 
show that we were fiscally responsible, that we are changing 
the way that we manage our operations, and show the Congress 
that we can manage a project of this magnitude.

                 GETTING FINANCIAL OPERATIONS ON TRACK

    Ms. Wasserman Schultz. Thank you. If you recall, we went 
over the financial management issues in great detail last year 
at this same hearing, and you were at the point where you 
literally had only been the Chief for--both of you had only 
been in office for a few months; but at that point, the GAO had 
described the Office of Financial Management as being in 
constant crisis mode, which is one of the main reasons I know 
you brought Ms. Jarmon on.
    Can you give us an idea of the steps that you have taken to 
get the Department's financial operations back on track? I 
think restoration of the congressional community's confidence 
is really important in that regard.
    Chief Morse. Well, we had obviously a lot of professional 
recommendations that had not been carried out, so it was 
important for us to start with that. Part of our closure of GAO 
and IG recommendations were a closure of recommendations in the 
Office of Financial Management; and we were able to close eight 
of those.
    To restore order within that particular organization took 
the need to have the right policies and procedures and the 
right people in place, so we started at the top. And Ms. Jarmon 
not only gives us the knowledge, skills, and abilities in the 
areas of office administration that meet the criteria for her 
job, but she is also a CPA, which gives her abilities in 
financial management to be very significant.
    Also, during the last year, we have been able to go back 
and look at the knowledge, skills, and abilities of the people 
in positions that work within that office to ensure that they 
are at the level that they should be to handle the 
responsibility. So with that effort, and also getting 
statements completed, getting inventory and assets management 
completed, made the job much easier. It brings some degree of 
order to what it is that we are doing. That information we did 
not have in the past and we do now. So it makes the process 
much smoother.
    We also had to build a system--I mentioned earlier that we 
built a system for being able to build a budget, a validated 
and justified budget. And we looked at, bringing our internal 
controls, our investment review board, our executive management 
team, all of those people coming together and working together 
with the information and providing you with a substantive and 
justified budget.
    So all of those things combined make for a much stronger 
Office of Financial Management and certainly gives a good 
representation of the Department and, hopefully, more 
confidence in us.
    Ms. Jarmon. Can I add a little?
    Ms. Wasserman Schultz. Sure.
    Ms. Jarmon. I just wanted to mention, like Chief Morse 
said, we did prepare the full set of financial statements for 
the first time, and our auditors had a disclaimer in those 
statements which is not unusual for an agency for the first 
time ever preparing financial statements. It was our goal to 
move in the direction of a clean opinion. It is a work in 
progress.

                       TIMELINE FOR A CLEAN AUDIT

    Ms. Wasserman Schultz. My time has expired, but do you know 
what is your time line for a clean audit?
    Ms. Jarmon. By 2010. We plan to show improvement each year, 
less material weaknesses, and to move forward to a clean 
opinion by 2010.
    Ms. Wasserman Schultz. Thank you.
    Mr. Latham.

                   IMPACT OF A CONTINUING RESOLUTION

    Mr. Latham. Thank you. As the chairman knows, I ask this 
every hearing----
    Ms. Wasserman Schultz. I warned them.
    Mr. Latham. We visited, too.
    There is the real possibility, certainly with the 
statements made over in the Senate, that we will be in a 
continuing resolution potentially up to February or March of 
next year. I would like to know what impact you see that having 
on your operations, and also, if you have put any thought into 
planning for that contingency.
    Chief Morse. Yes, Gloria and her staff have been preparing 
an impact statement in the event that we are under a CR. But I 
think as we look at what we have proposed for 2009, if you look 
at the things which--in our terminology, some of the 
uncontrollables, some of the things that we are facilitating--
would be impacted. For instance, CVC operations, the 
Inauguration, and those things that are a part of our increase.
    And then you have your general expenses and salary, of 
course, that are affected by that within the organization. So 
hiring would be affected. We would only be able to fill 
attrition; we wouldn't be able to advance the Police 
Department, we would just maintain the Police Department. So I 
think the biggest impacts are some of the increases that you 
see here in the 18 percent that we would consider the 
uncontrollable increases to us.
    Mr. Latham. Like the Inauguration and those?
    Chief Morse. Inauguration, the CVC opening, those types of 
things.

                       INTELLIGENCE CAPABILITIES

    Mr. Latham. Okay.
    Both in your written testimony and your budget 
justifications there is reference to the recent manpower study 
as identifying an increased need for intelligence capabilities. 
And you say that represents the first step in a long-term 
process. Can you give us a reasonably accurate description of 
what the needs are?
    I believe you are requesting 16 full-time equivalents in 
2009, and this is just one step. Can you give us an idea about 
what you expect in step 2, step 3, step 4 so that we can have 
an idea?
    Chief Morse. Sure. With the intelligence capability 
currently, we run sort of a 5-day-a-week, 8-hour-type 
operation, special events directly related. We need the 
capability of running an intelligence collection analysis, 
dissemination of that information on a 24-hour, 7-day-a-week 
basis. We do obviously have connectivity with our partners in 
the Intelligence Community, but this helps us also increase 
that connectivity with them to have liaison officers with them.
    The one key point in our business case regarding 
intelligence gathering analysis and dissemination is that we 
are relying on other agencies to provide information, so we are 
receiving and then disseminating that information. But without 
the capability to collect information here, to be able to 
analyze that information, connect the dots with the national 
intelligence, we lack that capability with a legislative branch 
perspective. So that is where we would like to go.
    This business case sets the foundation for sort of piloting 
this before we are to move on or begin staffing that at any 
higher levels. This will give us a baseline of what we need for 
the future.

                          OVERTIME MANAGEMENT

    Mr. Latham. You have made the management of overtime a 
focus, providing efficiencies to the Department. Can you tell 
us about what you have done to streamline the use of overtime? 
I think you are requesting 30.5 million for overtime in fiscal 
year 2009, which is a major increase over 22.5 last year. Can 
you explain that a little more in detail?
    Chief Morse. Sure, with respect to savings, one of the 
things that was passed to the Assistant Chief was to find ways 
to be more efficient in our operations. That includes the 
deployment of officers' time and attendance, waste, fraud and 
abuse, internal controls related to that, any technology that 
we could use to enhance our security systems and not have to 
use officers for those types of things. We put all of those 
things together to have a package that would give us more 
economy of force, which resulted in a savings of overtime.
    To give you one example, one of our analyses that we did 
was taking a look at hours of operation in session, out of 
session, with regards to the opening of doors. We were able to 
adjust those hours in consultation with our stakeholders, which 
provided a savings during out of session periods.
    We were able to do an analysis of where we were spending 
the most overtime and we were able to devise a system that 
allowed us to deploy our officers differently. We call it 
``load leveling'' where we were able to redeploy officers and 
divisions that allowed us to significantly reduce overtime--in 
other words, putting the officers where the mission was taking 
place. And then, of course, the direction is mission directed 
only. And with those things we were able to save a great deal 
of money. The schedule of Congress was less than we expected.
    Demonstrations are always an unexpected, and for a while we 
were dealing with those every day; to a certain degree those 
have stopped on a daily basis.
    Mr. Latham. In your request you have a 42 percent increase 
for next year's schedule. Why is that?
    Ms. Wasserman Schultz. Your time is well expired, but if 
you want to answer the question, that is fine.
    Chief Morse. The increase has to do with opening of the 
CVC, as an example. We have training that we need to do for 
that in advance of the opening. We have the Library of Congress 
merger, which we have to have backfill overtime. We have 
Inauguration training, rehearsal, et cetera, that we have to 
use overtime for. And the other types of overtime are 
associated with routine post assignments and mission site, and 
the difference is--either filling those positions with FTE or 
paying overtime is the difference.
    Mr. Latham. Thank you.
    Ms. Wasserman Schultz. You are welcome, Mr. Latham.
    Mr. LaHood.

                          CLOSED DOOR MEETING

    Mr. LaHood. Are we planning to have a session with these 
folks just to talk about issues that we don't want to talk 
about publicly?
    Ms. Wasserman Schultz. A closed session? There wasn't one 
in the plans, but we can certainly have one if you would like 
to have a closed session.
    Mr. LaHood. I would, because I think there are some things 
that we maybe should----
    Ms. Wasserman Schultz. Sure, we can set that up. That is 
fine.

                            NEW HEADQUARTERS

    Mr. LaHood. You know, I read in one of the Capitol Hill 
newspapers about the idea of a new police headquarters. Can you 
talk about that?
    Chief Morse. Yes, I believe that particular article came 
from a Transportation and Infrastructure hearing that I 
attended, and I was asked by the chairwoman if--actually, I was 
given advice that with the property around the existing Capitol 
campus going away pretty quickly that if we were in need of a 
Capitol Police headquarters, we should begin looking for that 
very quickly.
    We obviously have reached our capacity as far as facilities 
are related; and we work constantly with the AOC, the Architect 
of the Capitol, to relay our needs with respect to that. We 
haven't been asking for significant increases of personnel, and 
so obviously we trimmed it back from within to get police 
officers on the street deployment-wise to work most 
efficiently. But, you know, a Capitol Police headquarters or 
facilities are a need; they will become a need as the agency 
grows because we have reached our capacity. So that is 
something that is on the radar screen.
    But--I haven't put any proposals together yet or made any 
recommendations, but it is certainly something that has to be 
looked at.
    Mr. LaHood. Nothing in the works as far as the Architect's 
Office is concerned, like drawing up plans?
    Chief Morse. Not that I am aware of.
    Mr. LaHood. And you have not asked them to do that?
    Chief Morse. I have not.
    Mr. LaHood. Is that how it would start?
    Chief Morse. That is how it would start. I believe there 
have been a number of plans in the past, facility plans, et 
cetera. We did direct that our Office of Facilities and 
Logistics collect all of those documents and proposals of the 
past and put them together so that we would have some sort of 
idea of what has been recommended in the past.
    But I have nothing current, actively going on. But in order 
to start that, that would be the start of that process.
    Mr. LaHood. Thank you.
    Ms. Wasserman Schultz. You are welcome.
    Mr. Bonner.

                      CAPITOL VISITOR CENTER FTES

    Mr. Bonner. Thank you, Madam Chair. I am the rookie. I 
guess you have rookies on the police force; I am the rookie on 
the committee. So let me ask a couple of quick questions since 
I was not here last year.
    You discussed the radio system then. I think you have 
addressed the questions already on that. But one that 
consistently comes up whenever we have visitors is about the 
CVC. Does your current force have adequate resources in terms 
of manpower to be able to deal with the new visitors center?
    Chief Morse. The Congress had been very generous in 
assisting us with the FTE to provide for the opening of the CVC 
in fiscal year 2006; 45 additional FTEs were hired for that 
purpose. There is also--with closure of certain screening 
facilities, exterior screening facilities of the Capitol now 
that will be taken up by the CVC itself, there is an input of 
officers into that.
    We have also requested in our fiscal year 2009 budget some 
support FTE for the CVC; and in the event that certain 
assumptions are not met regarding post-opening, that would not 
be in the original plans. And also the new Visitors' Experience 
for the Library of Congress.
    So those are what those FTE increases are for.
    But we are, from an emergency planning standpoint, 
emergency preparedness standpoint and special operating 
procedures, ready to open. And with the exception of these FTEs 
that we are asking for, we are prepared to open in November of 
2008.

                              STAFF ENTRY

    Mr. Bonner. Let me shift gears quickly.
    Last month, I had the opportunity to ask the Sergeant at 
Arms what congressional staffers need to do to be successfully 
admitted to bypass a long line of visitors in spring and summer 
tourist season. Lots of people here, and we welcome them; this 
is their building, after all. But we also have members of our 
staff that are trying to get in the building to do the people's 
work along with us. And I was led to believe by the Sergeant at 
Arms that staff with House ID could bypass a lot of this front 
of the line at the metal detectors. But my own staff was not 
able to do that todaywhen they tried.
    Is there a universal policy that the thousands of staffers 
could have that would allow them to know what they could do to 
get into the building to do the work?
    And secondly, I will ask you the same question I asked the 
Sergeant at Arms. Is it not feasible--I was a staffer for 18 
years along with Mr. LaHood. It seems to me we have got 
thousands of staffers who come into the building every day 
through the parking garage without going through the metal 
detectors and you have other staffers who, for whatever 
reason--they live on the Hill or whatever reason--have to stand 
in a long line sometimes in inclement weather to get in.
    Is there not some way to have a staff entrance so that the 
staff do not have to stand in long lines to get into the 
offices where they work?
    Chief Morse. Well, with respect to the Sergeant at Arms' 
comment about a universal policy for staff, I believe that was 
something that was piloted for a while, but not as an everyday 
thing. It was piloted for some time.
    With respect to the CVC, there were many discussions within 
the working groups of having an expedited line open for staff 
entering the CVC, because they would be there to greet, on 
behalf of the Members and such, the constituents.
    As far as having a separate line, we do have staff doors 
specifically. But with such large crowds that we have, we 
facilitate that by trying to measure if there is a long line if 
we can move constituents to other doors so that the business of 
Congress can carry on and the constituents can see their 
Members.
    Were there any other options or plans that you were aware 
of?
    Assistant Chief Nichols. We have actually done a number of 
studies looking that that issue. As you say, the work of 
Congress has to proceed regardless of the visitor load, and we 
are trying to balance both issues.
    One of the recommendations that was in a recent staffing 
study that we conducted was actually designating staff-only 
doors. That helps us with staff, and that is something we need 
to formalize and then move forward to the committees through 
the board members, if they think that is a viable option to 
pursue.
    Mr. Bonner. Do I have time for one more quick question?
    Ms. Wasserman Schultz. Kind of.

                      CANNON TUNNEL VISITORS DESK

    Mr. Bonner. Is there any consideration to putting a 
visitor's desk in the Cannon tunnel? Because currently visitors 
who are in the office building trying to get to the Capitol to 
process expeditiously have to go to the Rayburn desk. Is that 
just a matter of funding?
    Chief Morse. The visitors' greeting position there is--I 
believe is through the Sergeant at Arms' offices.
    Mr. Bonner. I will ask him that.
    Ms. Wasserman Schultz. Mr. Bonner, we are going to have 
Chief Morse at the CVC hearing next week and we can ask him for 
detailed, CVC-related questions next week.
    Chief Morse. Thank you.
    Ms. Wasserman Schultz. You are welcome, I know you are 
excited.
    Mr. Lewis.

           CRIMINAL BACKGROUND CHECKS OF DEPARTMENT EMPLOYEES

    Mr. Lewis. Chief, as you may or may not know, I have had a 
long history of working with the inspectors general. When I 
chaired the subcommittee on VA-HUD, the inspector general there 
received a special allocation of funding because of problems 
related to people's money being appropriated for Section 8 
kinds of housing and the money never getting to the local 
level. She did a fabulous job in helping us develop the housing 
fraud initiative.
    I had another line of questioning, but an item has come up 
regarding the inspector general that concerns me a lot and I 
hope you will be patient with me. It won't be too long.
    The Capitol Police Inspector General, Carl Hoecker, has 
conducted Criminal Interstate Identification Index checks on 
all Capitol Police employees, sworn and civilian, roughly 2,000 
individuals. This was done using the Washington Area Law 
Enforcement System, WALES, owned by the D.C. Metropolitan 
Police Department. These criminal background investigations 
were conducted beginning in December of 2007 and completed in 
February of 2008. Names and dates of birth of employees were 
entered into the system.
    So a series of concerns here: There is no policy directive 
existing in the Department on conducting these investigations.
    Two, these investigations were conducted without the 
knowledge of the individuals. To date, employees have not been 
notified of this activity, and if I was one of your sworn 
officers, I would be really teed at not knowing.
    This raises serious violations of privacy and fourth 
amendment rights. It also violates the Federal Service Labor 
Management Relations Act with regard to bargaining unit 
employees, because it represents, quote, ``a change in working 
conditions,'' and it was done without any negotiations with 
these respective unions.
    The implications of the search being conducted by the 
inspector general implies or most likely will be perceived as a 
secret activity which may exacerbate the legal, political, 
public relations and organizational morale aspects as a result 
of these criminal background checks.
    Chief, I would like to have you tell us and the committee, 
and especially the chair, has this been done? And respond to 
these lines of question, if you would.
    Chief Morse. Yes, sir, thank you.
    Yes, that has been done. With respect to Triple I checks on 
employees, we go back to 1997 and a directive from the Police 
Department. I believe it was the appropriations omnibus bill, 
1997, 105th Congress, related to the Lautenberg Act, related to 
domestic violence among police officers.
    This Police Department in 1997, directed all employees to 
report if they had been arrested for domestic violence. And as 
I recall, as a young officer I had to submit my report of 
whether I had been arrested or not.
    Also within the organization there is a rules and conduct 
general order that states specifically the conduct of a police 
officer and what is expected of them both on duty and off duty. 
We also swear to an oath of office to protect the Constitution 
of the United States and also to enforce laws and to be 
compliant with those laws.
    So each officer receives that training, as well, at our 
Training Services Bureau.
    With respect to Triple I checks, a special operating 
procedure, signed June 1, 2005, in the Office of Professional 
Responsibility previous to my administration, clearly states 
that Triple I checks would be conducted on a yearly basis. Also 
what I found was that within the organization, obviously Triple 
I checks are conducted for background investigation of new 
employees or recruits or new hires on our civilian staff.
    I also know that within the organization there is a policy 
on Triple I checks for employees within the United States 
Capitol Police to have background investigations which includes 
a Triple I check for a security clearance--Secret, Top Secret 
and SCI.
    What I noticed was, we had several different policies and 
special operating procedures within the organization. I also 
know that the officers and employees are held at a higher level 
of integrity and character as law enforcement officers and 
enforcers of the law, so we needed to formalize that process 
within the organization. So in September of 2007 we directed 
the Office of Human Resources to begin formalizing the overall 
process so that we could protect the integrity and character of 
the Police Department and hold to our oath and directives and 
be compliant with those directives in our organization. So as a 
part of our repeatable business practices, those were the steps 
to take to go forward.
    The inspector general, Mr. Hoecker, knew that we were 
moving forward with that project and with his oversight of 
compliance with directives, he took on the task of running the 
Triple I checks for the employees of the Police Department so 
that we would have confidentiality and no bias.
    Mr. Lewis. At your direction?
    Chief Morse. In concert with the formalized process of the 
Police Department, to provide a baseline of clearing any 
questions to be presented in two phases to the Office of Human 
Resources so that they could complete their initiative and put 
a formalized process in place. And this would be mirrored--as 
do all other Federal law enforcement agencies, including the 
Metropolitan Police Department and U.S. Park Police, who do a 
5-year review of all of their employees.
    So we were just instituting an initiative that has been a 
past practice in the organization, that there were several 
different special operating directives, special operating 
procedures that existed; and we were just bringing it together 
to complete that initiative. And that is where we are today.
    Mr. Lewis. Madam Chairman, I am worried about all kinds of 
questions here that relate to individual rights as well as 
legal rights, et cetera.
    I don't happen to be a lawyer, thank God, but did you get 
legal counsel regarding the procedures that you are using here?
    Ms. Wasserman Schultz. Mr. Lewis, your time has expired by 
a couple of minutes.
    Mr. Lewis. These are pretty important questions.
    Ms. Wasserman Schultz. And other Members have questions as 
well. And we will come back to you.
    Mr. Lewis. This will probably be my last attendance at this 
subcommittee.
    Ms. Wasserman Schultz. Also, when we have a closed session, 
we can address this.
    Mr. Lewis. I hope the chairman will take this very 
seriously and follow through with it. There are civil rights 
questions here.

                  POLICY ON CRIMINAL BACKGROUND CHECKS

    Ms. Wasserman Schultz. My understanding is that the 
officers and employees of the Capitol Police were aware of the 
background checks. I have a document that I would be happy to 
ask unanimous consent to enter into the record that was signed 
by the Chief and approved specifically that says: Interim 
reviews, conduct Interstate Identification Index checks every 2 
years on all USCP employees to ensure that employees remain in 
good standing. That was dated September 5th of 2007, and it was 
signed by the Chief on September 21st of 2007.
    So unless I am wrong, Chief, did the employees of the 
Capitol Police, were they aware of the Triple I checks that 
were going to be instituted every 2 years?
    Chief Morse. That particular--let me see what it is.
    This is in reference to the proposal that was made to me in 
September of 2007 which I sent back to the Office of Human 
Resources with an approval to proceed with this policy or with 
this initiative.
    At this point--and prior to it getting to me, the trail was 
Office of Human Resources, Chief Administrative Officer, Office 
of Employment Counsel, and then to me were the notes that were 
on the document.
    What I have since found out is that the point at which I 
approved this and sent it back to the Office of Human Resources 
was at the time that the Inspector General began the Triple I 
checks, which are--which had been something, like I said, that 
had been an SOP and directive of the Department prior to, so--
--
    Ms. Wasserman Schultz. Do employees----
    Chief Morse. There is an expectation, certainly.
    Ms. Wasserman Schultz. I don't mean to be----
    Chief Morse. I had a Triple I check accomplished on me when 
I became Chief of Police.

            EMPLOYEE AWARENESS OF CRIMINAL BACKGROUND CHECKS

    Ms. Wasserman Schultz. If it is standard operating 
procedure, are all the employees of the Capitol Police aware 
that Triple I checks will be done every 2 years or on a fairly 
consistent basis?
    Chief Morse. Capitol Police officers are aware that they 
are held to the highest standard of conduct.
    Mr. Lewis. That wasn't the question.
    Ms. Wasserman Schultz. I assure you that I will hold him to 
answer the question.
    Chief Morse. That they are held to the standards of 
conduct, that they are held to the oath of office.
    Ms. Wasserman Schultz. Did they know that the background 
checks would be used?
    Chief Morse. Specifically the tool that we use? No, we 
don't necessarily tell anyone.
    Ms. Wasserman Schultz. But is there an expectation that 
they know that these checks will be done periodically?
    Chief Morse. Absolutely. We give orders so that people will 
be compliant. There is no other way to ensure compliance with 
the directive.
    Ms. Wasserman Schultz. This wouldn't have come as a 
surprise to them?
    Chief Morse. I cannot see it as coming as a surprise to 
anybody in law enforcement.
    Ms. Wasserman Schultz. There has been a concern raised by 
the ranking member of the full committee. And I will develop a 
question, based on the follow-up, in the homework that we 
assign.
    Mr. Lewis. I hope I may attend that closed session and I 
hope also in that closed session, if I am not able to be here, 
that you will pursue whether they sought legal counsel about 
the methods that are used here. I can see a revolution going on 
among our police officers.
    Ms. Wasserman Schultz. I am very comfortable that the 
Capitol Police and the employees of the Capitol Police are 
aware, based on what the Chief said. But I intend to pursue it 
before we have a closed session, most definitely.
    Thank you very much for bringing the issue to our 
attention.
    Mr. Lewis. I have additional questions for the record, if I 
might.
    Ms. Wasserman Schultz. Sure. Absolutely. Any questions that 
Members have can be answered for the record.

                       EXPANDED RESPONSIBILITIES

    Ms. Wasserman Schultz. We will move into round 2.
    On the increases that you have asked for, how much is 
related to the expanded responsibilities that you've been asked 
to take on and how much is related to other program increases? 
And of the other program increases, the ones that are not 
related to the expanded responsibilities, can you highlight 
what your priorities are in the likely event that we are not 
able to fund them all?
    Chief Morse. Okay. With respect to oversight increases or 
general?
    Ms. Wasserman Schultz. Part of your increase is related to 
your increased responsibility at the CVC, the Inauguration and 
all of that, and then there are other Department priorities.
    Chief Morse. I actually have a breakdown. I will just read 
from the breakdown itself.
    About 3.4 percent for a COLA and annualization of fiscal 
year 2008, because obviously a time lag within the 2007 time 
period will be moved over to 2008. So the COLA annualization 
will be a 3.4 increase.
    Some of the uncontrollable increases: the 6.1 percent for 
CVC operations, the Library of Congress merger, the new 
Visitor's Experience and AOC tunnel project.
    And then 1.1 percent, 2009 Presidential Inauguration, and 
0.9 percent, Office of Inspector General request.
    We have USCP increases specifically totaling just 6.4 
percent: 1.8 percent, force development; 0.2 percent, Chief's 
priorities; 0.6 percent are requested positions from 2008; and 
1.6 percent other new hire costs and other pay costs; and about 
2.3 percent, general expense costs related to the 6.1 percent 
uncontrollables that I listed above.

                         DEPARTMENT PRIORITIES

    Ms. Wasserman Schultz. In terms of the priorities that you 
have, separate from the added responsibilities, what are the 
highest--what are the things that if we are going to cut, what 
is it that you have got to have among those priorities that are 
not related to your added responsibilities?
    Chief Morse. With regard to some of the uncontrollables, we 
have to obviously look at some of the CVC operations, the 
Inauguration----
    Ms. Wasserman Schultz. No, no, I know--but you have part of 
your increase that is uncontrollable and some of your increase 
that is your other priorities.
    Of the other-priorities piece of it, which I know is about 
a third, what are the most important components of that? 
Because when we are prioritizing, I want to do it based on your 
priorities, not based on ones that we pick out of the air.
    Chief Morse. Obviously, we will start with the continuation 
of the operations, and then we look at some of the force 
development priorities that we have to enhance our abilities to 
secure the campus.
    So I think our budget is broken down in a way with 
validation and justification where we are easily going to be 
able to talk about that and prioritize things the way we want.
    Ms. Wasserman Schultz. Do you want to respond for the 
record in terms of the detail?
    Chief Morse. I have--we have a sheet here.
    Assistant Chief Nichols. We brought this----
    Ms. Wasserman Schultz. This is not ``Stump the Chief.''
    Chief Morse. I am just trying to get the right information, 
if I was going to answer you.
    Ms. Wasserman Schultz. Sure.
    Chief Morse. We are looking at--we would probably look at 
some of our analysis of our human capital posture, our 
environmental assessment internal controls and environmental 
assessment that we do. Looking at our environmental, 
operational, administrative assessment conclusions. We would 
look at those as low priority to cut.
    Ms. Wasserman Schultz. Okay.
    Chief Morse. And those have a long list of things 
associated with them: analysis of performance measures and 
operations, current forecasting for the Department of human 
capital posturing, status of----
    Ms. Wasserman Schultz. Okay. You are speaking Greek to me. 
If you can work with our staff on drilling down into those 
priorities when the time comes. And my time has expired. I will 
come back to myself.

                  FOLLOW-UP ON BACKGROUND CHECK POLICY

    Mr. Latham. Thank you. I want to pursue a little bit more 
about what Mr. Lewis was talking about.
    The paper you submitted for the record, was that a 
directive notification or was that just a concept paper?
    Chief Morse. This is a concept paper.
    Mr. Latham. It is not a policy?
    Chief Morse. No, it is not. It is a concept paper that was 
submitted to me, and I approved and sent back to the Office of 
Human Resource management to begin this process of formalizing 
what is already in policy and procedure within the Police 
Department.
    Mr. Latham. Okay. But that is not official policy?
    Chief Morse. No.
    Assistant Chief Nichols. But I think, to clarify, all of 
our employees have a duty to report to us any time that they 
are arrested. So that is policy; and therefore, this would be a 
check and balance to make sure that employees who work for a 
law enforcement agency are held to a higher standard.
    Mr. Latham. I don't have a problem. Is the Inspector 
General here?
    Mr. Hoecker. Yes.

      INSPECTOR GENERAL AUTHORITY TO DO CRIMINAL BACKGROUND CHECKS

    Mr. Latham. On what basis, I just think it is unusual to 
have a broad--do a background check of everybody in the 
Department all at once. On what basis and what authority did 
you do that? And if you could, provide any legal opinions for 
the record as to your authority to do this.I am extremely 
concerned about what some people would think was a fishing 
expedition, for no real cause--I can see it on an individual 
basis certainly, but to just go out and do a background check 
on everybody in the Department, whether they are sworn or not 
certainly raises some real questions when no one was notified 
about it.
    Mr. Hoecker. First, let me introduce myself. I am Carl 
Hoecker, Inspector General for the Capitol Police.
    This came about--the Chief is one of our stakeholders; 
about midsummer of every year, we solicit input: What should 
the IG be doing to help the Department? And, in part, what was 
important to the Chief in our discussions, that I recall, was 
that he had noticed a few employees that not been held 
accountable to this specific rule A.2 of Directive PFR 1.2, and 
that is: The policy of the Department is to ensure that all 
employees, both sworn and civilian, maintain an exemplary 
standard of personal integrity and highest professional 
standard of conduct both in their private lives and in their 
official capacity.
    Rule A.2 is conformance to the law: Employees will obey all 
laws of the United States, District of Columbia, every State 
and local and military jurisdiction in which they may be 
present. Employees arrested or indicted for a violation of any 
law, other than minor custodial or noncustodial traffic 
offenses or summoned to appear in response to a criminal 
complaint, will immediately notify one of their supervisors 
who, in turn, will notify the Chief of Police throughout chain 
of command.
    What the Chief noticed was that there were a few employees 
who were requesting security clearances, and their names seemed 
familiar to him or the people in his office; and they did some 
research and found that there may have been an internal affairs 
case on this person that would have brought the question if 
this person could have a security clearance and even face 
discipline in the Department because they did something wrong.
    So this job was a compliance job, looking at management 
controls, what departmental controls, management controls they 
have to follow this up. And I relate that to, if you have a 
policy, you need to have management follow-up on this.
    And there was an SOP--I believe it is a few years back, I 
forget the date, but that they would do an annual Triple I 
check, a criminal history check, on all employees, and that 
would be done by the Office of Internal Affairs. That was not 
being done.
    And so there were processes and things that were scattered 
throughout the Department, and they had no way to bring it 
together. So obviously the inspector general was concerned 
about the integrity of the Department, and anything that I 
could do to help promote better integrity, that is exactly why 
I did this, sir.
    Mr. Latham. Okay. Were you asked to do this?
    Mr. Hoecker. Yes, sir.
    Mr. Latham. By whom?
    Mr. Hoecker. Chief of Police.
    Mr. Latham. You were requested by him to do this?
    Mr. Hoecker. Yes, sir.
    Mr. Latham. I am confused as to why, if you had specific 
cases of concern about individuals, why you had to do an 
everybody-in-the-Department sweep to ferret out individuals 
whom you have identified as having a problem.
    Mr. Hoecker. Well, sir, this really should have been done 
all along, according to that internal affairs policy. But it 
wasn't being done; it obviously fell through the cracks.
    Maybe they did not have the FTE resources to do that, so it 
just wasn't being done.
    Ms. Wasserman Schultz. The gentleman's time has expired. 
Mr. LaHood.

           LACK OF NOTIFICATION ON CRIMINAL BACKGROUND CHECKS

    Mr. LaHood. Let me tell you how I characterize this.
    I have the highest regard for law enforcement people, but 
this is an outrageous abuse of power to check into people's 
backgrounds that are not law enforcement people, unbeknownst to 
them. Without telling them, I think is unlawful and perhaps 
illegal.
    Now, why would you look into somebody's background without 
telling them? Why would you do that? These people are not 
carrying a weapon. They are not law enforcement people. They 
might be a clerk working at a desk or answering a telephone. 
What gives you the right to do that?
    Mr. Hoecker. Well, sir, I said before there was a policy 
all along in the Department----
    Mr. LaHood. What gives the IG the right? If it is standard 
operating procedure, what gives you the right to do it?
    Mr. Hoecker. The IG is concerned with the integrity of the 
Department, with programs and operations, with the economy, 
efficiency. That is our charter, sir, and this sits within that 
ambit.
    Mr. LaHood. Absolutely not. There is absolutely nothing 
that gives you the right to look into a non-law enforcement 
person's background. Nothing does that.
    Now, Chief, I am going to ask you a direct question. Were 
people's backgrounds looked into and checked on unbeknownst to 
them?
    Chief Morse. Yes.
    Mr. LaHood. Why? If they were not carrying a gun, if they 
are not law enforcement people, if they are a clerk working in 
a office, what gives you the right to do that? What gives you 
the right to ask the IG to do that? What authority do you have 
to do that?
    Chief Morse. To protect the integrity of the Police 
Department.

          LEGITIMACY OF CONDUCTING NO-NOTICE BACKGROUND CHECKS

    Mr. LaHood. Look, I am a simple-minded person. I am a 
trained school teacher. I taught school before I came to 
Congress. I expected every one of the kids in my class to 
behave. If one of the kids did not behave, then I would do 
something about it. And what you are saying to me is that 
because you thought maybe one or two people had not been 
following the rules, that you were going to have a blanket 
policy, unbeknownst to them, to look into everybody's 
background.
    I think if it is not illegal, it should be; and I frankly 
don't think you have the right to do it. I know you want to 
protect the integrity, and if somebody violates the rules of 
the Department, particularly a non-law enforcement person, you 
have every right.
    If somebody gets a DUI, if somebody is arrested for 
domestic violence, if somebody does not obey the laws, that is 
one thing. But unbeknownst to law-abiding citizens who come 
here to the Capitol, thinking they are doing the right thing, 
obeying all the laws, to look into their backgrounds and do 
background check and have a police agency do a background 
check, I think is wrong. I don't think you havethe right to do 
it.
    Assistant Chief Nichols. I just want to make sure we have 
this in context.
    I have been a police officer for 25 years. I chose to work 
for a law enforcement agency. There are things that go along 
with wearing this badge and working for a law enforcement 
agency that has to be maintained because we are held to a 
higher standard.
    Mr. LaHood. I couldn't agree with you more.
    Assistant Chief Nichols. The other thing, though, we don't 
know what we don't know, Mr. LaHood. If somebody does not 
report to us in accordance with our established policy that 
they have been arrested, there is no check and balance for us 
to know that information and take appropriate action.
    Mr. LaHood. Then why don't you tell the people that you are 
doing it?
    Assistant Chief Nichols. I believe, sir, that it is in the 
regs and people know that when they come on to this agency they 
are submitting themselves to a background investigation.
    Mr. LaHood. Let me say this: When the employees of the 
Capitol Hill Police who are in no law enforcement positions 
find out that their backgrounds have been looked into, some of 
them are going to be outraged because they were not told and 
they had no idea it was going on.
    To do it under the guise of protecting the integrity of the 
Department--look it, we would all agree that that is a very 
important goal, but you ought to tell the people that you are 
doing it.
    Assistant Chief Nichols. Well, I think--and that is fair. I 
think if the goal is agreed upon that everyone is agreeing that 
this is a justified goal for this police department, as it is 
for every other law enforcement agency, that is what we were 
trying to achieve. If we could have done that better, then it 
is a lesson learned and we can move on.
    But the fact of the matter is that the standard has to be 
adhered to. The policy has been in place for years. The fact 
that it was not acted upon before we came along is beyond our 
control.
    Mr. LaHood. I see no policy that gives the IG--to give the 
Chief to tell the IG, ``You look into everybody's background.'' 
I haven't seen that policy.
    Show me the policy that says that unbeknownst to the 
employee. Where it is at?
    Assistant Chief Nichols. It is a standard operating 
procedure that was done in internal affairs.
    Mr. LaHood. Hiring an outside group to do it, getting the 
IG to do it? There is no policy.
    Show it to me.
    Assistant Chief Nichols. We will work on that, sir. I think 
the point made was, there were policies in disparate places 
within the agency, and we were trying to find a unified way to 
achieve the goal.
    Mr. LaHood. This is not the way to treat employees of the 
Capitol Hill Police, in my opinion.

               EMPLOYEE EXPECTATIONS OF BACKGROUND CHECKS

    Ms. Wasserman Schultz. The gentleman's time has expired.
    Let me follow up on this, and I am going to give you some 
homework at the end of this that will ask you to provide us 
with more detailed information.
    But my understanding--and it would be hard to be more 
concerned about people's civil liberties and civil rights than 
me. I am a member of the Judiciary Committee, and I began my 
career here in Congress standing up for civil rights and civil 
liberties. So I am certainly extremely sensitive, too.
    But from what I am hearing--and I will ask you to give us 
more information later--is that you had an inconsistent policy. 
Is it correct that you had an inconsistent policy, that there 
were various ways that background checks, periodic background 
checks, were conducted on employees and that because there is a 
requirement of the employees, whether they are sworn officers 
or civilians, to report to you when there has been an arrest or 
indictment for a violation of any law other than minor 
noncustodial traffic offenses or if they had been summoned to 
appear in response to a criminal complaint, that they have to 
immediately notify one of their supervisors?
    Was there an inconsistent policy that you were trying to 
make uniform, and is it your belief, or testimony, that there 
is an expectation in the Police Department, when you are hired, 
whether you are civilian or sworn, that you will be subjected 
to periodic background checks--I don't mean to put words in 
your mouth--and that even though you may not have directly 
notified the employees of this background check, that there is 
an expectation when they are employed that they will be subject 
to them? Is that right, or is that overstating it?
    Chief Morse. That is correct.
    Ms. Wasserman Schultz. Okay. I want to make sure because, 
Mr. LaHood, I would absolutely share your outrage if there was 
not an expectation. And I will ask the police leadership to 
follow up with us on exactly what the procedures were and are.
    I can understand that, working for a police department, 
there would be an expectation that you have to be beyond 
reproach, and that if there is a concern that employees are not 
reporting violations of law or indictments or arrests, that a 
check to make sure that you have got a consistent application 
of the policy may be in order. So we will ask you to follow up.

                         CVC AND CANNON TUNNEL

    I want to shift to the CVC and the Cannon tunnel, and we 
will ask you a little bit more about that next week. There was 
an $8 million increase in your fiscal 2009 request to provide 
security for the Capitol Visitors Center, which also includes 
funding, my understanding is, to potentially keep the Cannon 
tunnel open for staff-led tours if Congress decides to go that 
route.
    Can you break down the $8 million request? How much of that 
is estimated to keep the Cannon tunnel open for staff-led tours 
in the event that Congress makes that decision?
    Chief Morse. Okay. With respect to the additional FTEs, we 
have a total of 31--that is $2.5 million; and the general 
expenses associated with that are $544,000. The CVC plans, 
including staff-led tours using the tunnel, is about 
$4,920,000.
    Ms. Wasserman Schultz. $4 million for the tunnel staffing?
    Chief Morse. That is for the overtime. $4.9 million 
overtime.
    Ms. Wasserman Schultz. That is because you would be using 
existing officers and you would move them over to the tunnel as 
opposed to new hires?
    Chief Morse. That is correct. There is a preparation for 
opening. Once we receive the permit for occupancy, the officers 
who will be working the CVC will need to come in and train for 
emergency preparedness evacuation and receiving the visitors 
into the CVC.

                              OVERTIME USE

    Ms. Wasserman Schultz. And the other question I have 
relates to overtime.
    How much does the Department rely on overtime? And are you 
making plans, instead of focusing so much on overtime, to try 
to hire new officers? Would that be more efficient? Is it a 
more cost-efficient way of dealing with your staffing needs to 
engage in new hires as opposed to overtime?
    Chief Morse. One thing we needed to do was a staffing 
study; and we completed the staffing study, which included 
looking at all of our processes to ensure that we were doing 
everything in the most efficient and effective manner. That 
also gave us really the number of officers needed to do the 
mission that we currently cover, as well as any future state of 
improvement or security enhancement that we needed to do.
    And so we have those figures, but first we had to--and as 
we promised last year, first we would look within to make sure 
that we had the economy and efficiency of our officers with 
deployment strategies, responsibilities directly related to the 
mission.
    We have the CVC opening which--construction security, 
security screeners will be put back into the field, and we will 
realize officers from that. So we really had to cut the fat 
from within before we were asking for more employees.
    But the eventuality will be looking at the difference 
between--if you ask for more FTEs, that drives a lot of other 
factors: facilities, uniforms and equipment, general expenses 
and such. We will have to find the means between the overtime 
amount and minus out what facilities and all the other expenses 
would be to find the most cost-efficient measure.
    Ms. Wasserman Schultz. My time has expired.
    Mr. Latham.

                       INSPECTOR GENERAL FIREARM

    Mr. Latham. Thank you. Just to go back to the subject we 
were on before, I would ask you and also the inspector general, 
Chief, to provide us, for the record and to us personally, any 
statutory justification, or legal opinion that you have to 
justify what, I would agree with Mr. LaHood, looks like a 
fishing expedition.
    I might ask the inspector on a different subject--at one 
point in the past you sought authority to carry a weapon and be 
deputized for law enforcement. Seems like we have had this 
before here. Is that accurate? And if so, who approved your 
seeking this authority?
    Mr. Hoecker. That is accurate, sir. And I am working with 
the Capitol Police Board on that. And under their direction, I 
sought U.S. Marshals special deputation and received it.
    Mr. Latham. It is my understanding that the Police Board 
withdrew its approval to carry the weapon. Why did they 
withdraw that?
    Mr. Hoecker. Yes, sir, I got a phone call from the 
chairman, and he said there had been some questions on, I guess 
it was liability for the weapon and whether the U.S. Marshals 
Service was appropriate for the IG here. And I said, Okay.
    So I turned my weapons back in, and at this point they are 
still in the custody of the Department.
    Mr. Latham. I think it does raise, as in a previous 
hearing, separation of powers issues, as to who you actually 
answer to, the executive branch or the legislative branch.
    Mr. Hoecker. Yes, sir.

                              NEW RECRUITS

    Mr. Latham. Chief, your justification, your request--you 
are seeking 264 new recruits for 2009, and this is the largest 
increase since 9/11 or the anthrax issue. How did you get to 
that number? And is there any way to know whether the Federal 
Law Enforcement Training Center can actually accommodate you 
with that many new recruits?
    Chief Morse. Yes, sir, I could.
    Mr. Latham. They are backed up, the way it is right now.
    Chief Morse. Of the 264, this is inclusive of 23 attrition 
carryover from last year that we were unable to assume due to 
the CR. So we missed a class, which could be a size of 48 if we 
don't get the additional class at the end of this fiscal year 
that we are asking for.
    Fiscal year 2009 is just 162 for normal attrition or 
retirement, people leaving the Department--you know, turnover. 
Library of Congress merger is a backfill of 24, and that does 
not include those who will remain at the Library of Congress as 
officers until the transition date; 31 are for CVC operations 
and 11 for the new Visitors Experience, the remaining number of 
13 is in regards to our force development, which we testified 
to, the intelligence capability.

                         TRAINING AVAILABILITY

    Mr. Latham. How about training? Is it available for that 
many?
    Chief Morse. At this point, we have a request in for the 
end of this fiscal year, for the additional 24 end of the year 
class, but we have not received any response back.
    Mr. Latham. Your request of 264 additional?
    Chief Morse. We are going to ask for it. And I believe we 
are awaiting approval for the six classes. So we don't know 
yet.
    Mr. Latham. Are your officers currently getting the 80 
hours of training that they are supposed to get per year, 
especially in certain areas?
    Chief Morse. Eighty hours of training is really an overall 
average. There are some officers who receive more training than 
80 hours, so 80 hours is an overall average.
    But what we have done within the Training Services Bureau 
is prioritize. We have priority 1, priority 2 training, which 
is mandatory training and certifications that we do on your own 
basis, which--including not only firearms qualification, but it 
can include things like fire extinguisher training, in-service 
training regarding legal issues, et cetera.
    I don't have the exact figures of what each individual has 
earned, but our overall average is 80. That is a mark that was 
set previously and probably needs a little more work on, since 
we do obviously know that other officers and specialty units 
receive a lot more training than the average line officer does.
    Mr. Latham. I assume I am done?
    Ms. Wasserman Schultz. Yes.
    Mr. LaHood.

                  CRIMINAL BACKGROUND CHECK PROCEDURE

    Mr. LaHood. Mr. IG, can you walk us through the procedure 
that is done to do a background check on people? Who is 
involved and how it takes place?
    Mr. Hoecker. I can, sir.
    Mr. LaHood. Could you speak up?
    Mr. Hoecker. I can do that, too, sir. The way it was done 
in this instance and the way that the Capitol Police, the way I 
understand it is----
    Mr. LaHood. Is it done similarly for every employee?
    Mr. Hoecker. Well, I was going to describe the actual 
access to the electronic check first, sir.
    Mr. LaHood. Similar for every employee? There is no 
distinction for someone who is law enforcement and someone who 
is answering the telephone?
    Mr. Hoecker. No, there was not.
    We were--there is a person dedicated by the Metropolitan 
Police Department at the Department--at Capitol Police. They 
train users for WALES. And it is a 1- or 2--a 2-day training 
course, and it deals with actually conducting different checks, 
wants and warrants checks, criminal history checks.
    And once that training is done, then that person is 
assigned a user name and a password. And then they use the 
computer that is dedicated for that purpose to actually do the 
checks. And what they do is, they plug in the name and date of 
birth and then the results come back.
    Mr. LaHood. But what do they look at?
    Mr. Hoecker. I'm sorry, sir?

           INFORMATION EXAMINED IN CRIMINAL BACKGROUND CHECKS

    Mr. LaHood. What kinds of things do they examine? What do 
they look at?
    Mr. Hoecker. Well, it is a check; name and date of birth 
would get sent forward through WALES to the criminal history, 
and it would either come back negative or come back with some 
kind of a record, so to speak. And sometimes those records are 
not that person; sometimes it is a person within, say, 10 years 
of date of birth that may or may not be that person; but that 
is just the way the system generates results.
    And then those results are checked to make sure and to see 
if that is the exact date of birth and that record is 
retrieved. Let's say it was an arrest for drunk and disorderly; 
that record is retrieved, and then it is verified, that that 
person is employed or is not.
    Mr. LaHood. Do we look into anything else?
    Mr. Hoecker. No, sir.
    Mr. LaHood. Criminal background?
    Mr. Hoecker. It is a Triple I check. Interstate 
Identification Index.
    Mr. LaHood. If someone was stopped for a traffic ticket, 
would that show up?
    Mr. Hoecker. It may or may not. I don't know.
    Chief Morse. It does not. It is if you have been arrested 
and you submitted fingerprints to the law enforcement agency 
that has arrested you. And it dates back to, I believe, about--
--
    Mr. LaHood. If someone were arrested for a DUI, that would 
appear?
    Chief Morse. If they submitted it to the NCIC and were 
fingerprinted, yes.
    Mr. LaHood. So the criteria are then--fingerprints is how 
it would show up?
    Chief Morse. That is one verification of the person who 
committed the offense. That is one verification to be able to 
do that, yes.

                UNION NOTIFICATION OF BACKGROUND CHECKS

    Mr. LaHood. Did you have any obligation to notify the 
union, that these employees were members of, that this 
information was being collected on them?
    Mr. Hoecker. I did not collect any information, sir. This 
is information that is in the repositories of law enforcement 
and WALES. I did not collect anything.
    Mr. LaHood. Was the union that represents employees of the 
Capitol Hill Police notified that their backgrounds were being 
looked into?
    Mr. Hoecker. Not in this context, no, sir.
    But when someone comes on the job, whether they are sworn 
or civilian, they fill out what is called a ``blue book''; and 
that blue book is a certification for their initial background 
investigation, and it tells them that their employment is 
contingent upon successful results of a background 
investigation.
    Mr. LaHood. Thank you.
    Mr. Hoecker. Yes, sir.
    Assistant Chief Nichols. Also, employees who are a 
collective bargaining unit and who are not are under the same 
obligation to report to us. So it is a known factor to report 
to us.
    Ms. Wasserman Schultz. Thank you. I don't have any 
additional questions, so I will wrap up if you don't have 
anything else.
    Mr. Latham. I have got a couple I can put in the record.

                            closing remarks

    Ms. Wasserman Schultz. Okay. I don't want to rush you; if 
you wanted to ask them publicly, that is fine.
    Okay. We had a lot that we went through in this hearing, 
and I don't want it to be overshadowed that you are really to 
be congratulated for putting forward and completing the first 
set of complete financial statements in the Department's 
history. That was many, many years in the making--not ``in the 
making'' but many, many years coming, as well as a complete 
inventory.
    And this leadership of the Capitol Police is really to be 
commended for beginning to right the administrative ship of the 
Capitol Police, because it really has been badly needed for a 
long time.

                 ADDITIONAL ASSIGNMENTS FROM THE CHAIR

    There has been quite a bit of strong language that has been 
thrown out there on the background check subject today. I would 
like to get a reality check on what really occurred so that we 
can make sure that there is a comfort level not just with the 
Members but with the Capitol Police community. So by next 
Wednesday, April 16th, if you would submit a report with a 
detailed explanation on why the Triple I checks were done, what 
authority allowed you to do those checks, whether they are done 
within the Department procedures, whether Capitol Police 
employees were aware of the checks or whether there was an 
expectation with their employment that they would be 
periodically subjected to checks, whether performing these 
checks represents a change in policy, and whether this is a 
standard operating procedure for this Department and for other 
police departments around the country.
    And if you could also please explain whether you sought 
legal counsel regarding the legality of performing these Triple 
I checks.
    Additionally, this hearing has made clear that the Capitol 
Police are taking on a number of expanded responsibilities in 
fiscal year 2009, and that is one of the major reasons for the 
18 percent increase being requested.
    At the same time, an increase of that size is just not 
realistic--we were able to do 10 percent last year--given the 
constraints that we are going to be operating under. This 
subcommittee really needs a clear sense of what your highest 
priorities are and what you will be and not be able to do with 
an increase of less than 18 percent.
    With that in mind, if you would submit a report by next 
Wednesday, April 16th, as well, that would explain what you 
would and would not be able to do if you are held to either a 5 
percent increase or 10 percent increase, basically what your 
highest priorities for funding would be at these lower funding 
levels.
    With that, I appreciate the Members' time and attention and 
the Capitol Police's efforts.
    The subcommittee stands in recess until tomorrow at 1 
o'clock when we will hear from the GAO. 

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                        Thursday, April 10, 2008.  

                 GOVERNMENT ACCOUNTABILITY OFFICE (GAO)

                               WITNESSES

GENE L. DODARO, ACTING COMPTROLLER GENERAL
SALLYANNE HARPER, CHIEF ADMINISTRATIVE OFFICER
GEORGE STRADER, CONTROLLER

                Opening Remarks--Chair Wasserman Schultz

    Ms. Wasserman Schultz. I would like to call this hearing of 
the Legislative Branch Subcommittee of the Committee on 
Appropriations to order. Today we are going to hear from the 
acting Comptroller General, Gene Dodaro, about the agency's 
budget request. I want to thank you and your staff for the 
quality support GAO provides the Congress. And that includes 
direct support provided by GAO staff like David Marroni.
    I don't need a script for this. I didn't realize what this 
was. Obviously, this was just handed to me. I can do this all 
on my own.
    David Marroni is the finest example of a public servant 
that we have in this institution. He has worked tirelessly, 
provided us with expertise, advice; has just done an incredible 
job representing your agency and helping us get the job done 
here in the Legislative Branch Subcommittee. And we owe him and 
you a debt of gratitude for lending him to us for the last 
year. So I just want to thank you very, very much.
    Mr. Dodaro. Thank you.
    Ms. Wasserman Schultz. We have a tight budget situation, as 
no one knows better than you. I want to congratulate you on 
your new role at the GAO. I know you are accompanied by your 
Chief Administrative Officer, Sallyanne Harper, and your 
Controller, George Strader.
    You have asked for $538 million in direct appropriations, a 
$38 million or 7.7 percent increase, which includes a request 
for an additional 151 staff. That is just under a 5 percent 
increase in the agency's size. I do appreciate that this is one 
of only two Legislative Branch agencies that actually asked for 
a single digit increase. But it is going to be a difficult 
budget year, as you know, and Mr. Latham and I can probably 
read each others' scripts at these budget hearings now. We can 
swap roles one day just for fun.
    But I will say to you what I said to each of the agency 
heads. We would like to get from you what your highest 
priorities are. We are going to try to do our best to fund what 
your needs are. And clearly I know, because of the enhanced 
oversight that Congress has engaged in, you are really working 
to the brink and you need the additional assistance and 
additional staff, I know that. And you had flat staffing for 
the last number of years, and I absolutely recognize that.
    So, with that, Mr. Latham.

                      Opening Remarks--Mr. Latham

    Mr. Latham. I want to also welcome you and to commend you 
doing more with less all the time or with the same. I commend 
your service to the Congress and to the country. Thank you.
    Ms. Wasserman Schultz. Mr. Dodaro, your full statement will 
be entered into the record, and you can proceed with a 5-minute 
summary. Welcome.

                     Opening Statement--Gene Dodaro

    Mr. Dodaro. Thank you, Madam Chair, members of the 
Subcommittee. It is a pleasure to be here this afternoon to 
talk about GAO's budget request. First, I would like to thank 
you, Madam Chair and members of the Subcommittee, for your past 
support to GAO. We appreciate the confidence that you have 
shown in us and believe that we have provided an excellent 
return on the investment that you have made in us. Last year, 
our work for the Congress led to financial benefits of over $45 
billion and over a thousand improvements in government 
operations. Importantly, our work is targeted to support the 
Congress in its oversight and legislative priorities. And as 
the demands and challenges facing the Congress increase, so 
does the premium on GAO work to provide help to the Congress. 
Demand is high and increasing.

                   DEMAND FOR GAO WORK IS INCREASING

    Requests for GAO assistance in fiscal year 2007 were up 14 
percent over 2006 and so far this year, through the first half 
of 2008, were up an additional 20 percent from a comparable 
period last year. GAO witnesses are appearing at congressional 
hearings at a record pace. And potential mandates which are 
included in bills submitted in the Congress, which are a 
harbinger of the type of demand that is going to come down the 
road, are up over 75 percent in this Congress compared to the 
same point in time in the prior Congress.

                              STAFF LEVELS

    Unfortunately, we are not well positioned right now to meet 
this increased demand. Our current staffing level for this 
fiscal year is at 3,100 full-time equivalent positions. This is 
the lowest level we have ever had at GAO. Our staff are working 
hard. But we don't believe, as indicated by your opening 
remarks and I appreciate your recognizing that people are 
working hard, and that we are going to be able to sustain that 
level of effort and provide more services with the same level 
of staff. We asked for some help. We believe, unless we get the 
help, we are just going to have a growing list of additional 
requests that are targeted to terrific areas for oversight and 
help meet the Congress's needs; it is just going to continue to 
grow. We are asking, as you indicate, Madam Chair, for a 5 
percent increase in staff of about 150 people.
    We think at this staffing level we can help better meet the 
demands of the Congress as it conducts its activities and 
executes its constitutional responsibilities. It also will be a 
terrific boost in the morale and the productivity of the 
existing dedicated and talented GAO work force.

                           UNION RELATIONSHIP

    Going forward, I also want to assure this Committee that I 
am committed to work in a constructive, effective way with our 
new union to establish a labor-management environment that 
benefits all GAO employees. Since the union has been in place 
since September, we have worked toward a prompt pay agreement 
for 2008 pay decisions. We are working right now on an interim 
agreement with the union and also look forward to shaping a 
collective bargaining agreement over a longer period of time.
    Madam Chair and members of the Subcommittee, I fully 
appreciate the fiscal constraints that you are facing, and I 
know that you have difficult decisions that lie ahead. But 
please know that we appreciate your thoughtful consideration of 
our budget request and also know that, regardless of the 
outcome, that myself and all the people at GAO are going to 
work hard to give the Congress the best results with whatever 
resources you deem appropriate to provide us.
    So I thank you for your time and attention and look forward 
to answering any questions you may have.
    [Mr. Dodaro's prepared statement follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
                  BENEFITS OF INCREASED STAFFING LEVEL

    Ms. Wasserman Schultz. Thank you very much, Mr. Dodaro. It 
is really good to have you come before us.
    And we--really I mean Congress--can't thank GAO enough for 
its incredible expertise that it provides as an independent 
agency that has always really been an incredibly good example 
of the neutrality that we need to make sure that we can make 
decisions. I want to ask you about the additional 151 FTEs that 
you are asking for. I know you cited growing demands for your 
products. How much of a difference will this make? What is the 
difference between what you can and can't do or will and won't 
be able to do if you do or don't get them?
    Mr. Dodaro. Well, first of all, we think we can produce 
more products and services with the additional resources. But 
also we can provide more timely assistance. What is happening 
now is, on average before, it took us about 2 and a half months 
to be able to staff most congressional requests that were 
coming in, which is understandable given the fact that people 
are always engaged in producing products for the Congress. That 
has grown to about 4 months now. And in some areas, 
particularly in health care and homeland security, as you well 
know, the number of issues facing the Congress are growing, as 
well as the natural resource and environment area, given energy 
concerns. So, in some cases, it takes us 6 to 8 months to 
initiate a new request in those areas. So what we do is we work 
with each of the committees and try to prioritize within each 
committee what is its highest priority. But it has just taken 
us longer.

                    TIMELINESS OF STARTING NEW WORK

    Ms. Wasserman Schultz. For example, you have a performance 
measure for timeliness that shows that 94 percent of 
congressional staff who responded to feedback surveys in fiscal 
year 2007 said the agency's products were timely.
    Mr. Dodaro. That measure is based upon which engagements we 
accept, Madam Chair. In other words, once we agree to do the 
work, we agree to deliver it within a certain period of time.
    Ms. Wasserman Schultz. Okay. So it doesn't count the things 
that you couldn't do or couldn't get to?
    Mr. Dodaro. No.
    Ms. Wasserman Schultz. Okay. I understand.
    Mr. Dodaro. I would hate to see what that figure would be 
right now, if it included the reports we could not get to.
    Ms. Wasserman Schultz. If they were asked about their 
frustration level of what you said no to?
    Mr. Dodaro. Correct.

               PERFORMANCE RESULTS AND NEED FOR NEW STAFF

    Ms. Wasserman Schultz. Your performance results over the 
last 5 years when your staff level has declined have actually 
improved, which is a good thing.
    Mr. Dodaro. Right.
    Ms. Wasserman Schultz. So, if that is the case, then it 
seems like you are doing just fine. Why do you need 151 
additional staff?
    Mr. Dodaro. Well, two reasons. One is that we are not 
providing all the services that the Congress wants. And 
oftentimes our services don't always directly lead to financial 
benefits but better informed decisions on the part of the 
Congress and better legislative actions that they take or 
increased oversight. And so, number one, we are not doing that. 
Number two is our people are working at an incredible pace.
    You appropriately gave Dave Marroni credit for the hard 
work that he does here. Well, we have 3,100 people that are 
working just as hard at the GAO. We expect Dave to work as hard 
when he comes back, too. But we are stretched. And what I am 
concerned about is that the quality of the work that we do 
produce for the Congress is going to be impaired if we try to 
produce more with the same level of resources. And that is not 
in the Congress's interest nor GAO's interest.

                      USE OF CONTRACTORS VS. STAFF

    Ms. Wasserman Schultz. Have you compared contracting out 
for more work versus the hiring of permanent employees?
    Mr. Dodaro. We have done a lot of contracting with our 
internal operations. And if you would like, I will let Ms. 
Harper talk to you about that. We do have standing contracts 
with the National Academy of Sciences to get some additional 
expertise if we need some. We do contract out some financial 
audits that we do. But in most of our areas, it is hard to 
contract out to maintain the independence and to meet the 
standards that we have.
    Ms. Wasserman Schultz. Really? Do you think your 
contractors don't have the same level of independence that your 
employees do?
    Mr. Dodaro. Well, the defense contracting community, for 
one, has been consolidated, so there is a lot of increased 
contracting activities going on in Federal agencies, which is 
one of the areas we have on our high-risk list. So the 
contracting community is more and more a part of the executive 
branch operations. And we find, as we evaluate other 
activities, that a lot of the contractors, in our opinion, 
don't necessarily have the level of independence that the 
Congress would expect GAO to have going forward. So we do 
contract in selective areas. We have purchased a lot of 
databases, and we do contract out to try to become more 
efficient. But we are very careful because our reputation is 
our greatest asset, and if we are not viewed as a nonpartisan 
independent, we lose our value to the Congress.
    Ms. Wasserman Schultz. Thank you.
    My time has expired. Mr. Latham.

                         GAO MANDATED WORKLOAD

    Mr. Latham. Thank you.
    In your opening, you talked about some of the mandates 
coming from Congress and how that has increased your work load. 
Would you go into that and explain a little bit more as to 
exactly what you are talking about? What type of mandates?
    Mr. Dodaro. Right. These would be, for example, in the 
activity to deal with open government legislation last year. 
There is a provision for lobbyists to now file forms with 
Congress and register. We are now required to audit those 
filings every year to make sure that lobbyists are filing in 
compliance with the laws of the Congress and also to look to 
see what the Justice Department is doing and looking at the 
referrals there. So that is a totally new requirement for GAO 
going forward.
    A lot of the other mandates ask us to look at big 
investments that the Department of Defense is going to be 
making. For example, we now have annual requirements to look at 
the Missile Defense Agency and that development, the Joint 
Strike Fighter project, that is in place. So there are a lot of 
requirements that are being put in there.
    There are huge investments that are being made all across 
the government. And I think we have established a very good 
reputation for looking at whether or not the technologies have 
matured enough early in the process to warrant moving 
production and making investments on the part of the Congress. 
So we are being asked to intervene earlier and earlier in the 
process, which is important.
    So a lot of the mandates also include investments in the 
IRS and the Customs Service and a number of other agencies 
where we look at the plans that they have in place and give the 
Congress a thumbs up or down before it lets the money go 
forward on the investment. And so a lot of the mandates are in 
those areas as well.

           IMPACT OF PRESIDENTIAL TRANSITION ON GAO WORKLOAD

    Mr. Latham. You know, we are going to have a new executive 
branch, new President, this next year. Is that going to have an 
impact on you as far as the transition from the current 
administration to whatever new administration comes in? What 
does that do to you?
    Mr. Dodaro. Actually, the Presidential Transition Act, 
Congressman, specifies GAO as a source that transition teams 
should go to to learn more about the challenges that they will 
face in taking on their new responsibilities. This is a very 
important role. We are organizing ourselves to help provide 
that level of advice. We have a regular process with each new 
Congress to update our high-risk list and to help the Congress 
in setting its oversight legislative agenda. But we are also 
going to organize our materials and issue work by agency and 
establish points of contact and provide a resource to the 
transition team going forward.
    Mr. Latham. What do they rely on you for?
    Mr. Dodaro. What they would--oh, please finish. I am sorry. 
I didn't mean to interrupt.
    Mr. Latham. I am just curious exactly how they use you.
    Mr. Dodaro. Well, what has happened in the past--I have 
been through a number of these transitions--a new Cabinet 
official will come on board, and all of a sudden, we will 
congratulate them for being on our high-risk list. And they 
will want to know how to get off the high-risk list as fast as 
possible and what they need to do, because the Congress uses 
that list to conduct oversight and to make funding decisions. 
And also, past administrations, both the Clinton Administration 
and the Bush Administration, have used our high-risk list as 
the basis for their management improvement agenda. So people 
who will be coming into the Executive Office of the President 
will want to know, across government, what are the biggest 
management challenges? And then each Cabinet agency head will 
want to know where the biggest risks are and what some of our 
recommendations are that they need to focus on to improve their 
operations. So it is a big task.
    And to the extent that people want our advice, we give it 
to them, maintaining our independence. It is also a good 
opportunity for us to work with them to explain how GAO 
interacts with the executive agencies to carry out our audit 
functions so that they can cooperate with us more easily in 
making their people available for interviews and getting us 
records faster, which is another area that can increase our 
productivity.
    Mr. Latham. Thank you.
    Ms. Wasserman Schultz. Mr. LaHood.

                COMPTROLLER GENERAL APPOINTMENT PROCESS

    Mr. LaHood. How is the position of Comptroller General 
filled?
    Mr. Dodaro. Congressman, there is a process in law. There 
is a 10-member commission created when there is a vacancy in 
the Comptroller General position. And those 10 members are 5 on 
the House, 5 on the Senate. It is the Speaker of the House, the 
Majority and Minority Leaders, and the Chair and ranking 
members of our Oversight Committee, which is the House 
Oversight and Government Reform Committee. On the Senate side, 
it is the Senate pro tem, the Majority and Minority Leaders of 
the Senate, and the Chair and ranking member of our oversight 
committee in the Senate, Senate Homeland Security and 
Governmental Affairs. That commission meets and forms the 
search committee. They screen, interview applicants and send a 
list of three or more names over to the President. Then the 
President picks off that list. The President can ask for more 
names if he or she determines that it is necessary. And then 
the person nominated by the President is then confirmed by the 
Senate.
    Mr. LaHood. For a term of?
    Mr. Dodaro. Fifteen years.

                 TIME FRAME FOR ACCEPTING NEW REQUESTS

    Mr. LaHood. Thank you.
    When someone makes a request of your office, it appears 
that what now takes, about from the time you accept the 
responsibility, that it would be about a 4-month wait.
    Mr. Dodaro. On average.
    Mr. LaHood. And if you don't get these additional staff 
people, how long will the wait be after you accept an 
assignment to study something or look into it or investigate 
it?
    Mr. Dodaro. It will vary by area, Congressman, but on 
average, it is 4 months. A lot depends on whether the volume 
continues to increase. Obviously, the more requests that come 
in, the longer it is going to take us to get to some, so the 
average time is going to get longer. But it is going to go 
nowhere but a longer time frame. I can't predict right now how 
many more months. But what I am concerned about is there are a 
number of areas, and I pointed some out in our testimony that--
for example, behavioral techniques for airline screening 
passengers; we are to look at FDA's post-market drug safety 
program--things that we can't get to right away that are really 
important public safety concerns. I feel a responsibility that 
we are not getting there as fast as we can. I can't predict 
exactly how long the list is going to be, but I think it will 
be at untenable levels for a number of congressional 
committees.

                           HIRING STRATEGIES

    Mr. LaHood. If you were allocated some or all of the money 
that you are requesting, what kind of people would you be 
looking for to hire, what types of backgrounds and how would 
you go about finding those people?
    Mr. Dodaro. I am going to let Ms. Harper talk about her 
recruiting program, but we have no difficulty finding very 
talented staff in all disciplines. We have difficulties filling 
all our positions in the economist area and the attorney area, 
for example. On these 151 positions, we would look for 
different disciplines. We need more people in the information 
technology area, for example. We talked about technology 
assessments. We need software engineers, people in construction 
management. We have hired people with engineering degrees that 
have provided terrific support to this Committee on the Capitol 
Visitor Center, but there are a lot of other big construction 
projects. But most of the people we hire have public policy, 
public administration backgrounds.
    Sallyanne.
    Ms. Harper. We have a very aggressive recruiting program. 
About a third of the people that we recruit come through our 
internship program. And we are generally targeting people who 
have a masters degree or above. They may have a public policy 
background. For our health care area, we tend to skew toward a 
health care analysis background. Most of the people that we 
bring in at entry level in our analyst series have not only a 
master's and above but also some number of years of experience.
    We tend to be oversubscribed for the number of vacancies 
that we have because we have a very aggressive on-campus 
recruiting program. Our senior executives at GAO manage the 
campus recruiting for individual campuses. And we bring new 
hires with us when we go out to recruit. We get our 
announcements out early enough. And we try and respond much 
more quickly than a typical Federal agency would in order to be 
competitive with the private sector firms that are competing 
for the same types of people that we are.
    Mr. Dodaro. We try to maintain a balance of having 
specialists in all these disciplines. We have an actuary. We 
have got economists. But we also like to have more generalist 
people that we can move if the priorities of the Congress 
change. For example, after Hurricane Katrina hit and we were 
asked to go look at what was going on with that situation, we 
were ableto pull people across GAO that were able to focus on 
that area, and they would get into it right away.
    So most of the people we hire would have this generalist 
type of background with the credentials Sallyanne is talking 
about. But we would also target, based on our work force plan, 
hiring a number of specialists as well.
    Mr. LaHood. Thank you very much.
    Ms. Wasserman Schultz. Mr. Ruppersberger.

                           FINANCIAL BENEFITS

    Mr. Ruppersberger. First thing, in your testimony you 
indicated that, in fiscal year 2007, the GAO's work resulted in 
$45.9 billion in financial benefits generating, if this is 
true, an impressive return of $94 for every dollar invested in 
GAO. Now, can you provide some examples of how you did that? 
This is something that really sticks out in my mind to see that 
a request is followed.
    Mr. Dodaro. Well, sir, a couple of examples. One, every 
year we do the financial audit of the Internal Revenue Service-
-not only money they use for operating costs but the $2.5 
trillion that they bring in in Federal revenue. We noticed that 
delinquent taxes were growing, and they didn't really have a 
way to figure out how to pursue the cases that would yield the 
best benefits. So, based on our recommendations, they developed 
a model, and now they can more aggressively pursue collecting 
delinquent taxes. That was about $4 billion as a result of our 
recommendation.

                    IMPACT OF CURRENT STAFFING LEVEL

    Mr. Ruppersberger. Following up on Mr. Lahood's questions, 
GAO's full time equivalent of 3100 FTEs is the lowest ever?
    Mr. Dodaro. Yes.
    Mr. Ruppersberger. What impact is that going to have--give 
me specifics--on your ability to respond to that congressional 
demand?
    Mr. Dodaro. The average time for us to get to congressional 
requests on areas for oversight is going to increase. On 
average, it takes 2 and a half to 4 months. There are several 
hundred of these congressional requests in our queue. That is 
going to grow if we don't get additional resources.

                       RECRUITMENT AND RETENTION

    Mr. Ruppersberger. As far as getting very competent 
qualified people on your staff, are you having a hard time 
recruiting people that are working for GAO? Are they going to 
other jobs? Are you losing people for more money? Where do you 
stand?
    Mr. Dodaro. Actually, we don't have very much difficulty 
attracting top talent. People enjoy the mission of GAO. They 
are committed to making improvements in the government. So we 
are able to hire. It is not a matter of being able to find top 
people.
    In terms of attrition, we lose about 10 percent a year, 
which is relatively low for professional services firms. About 
half of those, 4 to 5 percent, are normal retirements. And the 
demographics of our work force are pretty reflective of society 
in general. And then another few percent are leaving now.
    Our people, because they are competitive, do receive offers 
and receive a lot of money. About a third of the people who 
leave go to other Federal agencies for better paying jobs. Some 
agencies have different pay authorities than GAO. That is one 
of the things we are trying to seek--to get some additional pay 
authorities in that area. But others are attracted to the 
private sector.

               IMPACT OF A NEW CONGRESS ON GAO'S WORKLOAD

    Mr. Ruppersberger. Are you requested to get or do you have 
more demands at the end of an election right after new Members 
come in? A new President will be coming into office. Does that 
put more stress or strain on your work force?
    Mr. Dodaro. As a new Congress gets organized and agendas 
shift or people shift in chairmanships, that does create the 
need to rethink and finish the work that we have in process as 
well, so we are trying to start new work. So it does create the 
need to do planning, and it may adjust----
    Mr. Ruppersberger. 3,100 is the lowest FTEs that you have 
had?
    Mr. Dodaro. Right. Ever.

                 MANAGING DEMAND WITH CURRENT RESOURCES

    Mr. Ruppersberger. Ever. How are you going to manage that 
if you don't get any more money?
    Mr. Dodaro. Well, we are going to have to take a look at 
how we prioritize the requests that we do receive from the 
Congress. Right now we have three priorities. The first is 
statutory requirements or requirements placed in conference or 
committee reports. Second is the request from Chair or 
rankings. And third are requests from Members. We haven't been 
able to start a request for a Member for years. We have 
essentially dropped that third priority. And now we are 
triaging requests from committee chairs and ranking members 
against the mandates. And so we are going to have to relook. 
And it may have to be that we have to just go with things that 
are in the statute first.
    Mr. Ruppersberger. In order to get anything done, I need to 
go through the Chairman.
    Mr. Dodaro. It might require an act of Congress.
    Ms. Wasserman Schultz. Mr. Bonner.

                      REASONS DEMAND IS INCREASING

    Mr. Bonner. Heaven help us if it requires an act of 
Congress.
    What is the reason for the increase? What is driving this 
increase, the demand of the services?
    Mr. Dodaro. Well, there are really two things, I believe, 
Congressman. Number one is I think we have done a really good 
job of preparing strategic plans, working with all the 
congressional committees. We do work for every standing 
committee in the House and Senate and 80 percent of the 
subcommittees. So we work with them to develop what issues we 
think should be looked at. They tell us what they are 
interested in. So we have really worked in a collaborative way 
with the committees to focus on issues that are of national 
importance and really important to oversight and effective 
services for the American public. And as we do that and we have 
been delivering quality results and it has led to changes and 
improvements in government, people then want more demands and 
services on GAO.
    Second is that the issues confronting the Congress are 
becoming much more difficult. They are becoming more global in 
nature. We now have issues with our financial markets. We have 
done a lot of work in that area. We are preparing our work to 
help the Congress evaluate potential proposals for relooking at 
the regulatory structure for financial agencies and 
institutions. And if things come up, like this last time there 
was a contested election in Florida, and we were asked by the 
task force to look at the voting machines, or something or 
other unexpected comes up like another disaster, then we are 
able to help the Congress and respond better. But we are 
limited now if something like that occurs going forward. So it 
is both. I think we are delivering good value. People know good 
value when they see it. And secondly, they have more challenges 
in front of themthat they would like help with.

                         OPTIMAL STAFFING LEVEL

    Mr. Bonner. You said the low mark you are at today is 3,100 
employees. What has your high mark been in the history of GAO?
    Mr. Dodaro. In the history of GAO, in the modern GAO 
history, post-World War II, it has probably been around 5,400 
people, I would say, give or take a few hundred, Congressman. 
Back in the days when GAO was doing voucher examinations--and I 
want to be clear I was not there in that period. I have been 
there a long time, but--there was somewhere in the neighborhood 
of 10,000-plus clerks looking at vouchers. But in a post-World 
War II environment, our high mark was around 5,400.
    Mr. Bonner. And what would the optimal number be in making 
your request for additional funds? Obviously you have got a 
magic number in your mind that would help relieve some of the 
pressure that you are under.
    Mr. Dodaro. Right.
    Sallyanne.
    Ms. Harper. I think, Congressman, what we have asked for is 
the optimal number for fiscal year 2009, because what that 151 
represents is about 300-plus leaving, 300-plus coming in, and 
we are targeting 500 people to hire total. And so we can't 
absorb any more in a 1-year period. We can't really do it the 
right way. And for a 1-year period, that would be the best we 
could do if we could get that.

                          PAY COMPETITIVENESS

    Mr. Bonner. Now, you all have indicated you don't have any 
trouble recruiting qualified people. How competitive is your 
pay compared to other agencies at the Federal Government and 
also the private sector?
    Mr. Dodaro. We think at the entry level and midlevel we are 
very competitive, and we have done pay studies on that. We also 
have some terrific benefits at GAO. For example, one of our 
people stopped me today and thanked us for our child care 
facility. And we have doubled the capacity of that. We call it 
Tiny Findings. And nowadays with our work force, you have to be 
careful you are not run over by a stroller coming into the GAO 
building, but it is nice. We pay for student loan repayments, 
and that helps attract as well. And we have retention and 
recruitment bonus authority.
    Now, as you go up the line to the more senior people, the 
technical people, we are really not fully competitive with the 
private sector. That is just the way it is. We have asked, and 
there are proposals working their way through Congress, to 
allow us to raise the GS-15 cap, or in GAO, it is Band III 
level, higher than the statutory cap right now by about $8,000. 
We think that will help us a lot as well. So, by and large, we 
are not fully competitive, but we also have the advantage of 
the GAO mission which really keeps people working for us.

                           EMPLOYEE LONGEVITY

    Mr. Bonner. I guess, finally, do you have an average tenure 
for your team of 3,100? How long, once someone goes to work for 
the GAO, how long do they traditionally stay?
    Mr. Dodaro. Well, it is changing a little bit with the 
generations. It is hard to tell. I think the people that 
started with GAO and finished their career, kind of like 
myself, are becoming increasingly rare, but people are staying. 
We find that if they stay for the first 3 years at GAO, they 
stay for at least 6 to 10. And then we also find many people 
come back. We have about 11 people a year over the last 10 
years for whom the grass wasn't always greener and have come 
back.
    Mr. Bonner. Well, I agree with the Chairwoman, you do have 
a strong reputation. We say that you have the Good Housekeeping 
Seal of Approval.
    Ms. Wasserman Schultz. No question about it.
    Mr. Dodaro. Thank you.
    Ms. Wasserman Schultz. Thank you, Mr. Bonner.

                      IMPROVED UNION RELATIONSHIP

    The evolution of the relationship with the union that was 
born last year has been a little bit of a bumpy road. And I 
would like to hear from you on how it is going. We are going to 
have a public witness hearing in which we will hear from the 
union representatives and hear their perspective as well. But 
my sense is that it has begun to improve. If you can also talk 
about the denied cost-of-living adjustments and where the 
agency is now versus where you were before on the payment of 
those back COLAs to your employees.
    Mr. Dodaro. First, on the relationship with the union, we 
think things have improved. The bumpy issues you mentioned we 
believe are behind us. And we expect you will hear the same 
from the union when they talk to you. I am committed to open 
constructive relationships with them. We just announced 
yesterday that we are going to undertake a comprehensive review 
of our performance appraisal system, for example. We sent a 
draft memo to the union in advance to figure out how they want 
to cooperate with us and work with us in developing it. So I 
think we are in very good shape. We have hired a very talented 
person to head up our work force relations. He has a lot of 
experience working with the unions in the past. So I think 
things are on a good trend line, and I am committed to making 
sure that they stay that way.
    Now, with regard to the COLA increase for people who were 
denied that in 2006 and 2007, as I indicated in my written 
statement and also in my appearance before Chairman Danny Davis 
of the Work Force Subcommittee, we would like to and do support 
that and hopefully get that issue behind us as well. And I 
think the real issue now is to get the legal authorities to be 
able to do that and the funding authority to be able to execute 
that.
    Ms. Wasserman Schultz. As far as the funding, how do you 
expect to be able to fund those COLAs?
    Mr. Dodaro. We are still working that through. There are a 
number of options. We are working with our oversight committees 
to try to do that and looking internally, and we hope to have 
that worked out.

                         TECHNOLOGY ASSESSMENTS

    Ms. Wasserman Schultz. The technology assessments, we had 
authorization for you to use up to $2.5 million in fiscal year 
2008 omnibus to conduct technology assessments for the 
Congress. Can you give us an idea of the state of your progress 
on that? I know you had said that you initially would be able 
to do one in this fiscal year and three or four in the next 
fiscal year.
    Mr. Dodaro. Right. Well, we are going to step up our 
outreach activities. We have a meeting already scheduled with 
Congressman Holt's staff for next week and other members of the 
House that are interested in this. I also bumped into 
Congressman Holt yesterday and told him I would like to meet 
with him to get his input and ideas. We have developed a list 
of potential areas where technology assessments can be 
conducted--for example, in data mining activities or disaster 
preparedness modeling and some other areas. So we hope to work 
with the interestedparties to begin one this year.
    Ms. Wasserman Schultz. Thank you.

                            DIVERSITY STUDY

    Because Congresswoman Lee is not here, I want to ask a 
question that I know she would very much like the answer to. 
There was a diversity and performance review study that you 
have been undertaking to make sure your performance rating 
system is fair to all your employees. I know it is due in June, 
but do you have any preliminary results from that? And the 
affirmative action plan language that we included specifically 
last year, where are you in developing that plan?
    Mr. Dodaro. First, the affirmative action plan, which is 
due in June, we started to prepare that and will submit it on 
time. Overall, our work force at GAO is very diverse and 
exceeds the relevant civilian labor force numbers for almost 
all categories. We do have some areas where we need to make 
some improvements, and we will be outlining that in the plan on 
how we plan to do that. Now, with regard to the study----
    Ms. Wasserman Schultz. You don't have any preview?
    Mr. Dodaro. A preview of ?
    Ms. Harper. The Ivy study.
    Mr. Dodaro. That is the second one I was going to get to.
    Ms. Wasserman Schultz. No, I mean of what you might include 
in your affirmative action plan.
    Mr. Dodaro. Well, I know there is at least one category for 
Hispanics that we need to focus on. I don't have anything else 
right now.
    Ms. Wasserman Schultz. If you don't, you don't.
    Mr. Dodaro. But my point is, in most cases, people have 
affirmative action plans because their current work force 
doesn't meet the relevant civilian labor force targets. In our 
case, we do in the vast majority of cases. That is why I am 
struggling, because we are really not sure in terms of hiring. 
And so we will talk in our report about what we are planning to 
continue to do to have a good work force, but we don't really 
have very many gaps that we need to fill. Our big issue right 
now is on your second point, and that has to do with a study 
that we commissioned because of concerns that we had about the 
performance appraisals for African American analysts at GAO 
compared to Whites. And we were concerned about it. We 
contracted with the Ivy Planning Group to come in. They are a 
professional objective group. And we wanted to get an outside 
perspective on this issue. They are due to issue us their final 
report later this month. We are looking forward to receiving 
their insights and recommendations. I am committed to 
forthrightly address their recommendations, and we will move 
forward on that issue.
    Ms. Wasserman Schultz. Great. Thank you.
    My time has expired just in time for you Mr. Latham.

                  COST OF ACHIEVING FINANCIAL BENEFITS

    Mr. Latham. You had, and I commend you for it, talked about 
the $45.9 billion in financial benefits to the government. Do 
you do any kind of evaluation of what the improvements cost? 
You mentioned the IRS collection of $4 billion. Do you follow 
what it costs the IRS in this case to implement your 
suggestions? Are you offsetting that, or do we know what the 
net is?
    Mr. Dodaro. Yes. Actually, what we claim in the report is 
the net benefit. In other words, we take out whatever the cost 
would be. And typically the estimates that we report, 
Congressman, are third-party estimates, either in this case by 
the agency or by CBO, or in some cases, if Congress takes 
action, we use their figures. So we try not to, except in rare 
circumstances, do the calculations ourselves. But they are all 
in net benefits.

                           USE OF CONTRACTORS

    Mr. Latham. Good. Do you have any concerns, as you contract 
out some of the functions that GAO is supposed to be the 
auditor for, that you lose any control? I mean, the purpose of 
GAO is to be the auditor for Congress. In my mind, if you 
contract out, I just wonder whether we are losing some of the 
purpose?
    Mr. Dodaro. We are very selective in contracting out our 
audit work. Most of our contracting out is for our internal 
operations--like, for example, our information network and our 
communications network. But when we do contract out, we have 
very senior and experienced people to oversee the contract. We 
have the technical expertise to know that we set the 
requirements properly and the quality of work is there, so I am 
not concerned. We have tried to learn lessons of what we have 
seen in the executive branch agencies and what we write reports 
on. And two big problems are not having the right type of 
senior people yourself, technical people, to oversee the 
contract and to make sure your requirements are stated properly 
and you know you are getting what you pay for. I am fairly 
comfortable we are okay, but we are judicious in what we do.

                        COST OF FINANCIAL AUDITS

    Mr. Latham. That kind of went to my next question talking 
about auditing the executive branch. And if you could tell us a 
little bit about the cost of that in your budget and in 
particular having to do with auditing the IRS and your public 
debt.
    Mr. Dodaro. With regard to the financial audits that we do, 
we have the audit responsibility to audit the consolidated 
financial statements of the Federal Government. And we also 
rely on work that is done by the Inspectors General across the 
government to audit the individual departments and agencies. 
But we have the ability to step into the shoes of any of the 
Inspectors General and take over the audit. And we have done 
that in the case of IRS and public debt. And the reason that we 
have done it there is that they cover all the revenue 
collection activities of the Federal Government, the $2.5 
trillion-plus figure. And the Bureau of the Public Debt is the 
largest liability on the financial statements. I believe those 
audit costs are about $6 million to $8 million a year. Now, we 
have sought authority to have IRS and the Bureau of the Public 
Debt reimburse us for those audits, as happens on our audits of 
FDIC and the Securities and Exchange Commission. And so, in 
those cases, they reimburse us for the cost; IRS and Public 
Debt do not.
    Mr. Latham. They are not stepping right up and want to pay 
you back?
    Mr. Dodaro. No, and actually they have gotten a free ride 
for about 10 years now, and so we are trying to change that. 
That would make a big difference obviously in providing 
additional support. That would more than offset the increases 
that we are asking for at this point in time if that gets 
enacted and we actually receive the funds.

                        INSTITUTIONAL KNOWLEDGE

    Mr. Latham. Just kind of going back to the work 
forcediscussion we were having. Some of the problem with the CRS a few 
years ago, they have kind of overcome that, but there was kind a bubble 
of retirements coming on all at one time. Is that a concern for you at 
GAO? Do you have a similar problem?
    Mr. Dodaro. We have been working very hard at dealing with 
that issue for the last 7 years or maybe even longer. I am 
going to let Sallyanne explain how we do it. But we have 
aggressive succession planning activities underway. I think we 
have dealt with it. We have had a lot of retirements. About 50 
percent of the people we have at GAO right now have been there 
5 years or less, but our performance as indicated by the 
comments here, hasn't really changed much.
    Mr. Latham. Institutional knowledge?
    Mr. Dodaro. And we are rebuilding it. We are concerned 
about it; don't misunderstand, we are concerned about it. There 
will be some additional retirements coming up. But Sallyanne 
has been on point for really making sure our work force is in 
the right place in this area, so I am going to let her talk.
    Ms. Harper. We will lose about 335 people this year, with 
about 4 or 5 percent of our total staff being strictly to 
retirement. And that is a lot of knowledge moving out the door. 
But we have done very aggressive work force planning. And we 
also do knowledge-transfer work if we have someone who has a 
particular expertise and they are ready to retire but we still 
have a need to begin to train this 50 percent that are still 
new, we can bring them back on a limited basis and offset a 
retirement annuity that they would otherwise be penalized for, 
so that they can complete the knowledge transfer to the new 
staff coming in. And that has been very helpful for us in terms 
of avoiding that walking-out-of-the-door phenomenon.
    Mr. Latham. Did you over time, need legislative approval?
    Ms. Harper. We did. We got legislative approval for that in 
our first human capital bill of 2001. OPM, on the executive 
branch side, does have that approval as well. That is that 
authority for the executive branch and will also grant that on 
a limited basis to executive branch agencies for the same 
reason. Holding onto that knowledge transfer and being able to 
groom people to succeed have been critical.
    Mr. Latham. Thank you.
    Ms. Wasserman Schultz. You are welcome.
    Mr. Bonner.

                         FOSTERING OBJECTIVITY

    Mr. Bonner. On Monday of this week I had an opportunity to 
speak to 17 future journalists at Springfield College in 
Mobile, Alabama. And as a former journalist myself, I tried to 
impress upon them the importance of being objective in their 
reporting. How do you all--do you have a secret? Obviously, the 
journalism profession doesn't know it, but how do you impress 
upon your employees to be unbiased in the work that they are 
asked to do?
    Mr. Dodaro. That is an excellent question. First of all, it 
has been built--the culture has been built over a number of 
years. But it is rooted in two fundamental principles: One is 
adherence to our professional standards. We issue auditing 
standards that anyone auditing the Federal Government's 
expenditures have to follow. All our policies are built on 
those standards, which include independence and competence and 
review and reporting standards. And so the first day you step 
into the GAO, you hear about those standards. And we also have 
a set of core values of accountability, integrity and 
reliability. And integrity is really a key one here because our 
work is professional, objective, fact-based, nonpartisan, 
nonideological, fair and balanced. We had those values in place 
throughout the whole time I have been in GAO.
    But one thing I really give credit to Comptroller General 
Walker for was articulating them. We put them down. We 
communicated them effectively, and it has really helped. And 
then we have a review process and checks and balances within 
the organization, a quality assurance process. And we then 
decide what level of management review will occur. And now we 
review reports before they go out for comment to ensure the 
integrity of the process. So that is something that I have been 
working on very diligently for the past decade almost, is how 
to ensure we have good risk management processes in place; that 
I know what the thousand products we are going to put out a 
year are going to say; and that every product you pick up from 
the GAO has that quality instilled in it, and it is reliable 
and objective. And it is a big challenge because we are 
decentralized. A lot of people sign the reports. But quality is 
a real value, and it is a real strong ethic within GAO. And it 
has taken a lot of time to develop, but it is really essential 
to our reputation and people understand that.
    Mr. Bonner. So you really do have a culture when they walk 
in the door?
    Mr. Dodaro. That is exactly right. And we follow our own 
internal control standards, and you have got to have the right 
tone at the top. And that tone at the top has to go through 
every part of the organization to make sure that everybody 
understands this is really important, and when decisions are 
made, they are made based on facts and evidence.

                            IRAQ ENGAGEMENTS

    Mr. Bonner. We all benefit from your work, but could you 
give us an idea--you all have been asked to do a lot of work on 
the Iraqi war, and that is controversial in this building and 
in this country. What is a bird's eye view of when you have to 
go to the hearings and you are doing all the work, give us an 
idea what the bird's eye view is in terms of what it is like to 
prepare a report and do some work that you do, if you don't 
mind?
    Mr. Dodaro. Sure. In that particular case----
    Mr. Bonner. That is an example because it is recent.
    Mr. Dodaro. Well, that one has some unique dimensions to 
it. First of all, a lot of information we look at there is 
classified. And then, what is decided to be unclassified is up 
to the executive agencies. GAO does not have classification 
authority. And we are bound by law to adhere to the 
classifications that the executive agencies put on material. 
So, in that case, we did have, in terms of preparing for 
hearings that are in public forums, the difficulty of deciding 
or getting timely reviews by the Department of Defense as to 
what could be shared publicly and what couldn't. So that was 
issue number one in that situation.
    Another interesting situation is that, obviously, with the 
war going on, you are trying to report on a real-time activity, 
so events are changing all the time. The security situation one 
day is not the same as it is the nextday. And so that is a 
particular challenge. We want to make sure we have the most up-to-date 
information possible. Obviously you have a challenge there of being 
able to be on site. We did establish a presence, ongoing presence 
there, but we have had to bring some of our people back recently. And 
we are going to go back in there as soon as we get reinforced housing, 
and we are working on that. The new embassy is supposed to open next 
month, and we are hoping to get housing in that embassy. Fortunately, 
all these elements I am explaining don't happen on most of the 
engagements that we have. But, in that case, it was important to deal 
with those. We dealt with them the best we could. We think we came up 
with a good report. We are in the process now of updating our work and 
expect a report by June.
    Mr. Bonner. Thank you.

                           ENERGY EFFICIENCY

    Ms. Wasserman Schultz. Thank you. I just have one other 
question because the Members have done a good job asking some 
of the things that I wanted to cover, so we are working well as 
a team here. I understand GAO has focused on environmental 
stewardship and energy efficiency, which is something obviously 
that our leadership has been trying to promote and to use the 
legislative branch as a model for that. What steps has GAO 
taken to make your operations more environmentally friendly and 
energy efficient?
    Mr. Dodaro. I am going to ask Sallyanne to do that. 
Sallyanne did come to us from the Environmental Protection 
Agency a few years ago.
    Ms. Harper. GAO has been doing energy audits at the GAO 
building for over 15 years. We first started in 1991. And we 
were able to get a lot of large investments made in redoing our 
entire HVAC systems and all of those over time. We had a step 
back after 9/11 because of new security enhancements we had to 
make to our handling systems within the GAO building. That took 
us a step back on our energy efficiency. We did have an 
assessment done, however, recently that we think holds promise. 
And we are within 10 percent of GSA's goals for all of its 
Federal buildings. We are within 10 percent of hitting their 
goal in terms of our energy consumption for the GAO. We think, 
with some of the ones we are looking at now, we can get even 
closer than that.
    Ms. Wasserman Schultz. Do you have any funding in your 
request for 2009?
    Ms. Harper. We have continued funding in our facilities 
management line for that, yes, we do. These are initiatives in 
response to a study that we had done basically 2 years ago.
    Ms. Wasserman Schultz. Thank you.

                        GOVERNMENT CREDIT CARDS

    Mr. Latham. Just one quick question. There was an article, 
a story yesterday about some of the abuse with credit cards in 
the government in different agencies. What role do you play in 
that? Is that something that you look at, or is that the IG's 
responsibility in each department?
    Mr. Dodaro. Yesterday's report was a GAO report. And what 
we did there was take a statistical sample across the Federal 
Government. We had been doing work in this area before. Now, a 
lot of Inspectors General also do work in individual 
departments and agencies, and we try to coordinate with them so 
we don't duplicate work. But in this case, we were asked by a 
Senate committee to do a governmentwide look. And so we did the 
statistical sample and obviously found a lot of problems, and 
that is an area that needs tightening up.
    Mr. Latham. Did you make recommendations with the agencies?
    Mr. Dodaro. Yes. And we will follow up. We did work on 
transit benefits. We have done work on travel where people are 
using premium class travel. And in this particular case, with 
the purchase cards. We found OMB has been fairly responsive in 
trying to get the changes in place with the agencies, but 
really it is the agencies' responsibility. And so we have made 
a lot of recommendations to them. And they just need to tighten 
up. In a lot of cases, there is a need for flexibility, but 
there have to be proper controls. And this goes to the risk 
management approaches that need to be in place. But that was 
our work.
    It was unfortunate that a couple of--you talked about 
journalism--in a couple of reports, I think it was the AP 
story, had ``GAO: Pointing Out Fraud, Waste and Abuse.'' So a 
lot of people who called GAO thought we were the ones 
committing the problems. We assured them that was not true, and 
it was the other agencies. But thank you for that question.
    Mr. Latham. You bet. And thank you for the great job you do 
and having such credibility with all of us. I appreciate that. 
Thank you.

                       CONGRESSIONAL APPRECIATION

    Ms. Wasserman Schultz. Thank you, Mr. Latham.
    And I do, before we close the hearing, want to reiterate on 
behalf of the committee and really the entire House of 
Representatives, please take our message back to your employees 
and your staff that we just can't thank them enough for the 
hard work and dedication that they put in every day and the 
good work products that they turn out that we are all able to 
rely on. In a very partisan environment, it is good to have 
information available to us that we know isn't left or right 
and that we can all count on for accuracy and neutrality. So we 
appreciate it very, very much.
    Mr. Dodaro. Thank you. And I will tell them that.

                  ADDITIONAL ASSIGNMENT FROM THE CHAIR

    Ms. Wasserman Schultz. Thanks. As I have with each agency, 
I am going to assign you a little homework. As we noted in last 
year's House report, budget justification books are one of the 
key tools we use to review and make decisions on agency 
requests. They need to be geared towards our needs, not those 
of the agencies. And they must be accurate, concise and provide 
a level of information we need to quickly understand what is 
being requested. With that in mind, by next Thursday, April 
17th, I would like GAO to submit a summary table that clearly 
breaks down its requested increase into distinct items or 
projects so we can see both total amounts being requested for 
each item as well as the individual parts that make up those 
totals. For example, there should be a column for your 
requested staff increase that shows both the total amount 
needed to implement the increase as well as the components of 
the increase, like salary, training and travel. In addition, I 
would like at least a paragraph for each item on the table that 
explains why that item is being requested, where it falls in 
priority compared to other items and what its impact would be 
if funded or not funded. If partial funding will let you 
implement the item to some degree, you should note that as 
well. We are just trying to get as much information as we can 
so we can really----
    Mr. Dodaro. I understand. That is a good way to goabout it. 
I understand.

                            Closing Remarks

    Ms. Wasserman Schultz. Thank you very much.
    With that, the subcommittee will stand in recess until 
April 15th. I am not sure we will all be in a very good mood 
that day, but it is April 15th nonetheless at 1:30 p.m. We will 
hold our monthly oversight hearing on the CVC. Thank you.

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]






                           W I T N E S S E S

                              ----------                              
                                                                   Page
Ayers, S. T..................................................1, 67, 421
Barrow, M. P.....................................................   461
Beard, D. P......................................................   461
Billington, J. H.................................................   109
Chrisler, Tamara.................................................   325
Cornell, J. J....................................................   461
Dodaro, G. L.....................................................   655
Dorn, Terrell....................................................1, 421
Eisold, John.....................................................   461
Elzy, Nadine.....................................................   257
Gallagher, James.................................................   109
Harper, Sallyanne................................................   655
Hoecker, C. W....................................................   579
Jarmon, Gloria...................................................   579
Jenkins, J. C....................................................   109
Lefevre, P. G....................................................   461
Livingood, W. S..................................................   461
Marcum, Deanna...................................................   109
Medina, Rubens...................................................   109
Miller, L. C.....................................................   461
Morse, P. D., Sr.................................................   579
Mulhollan, D. P..................................................   109
Nathan, Irvin....................................................   461
Nichols, Daniel..................................................   579
O'Keefe, Ambassador John.........................................   325
Orszag, Peter....................................................   325
Page, Jeffrey....................................................   109
Peters, Marybeth.................................................   109
Rouse, T. S......................................................1, 421
Strader, George..................................................   655
Tapella, R. C....................................................   257
Ungar, Bernard...................................................1, 421



















                               I N D E X

                              ----------                              --
--------

                      Capitol Visitor Center (CVC)

                                                                   Page
60 Day Policy Letter.............................................    30
Advance Reservation System.......................................    26
Anticipated Shortcomings.........................................    29
Budget Shortfall.................................................    28
Chair Closing Remarks............................................    63
    Chair's Additional Assignments...............................    63
Chair Opening Remarks............................................    01
Change Order--Punch List.........................................    49
Change Order Monitoring..........................................    58
Change Orders....................................................    50
Contractor Performance...........................................    50
CR Impact On CVC Operations......................................    51
CR Impact On The CVC.............................................    50
CVC--Meeting Its Needs...........................................    52
CVC Contingency Plans............................................    51
CVC Cost Estimates...............................................    42
CVC Governance...................................................    41
CVC Governance Structure.........................................    43
CVC Hiring and Staffing Diversity................................    54
CVC Operations--Appropriations Committee Involvement.............    57
CVC Oversight....................................................    42
CVC Training Program.............................................    59
Design Program Concepts..........................................    43
Electrical Vault Concerns........................................    57
Fire Alarm Acceptance Testing....................................    52
Fire Alarm Acceptance Testing Process............................    57
Governance and Legislation.......................................    55
Homework Question for the Record from Congressman Wasserman 
  Schultz........................................................    65
Member Of Congress Representation................................    27
Minority and Women-Owned Business Involvement.................... 32-40
Minority Recruiting.............................................. 44-48
Minority-Owned and Small Business Initiatives....................    30
Office Of Compliance Report......................................    54
Opening Ceremony Plans...........................................    41
Opening Remarks--Congressman Latham..............................    02
Opening Statement--Stephen Ayers.................................    02
    Accomplishments Over The Past Year...........................    03
    Fire Alarm Acceptance Testing................................    03
    Minor Construction Activities................................    03
    Punch List Items.............................................    04
    CVC Operations...............................................    04
Opening Statement--Terrell Dorn..................................    16
    Punch List Items.............................................    16
    Near-Critical Path Focus.....................................    16
    Fire Alarm Testing...........................................    17
    Open Change Orders...........................................    17
    CVC Construction Cost........................................    17
Opening Statement--Terrie Rouse..................................    09
    CVC Administration...........................................    09
    Advance Reservation System...................................    09
    CVC Website..................................................    09
    Communication Plan...........................................    10
    Capitol Tour Action Plan.....................................    10
    Programs and Events..........................................    10
    CVC To-Do List...............................................    10
Prepared Statement--Stephen Ayers................................ 05-08
Prepared Statement--Terrell Dorn................................. 19-25
Prepared Statement--Terrie Rouse................................. 12-15
Punch List Closed Items..........................................    49
Punch List Items.................................................    59
Recruitment Efforts..............................................    55
Staff Tours......................................................    56
Staffing Changes.................................................    26
Staff-Led Tour Progress Report...................................    26
Training and Staffing............................................    29
Training Initiatives.............................................    54
Training Program Outline......................................... 60-62
Visitor-Member Connections.......................................    28

                     Architect of the Capitol (AOC)

Appropriation Budget Initiatives.................................    91
Best Alternative For Swing Space................................. 84-86
Cannon Renovation................................................    87
Capitol Power Plant Operations...................................    96
Chair Closing Remarks............................................   101
Chair Opening Remarks............................................    67
Contingency Plan For Critical Needs..............................    89
CR Plans For The CVC.............................................    94
CVC Governance Legislation.......................................    88
CVC Reprogramming--Funding Sources...............................    94
Deferred Construction Projects...................................    92
Energy Reduction Projects........................................    99
Ethanol 85 Fuel Pump.............................................    97
FDA Building Project.............................................    83
Greening Of The Capitol Initiative...............................    95
Homework Questions for the Record From Congressman Wasserman 
  Schultz.......................................................102-104
House Metering And Energy Reduction..............................    93
House Metering Project...........................................    87
Jacksonville Bandstand...........................................    89
Life-Safety Security Projects....................................   100
Long Term Appropriation Concerns.................................    91
Long Term Costs..................................................    87
Meeting Energy Reduction Requirements............................    99
Minor Construction Reprogramming Concerns........................    92
Office Of Compliance Citations...................................    98
Ongoing Initiatives--Capitol Power Plant.........................    95
Opening Remarks--Congressman Latham..............................    68
Opening Statement--Stephen Ayers.................................    68
    AOC Achievements.............................................    69
    Unfunded Requirements........................................    68
Power Plant Outsourcing..........................................   100
Prepared Statement--Stephen Ayers................................ 71-82
Priority Projects Not In Request.................................    91
Project Backlog..................................................    90
Project Budget Request...........................................    98
Project Prioritization Process...................................    89
Questions for the Record From The Honorable Tom Udall...........105-108
    Energy Usage Reduction.......................................   105
    Longworth Building Egress Improvements.......................   107
    Use Of Proceeds For Environmental Efforts....................   106
Reinvestment In Facilities.......................................    90
Utility Tunnels Remediation Update...............................    97

                          Library of Congress

Additional Assignments of the Chair:
    Office of Workforce Diversity................................   173
    Overseas Field Offices.......................................   175
Accessibility of Music Collections to the Blind and Deaf.......158, 159
Aging Library Workforce..........................................   157
Capital Security Cost-Sharing..................................152, 179
Cataloging of Print Materials....................................   161
Center for Visiting Scholars.....................................   141
Childcare Center.................................................   139
Closing Remarks--the Chair.......................................   172
Congressional Research Service:
    Adequate Funding Level.......................................   246
    Retirements and Succession Planning..........................   156
    Section Research Managers....................................   247
Continuing Resolution and Unfunded Critical Needs..............153, 155
Contracting with Minority and Women-Owned Businesses...........139, 238
Difficult Funding Choices........................................   133
Digital Talking Book Program:
    Amendment....................................................   153
    Funding...............................................133, 136, 160
    Program Cost, 4- and 5-Year Implementation...................   160
    Program Status...............................................   251
    Rollout, 6-Year versus 4-Year..............................133, 136
Digitizing Sound Recordings......................................   158
    Providing Digitized Sound Recordings to Blind and Deaf.......   159
Food Service Provider and Cafeteria Staff........................   169
Fundraising Coordination.........................................   161
Inspector General Law Enforcement Functions....................163, 181
    GAO Opinion on OIG Authority to Carry Firearms...............   166
Legislative Branch Allocation Decisions..........................   137
Library Mission and Resources....................................   112
National Audio Visual Conservation Center:
    Impact of No Additional Funding for Culpeper Staff...........   162
    Staffing Request.............................................   162
National Digital Information Infrastructure Preservation Program 
  (NDIIPP):
    Accomplishments..............................................   135
    5-Year Plan..................................................   141
    Funding Requirements.........................................   134
    Partnerships and Matching Funds..............................   134
Office of Workplace Diversity..................................171, 173
Opening Remarks:
    Chair Wasserman Schultz......................................   109
    Mr. Latham...................................................   110
Opening Statement of the Librarian...............................   111
Packard Campus, Culpeper, Virginia...............................   162
Preserving Library Collections...................................   152
Preserving Music in Digital Library..............................   157
Questions for the Record from the Chair:
    State Department Capital Security Cost-Sharing Program.......   179
Questions for the Record from Mr. Honda:
    Asian American and Pacific Islander Collection...............   255
    Legislative Information Access...............................   253
Questions for the Record from Mr. Latham:
    Inspector General Firearms Issues............................   181
Questions for the Record from Mr. Udall:
    American Folklife Center.....................................   249
    Construction Projects........................................   250
    Digital Talking Books........................................   251
Questions for the Record from Ms. Lee:
    Adequate Funding Level for CRS...............................   246
    Contracting Policy for Women and Minority-Owned Businesses...   237
    Racial and Ethnic Makeup of Library Staff....................   238
    Section Research Managers in CRS.............................   247
St. Cecelia's Renovation.........................................   140
Separation of Powers, Legislative and Executive Branch...........   164
Staffing Request--Audio Visual Conservation Center...............   162
Statements:
    Director, Congressional Research Service.....................   121
    Register of Copyrights.......................................   127
    Librarian of Congress........................................   114
Thanks to the Librarian from Mr. LaHood..........................   136
Welcome Witnesses................................................   110

Government Printing Office.......................................   257
    Additional Assignments from the Chair........................   283
        Status of Discrimination Cases...........................   285
        Environmental Improvements...............................   290
    EEO Issues...................................................   281
    Environmental Sustainability.................................   282
    Facilities Repairs...........................................   278
    Impact of a Continuing Resolution............................   279
    Opening Remarks by the Chair.................................   257
    Opening Remarks by Mr. Latham................................   258
    Opening Statement from the Public Printer....................   258
    Passport Availability........................................   276
    Passport Facility Security...................................   273
    Passport Production Levels...................................   274
    Plans for a New Facility.....................................   279
    Potential for Passport Fraud.................................   277
    Printing Ink.................................................   279
    Printing Paper...............................................   280
    Public Printer, Prepared Statement...........................   261
    Questions for the Record from Ms. Lee........................   303
    Questions for the Record from Mr. Udall......................   319
    Questions for the Record from the Chair......................   294
    Shortfall in Congressional Printing..........................   277
    Technology Investment........................................   275
    The Future of GPO............................................   272
    Welcome Mr. Bonner...........................................   272
    Workforce Replacement........................................   274

      Office of Compliance, CBO, and Open World Leadership Center

Accuracy of CBO Estimates........................................   372
Additional Assignments from the Chair............................   382
    For the Congressional Budget Office..........................   386
    For the Office of Compliance.................................   384
    For the Open World Leadership Center.........................   389
Advantages of Open World being in the Legislative Branch.........   359
AOC Citations....................................................   371
CBO Health Care Analysis Capabilities............................   379
CBO History of Shifting Resources................................   380
CBO Information Technology.......................................   380
Contracting Policy for Women and Minority-Owned Businesses.......   374
CVC Inspections..................................................   381
Expanding Open World to Iraq and Afghanistan.....................   360
Further Discussion of Open World Expansion.......................   361
Impacts of a Continuing Resolution...............................   358
Office of Compliance Reduce and Prevent Initiatives..............   370
Open World Potential Alternative Funding Sources.................   357
Open World Report on its Future..................................   357
Opening Remarks--Chair Wasserman Schultz.........................   325
Opening Remarks--Mr. LaHood......................................   326
    Motion to Recess.............................................   326
Opening Remarks--Mr. Latham......................................   326
Opening Statement--John O'Keefe (Open World).....................   343
    Prepared Statement--John O'Keefe.............................   345
Opening Statement--Peter Orszag (CBO)............................   334
    Prepared Statement--Peter Orszag.............................   335
Opening Statement--Tamara Christer (OOC).........................   328
    Prepared Statement--Roberta Holzwarth........................   332
    Prepared Statement--Tamara Chrisler..........................   329
Questions for the Record from Mr. Latham.........................   394
    For the Congressional Budget Office..........................   406
        Aging Workforce..........................................   408
        Director's Representational Requirement..................   410
        Health Care Staff........................................   406
    For the Office of Compliance.................................   394
        Accomplishments in FY 2007...............................   399
        Capitol Power Plant Utility Tunnels......................   403
        Capitol Visitor Center...................................   401
        Contract for a Braille Specialist........................   397
        Emergency Egress Procedures..............................   398
        Prevent and Reduce.......................................   395
        Pilot Self-Certification/Spot Safety and Health 
          Inspection of District Offices.........................   396
        Settlements Made.........................................   394
    For the Open World Leadership Center.........................   411
        Benefits.................................................   415
        Cost-Share Partners......................................   416
        Grant Monitoring Policies................................   418
        Legislative Branch.......................................   413
        Omnibus..................................................   411
        Relations................................................   412
Questions for the Record from Ms. McCollum.......................   419
    For the Open World Leadership Center.........................   419
        Expansion to Mexico......................................   419
Scoring the Farm Bill............................................   373
Self-Certification of District Offices...........................   381
Size of Agencies and Requested Increases.........................   361
Support for Open World Program...................................   360
Utility Tunnel Abatement Efforts.................................   370

                      Capitol Visitor Center (CVC)

Advance Group Reservation........................................   445
Advanced Reservation System Process..............................   442
Cannon Tunnel Access.............................................   455
Capitol Hill Access..............................................   443
Chair Closing Remarks............................................   457
Chair Opening Remarks............................................   421
Continuing Resolution--Potential Impact..........................   444
Cost Estimate For Transporting CVC Visitors......................   454
Cost Estimate To Transport Tourists From Remote Drop-Off Sites...   454
CVC Gift Shop Proceeds...........................................   449
CVC Opening Plan.................................................   443
CVC Preview......................................................   445
CVC Screening Process............................................   444
CVC Status--Locations............................................   449
CVC Tour Operations--Transportation..............................   442
CVC Traffic Flow.................................................   455
Gift Shop Profits................................................   450
Gilbane's Reporting System.......................................   447
Guide Service Funding............................................   449
Homework Questions for the Record By Congressman Wasserman 
  Schultz........................................................   459
    Capitol Historical Society...................................   460
    Final Acceptance Testing and Their Potential Impact--Cost To 
      Complete Estimates.........................................   459
House Hearing Room Delays........................................   456
Library of Congress Tunnel.......................................   448
Office Of Compliance Pre-Inspection Update.......................   457
Opening Remarks--Congressman Latham..............................   421
Opening Statement--Stephen Ayers.................................   422
    Construction Transition......................................   423
    Construction Update..........................................   422
    Fire Alarm and Life-Safety Testing...........................   422
Opening Statement--Terrell Dorn..................................   433
    Construction Update..........................................   433
Opening Statement--Terrie Rouse..................................   427
    Advanced Reservation System..................................   427
    CVC Website..................................................   428
    Staffing and Recruitment.....................................   427
Paver Update.....................................................   456
Prepared Statement--Stephen Ayers...............................424-426
Prepared Statement--Terrell Dorn................................434-440
Prepared Statement--Terrie Rouse................................429-432
Punchlist and Change Order Update................................   446
Security and The People's Institution............................   454
Security Interests...............................................   445
Smoke Control System.............................................   441
Staff-Led Tours..................................................   446
Testing Issues...................................................   441
The Capitol Guide Service........................................   448
Tour Bus Procedures--High Security Buildings.....................   450
Transportation To and From The CVC..............................452-453
Use Of Cannon Tunnel For Tourists................................   455

                     U.S. House of Representatives

Appropriations Committee Hearing Room Space in the CVC...........   522
Benefits Package for House Employees.............................   494
CAO Priorities...................................................   519
CAO Representational Allowance...................................   522
Capitol Visitors Center..........................................   532
Capitol Visitors Center Discussion Continued.....................   532
Carbon Offsets...................................................   536
Carbon Offsets Discussion Continued..............................   541
Chair's Additional Assignment....................................   541
Clerk Library Facility...........................................   486
Clerk's Budget Request...........................................   486
Coffee Brand Served by Restaurant Associates.....................   523
Electronic Lobbying Filing.......................................   485
Electronic Voting System.........................................   525
Enhanced Staff Benefits Package..................................   521
Evacuation Process...............................................   533
Expedited Access for Staff at Security Entrances.................   532
Florence Kahn Portrait...........................................   485
Follow up to Initial Questions for the Record from Mr. Latham....   567
Green the Capitol................................................   495
Greening of the Capitol Discussion Continued.....................   540
Hallway Policy...................................................   538
Hearing Room Modernization.......................................   494
Hearings and Vacancies in the 110th Congress.....................   486
Historical Signage Discussion Continued..........................   541
Historical Signage in Members' Offices...........................   538
House Metering Project...........................................   519
House Notification System........................................   535
Members' Representational Allowance..............................   518
Members' Representational Allowance Discussion Continued.........   528
Minority- and Women-Owned Business Policy........................   521
Modeling of House Buildings......................................   534
New Member Initiative............................................   495
New Member Initiative............................................   524
Opening Remarks--Madam Chair.....................................   461
Opening Remarks--Mr. Latham......................................   461
Opening Statement--Mr. Beard.....................................   494
Opening Statement--Mr. Livingood.................................   508
Opening Statement--Ms. Miller....................................   485
Operations Under a 2009 Continuing Resolution....................   529
Page Program.....................................................   517
Prepared Statement--CAO..........................................   497
Prepared Statement--Clerk........................................   488
Prepared Statement--General Counsel..............................   467
Prepared Statement--Inspector General............................   463
Prepared Statement--Law Revision Counsel.........................   470
Prepared Statement--Legislative Counsel..........................   474
Prepared Statement--Sergeant at Arms.............................   510
Questions from the Hearing from Mr. Tom Latham...................   519
Questions from the Hearing from Ms. Barbara Lee..................   523
Questions from the Hearing from Ms. Wasserman Schultz, Chair.....   540
Questions for the Record from Mr. Latham.........................   551
Questions for the Record from Mr. Lewis..........................   574
Remarks by Mr. Lewis.............................................   522
Remarks by Ms. Lee...............................................   520
Restaurant Associates............................................   526
Staff COLA.......................................................   520
Staff Financial Disclosures on the Internet......................   516
Staff Only Restaurant Hours......................................   531
Wounded Warrior Program..........................................   494
Wounded Warrior Program..........................................   526

                      United States Capitol Police

Additional Assignments from the Chair............................   624
Cannon Tunnel Visitors Desk......................................   610
Capitol Visitor Center FTEs......................................   609
Closed Door Meeting..............................................   608
Closing Remarks..................................................   624
Criminal Background Check Procedure..............................   622
Criminal Background Checks of Department Employees...............   610
CVC and Cannon Tunnel............................................   620
Department Priorities............................................   615
Employee Awareness of Criminal Background Checks.................   613
Employee Expectations of Background Checks.......................   619
Expanded Responsibilities........................................   614
Financial Management.............................................   604
Follow-up on Background Check Policy.............................   615
Getting Financial Operations on Track............................   605
Impact of Continuing Resolution..................................   606
Information Examined in Criminal Background Checks...............   623
Inspector General Authority to do Criminal Background Checks.....   616
Inspector General Firearm........................................   621
Intelligence Capabilities........................................   606
Lack of Notification of Criminal Background Checks...............   617
Legitimacy of Conducting No-Notice Background Checks.............   618
New Headquarters.................................................   608
New Recruits.....................................................   621
Opening Remarks of Chair Wasserman Schultz.......................   579
Opening Remarks of Mr. Latham....................................   579
Opening Statement of Chief Morse.................................   580
Overtime Management..............................................   607
Overtime Use.....................................................   620
Policy on Criminal Background Checks.............................   613
Questions for the Record.........................................   626
Radio System.....................................................   604
Staff Entry......................................................   609
Timeline for a Clean Audit.......................................   606
Training Availability............................................   622
Union Notification of Criminal Background Checks.................   624

                    Government Accountability Office

Additional Assignment from the Chair.............................   690
Benefits of Increased Staffing Level.............................   673
Closing Remarks..................................................   689
Comptroller General Appointment Process..........................   676
Congressional Appreciation.......................................   688
Cost of Achieving Financial Benefits.............................   683
Cost of Financial Audits.........................................   684
Diversity Study..................................................   682
Employee Longevity...............................................   681
Energy Efficiency................................................   687
Financial Benefits...............................................   678
Fostering Objectivity............................................   685
GAO Mandated Workload............................................   674
Government Credit Cards..........................................   687
Hiring Strategies................................................   677
Impact of a New Congress on GAO's Workload.......................   679
Impact of Current Staffing Level.................................   678
Impact of Presidential Transition on GAO Workload................   675
Improved Union Relationship......................................   681
Institutional Knowledge..........................................   684
Iraq Engagements.................................................   686
Managing Demand with Current Resources...........................   679
Opening Remarks--Chair Wasserman Schultz.........................   655
Opening Remarks--Mr. Latham......................................   656
Opening Statement--Gene Dodaro...................................   656
    Demand for GAO Work is Increasing............................   656
    Staff Levels.................................................   656
    Union Relationship...........................................   657
Optimal Staffing Level...........................................   680
Pay Competitiveness..............................................   680
Performance Results and Need for New Staff.......................   673
Prepared Statement--Gene Dodaro..................................   658
Questions for the Record--Mr. Latham.............................   700
    Comptroller General Annuity..................................   705
    E-Security Lab...............................................   703
    Financial Benefits...........................................   706
    Presence in Iraq.............................................   700
    Workforce Planning...........................................   701
Questions for the Record--Mr. Udall..............................   712
    DOD Procurement..............................................   715
    High Risk Series.............................................   713
    Timeliness...................................................   712
Questions for the Record--Ms. Lee................................   707
    Recruiting Practices.........................................   707
Reasons Demand is Increasing.....................................   679
Recruitment and Retention........................................   678
Technology Assessments...........................................   682
Time Frame for Accepting New Requests............................   676
Timeliness of Starting New Work..................................   673
Use of Contractors...............................................   683
Use of Contractors vs. Staff.....................................   674

                                  <all>
</pre></body></html>
